                        SIGTARP: Quarterly Report to Congress | January 30, 2010
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-10-01
                         Q1
                        2010
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               January 30, 2010
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                           3
	   Program Updates and Financial Overview	                                   7
	   The Role of the Federal Government in the Residential Mortgage Market	    7
	   Oversight Activities of SIGTARP	                                          8
	   SIGTARP Recommendations on the Operation of TARP	                        11
	   Report Organization	                                                     11

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                          13
	 SIGTARP Creation and Statutory Authority	                              15
	 SIGTARP Oversight Activities Since the October 2009 Quarterly Report	  15
	 The SIGTARP Organization	                                              29
	
Section 2 	
TARP overview	                                                           31
	 TARP Extension 	                                                       33
	 Financial Overview of TARP	                                            34
	 Financial Institution Support Programs	                                51
	 TARP Tutorial: How Taxpayers Lose TARP Money When Banks Fail	          62
	 Asset Support Programs	                                                75
	 Automotive Industry Support Programs	                                  90
	 Homeowner Support Program	                                             96
	 Executive Compensation	                                               101
	
Section 3 	
federal support of the residential mortgage market	                     107
	 Overview	                                                             109
	 The Role of the U.S. Government in the Residential Mortgage Market	   111
	
Section 4      	
tarp operations and administration	                                127
	 TARP Administrative and Program Expenditures	                    129
	 Current Contractors and Financial Agents	                        130	
  Internal Controls	                                               135	

Section 5      	
SIGTARP Recommendations	                                           137	
  Treasury’s Adoption of SIGTARP’s Use of Funds Recommendation 	   139
	 Developments in the Implementation of the
  	 Public-Private Investment Program	                             140
	 Update on Recommendations from SIGTARP Audit Reports	            142
	 Tracking the Implementation of Recommendations in
  	 Previous Reports	                                              143

	 Endnotes	                                                        151

appendices
A. 	 Glossary	                                                     163
B. 	 Acronyms and Abbreviations	                                   167
C. 	 Reporting Requirements	                                       169
D.	  Transaction Detail	                                           173
E. 	 Public Announcement of Audits	                                211
F. 	 Key Oversight	                                                212
G. 	 Correspondence	                                               218
H. 	 Organizational Chart	                                         221
		
      quarterly report to congress I january 30, 2010   3




 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I january 30, 2010   5




Well into its second year of operations, the Troubled Asset Relief Program
(“TARP”) remains a vitally important part of the Federal Government’s response
to the economic crisis, and the formal extension of TARP by the Secretary of the
U.S. Department of the Treasury (“Treasury”) on December 9, 2009, makes it clear
that this role will continue well into 2010. The focus of TARP has begun to shift,
however, as the early TARP programs that invested huge sums in banks are now
closed to further investments and most of the largest bank recipients have repaid
their TARP funds. Treasury has stated that, going forward, TARP will focus on fore-
closure mitigation efforts, small-business lending, and a continuation of support for
the asset-backed securities (“ABS”) markets.
    This time of transition provides an opportunity to take a step back and examine
whether Treasury’s efforts in TARP thus far have met the goals of the program.
On the positive side, there are clear signs that aspects of the financial system are
far more stable than they were at the height of the crisis in the fall of 2008. Many
large banks have once again been able to raise funds in the capital markets, and
some institutions — including some that appeared to be on the verge of collapse —
have recovered sufficiently to repay their TARP investments years earlier than most
would have predicted. These repayments and the sales of the warrants associated
with them have meant that Treasury (and thus the taxpayer) has turned a profit on
some of the individual TARP investments; as a result of these repayments, among
other positive developments, it now appears that the ultimate cost of TARP to the
American taxpayer, while still substantial, might be significantly less than initially
estimated.
    Many of TARP’s stated goals, however, have simply not been met. Despite the
fact that the explicit goal of the Capital Purchase Program (“CPP”) was to increase
financing to U.S. businesses and consumers, lending continues to decrease, month
after month, and the TARP program designed specifically to address small-busi-
ness lending — announced in March 2009 — has still not been implemented by
Treasury. Notwithstanding the fact that preserving homeownership and promoting
jobs were explicit purposes of the Emergency Economic Stabilization Act of 2008
(“EESA”), the statute that created TARP, nearly 16 months later, home foreclo-
sures remain at record levels, the TARP foreclosure prevention program has only
permanently modified a small fraction of eligible mortgages, and unemployment is
the highest it has been in a generation. Whether these goals can effectively be met
through existing TARP programs is very much an open question at this time. And
to the extent that the Government had leverage through its status as a significant
preferred shareholder to influence the largest TARP recipients to carry out such
policy goals, it was lost with their exit from TARP.
    As important as assessing the effectiveness of TARP programs is, in the final
analysis, TARP can truly only be a success if TARP is both managed well and its
6           special inspector general I troubled asset relief program




                                                   positive effects are enduring. The substantial costs of TARP — in money, moral
    Moral Hazard: A term used in eco-
                                                   hazard effects on the market, and Government credibility — will have been for
    nomics and insurance to describe the           naught if we do nothing to correct the fundamental problems in our financial sys-
    lack of incentive individuals have to          tem and end up in a similar or even greater crisis in two, or five, or ten years’ time.
    guard against a risk when they are             It is hard to see how any of the fundamental problems in the system have been
    protected against that risk (for ex-           addressed to date.
    ample, through an insurance policy).           •	 To the extent that huge, interconnected, “too big to fail” institutions contributed
    In the context of TARP, it refers to the           to the crisis, those institutions are now even larger, in part because of the sub-
    danger that private-sector execu-                  stantial subsidies provided by TARP and other bailout programs.
    tives/investors/lenders may behave             •	 To the extent that institutions were previously incentivized to take reckless risks
    more recklessly believing that the                 through a “heads, I win; tails, the Government will bail me out” mentality, the
    Government has insulated them from
                                                       market is more convinced than ever that the Government will step in as neces-
    the risks of their actions.
                                                       sary to save systemically significant institutions. This perception was reinforced
                                                       when TARP was extended until October 3, 2010, thus permitting Treasury to
                                                       maintain a war chest of potential rescue funding at the same time that banks
                                                       that have shown questionable ability to return to profitability (and in some cases
                                                       are posting multi-billion-dollar losses) are exiting TARP programs.
                                                   •	 To the extent that large institutions’ risky behavior resulted from the desire to
                                                       justify ever-greater bonuses — and indeed, the race appears to be on for TARP
                                                       recipients to exit the program in order to avoid its pay restrictions — the current
                                                       bonus season demonstrates that although there have been some improvements
                                                       in the form that bonus compensation takes for some executives, there has been
                                                       little fundamental change in the excessive compensation culture on Wall Street.
                                                   •	 To the extent that the crisis was fueled by a “bubble” in the housing market, the
                                                       Federal Government’s concerted efforts to support home prices — as discussed
                                                       more fully in Section 3 of this report — risk re-inflating that bubble in light of
                                                       the Government’s effective takeover of the housing market through purchases
                                                       and guarantees, either direct or implicit, of nearly all of the residential mortgage
                                                       market.

                                                       Stated another way, even if TARP saved our financial system from driving off
                                                   a cliff back in 2008, absent meaningful reform, we are still driving on the same
                                                   winding mountain road, but this time in a faster car.
                                                       In this report, the Office of the Special Inspector General for the Troubled
                                                   Asset Relief Program (“SIGTARP”) endeavors to (i) explain the various TARP pro-
                                                   grams and how Treasury has used those programs through December 31, 2009; (ii)
                                                   provide a description of the Federal Government support of the residential mort-
                                                   gage market; (iii) describe what SIGTARP has done to oversee the various TARP
                                                   programs since its Quarterly Report to Congress dated October 21, 2009 (the
                                                   “October 2009 Quarterly Report”); and (iv) provide updates on past recommenda-
                                                   tions relating to the operation of TARP.
                                                                             quarterly report to congress I january 30, 2010   7




PROGRAM UPDATES AND FINANCIAL OVERVIEW
TARP consists of 12 announced programs, of which 10 have been implemented.
As of December 31, 2009, Treasury had announced programs involving potential
spending of $549.4 billion of the $698.8 billion maximum available for the pur-
chase of troubled assets under TARP as authorized by Congress in EESA. Of this
amount, Treasury had planned TARP expenditures of approximately $500.1 billion
through the 10 implemented programs to provide support for U.S. financial institu-
tions, the automobile industry, the markets in certain types of ABS, and homeown-
ers. As of December 31, 2009, 67 TARP recipients had paid back all or a portion
of their principal or repurchased shares for an aggregate total of $165.2 billion
of repayments and a $5.0 billion reduction in exposure, leaving $368.8 billion, or
52.8%, of TARP’s allocated $698.8 billion available for distribution.
    In addition to the principal repayments, Treasury has received interest and divi-
dend payments on its investments, as well as revenue from the sale of its warrants.
As of December 31, 2009, $12.9 billion in interest, dividends, and other income
had been received by the Government, and $4.0 billion in sales proceeds had
been received from the sale of warrants and preferred stock received as a result of
exercised warrants. At the same time, some TARP participants have missed divi-
dend payments: among CPP participants, 74 have missed dividend payments to the
Government, some of which made the payments on a later date. As of December
31, 2009, there was $140.7 million in outstanding unpaid CPP dividends. Finally,
three TARP recipients that received a combined $2.6 billion in TARP funds have
filed for bankruptcy.



THE ROLE OF THE FEDERAL GOVERNMENT IN the
residential mortgage market
The residential housing market is a huge part of our national economy, and prob-
lems in that market were a significant contributing factor to the current financial
crisis. The Federal Government has long played an important role in financing
residential housing, and that role has increased dramatically since the outset of the
crisis — with the Federal Government and the organizations it backs now guar-
anteeing or insuring almost all net new borrowings for mortgages and mortgage-
backed securities (“MBS”). In other words, the Government has done more than
simply support the mortgage market, in many ways it has become the mortgage
market, with the taxpayer shouldering the risk that had once been borne by the pri-
vate investor. Housing and mortgage-related issues are critically important to sev-
eral TARP programs, from the Asset Guarantee Program (which guaranteed a pool
8   special inspector general I troubled asset relief program




                                           of mortgage-related assets), to the Home Affordable Modification Program (which
                                           modifies home mortgages), to the Public-Private Investment Program (“PPIP”) (in
                                           which asset managers buy and manage MBS). Section 3 of this report describes the
                                           Federal Government’s role in supporting mortgage financing so that the reader can
                                           better understand this market and the impact of the market on TARP and on the
                                           financial system in general.
                                                Among other things, Section 3 describes the roles of the alphabet soup of
                                           Government and Government-backed agencies that support various stages of the
                                           residential mortgage market: the primary mortgage market through the insuring of
                                           certain mortgages by the Federal Housing Administration, the U.S. Department
                                           of Agriculture, and the U.S. Department of Veterans Affairs; and the secondary
                                           mortgage market through the guarantee of MBS by the Federal National Mortgage
                                           Association (“Fannie Mae”), the Federal Home Loan Mortgage Corporation
                                           (“Freddie Mac”), and the Government National Mortgage Association (“Ginnie
                                           Mae”) and the outright purchases of mortgages by Fannie Mae and Freddie Mac
                                           (with the Federal Home Loan Banks providing support by advancing funds on
                                           mortgage-related collateral). Section 3 also explains some of the steps that the
                                           Federal Government has taken to support home prices during the financial cri-
                                           sis, including: direct purchase of MBS through the Federal Reserve’s Mortgage
                                           Purchase Program; support of the MBS portfolios of Fannie Mae and Freddie Mac
                                           through Treasury’s repeated investments in the preferred equity of those compa-
                                           nies; purchases of MBS in TARP’s PPIP; and through tax subsidies in the form of
                                           the First-Time Homebuyer Tax Credit.



                                           OVERSIGHT ACTIVITies OF SIGTARP
                                           Since the October 2009 Quarterly Report, SIGTARP has been actively engaged
                                           in fulfilling its vital audit and investigative functions. In that time, SIGTARP has
                                           issued three audit reports.

                                           •	 Federal Agencies’ Oversight of American International Group, Inc.
                                              Executive Compensation: This audit report, issued on October 14, 2009,
                                              examined the extent of the knowledge of and oversight by officials from the
                                              Federal Reserve, the Federal Reserve Bank of New York (“FRBNY”), and
                                              Treasury over compensation programs at American International Group, Inc.
                                              (“AIG”), and, specifically, $168 million in retention award payments made to
                                              employees of AIG Financial Products Corp. (“AIGFP”) in March 2009. The
                                              audit concluded, among other things, that Treasury officials effectively out-
                                              sourced oversight of AIG’s compensation systems to the Federal Reserve, failing
                                              to take any independent steps to assess broadly the amount or scope of AIG’s
                                                                                quarterly report to congress I january 30, 2010   9




   compensation obligations despite the $40 billion TARP investment in November
   2008. As a result, senior Treasury officials were apparently not aware of the
   details of the March 2009 AIGFP payments until February 28, 2009. This
   meant that Treasury invested tens of billions of taxpayer dollars in AIG, designed
   AIG’s contractual executive compensation restrictions, and helped manage the
   Government’s majority stake in AIG for several months, all without having any
   detailed information about the scope of AIG’s very substantial, and very con-
   troversial, executive compensation obligations. Treasury’s failure in oversight
   potentially resulted in a missed opportunity to avoid the explosively controversial
   events surrounding the AIGFP retention payments that followed and created
   such considerable public and Congressional concern.
•	 AIG Counterparty Payments: On November 10, 2008, the Federal Reserve
   and Treasury announced the restructuring of the Government’s financial sup-
   port to AIG. As part of this restructuring, a special purpose vehicle, Maiden
   Lane III, purchased certain assets underlying AIGFP’s credit default swap
   (“CDS”) contracts from its counterparties using $24.3 billion of FRBNY financ-
   ing in combination with a $5.0 billion equity investment from AIG. In exchange
   for this payment and being permitted to retain $35 billion in collateral payments
   already made (thus effectively being paid par or face value for the underlying
   assets), the counterparties agreed to terminate their CDS contracts with AIGFP.
   SIGTARP’s audit, which was issued on November 17, 2009, found, among
   other things, that the terms of the original FRBNY financing did not result from
   independent analysis, but were simply an adoption of the term sheet from an
   aborted private financing discussion, and those terms, which included an oner-
   ous effective interest rate of 11%, made modification of the terms and further
   Government action inevitable. The audit also found that, in structuring Maiden
   Lane III, FRBNY attempted to obtain concessions, or “haircuts” from the CDS
   counterparties — and one counterparty was prepared to take a modest hair-
   cut — but the FRBNY’s negotiating strategy was hampered by a series of policy
   decisions that severely limited its ability to obtain concessions, including its
   decision not to accept concessions unless concessions could be obtained from
   all of the counterparties, its refusal to use its leverage as regulator to some of the
   institutions involved, and its basic discomfort with interfering with the sanctity
   of the counterparties’ contractual rights. These policy choices led directly to a
   negotiating strategy with the counterparties that even then-FRBNY President
   Geithner acknowledged had little likelihood of success. The audit further noted
   that although Mr. Geithner has denied that his intent was to benefit the coun-
   terparties, the overall structure of the AIG bailout resulted in AIG’s counterpar-
   ties receiving tens of billions of dollars they likely would not have otherwise
   received had AIG gone into bankruptcy.
10   special inspector general I troubled asset relief program




                                            •	 Additional Insights on Use of TARP Funds: Conducted as a follow-up to
                                               SIGTARP’s earlier audit on TARP recipients’ use of TARP funds, this audit
                                               report, issued on December 10, 2009, examined the use of TARP funds by six
                                               institutions — two automobile manufacturers (General Motors Corporation
                                               and Chrysler Holding LLC), two automobile financing firms (GMAC Inc.
                                               and Chrysler Financial Services Americas LLC), and two life insurance com-
                                               panies (The Hartford Financial Services Group, Inc. and Lincoln National
                                               Corporation). The six companies were able to provide useful insight on their
                                               actual or planned use of TARP funds. As discussed further in Section 5 of
                                               this report, in light of this audit and SIGTARP’s prior recommendations on
                                               use of TARP funds, Treasury has adopted SIGTARP’s recommendation that
                                               use of TARP funds be tracked, and it will be obtaining and reporting to the
                                               public qualitative responses from each TARP recipient on its use of TARP
                                               funds, backed by quantitative data obtained from the recipients’ regulators and
                                               Treasury’s own analysis.

                                                Detailed descriptions of SIGTARP’s recent audit reports, ongoing audits, and
                                            newly announced audits are contained in Section 1 of this report.
                                                SIGTARP’s Investigations Division has continued to develop into a sophisticat-
                                            ed white-collar investigative agency. Through December 31, 2009, SIGTARP has
                                            opened 86 and has 77 ongoing criminal and civil investigations. These investiga-
                                            tions include complex issues concerning suspected TARP fraud, accounting fraud,
                                            securities fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer
                                            misconduct, fraudulent advance-fee schemes, public corruption, false statements,
                                            obstruction of justice, money laundering, and tax-related investigations. While the
                                            majority of SIGTARP’s investigative activity remains confidential, developments in
                                            several of SIGTARP’s investigations have become public over the past quarter as
                                            discussed more fully in Section 1 of this report.
                                                A substantial number of SIGTARP’s ongoing investigations were developed in
                                            whole or in part through tips or leads provided on SIGTARP’s Hotline (877-SIG-
                                            2009 or accessible at www.SIGTARP.gov). From its inception through December
                                            31, 2009, the SIGTARP Hotline received and analyzed nearly 9,900 contacts,
                                            running the gamut from expressions of concern over the economy to serious allega-
                                            tions of fraud.
                                                                               quarterly report to congress I january 30, 2010   11




SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effective
oversight and transparency and to prevent fraud, waste, and abuse. In Section 5 of
this report, SIGTARP provides updates on several recommendations and a sum-
mary of the implementation of recommendations made in previous reports and in
SIGTARP’s audits.
    In particular, Section 5 provides a discussion of Treasury’s adoption of
SIGTARP’s most fundamental transparency recommendation — that Treasury
require TARP recipients to report on their use of TARP funds. Section 5 also pro-
vides an update on the issue of imposing conflict-of-interest walls in PPIP, includ-
ing a discussion of a series of suspect trades that has already occurred within one
of the Public-Private Investment Funds (“PPIFs”) in which a portfolio manager
directed the sale of a security from a non-PPIF fund under his management to a
dealer after the security had been downgraded and then, minutes later, purchased
from that dealer the same security at a slightly higher price for the PPIF. SIGTARP
is reviewing these trades. The fact that these kinds of issues could arise in the first
instance is the direct result of Treasury’s refusal to require information barriers or
walls in PPIP, and in an environment in which large portions of the public already
view the fairness of Government programs with skepticism, whether fairly or un-
fairly, the reputational risk associated with this review is a wholly unnecessary cost.
Finally, Section 5 contains a summary chart that updates the implementation of all
of SIGTARP’s past recommendations.



REPORT ORGANIZATION
The report is organized as follows:
•	 Section 1 describes the activities of SIGTARP.
•	 Section 2 describes how Treasury has spent TARP funds thus far and contains
   an explanation or update of each program, both implemented and announced.
•	 Section 3 discusses the Federal Government’s role in supporting the residential
   mortgage market, and home prices generally, in particular since the onset of the
   financial crisis.
•	 Section 4 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 5 lays out SIGTARP’s recommendations to Treasury with respect to the
   operation of TARP.
12   special inspector general I troubled asset relief program




                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through December 31, 2009.
                                                The goal is to make this report a ready reference on what TARP is and how it
                                            has been used to date. In the interest of making this report as understandable as
                                            possible, and thereby furthering general transparency of the program itself, certain
                                            technical terms are highlighted in the text and defined in the adjacent margin. In
                                            addition, a portion of Section 2 is devoted to a tutorial explaining how taxpayers
                                            lose TARP money when participating banks fail.
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
14   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I january 30, 2010   15




SIGTARP Creation and Statutory Authority
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside of Government.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.


SIGTARP Oversight Activities Since the
October 2009 Quarterly Report
SIGTARP has continued to fulfill its oversight role in multiple parallel tracks: from
auditing various aspects of TARP and TARP-related programs and activities; to
investigating allegations of fraud, waste, and abuse in TARP programs; to coordi-
nating closely with other oversight bodies; all while trying to promote transparency
in TARP programs.

SIGTARP Audit Activity
SIGTARP has initiated a total of 18 audits since its inception. Since SIGTARP’s
October 2009 Quarterly Report to Congress, dated October 21, 2009 (the
“October 2009 Quarterly Report”), SIGTARP released three audit reports and an-
nounced five new audit projects. In addition, six other previously announced audits
are nearing completion, and SIGTARP anticipates releasing reports on those audits
over the next several months.

Completed SIGTARP Audits
SIGTARP released three audit reports since the October 2009 Quarterly Report.

Federal Agencies’ Oversight of AIG Executive Compensation
This audit report, conducted at the request of Senator Charles Grassley and
Representative Elijah Cummings and issued on October 14, 2009, examined the
extent of the knowledge of and oversight by officials from the Federal Reserve and
16   special inspector general I troubled asset relief program




                                            the U.S. Department of the Treasury (“Treasury”) over compensation programs at
                                            American International Group, Inc. (“AIG”), and, specifically, retention award pay-
                                            ments made to employees of AIG Financial Products Corp. (“AIGFP”) in March
                                            2009.
                                                With the approval of the Federal Reserve, the Federal Reserve Bank of New
                                            York (“FRBNY”) provided the initial Federal assistance to AIG in the form of an
                                            $85 billion secured line of credit in September 2008. In November 2008, Treasury
                                            made a TARP investment of $40 billion in AIG; the TARP investment carries with
                                            it certain executive compensation restrictions on AIG personnel. Considerable
                                            Congressional and public outcry resulted from AIG making $168 million in reten-
                                            tion award payments to a group of its AIGFP employees in March 2009.
                                                The audit found that, when FRBNY officials began examining AIG’s execu-
                                            tive compensation structure in the fall of 2008, they found a complex, decentral-
                                            ized system consisting of more than 630 separate compensation and bonus plans
                                            covering more than 50,000 employees and involving expected payments of more
                                            than $1.75 billion. FRBNY officials quickly began examining the extent of AIG’s
                                            compensation obligations. The magnitude of retention awards due to employees
                                            of AIGFP — the AIG entity most responsible for AIG’s financial problems — was
                                            first discussed with an FRBNY official in early October 2008, and a broader group
                                            of FRBNY officials learned of the award balances in November 2008. Although
                                            they learned of the size of the impending payments and their timing, among other
                                            things, it is unclear whether FRBNY officials knew that thousands of dollars in pay-
                                            ments would go to non-essential AIGFP support employees, such as kitchen and
                                            mailroom assistants.
                                                In contrast to FRBNY, there is nothing to indicate that Treasury took any
                                            independent steps to assess broadly the amount or scope of AIG’s compensation
                                            obligations. Treasury officials were engaged in executive compensation-related dis-
                                            cussions with AIG in October and November 2008 to formulate the executive com-
                                            pensation restrictions that would be imposed upon AIG senior management in con-
                                            nection with the $40 billion TARP investment. However, Treasury made no broader
                                            assessment of AIG’s compensation practices and essentially relied upon what it was
                                            told by FRBNY. Moreover, SIGTARP saw little indication that the knowledge being
                                            developed by FRBNY about AIG’s compensation obligations was being passed along
                                            to Treasury in any systematic way. Although Treasury officials had some general
                                            knowledge of AIGFP’s bonus and deferred compensation payment obligations as
                                            early as October 2008, there is no indication that senior Treasury officials were
                                            aware of the details of the March 2009 AIGFP payments until February 28, 2009.
                                                In sum, Treasury did not conduct direct oversight of AIG’s executive compen-
                                            sation prior to March 19, 2009, but chose instead essentially to defer to FRBNY.
                                            This, coupled with Treasury’s subsequent limited communications with FRBNY
                                                                               quarterly report to congress I january 30, 2010            17




with respect to that issue, meant that Treasury invested tens of billions of taxpayer
dollars in AIG, designed AIG’s contractual executive compensation restrictions,
and helped manage the Government’s majority stake in AIG for several months,
all without having any detailed information about the scope of AIG’s very substan-
tial, and very controversial, executive compensation obligations. Treasury’s failure
to discover the scope and scale of AIG’s executive compensation obligations, in
particular at AIGFP, potentially resulted in a missed opportunity to avoid the ex-
plosively controversial events surrounding the AIGFP retention payments and the
considerable public and Congressional concern that followed. Although SIGTARP
saw no indication that Secretary of the Treasury Timothy Geithner (the “Treasury
Secretary” or “Secretary Geithner”) had personal knowledge of the AIGFP bonuses
until shortly before they were paid, this too suggests a failure of communication.
In light of the political sensitivities associated with the bailout of AIG, in his role
both as then-President of FRBNY and subsequently as Treasury Secretary, it was
necessary that Secretary Geithner be informed by his staff, in a timely manner, of
such sensitive and significant information so that he could have sufficient time to
explore possible solutions.
     In light of the audit findings, SIGTARP recommended that:

•	 the Treasury Secretary direct the Office of the Special Master for TARP
   Executive Compensation (the “Special Master”) to work with FRBNY officials
   to understand AIG compensation programs and retention challenges before
   developing future compensation decisions that may affect both Treasury’s and
   FRBNY’s ability to get repaid
•	 Treasury establish policies to guide any similar future decisions whether to take           Credit Default Swap (“CDS”): A contract
   a substantial ownership position in financial institutions that would require an            where the seller receives a series of
   advance review of the obligations and challenges facing such institutions                   payments from the buyer in return
•	 Treasury establish policies to guide decision making in determining whether it is           for agreeing to make a payment to
   appropriate to defer to another agency when making TARP programming deci-                   the buyer when a particular credit
   sions where more than one Federal agency is involved                                        event outlined in the contract occurs
                                                                                               (for example, if the credit rating on a
•	 should Treasury choose to rely on another agency to provide oversight of TARP-
                                                                                               particular bond or loan is downgraded
   related activities, Treasury establish controls to ensure that effective communi-
                                                                                               or goes into default). It is commonly
   cation takes place so that Treasury can carry out its own oversight role
                                                                                               referred to as an insurance-like product
                                                                                               where the seller is providing the buyer
   Treasury and the Federal Reserve concurred with these recommendations.                      insurance-like protection against the
                                                                                               failure of a bond. The buyer, however,
AIG Counterparty Payments                                                                      does not need to own the asset cov-
The Government’s assistance to AIG was largely directed at mitigating the effects              ered by the contract, which means it
of one particular type of financial instrument, the credit default swap (“CDS”),               can serve essentially as a “bet” against
on the company. AIGFP had sold CDS contracts to numerous counterparties,                       the underlying bond.
18            special inspector general I troubled asset relief program




                                                     essentially providing an insurance-like contract that protected the counterparty
     Collateralized Debt Obligations
                                                     against losses from the underlying securities — generally collateralized debt obliga-
     (“CDOs”): A financial instrument that
     entitles the purchaser to some portion          tions (“CDOs”). The counterparty would pay AIG regular insurance premiums,
     of the cash flows from a portfolio of as-       and, if the security upon which the CDS contract was written should default, AIG
     sets, which may include bonds, loans,           would be obligated to make a payout to the counterparty. In addition, if the value of
     mortgage-backed securities, or other            the securities that AIG was insuring fell or if AIG’s credit rating was downgraded,
     CDOs.                                           AIG was contractually obligated to produce certain collateral (cash or AAA-rated
                                                     securities) to its counterparty. In late 2007 and into 2008, the value of the securi-
                                                     ties underlying the CDS contracts dropped precipitously, prompting a number of
                                                     collateral calls; eventually, with mounting losses, AIG announced that it would
                                                     need assistance to meet its mounting collateral call requirements. On September
                                                     16, 2008, FRBNY, pursuant to the authorization of the Federal Reserve, provided
                                                     AIG with an $85 billion loan. On November 10, 2008, the Federal Reserve and
                                                     Treasury announced the restructuring of the Government’s financial support to
                                                     AIG. As part of this restructuring, the Federal Reserve authorized FRBNY to lend
                                                     up to $30 billion to a Federal Reserve-backed special purpose vehicle, Maiden Lane
                                                     III. Pursuant to this authorization, FRBNY lent $24.3 billion to Maiden Lane III,
                                                     which, in combination with a $5.0 billion equity investment from AIG, was used to
                                                     purchase certain assets underlying AIGFP’s CDS contracts from its counterparties;
                                                     these assets had a fair market value of approximately $27.1 billion. In exchange for
                                                     this payment and being permitted to retain $35 billion in collateral payments (ef-
                                                     fectively being paid par or face value for the underlying assets), the counterparties
                                                     agreed to terminate their CDS contracts with AIGFP.
                                                         In light of the extent of the Federal Government’s assistance to AIG,
                                                     Representative Elijah Cummings and 26 other members of Congress asked
                                                     SIGTARP to review the counterparty transactions. SIGTARP’s audit, which was
                                                     issued on November 17, 2009, found that, when first confronted with the liquid-
                                                     ity crisis at AIG, the Federal Reserve and FRBNY turned to the private sector to
                                                     arrange and provide funding to stave off AIG’s collapse. Confident that a private-
                                                     sector solution would be forthcoming, FRBNY did not develop a contingency
                                                     plan; when private financing fell through, FRBNY was left with little time to
                                                     decide whether to rescue AIG and, if so, on what terms. Having witnessed the
                                                     dramatic economic consequences of Lehman Brothers’ bankruptcy, senior officials
                                                     at the Federal Reserve and Treasury determined that it was necessary to rescue
                                                     AIG. Not preparing an alternative to private financing, however, left FRBNY with
                                                     minimal opportunity to fashion appropriate terms for the support and, with little
                                                     forethought, it essentially adopted the term sheet that had been the subject of the
                                                     aborted private financing discussions, including an effective interest rate for AIG’s
                                                     credit line in excess of 11%.
                                                         The impact of those terms, however, soon became apparent to FRBNY.
                                                     Within days, FRBNY officials recognized that, although the $85 billion credit line
                                                                             quarterly report to congress I january 30, 2010   19




permitted AIG to meet billions of dollars of collateral calls and thus avoid an imme-
diate bankruptcy, its terms were unworkable. Among other things, the interest rate
imposed upon AIG was so onerous that, if unaddressed, the burden of servicing
the FRBNY financing greatly increased the likelihood that there would be further
credit rating downgrades for AIG, a result that FRBNY officials believed would
have “devastating” implications for AIG. For this and other reasons, modification
of the original terms thus became inevitable. One example of such modification
was Treasury’s $40 billion investment in AIG in November 2008 through TARP —
which was used to pay down the FRBNY loan in part. Another modification was
the termination of a portion of AIG’s CDS obligations made possible through the
creation of Maiden Lane III.
    As previously discussed, a significant cause of AIG’s liquidity problems stemmed
from its obligations to post collateral in connection with AIGFP’s CDS contracts.
To avoid the necessity for AIG to continue to post collateral and to reduce the
danger of further rating agency downgrades, FRBNY decided in November 2008
to create Maiden Lane III to retire a portion of AIG’s CDS portfolio by purchasing
the underlying CDOs from the swap counterparties. This action eased pressure
on FRBNY’s credit line and effectively transferred the issues with these contracts
off of AIG’s balance sheet and on to the Federal Reserve’s balance sheet. When
negotiating the amount of payment for the underlying CDOs, FRBNY contacted by
telephone eight of AIG’s largest counterparties over a two-day period and attempt-
ed to obtain concessions, or “haircuts,” from the counterparties. Although one
counterparty, UBS AG, was willing to make a modest 2% concession if the other
counterparties did so, FRBNY’s attempts to obtain concessions from the others
were unsuccessful. FRBNY decided to pay the counterparties the full market value
of the CDOs, which, when combined with the already-posted collateral, meant
that the counterparties were effectively paid full face (or par) value of the CDS, an
amount far above their market value at the time.
    In pursuing these negotiations, FRBNY made several policy decisions that
severely limited its ability to obtain concessions from the counterparties: it deter-
mined that it would not accept negotiated concessions from some banks if other
banks refused to negotiate — a decision with particular import in light of the reac-
tion of the French bank regulator which FRBNY claimed had refused to allow two
French bank counterparties to make concessions; it refused to use its considerable
leverage as the regulator of several of these institutions to compel haircuts because
FRBNY was acting on behalf of AIG (as opposed to in its role as a bank regulator);
it was uncomfortable interfering with the sanctity of the counterparties’ contractual
rights with AIG, which entitled them to full par value; it felt ethically constrained
from threatening an AIG bankruptcy because it had no actual plans to carry out
such a threat; and it was concerned about the reaction of the credit rating agencies
should imposed haircuts be viewed as FRBNY backing away from fully supporting
20   special inspector general I troubled asset relief program




                                            AIG. Although these were certainly valid concerns, these policy decisions came
                                            with a cost — they led directly to a negotiating strategy with the counterparties
                                            that even then-FRBNY President Geithner acknowledged had little likelihood of
                                            success.
                                                FRBNY’s all-or-nothing approach, for example, gave each of the major counter-
                                            parties (including the French banks) effective veto power over the possibility of a
                                            concession from any other party. This left FRBNY with few options, even after one
                                            of the counterparties indicated a willingness to negotiate concessions. It also argu-
                                            ably did not account for significant differences among the counterparties, includ-
                                            ing that some of them had received substantial benefits from FRBNY and other
                                            Government agencies through various other bailout programs (including billions
                                            of dollars of taxpayer funds through TARP), a benefit not available to some of the
                                            other counterparties (including the French banks), and that the securities underly-
                                            ing the portfolios were very different, with differing market values at the time of the
                                            Maiden Lane III transactions. It further did not account for the benefits the coun-
                                            terparties received from FRBNY’s initial bailout of AIG, without which they would
                                            have likely suffered far reduced payments as well as the indirect consequences of a
                                            potential systemic collapse.
                                                Similarly, the refusal of FRBNY and the Federal Reserve to use their consider-
                                            able leverage as the primary regulators for several of the counterparties, including
                                            the emphasis that their participation in the negotiations was purely “voluntary,”
                                            made the possibility of obtaining concessions from those counterparties extremely
                                            remote. While there can be no doubt that a regulator’s inherent leverage over a
                                            regulated entity must be used appropriately, and could in certain circumstances be
                                            abused, in other instances in this financial crisis regulators (including the Federal
                                            Reserve) have used overtly coercive language to convince financial institutions to
                                            take or forgo certain actions. As SIGTARP reported in its audit of the initial Capital
                                            Purchase Program (“CPP”) investments, for example, Treasury and the Federal
                                            Reserve were fully prepared to use their leverage as regulators to compel the nine
                                            largest financial institutions (including some of AIG’s counterparties) to accept
                                            $125 billion of TARP funding and to pressure Bank of America Corporation (“Bank
                                            of America”) to conclude its merger with Merrill Lynch & Co., Inc. (“Merrill
                                            Lynch”). Similarly, it has been widely reported that the Government, while argu-
                                            ably acting on behalf of General Motors Corporation (“GM”) and Chrysler Holding
                                            LLC (“Chrysler”), took an active role in negotiating substantial concessions from
                                            the creditors of those companies.
                                                Contrary to the January 7, 2010, assertion by Treasury that the taxpayer “will
                                            be made whole” because the FRBNY loan to Maiden Lane III is on track to being
                                            repaid in full, it is clear that any assessment of the costs to the Government and
                                            the taxpayer necessarily must look beyond FRBNY’s loan to Maiden Lane III to also
                                            take into account both the funds that FRBNY previously loaned to AIG and the
                                                                               quarterly report to congress I january 30, 2010               21




subsequent TARP investments. All of these infusions to AIG are linked inextricably:
more than half the total amounts paid to counterparties in connection with the
CDS portfolio retired through Maiden Lane III did not come about through the
Maiden Lane III CDO purchases, but rather from AIG’s earlier collateral postings
that were made possible in part by the original FRBNY loan, which was, in turn,
paid down with TARP funds. Because of this linkage, the ultimate costs to the
Government and the taxpayer cannot be measured in isolation. Stated another way,
regardless of whether FRBNY is made whole on its loan to Maiden Lane III, the
ultimate value or cost to the taxpayer cannot be calculated until the likelihood of
AIG repaying all of its assistance can be more readily determined. Treasury’s recent
suggestion to the contrary is, at best, incomplete.
    SIGTARP’s audit also noted that the now familiar argument from Government
officials about the dire consequences of basic transparency, as advocated by the
Federal Reserve in connection with Maiden Lane III, once again simply does not
withstand scrutiny. Federal Reserve officials initially refused to disclose the identi-
ties of the counterparties or the details of the payments, warning that disclosure of
the names would undermine AIG’s stability, the privacy and business interests of
the counterparties, and the stability of the markets. After public and Congressional
pressure, AIG disclosed the identities of its counterparties, including its eight
largest: Société Générale, Goldman Sachs Group Inc., Merrill Lynch, Deutsche
Bank AG, UBS, Calyon Corporate and Investment Banking (a subsidiary of Crèdit
Agricole S.A.), Barclays PLC, and Bank of America. Notwithstanding the Federal
Reserve’s warnings, the sky did not fall; there is no indication that AIG’s disclosure        For a detailed discussion of AIG’s financial
undermined the stability of AIG or the market or damaged legitimate interests of              deterioration in the face of CDS-related
the counterparties. The lesson that should be learned — one that has been made                collateral calls, see SIGTARP’s October
apparent time after time in the Government’s response to the financial crisis — is            2009 Quarterly Report, page 138.
that the default position, whenever Government funds are deployed in a crisis to
support markets or institutions, should be that the public is entitled to know what
is being done with Government funds.

Additional Insights on Use of TARP Funds
Conducted as a follow-up to SIGTARP’s earlier audit on TARP recipients’ use of
TARP funds, this audit report, issued on December 10, 2009, examined the use
of TARP funds by six institutions — two automobile manufacturers (GM and
Chrysler), two automobile financing firms (GMAC Inc. (“GMAC”) and Chrysler
Financial Services Americas LLC (“Chrysler Financial”)), and two life insurance
companies (The Hartford Financial Services Group, Inc. (“Hartford”) and Lincoln
National Corporation (“Lincoln”)). As in SIGTARP’s previous report on how banks
used TARP funds, the six companies included in this report were able to provide
useful insight on their actual or planned use of TARP funds notwithstanding the
22   special inspector general I troubled asset relief program




                                            inherent fungibility of money and regardless of whether they segregated the money
                                            from other company funds.
                                                The audit also noted that the CPP investments in two insurance companies
                                            highlight an incongruity in the CPP program design. Hartford and Lincoln were
                                            able to obtain CPP funds by buying small thrift savings institutions and becoming
                                            thrift/savings and loan holding companies, thereby meeting the technical crite-
                                            ria for receipt of CPP funds. The amount of CPP funds provided, however, was
                                            then determined by the assets of the holding company (i.e., the parent insurance
                                            company), not just the assets of the much smaller qualifying thrifts. In the case of
                                            Lincoln, for example, the company was able to obtain $950 million in TARP funds
                                            after it acquired a thrift that, on its own, would have been able to obtain at most
                                            $350,000 (if it would have qualified for CPP funding at all). Moreover, in using
                                            TARP funds, there was no requirement that TARP funding be used in connec-
                                            tion with the subsidiary thrifts’ activities. As it happened, the insurance companies
                                            reported that they used little (in the case of Hartford) or no (in the case of Lincoln)
                                            TARP funds in connection with the subsidiary thrifts’ activities but rather used the
                                            vast bulk of the funds to support their insurance businesses. Stated another way,
                                            simply by purchasing comparatively tiny thrifts, Hartford and Lincoln — compa-
                                            nies whose primary businesses (unlike other CPP participants) have little to do
                                            with lending to consumers and businesses — gained access to more than $4.3 bil-
                                            lion in taxpayer funds, an amount that is many multiples of the thrifts’ total assets.
                                                From its inception, SIGTARP’s most fundamental recommendation with
                                            respect to basic transparency in the operation of TARP has been that Treasury
                                            require all TARP recipients to report periodically on their use of TARP funds.
                                            This audit once again demonstrated that meaningful information supporting basic
                                            transparency in the operation of TARP can indeed be generated by requiring TARP
                                            recipients to report on what they did with the taxpayers’ money. In response to
                                            SIGTARP’s renewed recommendation on this front, Treasury has stated that it will
                                            be obtaining and reporting to the public qualitative responses from each TARP
                                            recipient on its use of TARP funds, backed by quantitative data obtained from the
                                            recipients’ regulators and Treasury’s own analysis. For the first time, Treasury will
                                            be collecting and publicly reporting this data, and it will be doing so on an institu-
                                            tion-by-institution basis.

                                            Audits Underway
                                            SIGTARP has six previously announced ongoing audits and anticipates issuing
                                            reports on many of them over the next quarter:

                                            •	 CPP Warrant Valuation and Disposition Process: This audit, which is being
                                               conducted in response to requests by Senator Jack Reed and Representative
                                               Maurice Hinchey, seeks to determine (i) the extent to which Treasury’s warrant
                                                                               quarterly report to congress I january 30, 2010   23




     dispositions process aligns with legislative requirements, (ii) what processes and
     procedures Treasury has established to ensure that the Government receives fair
     market value for the warrants, and (iii) the extent to which Treasury has controls
     in place to facilitate a transparent and documented decision-making process.
•	   Home Affordable Modification Program (“HAMP”): According to Treasury,
     approximately three to four million homeowners could benefit from HAMP, part
     of the broader Making Home Affordable program. SIGTARP has launched an
     audit examining (i) the status and challenges confronting HAMP and Treasury’s
     plans to address those challenges, (ii) Treasury’s marketing and public outreach
     efforts for HAMP, and (iii) the program’s internal controls to ensure sound
     financial management and accountability of program funds, the availability and
     public disclosure of reliable data, and the consistent identification and mitiga-
     tion of organizational and personal conflicts of interest.
•	   Governance Issues Where U.S. Holds Large Ownership Interest: SIGTARP
     received a request from Senator Max Baucus to undertake a body of audit work
     examining U.S. Government oversight of, and interaction with, the management
     of institutions such as AIG, GM, Chrysler, and Citigroup Inc. (“Citigroup”),
     where the Government has or is approaching majority owner status. The audit,
     which is being conducted jointly with the Government Accountability Office
     (“GAO”), will also examine the two mortgage giants, the Federal National
     Mortgage Association (“Fannie Mae”) and the Federal Home Loan Mortgage
     Corporation (“Freddie Mac”), which are under Government conservatorship.
•	   Status of the Government’s Asset Guarantee Program with Citigroup: This
     review, requested by Representative Alan Grayson, addresses a series of ques-
     tions about the Government’s guarantee of certain Citigroup assets through the
     Asset Guarantee Program such as (i) the basis on which the decision was made
     to provide asset guarantees to Citigroup and the process for selecting the loans
     and securities to be guaranteed; (ii) the characteristics of the assets deemed ac-
     ceptable for inclusion in the program and how those assets differed from other
     Citigroup assets; (iii) whether adequate risk management controls were in place
     to mitigate the risks to the taxpayer; and (iv) what safeguards existed to protect
     taxpayer interests and what the losses were on the portfolio.
•	   Automobile Dealership Closures: This audit, undertaken at the requests of
     Senator Jay Rockefeller and Representative David Obey, examines the process
     used by GM and Chrysler to identify the more than 2,000 automobile dealer-
     ships that have or will be terminated in connection with the recent GM and
     Chrysler bankruptcies. The objectives of the audit are to determine whether
     GM and Chrysler developed and followed a fair, consistent, and reasonable
     documented approach; to understand the role of Government in these deci-
     sions; and to review to what extent the terminations will lead to cost savings or
     other benefits to GM and Chrysler.
24   special inspector general I troubled asset relief program




                                            •	 CPP Applications Receiving Conditional Approval: This audit is examining
                                               those CPP applications that received preliminary approval from the Treasury
                                               Investment Committee conditioned upon the institutions meeting certain re-
                                               quirements before funds were disbursed. One example was Colonial Bancgroup
                                               (“Colonial”), which received CPP approval conditioned on Colonial raising
                                               $300 million in private capital. (As discussed later in this section, SIGTARP’s
                                               Investigations Division undertook a search warrant of Colonial offices in
                                               Florida, and Colonial has announced that it is the subject of a criminal investi-
                                               gation.) The audit will assess the basis for the decision to grant such conditional
                                               approvals and the bank regulators’ role in such decisions; whether and how
                                               timeframes are established for meeting such conditions; and whether internal
                                               controls are in place to ensure that the conditions are met before funds are
                                               disbursed.

                                            New Audits Underway
                                            Over the past quarter, SIGTARP has announced five new audits, on which work
                                            has begun, including:

                                            •	 Selection of Asset Managers for the Legacy Securities Program: This audit
                                               will examine the process Treasury followed to select fund managers to raise
                                               private capital for joint investment programs with Treasury through the Public-
                                               Private Investment Program (“PPIP”). This audit will examine the criteria used
                                               by Treasury to select Public-Private Investment Fund (“PPIF”) managers and
                                               minority partners, and the extent to which Treasury consistently applied estab-
                                               lished criteria when selecting fund managers and small, veteran- , minority- ,
                                               and women-owned businesses.
                                            •	 Internal Controls for the Legacy Securities Program: This audit will exam-
                                               ine the internal controls in place for both Treasury and each of the nine PPIF
                                               managers for the Legacy Securities Program under PPIP. This audit will assess
                                               the extent to which Treasury’s internal controls mitigate PPIF manager conflicts
                                               of interest and ensure overall program compliance, and the extent to which fund
                                               managers are complying with internal control requirements.
                                            •	 Term Asset-Backed Securities Loan Facility (“TALF”) Collateral Monitors’
                                               Valuation: This audit will examine the Federal Reserve’s valuation determina-
                                               tions used to issue loans under TALF. This audit will assess how the Federal
                                               Reserve made valuation determinations, including the role of the collateral
                                               monitor, when making decisions regarding the eligibility of the collateral and the
                                               appropriateness of the requested loan amounts.
                                            •	 Office of the Special Master Decisions on Executive Compensation: This
                                               audit will examine the Special Master’s decisions on executive compensation
                                               at firms receiving exceptional assistance from the U.S. Government. As part of
                                                                             quarterly report to congress I january 30, 2010   25




   the June 15, 2009, interim final compensation regulations, the Special Master
   reviewed the proposed compensation structures for the senior executive officers
   and the 20 next most highly compensated, as well as the proposed compensa-
   tion structure for the next 75 most highly compensated employees. This audit
   will assess the criteria used by the Special Master to evaluate executive compen-
   sation and whether the criteria were consistently applied to all firms receiving
   exceptional assistance.
•	 CPP Exit Strategy: This audit will examine the process that the Office of
   Financial Stability (“OFS”) and the Federal banking regulators have established
   for banks to repay Treasury and exit CPP.

   Materials related to SIGTARP’s audits, including the engagement letters
describing the audits at their outset and the final audit reports themselves, can be
found on SIGTARP’s website, www.SIGTARP.gov. Specific recommendations from
audits released over the last quarter are discussed more fully in Section 5 of this
report.

SIGTARP’s Investigations Activity
SIGTARP’s Investigations Division has developed into a sophisticated white-collar
investigative agency. Through December 31, 2009, SIGTARP has opened 86 and
has 77 ongoing criminal and civil investigations. These investigations include
complex issues concerning suspected TARP fraud, accounting fraud, securities
fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer misconduct,
fraudulent advance-fee schemes, public corruption, false statements, obstruction
of justice, money laundering, and tax-related investigations. While the majority of
SIGTARP’s investigative activity remains confidential, developments in several of
SIGTARP’s investigations have become public over the past quarter.

Omni National Bank Cases
Omni National Bank (“Omni”) was a national bank headquartered in Atlanta with
branch offices in Birmingham, Tampa, Chicago, Fayetteville, N.C., Houston,
Dallas, and Philadelphia. Omni failed and was taken over by the Federal Deposit
Insurance Corporation (“FDIC”) on March 27, 2009. Prior to its failure, Omni had
applied for but had not been approved for TARP funds under CPP. SIGTARP has
participated in several investigations concerning Omni that have led to criminal
charges as part of a mortgage fraud task force that includes SIGTARP, the U.S.
Attorney’s Office for the Northern District of Georgia, the Office of the Inspector
General of the Federal Deposit Insurance Corporation (“FDIC OIG”), the Office
of the Inspector General of the Department of Housing and Urban Development
(“HUD OIG”), the Federal Bureau of Investigation (“FBI”), and the U.S. Postal
Inspection Service. The criminal cases in which SIGTARP has participated include
26           special inspector general I troubled asset relief program




                                                    charges against Brent Merriell for lying to Omni’s regulator and identity theft in
                                                    connection with a scheme to prompt Omni to forgive $2.2 million in loans; against
                                                    Dalroy Davy for bank fraud and conspiracy to commit bank fraud in connection
                                                    with a fraudulent scheme to obtain millions in mortgage loans from Omni; and
                                                    charges against Jeffrey Levine, Omni’s former executive vice president, for making,
                                                    and causing others to make, materially false entries that overvalued bank assets
                                                    in the books, reports, and statements of Omni. SIGTARP’s involvement in the
                                                    investigations, including whether the various frauds had an impact on Omni’s CPP
                                                    application, is ongoing.

                                                    Bank of America Investigations
                                                    SIGTARP continues to play a significant role in the investigations by the Office
                                                    of the New York Attorney General, the U.S. Attorney’s Offices for the Southern
                                                    District of New York and Western District of North Carolina, the Securities and
                                                    Exchange Commission (“SEC”), and the FBI into the circumstances of Bank of
                                                    America’s merger with Merrill Lynch and its receipt of additional TARP funds
                                                    under the Targeted Investment Program.

                                                    Colonial Bancgroup/Taylor, Bean & Whitaker Investigation
                                                    As previously reported, in August 2009, SIGTARP, along with the FBI, FDIC
                                                    OIG, and HUD OIG, conducted search warrants at the offices of Colonial and
     For a description of the FHA and Ginnie        Taylor, Bean & Whitaker (“TBW”). On December 16, 2009, TBW consented to its
     Mae programs, see Section 3: “Federal          debarment from participating as an originator of Federal Housing Administration
     Support of the Residential Mortgage            (“FHA”)-insured mortgages, which had been proposed on August 4, 2009. HUD
     Market” in this report.
                                                    also terminated TBW as a Government National Mortgage Association (“Ginnie
                                                    Mae”) issuer of mortgage-backed securities and took control of TBW’s $25 billion
                                                    Ginnie Mae portfolio. In conjunction with the suspensions, HUD also proposed
                                                    debarments of two officers of TBW. On August 7, 2009, Colonial reported that it is
                                                    the target of a criminal probe. The investigation is ongoing.

                                                    SIGTARP Named Member of President’s Financial Fraud
                                                    Enforcement Task Force and Co-Chair of Its Rescue Fraud
                                                    Working Group
                                                    On November 17, 2009, President Obama signed an Executive Order establishing
                                                    the Financial Fraud Enforcement Task Force (the “FFETF”), which is designed “to
                                                    investigate and prosecute significant financial crimes and other violations relating
                                                    to the current financial crisis and economic recovery efforts, recover the proceeds
                                                    of such crimes and violations, and ensure just and effective punishment of those
                                                    who perpetrate financial crimes and violations.” The FFETF consists of dozens
                                                                              quarterly report to congress I january 30, 2010   27




of criminal and civil law enforcement agencies and regulatory bodies. SIGTARP
co-chairs the FFETF Rescue Fraud Working Group. The inaugural meeting of the
FFETF was chaired by Attorney General Eric Holder on December 15, 2009.

SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and thus provide an interface with the American public to facilitate the re-
porting of concerns, allegations, information, and evidence of violations of criminal
and civil laws in connection with TARP. From its inception in February through
December 31, 2009, the SIGTARP Hotline has received and analyzed almost
9,900 Hotline contacts. These contacts run the gamut from expressions of concern
over the economy to serious allegations of fraud involving TARP, and a substantial
number of SIGTARP’s investigations were generated in connection with Hotline
tips. The SIGTARP Hotline is capable of receiving information anonymously, and
the confidentiality of whistleblowers will be provided to the fullest extent possible.
SIGTARP honors all applicable whistleblower protections. The American public
can provide information by telephone, mail, fax, or online at www.SIGTARP.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that Members of Congress
are kept adequately and promptly informed of developments in TARP initia-
tives and of SIGTARP’s oversight activities. To fulfill that role, the Special
Inspector General and SIGTARP staff meet regularly with and brief Members and
Congressional staff. Over the past quarter:

•	 On October 14, 2009, Special Inspector General Barofsky testified before the
   House Committee on Oversight and Government Reform, during a hearing
   entitled “AIG Bonuses: Report of the Special Inspector General.” The hear-
   ing focused on SIGTARP’s audit examining Federal agencies’ oversight of AIG
   executive compensation.
•	 On October 19, 2009, Deputy Special Inspector General Kevin Puvalowski
   presented an open briefing for Senate staff. The focus of the briefing was
   SIGTARP’s October 2009 Quarterly Report, which included, in addition to the
   typical subjects covered, an examination of the impact of credit rating agencies
   on TARP.
•	 On October 21, 2009, Special Inspector General Barofsky briefed members
   of the House Committee on Oversight and Government Reform regarding
   SIGTARP’s October 2009 Quarterly Report.
28   special inspector general I troubled asset relief program




                                            •	 On November 17, 2009, Deputy Special Inspector General Puvalowski pre-
                                               sented a briefing for staff of 27 Members of Congress who had drafted a letter
                                               requesting an audit of why AIG’s counterparties on CDS contracts were paid
                                               effectively at par value to terminate those contracts. The briefing detailed audit
                                               findings included in SIGTARP’s audit dated November 17, 2009, entitled
                                               “Factors Affecting Efforts to Limit Payments to AIG Counterparties.”

                                                Copies of all of the Special Inspector General’s written testimony, hearing
                                            transcripts, and a variety of other materials associated with Congressional hearings
                                            since SIGTARP’s inception are posted at www.SIGTARP.gov/reports.

                                            Constitutionality of the Special Master
                                            On October 6, 2009, the Senate Judiciary Committee, Subcommittee on the
                                            Constitution, convened a hearing entitled “Time Change — Examining the History
                                            and Legality of Executive Branch ‘Czars.’” During the hearing, Professor of Law
                                            John C. Harrison, University of Virginia, testified that, in Buckley v. Valeo, 424
                                            U.S. 1, 125–126 (1976), the Supreme Court “[r]eject[ed] the contention that the
                                            [Appointments C]lause [of the United Stated Constitution] was wholly ceremonial
                                            . . . [and] concluded that it represents a substantive constitutional principle that
                                            only appointees who have received their legal authority in the way set out in the
                                            Appointments Clause may exercise ‘significant authority pursuant to the laws of the
                                            United States.’”
                                                  On October 22, 2009, the Special Master, who was appointed without the
                                            advice and consent of the Senate, made determinations concerning executive com-
                                            pensation within AIG, Bank of America, Chrysler Financial, Chrysler, Citigroup,
                                            GM, and GMAC. A Treasury press release of the same day quotes Secretary
                                            Geithner as stating, “Ken Feinberg has done a commendable job of applying the
                                            strong compensation standards of the Congressional legislation to the companies
                                            that received exceptional assistance from the government.” Another Treasury press
                                            release advised, “[t]o break from the pay practices of the past, the Special Master
                                            has reduced compensation across the board — both in terms of cash and the total
                                            compensation executives will receive.” The press release also indicated that, on
                                            average, the Special Master reduced cash compensation by more than 90%.
                                                  Following the issuance of the Special Master’s determination, Michael W.
                                            McConnell, formerly a judge on the Circuit Court of Appeals for the Tenth Circuit,
                                            authored an essay entitled “The Pay Czar Is Unconstitutional” that was published
                                            in the Wall Street Journal on October 29, 2009. In his essay, Judge McConnell con-
                                            cluded that “[b]ecause he is not a properly appointed officer of the United States,
                                            Mr. Feinberg’s executive compensation decisions were unconstitutional.”
                                                  In light of these developments, on November 2, 2009, SIGTARP requested
                                            from the Chief Counsel of OFS an explanation of Treasury’s legal position
                                                                              quarterly report to congress I january 30, 2010   29




regarding the constitutionality of the position of the Special Master. A copy of that
request is included in Appendix G: “Correspondence.” Treasury has not yet re-
sponded to this request.



the SIGTARP Organization
From the day that the Special Inspector General was confirmed by the Senate,
SIGTARP has worked to build its organization through various complementary
strategies, including hiring experienced senior executives who can play multiple
roles during the early stages of the organization, leveraging the resources of other
agencies, and, where appropriate and cost-effective, obtaining services through
SIGTARP’s authority to contract. Since the October 2009 Quarterly Report,
SIGTARP has continued to make substantial progress in building its operation.

Hiring
Each of SIGTARP’s divisions has continued the process of filling out its ranks. As
of December 31, 2009, SIGTARP had more than 100 personnel, including de-
tailees from other agencies, with several new hires to begin over the coming weeks.
     SIGTARP’s employees hail from many Federal agencies, including the
Department of Justice, FBI, the Internal Revenue Service Criminal Investigation
Division, Air Force Office of Special Investigations, GAO, Department of
Transportation, Department of Energy, the SEC, U.S. Secret Service, U.S. Postal
Service, U.S. Army Criminal Investigation Command, Naval Criminal Investigative
Service, Treasury-Office of the Inspector General, Department of Energy-Office
of the Inspector General, Department of Transportation-Office of the Inspector
General, Department of Homeland Security-Office of the Inspector General,
FDIC OIG, Office of the Special Inspector General for Iraq Reconstruction, and
HUD OIG. Hiring is actively ongoing, building to SIGTARP’s current goal of ap-
proximately 160 full-time employees. On December 8, 2009, the U.S. Office of
Personnel Management extended and expanded SIGTARP’s direct hiring author-
ity through June 18, 2010. The SIGTARP organizational chart, as of January 25,
2010, is included in Appendix H: “Organizational Chart.”

SIGTARP Budget
Section 121(j) of EESA as amended provided SIGTARP with $50 million in
initial operating funds. When SIGTARP was established and its initial operating
resources were allocated, TARP was envisioned as a large but relatively straight-
forward asset purchase and guarantee program. In the months that followed,
however, TARP evolved into 12 separate programs that touch on a substantial part
of the U.S. economy, from the banking system, to large insurance conglomerates,
to asset support programs, to automobile manufacturers, to the mortgage market,
30   special inspector general I troubled asset relief program




                                            and beyond. SIGTARP estimated in the late spring of 2009 that its initial operat-
                                            ing funds would be expended by the second quarter of fiscal year 2010 and that an
                                            additional $28.3 million would be needed to fund operations throughout fiscal year
                                            2010. Accordingly, on June 3, 2009, SIGTARP submitted to Treasury — which in
                                            turn forwarded the same to the Office of Management and Budget — a request
                                            for an amendment of Treasury’s fiscal year 2010 budget request in the amount of
                                            $23.3 million.1
                                                On December 16, 2009, the President signed Public Law No. 111-117, the
                                            Consolidated Appropriations Act for 2010. The appropriations act, at Division C,
                                            Title 1, provided SIGTARP with the $23.3 million that had been requested. The
                                            fiscal year 2011 budget cycle is ongoing.

                                            Physical and Technical SIGTARP Infrastructure
                                            SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the
                                            same office building in which most Treasury officials managing TARP are located.
                                            SIGTARP is already occupying temporary quarters in that building while its two
                                            permanent floors are being renovated. SIGTARP anticipates occupying its perma-
                                            nent space in the spring of 2010. Primarily to facilitate investigative activities in
                                            those cities, SIGTARP is also in the process of opening a branch office in New York
                                            City and smaller satellite offices in Los Angeles and San Francisco.
                                               SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its re-
                                            ports, testimony, audits, contracts, and more. The website prominently features
                                            SIGTARP’s Hotline, which can also be accessed by phone at 877-SIG-2009
                                            (877-744-2009).
s ection 2   tarp overview
32   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I january 30, 2010              33




This section summarizes the activities of the U.S. Department of the Treasury
(“Treasury”) in its management of the Troubled Asset Relief Program (“TARP”). It
includes an update on the extension of TARP, a financial overview discussing the
Office of Financial Stability (“OFS”) financial statements for fiscal year 2009, and
updates on established TARP programs, including the status of TARP executive
compensation restrictions.


TARP Extension
The authorities granted to the Secretary of the Treasury (“Treasury Secretary”)
under the Emergency Economic Stabilization Act of 2008 (“EESA”), including
the power to purchase troubled assets, were set to expire on December 31, 2009,
unless extended by the Treasury Secretary through the submission of a written
certification to Congress. Under EESA, the Treasury Secretary’s certification must
include “a justification of why the extension is necessary to assist American families
and stabilize financial markets, as well as the expected cost to the taxpayers for
such an extension.”2
    On December 9, 2009, the Treasury Secretary exercised the powers granted
to him under section 120(b) of EESA and extended TARP through October 3,
2010. In the certification, the Treasury Secretary asserted that the extension would,
“among other things, enable [Treasury] to continue to implement programs that
address housing markets and the needs of small businesses, and to maintain the
capacity to respond to unforeseen threats,” thereby assisting American families
and stabilizing financial markets.3 Treasury has stated that it does not expect to
                                                                                             Exceptional Assistance: In reference to
deploy more than $550 billion of the $699 billion available to TARP under EESA.4
                                                                                             TARP, institutions requiring assistance
Additionally, the Treasury Secretary outlined Treasury’s plan to wind down its TARP          beyond the assistance of the widely
investments, terminate various programs, and limit new commitments of TARP                   available program, the Capital Pur-
funds to three areas during 2010:5                                                           chase Program (“CPP”), are classified
                                                                                             as requiring “exceptional assistance.”
•	 Foreclosure Mitigation Efforts                                                            Exceptional assistance programs
•	 Small Business and Community Lending Initiatives                                          include the Systemically Significant
•	 Term Asset-Backed Securities Loan Facility (“TALF”) Commitments                           Failing Institutions (“SSFI”) program, the
                                                                                             Targeted Investment Program (“TIP”),
    Furthermore, the Treasury Secretary stated, “Beyond these limited new com-               the Asset Guarantee Program (“AGP”),
                                                                                             the Automotive Industry Financing Pro-
mitments, we will not use remaining EESA funds unless necessary to respond
                                                                                             gram (“AIFP”), and any future Treasury
to an immediate and substantial threat to the economy stemming from financial
                                                                                             program designated by the Treasury
instability.”6
                                                                                             Secretary as providing exceptional
    On December 17, 2009, Treasury’s Assistant Secretary for Financial Stability
                                                                                             assistance.
also addressed Treasury’s future plans for TARP in testimony to Congress.7
Specifically, he discussed Treasury’s intentions with respect to TARP investments
made in four of the companies designated as “exceptional assistance” recipients at
34            special inspector general I troubled asset relief program




                                                     the time: American International Group, Inc. (“AIG”), Citigroup Inc. (“Citigroup”),
                                                     Chrysler Holding LLC (“Chrysler”), and General Motors Corporation (“GM”).
                                                     According to Treasury, it will “exit these investments, and return TARP funds to the
                                                     Treasury, as soon as is practicable, consistent with the objective of avoiding further
                                                     market and economic disruption.”8


                                                     Financial Overview of TARP
                                                     TARP Financial Statements
                                                     On December 10, 2009, OFS issued a report entitled “Office of Financial Stability,
                                                     Agency Financial Report, Fiscal Year 2009” (“TARP Financial Statements”)
                                                     containing its financial statements for TARP for the fiscal year ending September
                                                     30, 2009. The financial statements are intended to support Treasury’s estimate
                                                     of a net present value for the TARP investments as of the end of the 2009 fiscal
     Net Present Value: The present value of         year; that is, how much was spent on investments, loans, and expenses minus how
     the estimated future cash inflows minus         much is expected to be returned through repayments, interest, dividends, and the
     the present value of the cash outflows.         sale of stock and warrants. The TARP Financial Statements estimate that TARP
                                                     cost $41.6 billion during the fiscal year ending September 30, 2009, representing
                                                     amounts expected to be lost and the costs of running the program. This estimate
                                                     applied only to funds disbursed as of September 30, 2009, and therefore excluded
                                                     other obligations that have not yet been disbursed, including the $50 billion Home
                                                     Affordable Modification Program (“HAMP”). As Treasury explained, “the total ulti-
                                                     mate cost of the TARP is expected to be higher because additional investments and
                                                     disbursements have been made or will be made after FY 2009.”9 Treasury estimates
                                                     the cost of TARP could potentially increase an additional $100 billion due to future
                                                     disbursements.10
                                                         Treasury estimates that the net cost of operations for fiscal year 2009 was
     Net Cost of Operations: A measure of            driven by losses it anticipates it will suffer on TARP investments in AIG under the
     financial performance — gross cost              Systemically Significant Failing Institutions (“SSFI”) program and additional invest-
     of a program or organization less any           ments under the Automotive Industry Financing Program (“AIFP”). Collectively,
     income from that program or                     Treasury estimates these investments will cost the taxpayer approximately
     organization.                                   $60.9 billion, $30.4 billion from Treasury’s investment in AIG and $30.5 billion
                                                     from its investments under AIFP.11
                                                         Although the TARP Financial Statements estimate that TARP operated at a net
                                                     loss in 2009, Treasury estimates, as of September 30, 2009, that certain programs
                                                     will produce positive potential returns on Treasury’s investments. Specifically,
                                                     Treasury projects that TARP investments under the Capital Purchase Program
                                                     (“CPP”), Targeted Investment Program (“TIP”), Asset Guarantee Program (“AGP”),
                                                     and TALF may generate approximately $19.5 billion in aggregate income.12
                                                         According to Treasury, because these numbers largely reflect projections and
                                                     estimates, the actual results of TARP investments could significantly differ from
                                                                              quarterly report to congress I january 30, 2010                        35




                                                                                           For more information on Treasury’s cost esti-
the estimates and assumptions Treasury used to report its assets, liabilities, rev-        mates for TARP see the “Office of Financial
enues, and costs in its TARP Financial Statements. Specifically, “forecasts of future      Stability, Agency Financial Report, Fiscal
                                                                                           Year 2009,” at www.treas.gov/press/releases/
financial results have inherent uncertainty,” and the estimates are “reflective of
                                                                                           OSF%20AFR%2009.pdf.
relatively illiquid, troubled assets whose values are particularly sensitive to future
economic conditions and other assumptions.”13 Indeed, the fact that Treasury’s esti-       Figure 2.1

mated losses on TARP in the TARP Financial Statements were hundreds of billions            CUMULATIVE PLANNED TARP
of dollars less than its August 2009 estimates demonstrates the potential volatility       EXPENDITURES, REPAYMENTS,
in these projections.                                                                      AND REDUCTIONS IN EXPOSURE
                                                                                           AS OF 12/31/2009

Status of TARP Funds
As of December 31, 2009, Treasury had announced programs involving potential
                                                                                                                                            $368.8
spending of $549.4 billion of the $698.8 billion maximum for the purchase of
troubled assets under TARP as authorized by Congress in EESA.14 Of this amount,                                             $170.2
                                                                                            $698.8
Treasury had planned TARP expenditures of approximately $500.1 billion (of which
                                                                                                            $500.1
$374.4 billion had actually been disbursed) through 10 implemented programs to
provide support for U.S. financial institutions, companies, and individual mortgage
borrowers.15 The Administration has announced plans for additional initiatives to
stimulate small-business lending and has increased potential TARP funding from             Total TARP      Planned TARP TARP          TARP
                                                                                           Released        Expendituresa Repayments Balance
$15 billion to $30 billion to support these efforts.16 As of December 31, 2009, the                                      and          Remaining
                                                                                                                         Reductions
initiatives have yet to be launched.                                                                                     in Exposureb
    As of December 31, 2009, 67 TARP recipients had paid back all or a portion
                                                                                           Notes: Numbers affected by rounding. The “planned
of their principal or repurchased shares for an aggregate total of $165.2 billion of       expenditures” referenced throughout this report represent the
                                                                                           funds Treasury currently plans to expend for each program,
repayments and a $5.0 billion reduction in exposure, leaving $368.8 billion, or            and a majority of those are committed funds (e.g., signed
                                                                                           agreements with TARP fund recipients).
52.8% of TARP’s allocated $698.8 billion, available for distribution.17 Figure 2.1         a
                                                                                             Treasury has told SIGTARP that it will provide up to
                                                                                             $30 billion of TARP funds to support TALF. Treasury’s
provides a snapshot of the cumulative planned TARP expenditures, repayments,                 current TALF commitment is $20 billion, but should TALF
and reductions in exposure as of December 31, 2009.                                          exceed a total of $200 billion in loans extended by FRBNY,
                                                                                             then Treasury will provide additional TARP funds. For the
    In addition to the principal repayments, Treasury has received interest and              purposes of this figure, $30 billion is included in the
                                                                                             “Planned TARP Expenditures” column. Treasury has
dividend payments on its investments, as well as revenue from the sale of its                indicated that this number may change.
                                                                                           b
                                                                                             Repayments include $121.9 billion for CPP, $40 billion for
warrants. These payments are deposited into Treasury’s general fund for the                  TIP, $3.3 billion for Auto Programs, and a $5 billion
                                                                                             reduction in exposure under AGP.
reduction of public debt and are not available to be re-issued by Treasury.18 As of
                                                                                           Sources: Treasury, Transactions Report, 1/4/2010; Treasury,
December 31, 2009, $12.9 billion in interest, dividends, and other income had              response to SIGTARP data call, 1/5/2010.

been received by the Government, and $4.0 billion in sales proceeds had been
received from the sale of warrants and preferred stock received as a result of exer-
cised warrants.19                                                                             Warrant: The right, but not the obliga-
                                                                                              tion, to purchase a certain number of
    As of December 31, 2009, $329.9 billion of the $500.1 billion planned TARP
                                                                                              shares of common stock at a fixed
expenditures were outstanding (i.e., had not been repaid or repurchased).20
                                                                                              price. Because warrants rise in value
However, Treasury has announced new programs — including assistance for small
                                                                                              as the company’s share price rises,
banks to increase lending and assistance to small businesses — for which Treasury
                                                                                              they permit Treasury (and the tax-
has not yet announced details. These programs are likely to result in additional              payer) to benefit from a firm’s potential
disbursements. The TARP funds outstanding are largely in the form of equity own-              recovery.
ership. For those companies from which Treasury received equity and which have
36             special inspector general I troubled asset relief program




                                                      not yet repaid their TARP funds, Treasury, and therefore the American taxpayer, is
     Common Stock: Equity ownership that
                                                      a shareholder. Treasury’s equity ownership came in two forms: common stock and
     entitles an individual to share in the
     corporate earnings and voting rights.            preferred stock. In addition to its equity investment, Treasury also received senior
                                                      subordinated debentures under various TARP programs.
     Preferred Stock: Equity ownership that               TARP consists of 12 announced programs, of which 10 have been imple-
     usually pays a fixed dividend, gives the         mented. Of the 12 total programs, 6 have been closed or are in the process of
     holder a claim on corporate earnings             being closed: CPP, the Capital Assistance Program (“CAP”), TIP, AGP, the Auto
     superior to common stock owners, and             Supplier Support Program (“ASSP”), and the Auto Warranty Commitment Program
     has no voting rights. Preferred stock            (“AWCP”). The 12 programs can be categorized in 4 general groups depending on
     is senior to common stock, but junior            the type of support each was designed to provide:
     to debt.
                                                      •	 Financial Institution Support Programs — These programs share a common,
     Senior Subordinated Debenture: A loan
                                                         stated goal of stabilizing the financial market to avoid disruption and provide for
     or security that is junior to other loans
                                                         a healthy economy.
     or securities with regards to the debt
                                                      •	 Asset Support Programs — These programs attempt to support asset values
     holders’ claims on assets or earnings.
     Senior debt holders get paid in full                and liquidity in the market by providing funding to certain holders or purchasers
     before subordinated debt holders get                of assets.
     paid. There are additional levels of             •	 Automotive Industry Support Programs — These programs were intended
     priority among subordinated debt hold-              to stabilize the American automotive industry, promoting market stability and a
     ers. CPP invests in senior subordinated             vigorous economy.
     debt.                                            •	 Homeowner Support Program — This program and its initiatives were de-
                                                         signed to help homeowners facing difficulty paying their mortgages by subsidiz-
                                                         ing loan modifications, loan servicer costs, and potential equity declines in bank
                                                         holdings.

                                                         Figure 2.2 provides a breakdown of how TARP funding is distributed between
                                                      the four categories of programs.

                                                      Financial Institution Support Programs
                                                      The primary tool of TARP for assisting financial institutions thus far has been
                                                      direct investment of capital. Financial institutions, for TARP purposes, include
                                                      banks, bank holding companies, and, if deemed critical to the financial system,
     Systemically Significant: A financial
                                                      certain systemically significant institutions.
     institution whose failure would impose
     significant losses on creditors and
     counterparties, call into question the           •	 Capital Purchase Program (“CPP”). Under CPP, TARP funds are used to pur-
     financial strength of other similarly               chase directly preferred stock or subordinated debentures in qualifying finan-
     situated financial institutions, disrupt            cial institutions (“QFIs”). Treasury created CPP to provide funds to “stabilize
     financial markets, raise borrowing                  and strengthen the U.S. financial system by increasing the capital base of an
     costs for households and businesses,                array of healthy, viable institutions, enabling them [to] lend to consumers and
     and reduce household wealth.                        business[es].”21 As of December 31, 2009, Treasury had invested $204.9 billion
                                                         in 707 institutions through CPP, and $121.9 billion had been repaid.22 In the
                                                                                 quarterly report to congress I january 30, 2010                              37




                                                                                              Figure 2.2
     December 9, 2009, letter to Congress extending TARP, the Treasury Secretary               PLANNED TARP EXPENDITURES
     noted that CPP “is effectively closed.”23 Although Treasury closed CPP to new             OUTSTANDING, REPAYMENTS, AND
     applicants, it has indicated that it will launch a similar program of capital invest-     REDUCTIONS IN EXPOSURE BY
     ments in small banks as part of an effort to stimulate small-business lending by          SUPPORT CATEGORY, AS OF
     financial institutions. See the “Capital Purchase Program” discussion in this             12/31/2009
                                                                                               $ Billions
     section for more detailed information.
•	   Capital Assistance Program (“CAP”). Originally intended to complement                     $300 $166.9

     CPP, Treasury announced that it would provide capital under CAP to bank
     holding companies that needed to raise additional capital based on the results of           200
     Federal Reserve stress tests.24 On November 9, 2009, Treasury announced that
                                                                                                        $152.8
     CAP was closed without any investments being made under the program.25                      100                                   $3.3
•	   Systemically Significant Failing Institutions (“SSFI”) Program/AIG                                                               $81.5
                                                                                                                       $60.0
     Investment Program. Under the stated terms of the SSFI program, Treasury                                                                       $35.5
                                                                                                    0
     invests in systemically significant institutions to prevent their failure and the                  Financial     Asset     Automotive Homeowner
     market disruption that would follow.26 As of December 31, 2009, Treasury,                          Institution   Support   Industry   Support
                                                                                                        Support       Programsb Support    Programd
     through SSFI, had made and is committed to make further investments in one                         Programsa               Programsc
     institution — AIG. This support was provided through two transactions —
                                                                                                            Planned Expenditures Outstanding
     $40 billion for the purchase of preferred stock from AIG to repay a portion of                         Repayments and Reductions in Exposure
     its debt owed to the Federal Reserve and approximately $29.8 billion for an
                                                                                               Notes: Numbers affected by rounding. The “planned
     equity capital facility that AIG can draw on as needed.27 As of December 31,              expenditures” referenced throughout this report represent the
                                                                                               funds Treasury currently plans to expend for each program, and
     2009, AIG had drawn down $5.3 billion in equity from the capital facility.28 See          a majority of those are committed funds (e.g., signed agreements
                                                                                               with TARP fund recipients).
     the “Systemically Significant Failing Institutions” portion of this section for a         a
                                                                                                 Includes CPP, SSFI, TIP, and AGP. Repayments include
                                                                                                 $121.9 billion for CPP, $40 billion for TIP, and a $5 billion
     detailed discussion of the AIG transactions.                                                reduction in exposure under AGP.
                                                                                               b
                                                                                                 Includes TALF and PPIP. Treasury has told SIGTARP that it will
•	   Targeted Investment Program (“TIP”). Through TIP, Treasury could provide                    provide up to $30 billion of TARP funds to support TALF.
                                                                                                 Treasury’s current TALF commitment is $20 billion, but should
     funding to financial institutions that were critical to the financial system.29             TALF exceed a total of $200 billion in loans extended by FRBNY,
                                                                                                 then Treasury will provide additional TARP funds. For the
     Treasury made two expenditures under this program totaling $40 billion — pur-               purposes of this figure, $30 billion is considered a planned
                                                                                                 expenditure. Treasury has indicated that this number may
     chasing $20 billion of senior preferred stock from each of Citigroup and Bank of            change.
                                                                                                 Includes AIFP, ASSP, and AWCP. Repayments include
     America Corporation (“Bank of America”).30 In addition to the senior preferred
                                                                                               c

                                                                                                 $2.5 billion for AIFP, $140 million for ASSP, and $642 million
     stock, Treasury also received warrants of common stock for its investment in              d
                                                                                                 for AWCP.
                                                                                                 Includes MHA.
     these financial institutions. As of December 31, 2009, the program is effectively         Sources: Treasury, Transactions Report, 1/4/2010; Treasury,
     closed as both Citigroup and Bank of America have repaid the funding received             response to SIGTARP data call, 1/5/2010.

     under this program. Treasury still holds the warrants it received from both pro-
     gram recipients. See the “Targeted Investment Program” portion of this section
     for a detailed discussion on these two transactions.                                         Senior Preferred Stock: Shares that
•	   Asset Guarantee Program (“AGP”). Through AGP, Treasury provided certain                      give the stockholder priority dividend
     insurance-like loss protections on a select pool of mortgage-related or similar as-          and liquidation claims over junior pre-
     sets held by participants whose portfolios of distressed or illiquid assets posed a          ferred and common stockholders.
     risk to market confidence.31 Specifically, Treasury, the Federal Deposit Insurance
     Corporation (“FDIC”), and the Federal Reserve agreed to provide certain loss                 Illiquid Assets: Assets that cannot be
     protections with respect to $301 billion in troubled assets held by Citigroup.32             quickly converted to cash.
38            special inspector general I troubled asset relief program




                                                        On December 23, 2009, as part of Citigroup’s repayment plan for its TARP
                                                        investment, Citigroup and the Government terminated the AGP agreement.
                                                        No payments were made by the Federal Government under the contract, and
                                                        the Government retained $5.2 billion of preferred shares as compensation for
                                                        the protections that had been provided under AGP (approximately $4 billion
                                                        of which went to Treasury). Subsequently Treasury converted its preferred
                                                        shares to trust preferred securities on a dollar-for-dollar basis.33 Treasury agreed
                                                        to cancel $1.8 billion of its $4.0 billion in trust preferred securities.34 See the
                                                        “Asset Guarantee Program” discussion in this section for more information on
                                                        this program.

                                                     Asset Support Programs
                                                     The purpose of these programs is to support the liquidity and market value of as-
                                                     sets owned by financial institutions. These assets may include various classes of
                                                     asset-backed securities (“ABS”) and several types of loans. These programs seek
                                                     to bolster the balance sheets of the financial firms and help free up capital so that
                                                     financial institutions can extend more credit to support the U.S. economy.

                                                     •	 Term Asset-Backed Securities Loan Facility (“TALF”). TALF was originally
                                                        designed to increase the credit available for consumer and small-business loans
     Commercial Mortgage-Backed Securi-                 through a Federal Reserve loan program backed by TARP funds. TALF pro-
     ties (“CMBS”): A financial instrument              vides non-recourse loans to investors secured by certain types of ABS including
     that is backed by a commercial real                credit card loans, auto loans, equipment loans, student loans, floorplan loans,
     estate mortgage or a group of com-                 insurance-premium finance loans, loans guaranteed by the Small Business
     mercial real estate mortgages that are             Administration (“SBA”), residential mortgage servicing advances, and commer-
     packaged together.                                 cial mortgage-backed securities (“CMBS”). According to Treasury, it will provide
                                                        up to $30 billion of TARP funds to support this program.35 Treasury’s current
     Legacy Assets: Also commonly                       TALF commitment is $20 billion, but should TALF exceed a total of $200 bil-
     referred to as troubled or toxic assets,           lion in loans extended by the Federal Reserve Bank of New York (“FRBNY”),
     legacy assets are real estate-related
                                                        then Treasury will provide additional TARP funds.36 As of December 31, 2009,
     loans and securities (legacy loans and
                                                        FRBNY had facilitated 10 TALF subscriptions of non-mortgage-related ABS,
     legacy securities) that remain on banks’
                                                        totaling approximately $52.9 billion, with $39.0 billion of TALF borrowings
     balance sheets that have lost value but
                                                        outstanding.37 In addition, as of December 31, 2009, FRBNY had conducted 7
     are difficult to price due to the recent
     market disruption.                                 CMBS subscriptions totaling $8.8 billion, with $8.5 billion in loans outstand-
                                                        ing.38 An overview of TALF, later in this section, provides more information on
     Legacy Loans: Loans that are often                 these activities.
     underperforming real estate-related             •	 Public-Private Investment Program (“PPIP”).Treasury intended PPIP to
     loans held by a bank that it wishes to             restart frozen credit markets through the purchase of legacy assets (e.g., legacy
     sell, but recent market disruptions have           loans, CMBS, and residential mortgage-backed securities (“RMBS”)).39 PPIP
     made difficult to price.                           was intended to involve investments made through multiple Public-Private
                                                        Investment Funds (“PPIFs”) in two subprograms — one to purchase real
                                                                              quarterly report to congress I january 30, 2010             39




   estate-related loans (“legacy loans”) and the other to purchase real estate-related
   securities (“legacy securities”) from financial institutions. FDIC launched a              Legacy Securities: Troubled real estate-
   pilot Legacy Loans Program on July 31, 2009, with assets from the Franklin                 related securities (RMBS, CMBS), and
   Bank receivership.40 FDIC did not use TARP funds for this transaction.41 In the            ABS lingering on institutions’ balance
   Legacy Securities Program, Treasury selected nine fund managers to participate             sheets because their value could not
   in the program. As of December 31, 2009, the nine PPIF managers had closed                 be determined.
   their initial capital-raising efforts and had received debt and equity financing of
   $18.6 billion in TARP funds.42 Treasury has stated that PPIP will utilize up to
   approximately $30 billion of TARP funds.43 See the “Public-Private Investment
   Program” discussion later in this section for details about the program structure
   and fund manager terms.
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
   Administration Loan Support Initiative. Treasury announced in March 2009
   that it would begin purchasing up to $15 billion in securities backed by SBA
   loans under UCSB.44 Subsequently, two additional initiatives were announced
   to support small-business lending, and Treasury announced an increase of the
   TARP funding dedicated to support these efforts to $30 billion. As of December
   31, 2009, the details of the initiative under this program had not been an-
   nounced and no funds had been disbursed. See the discussion of “Unlocking
   Credit for Small Businesses/Small Business Administration Loan Support” in
   this section for more information on the program.

Automotive Industry Support Programs
The stated objective of TARP’s automotive industry support programs is to “prevent
a significant disruption of the American automotive industry, which would pose a
systemic risk to financial market stability and have a negative effect on the econo-
my of the United States.”45

•	 Automotive Industry Financing Program (“AIFP”). Under this program,
   Treasury made emergency loans to Chrysler, Chrysler Financial Services
   Americas LLC (“Chrysler Financial”), and GM. In addition to these invest-
   ments, Treasury purchased senior preferred stock from GMAC Inc. (“GMAC”).
   Treasury also provided financing to Chrysler and GM to assist in their re-
   structuring processes. As of December 31, 2009, Treasury had expended or
   committed $80.7 billion in AIFP investments, of which $2.5 billion had been
   repaid.46 Treasury received an 8% pro forma equity stake in Chrysler and a 61%             Pro Forma: In finance, refers to the pre-
   equity stake in GM as partial repayment of TARP funds.47 See the “Automotive               sentation of projected financial informa-
   Industry Financing Program” discussion later in this section for more                      tion assuming that certain transactions
   information on these companies.                                                            or developments will happen.
•	 Auto Supplier Support Program (“ASSP”). The stated purpose of ASSP is to
   provide Government-backed financing to break the adverse credit cycle affecting
40           special inspector general I troubled asset relief program




                                                       the auto suppliers and the manufacturers by “providing suppliers with the
                                                       confidence they need to continue shipping their parts and the support they need
                                                       to help access loans to pay their employees and continue their operations.”48
                                                       Treasury’s original commitment under this program was $5.0 billion, but, as
                                                       of December 31, 2009, it had been reduced to $3.5 billion — $1.0 billion for
                                                       Chrysler and $2.5 billion for GM.49 After emerging from bankruptcy, the new,
                                                       non-bankrupt GM and Chrysler assumed the debts associated with ASSP.50 As
                                                       of December 31, 2009, $140 million of TARP funds had been repaid under the
                                                       program.51 The program is scheduled to terminate in April 2010. See the discus-
                                                       sion of “Auto Supplier Support Program” in this section for more information.
                                                    •	 Auto Warranty Commitment Program (“AWCP”). AWCP was designed with
     For more information on AWCP, see                 the intention of bolstering consumer confidence in automobile warranties on
     SIGTARP’s October 2009 Quarterly                  Chrysler- and GM-built vehicles. The program was terminated in July 2009
     Report, page 91.                                  after Chrysler repaid its loan amount in full and GM repaid only the principal of
                                                       the loan.52

                                                    Homeowner Support Program
                                                    The homeowner support program and its initiatives are aimed at assisting troubled
                                                    homeowners and financial institutions holding the affected housing-related assets.

                                                    •	 Making Home Affordable (“MHA”) Program. According to Treasury, MHA is
                                                       a foreclosure mitigation plan intended to “help bring relief to responsible hom-
                                                       eowners struggling to make their mortgage payments while preventing neighbor-
                                                       hoods and communities from suffering the negative spillover effects of foreclo-
                                                       sure, such as lower housing prices, increased crime, and higher taxes.”53 Within
                                                       MHA, there are three major initiatives, only one of which involves TARP funds
                                                       — HAMP — which provides support to homeowners through mortgage modifi-
                                                       cations and foreclosure prevention efforts. Under HAMP, Treasury announced
                                                       that up to $50 billion of TARP funds could be expended in connection with this
                                                       $75 billion program.54 As of December 30, 2009, $35.5 billion in TARP funds
                                                       had been allocated to the program, and $15.4 million had been disbursed to
                                                       pay out the incentives on 11,574 of the 66,465 permanent modifications.55 The
                                                       remaining permanent modifications will receive incentive payments in the next
                                                       cycle. See the “Making Home Affordable” discussion in this section for more
                                                       detailed information.
                                                                           quarterly report to congress I january 30, 2010   41




   The following figures and tables provide a status summary of the implemented
and announced TARP and TARP-related initiatives:

•	 total potential funds subject to SIGTARP oversight as of December 31, 2009
   (Table 2.1)
•	 planned cumulative expenditures over time by program (Figure 2.3)
•	 planned expenditures outstanding, repayments, and reductions in exposure by
   program as of December 31, 2009 (Figure 2.4)
•	 planned expenditure levels by program as of December 31, 2009 (Table 2.2)
•	 summary of terms of TARP agreements (Table 2.3 and Table 2.4)
•	 summary of largest warrant positions held by Treasury by program as of
   December 31, 2009 (Table 2.5)
•	 summary of dividends, interest payments, and fees received by program as of
   December 31, 2009 (Table 2.6)

  For a reporting of all purchase, obligations, expenditures, and revenues of
TARP, see Appendix C: “Reporting Requirements.”
42                special inspector general I troubled asset relief program




     Table 2.1

      Total Potential funds subject to sigtarp oversight, As of 12/31/2009                                                                     ($ Billions)

                                                                                                                                                                Total Potential              Potential TARP
      Program                                                               Brief Description                                                               Funding at Risk ($)                Funding ($)a
      Capital Purchase Program (“CPP”)                                      Investments in 707 banks to date; received $121.9                                                 $204.9                    $204.9
      CLOSED                                                                billion in capital repayments                                                                   ($121.9)                   ($121.9)
      Automotive Industry Financing Program (“AIFP”)                        GM, Chrysler, GMAC, Chrysler Financial; received                                                     80.7                       80.7
                                                                            $2.5 billion in loan repayments                                                                     ($2.5)                    ($2.5)
      Auto Supplier Support Program (“ASSP”)                                Government-backed protection for auto parts                                                           3.5b                      3.5b
                                                                            suppliers; scheduled to close 4/2010                                                                ($0.1)                    ($0.1)
      Auto Warranty Commitment Program (“AWCP”)                             Government-backed protection for warranties of cars                                                    0.6                        0.6
      CLOSED                                                                sold during the GM and Chrysler bankruptcy restruc-                                                 ($0.6)                    ($0.6)
                                                                            turing periods
      Unlocking Credit for Small Businesses (“UCSB”)/                       Purchase of securities backed by SBA loans; other                                                   30.0c                      30.0c
      Small Business Administration Loan Support                            supports for small-business lending
      Systemically Significant Failing Institutions                         AIG investment                                                                                       69.8                       69.8
      (“SSFI”)/AIG Investment Program
      Targeted Investment Program (“TIP”)                                   Citigroup, Bank of America investments                                                              40.0                      40.0
      CLOSED                                                                                                                                                                  ($40.0)                   ($40.0)
      Asset Guarantee Program (“AGP”)                                       Citigroup, ring-fence asset guarantee                                                             301.0                         5.0
      CLOSED                                                                                                                                                                ($301.0)                      ($5.0)
      Term Asset-Backed Securities Loan Facility                            FRBNY non-recourse loans for purchase of asset-                                                    300.0                       30.0d
      (“TALF”)                                                              backed securities
      Making Home Affordable (“MHA”) Program                                Modification of mortgage loans and foreclosure                                                       75.0                       50.0
                                                                            prevention efforts
      Public-Private Investment Program (“PPIP”)                            Disposition of legacy assets; Legacy Securities                                                      40.0                       30.0
                                                                            Program
      New Programs, or Funds Remaining for Existing                         Capacity to respond if financial conditions worsen and                                             324.4                      324.4
      Programs                                                              threaten economy
      Totale                                                                                                                                                              $1,003.8                     $698.8

      Notes: Numbers affected by rounding.
      a
        Potential TARP funding represents Treasury’s stated high-water mark of funding for each program. The “planned expenditures” referenced throughout this report represent the funds Treasury currently
        plans to expend for each program, and a majority of those are committed funds (e.g., signed agreements with TARP fund recipients).
      b
        Treasury’s original commitment under ASSP was $5 billion, but it was subsequently reduced to $3.5 billion effective 7/1/2009.
      c
        Treasury announced that it would make up to $30 billion in TARP funds available for UCSB/Small Business Administration loan support initiatives.
      d
        Treasury has told SIGTARP that it will provide up to $30 billion of TARP funds to support TALF. Treasury’s current TALF commitment is $20 billion, but should TALF exceed a total of $200
        billion in loans extended by FRBNY, then Treasury will provide additional TARP funds. For the purposes of this table $30 billion is considered a planned expenditure. Treasury has indicated that this
        number may change.	
      e
        According to Treasury, TARP expenditures are not expected to exceed $549.4 billion.


      Sources: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry in a Time of Crisis,”
      3/19/2009, www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, www.financial-
      stability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009; Treasury, “Treasury, Federal Reserve, and FDIC Provide Assistance to Bank of America,” 1/16/2009, www.
      treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.financialstability.
      gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, www.financialstability.gov/docs/fact-sheet.pdf, accessed 6/8/2009; Treasury, “Making Home
      Affordable: Updated Detailed Program Description,” 3/4/2009, www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009; Treasury, “Public-Private Investment Program,”
      4/6/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009; Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/5/2010.
                                                                                                                        quarterly report to congress I january 30, 2010                                   43




Figure 2.3

 PLANNED EXPENDITURES OUTSTANDING, BY PROGRAM, CUMULATIVE
 10/2008 − 12/2009
 $ Billions


$400

                                                                                                                                                             $30.0 PPIP
                                                                                                                                                                     a
300                                                                                                                                                           $0.0 AGP
                                                                                                                                                             $35.5 MHA
                                                                                                                                                                     b
                                                                                                                                                             $30.0 TALF
                                                                                                                                                                  c
                                                                                                                                                              $0.0 TIP
200                                                                                                                                                               d
                                                                                                                                                             $81.6 Auto                    PPIP
                                                                                                                                                                    Programs               AGP
                                                                                                                                                                                           MHA
                                                                                                                                                             $69.8 SSFI                    TALF
100                                                                                                                                                                                        TIP
                                                                                                                                                                                           Auto
                                                                                                                                                                     e
                                                                                                                                                                                           Programs
                                                                                                                                                             $83.0 CPP                     SSFI
                      0
   0                                                                                                                                                                                       CPP
       10/31 11/30 12/31 1/31                  2/28      3/31     4/30      5/31      6/30      7/31      8/31      9/30 10/31 11/30 12/31
                 2008                                                                     2009

       Notes: Numbers affected by rounding. The “planned expenditures” referenced throughout this report represent the funds Treasury currently plans to expend for each program, and a
       majority of those are committed funds (e.g., signed agreements with TARP fund recipients). Numbers are net of repayments or reductions in exposure.
       a Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This
         amount was not an actual outlay of cash. It was never disbursed and the agreement was terminated.
       b Treasury has told SIGTARP that it will provide up to $30 billion of TARP funds to support TALF. Treasury’s current TALF commitment is $20 billion, but should TALF exceed a total of $200
         billion in loans extended by FRBNY, then Treasury will provide additional TARP funds. For the purpose of this graphic, $30 billion is considered a planned expenditure. Treasury has indicated
         that this number may change.
       c TIP funding of $40 billion had been repaid.
       d Auto Programs include AIFP, ASSP, and AWCP. The following auto-related funding had been repaid: $2.5 billion for AIFP, $0.6 billion for AWCP, and $140 million for ASSP.
       e CPP funding of $121.9 billion had been repaid.


       Sources: Treasury, Transactions Report, 1/4/2010; Treasury response to SIGTARP data call, 1/5/2010.




Figure 2.4

PLANNED EXPENDITURES OUTSTANDING, REPAYMENTS, AND
REDUCTIONS IN EXPOSURE BY PROGRAM
$ Billions, % of $500.1 Billion

                    AIFP $80.7

                                     $2.5
                      $78.2
                                          SSFI $69.8                          Notes: Numbers affected by rounding. The “planned
                                                                              expenditures” referenced throughout this report represent the
                                                                              funds Treasury currently plans to expend for each program, and a
                                                                              majority of those are committed funds (e.g., signed agreements
     $121.9                                   TIP $40.0
                                                                              with TARP fund recipients). As of 12/31/2009, repayments
                                                                              included $121.9 billion of CPP funding; $3.3 billion of principal
                                             MHA $35.5                        payments related to auto program loans (including $2.5 billion in
                                                                              AIFP, $642 million associated with AWCP, and $140 million
                                          TALFb $30.0                         associated with ASSP); $40 billion in TIP funds, and a $5 billion
                  $83.0                                                       reduction in exposure under AGP.
                                                                              a
                                                                                Treasury’s original commitment under ASSP was $5 billion, but
 CPP $204.9                                                                     it was subsequently reduced to $3.5 billion effective 7/1/2009.
                                   PPIP $30.0                                   As of 12/31/2009, $140 million of repayments had been
                                                                                received.
                                 AGP $5.0                                     b
                                                                                Treasury has told SIGTARP that it will provide up to $30 billion
                               ASSPa $3.5                                       of TARP funds to support TALF. Treasury’s current TALF
               AWCP $0.6                                                        commitment is $20 billion, but should TALF exceed a total of
                                     $0.1
                                                                                $200 billion in loans extended by FRBNY, then Treasury will
                                                                                provide additional TARP funds. For the purposes of this figure,
    Planned Expenditures Outstanding                                            $30 billion is considered a planned expenditure. Treasury has
    Repayments and Reductions in Exposure                                       indicated that this number may change.

                                                                              Sources: Treasury, Transactions Report, 1/4/2010; Treasury,
                                                                              response to SIGTARP data call, 1/5/2010.
44             special inspector general I troubled asset relief program




     Table 2.2

      PLANNED EXPENDITURE LEVELS BY PROGRAM, AS OF 12/31/2009                                 ($ BILLIONS)

                                                                        Amount             Percent (%)
     Authorized Under EESA                                             $700.0
        Released Immediately                                                     $250.0         35.8%
        Released Under Presidential Certificate of Need                           100.0         14.3%
        Released Under Presidential Certificate of Need &
                                                                                  350.0         50.1%
            Resolution to Disapprove Failed
     Helping Families Save Their Homes Act of 2009                                 (1.2)        -0.2%
     Total Released                                                              $698.8       100.0%
                                                                                            Planned           Repaid/
                                                                             Planned Expenditure as          Reduced
     Less: Expenditures by Treasury under TARPa                           Expenditure % of Released          Exposure Outstanding   Section Reference
     Capital Purchase Program (“CPP”):                                                                                              “Financial Institution
        Multiple Investments                                                     $204.9         29.3%                               Support Programs”
     CPP Total Gross                                                             $204.9        29.3%         ($121.9)      $83.0
     Systemically Significant Failing Institutions (“SSFI”) Program/
                                                                                                                                    “Financial Institution
     AIG Investment Program
                                                                                                                                    Support Programs”
        American International Group, Inc. (“AIG”)                                $69.8         10.0%
     SSFI Total                                                                   $69.8        10.0%              $—       $69.8
     Targeted Investment Program (“TIP”):
                                                                                                                                    “Financial Institution
        Bank of America Corporation                                               $20.0          2.9%
                                                                                                                                    Support Programs”
        Citigroup, Inc.                                                            20.0          2.9%
     TIP Total                                                                    $40.0          5.7%         ($40.0)        $—
     Asset Guarantee Program (“AGP”):                                                                                               “Financial Institution
        Citigroup, Inc.b                                                           $5.0          0.7%                               Support Programs”
     AGP Total                                                                     $5.0          0.7%          ($5.0)        $—
     Term Asset-Backed Securities Loan Facility (“TALF”):                                                                             “Asset Support
        TALF LLCc                                                                 $30.0          4.3%                                   Programs”
     TALF Total                                                                   $30.0          4.3%             $—       $30.0
     Automotive Industry Financing Program (“AIFP”):
        General Motors Corporation                                                $49.5          7.1%
                                                                                                                                    “Automotive Industry
        GMAC Inc.                                                                  17.2          2.5%                                Support Programs”
        Chrysler Holding LLC                                                       12.5          1.8%
        Chrysler Financial LLCd                                                     1.5          0.2%
     AIFP Total                                                                   $80.7        11.6%           ($2.5)      $78.2
     Automotive Supplier Support Program (“ASSP”):
                                                                                                                                    “Automotive Industry
        GM Suppliers Receivables LLCe                                              $2.5          0.4%
                                                                                                                                     Support Programs”
        Chrysler Holding LLCe                                                       1.0          0.1%
     ASSP Total                                                                    $3.5          0.5%          ($0.1)       $3.4
     Automotive Warranty Commitment Program (“AWCP”):
                                                                                                                                    “Automotive Industry
        General Motors Corporation                                                 $0.4          0.1%
                                                                                                                                     Support Programs”
        Chrysler Holding LLC                                                        0.3          0.0%
     AWCP Total                                                                    $0.6          0.1%          ($0.6)        $—
                                                                                                                          quarterly report to congress I january 30, 2010                                       45




  PLANNED EXPENDITURE LEVELS BY PROGRAM, AS OF 12/31/2009                                                           ($ BILLIONS)
                                                                                                       Planned                      Repaid/
                                                                                        Planned Expenditure as                     Reduced
                                                                                     Expenditure % of Released                     Exposure Outstanding                    Section Reference
Legacy Securities Public-Private Investment Program
(“PPIP”)
     AG GECC PPIF Master Fund, L.P.                                                             $3.3                    0.5%
     AllianceBernstein Legacy Securities Master Fund, L.P.                                       3.3                    0.5%
     BlackRock PPIF, L.P.                                                                        3.3                    0.5%
     Invesco Legacy Securities Master Fund, L.P.                                                 3.3                    0.5%
                                                                                                                                                                              “Asset Support
     Marathon Legacy Securities Public-Private Investment
                                                                                                                                                                                Programs”
        Partnership, L.P.                                                                         3.3                   0.5%
     Oaktree PPIP Fund, L.P.                                                                      3.3                   0.5%
     RLJ Western Asset Public/Private Master Fund, L.P.                                           3.3                   0.5%
     UST/TCW Senior Mortgage Securities Fund, L.P.f                                               3.3                   0.5%
     Wellington Management Legacy Securities PPIF Master
        Fund, L.P.                                                                              3.3                    0.5%
PPIP Total                                                                                    $30.0                    4.3%                $—              $30.0
Making Home Affordable (“MHA”):
     Countrywide Home Loans Servicing LP                                                      $6.8                    1.0%
     J.P. Morgan Chase Bank, NA                                                                3.9                    0.6%
     Wells Fargo Bank, NA                                                                      3.7                    0.5%
     OneWest Bank                                                                              2.2                    0.3%
                                                                                                                                                                               “Homeowner
     Wachovia Mortgage, FSB                                                                    2.1                    0.3%
                                                                                                                                                                            Support Programs”
     CitiMortgage, Inc.                                                                        2.0                    0.3%
     GMAC Mortgage Services, Inc.                                                              1.9                    0.3%
     American Home Mortgage Servicing, Inc.                                                    1.5                    0.2%
     Litton Loan Servicing LP                                                                  1.4                    0.2%
     Other Financial Institutions                                                             10.3                    1.5%
MHA Total                                                                                    $35.5                    5.1%                 $—              $35.5
TARP Expenditures Subtotal                                                                  $500.1                   71.6%
TARP Repayments/Reductions in Exposure Subtotal                                                                                    ($170.2)
TARP Outstanding Subtotal                                                                                                                                $330.0
Balance Remaining of Total Funds Made Available as
of 12/31/2009                                                                                                                                            $368.8

Notes: Numbers affected by rounding.
a
  The “planned expenditures” referenced throughout this report represent the funds Treasury currently plans to expend for each program, and a majority of those are committed funds (e.g., signed agreements
   with TARP fund recipients).
b
  Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not an
  actual outlay of cash. It was never disbursed and the agreement was terminated.
c
  Treasury has told SIGTARP that it will provide up to $30 billion of TARP funds to support TALF. Treasury’s current TALF commitment is $20 billion, but should TALF exceed a total of $200 billion in loans
  extended by FRBNY, then Treasury will provide additional TARP funds. For the purposes of this table $30 billion is considered a planned expenditure. Treasury has indicated that this number may change.
d
  Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
e
  Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maxiumum loan amount, which will be funded incrementally. Treasury’s original commitment under this
  program was $5 billion, but it was subsequently reduced to $3.5 billion effective 7/1/2009.
f
  According to Treasury, TCW is no longer a PPIF manager. Its holdings will be liquidated and re-allocated to other fund managers.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A Joint Resolution Relating to the Disapproval of Obligations under the Emergency Economic Stabilization Act
of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury Transactions Report, 1/4/2010; Treasury, response
to SIGTARP data call, 1/5/2010.
46    special inspector general I troubled asset relief program




     Table 2.3

      Equity Agreements
     TARP Program               Company                  Date of Agreement                 Cost Assigned                Description of Investment
                                                                                                                        Senior Preferred Equity
                                                         “10/14/2008a
     CPP – Public               286 QFIs                                                     $200.1 billion
                                                         and later”
                                                                                                                        Common Stock Purchase Warrants
                                                                                                                        Preferred Equity

     CPP – Private              368 QFIs                 “11/17/2008 and later”
                                                                          b
                                                                                                 $4 billion
                                                                                                                        “Preferred Stock Purchase Warrants that
                                                                                                                        are exercised immediately”
                                                                                                                        Non-Cumulative Preferred Equity

     SSFI                        AIG                     4/17/2009                             $41.6 billion   c        Common Stock Purchase Warrants



                                                                                                                        Non-Cumulative Preferred Equity
     SSFI                        AIG                     4/17/2009                             $29.8 billiond
                                                                                                                        Common Stock Purchase Warrants
                                                                                                                        Trust Preferred Securities
     TIP                        Citigroup                12/31/2008                            $20.0 billione
                                                                                                                        Warrants

                                Bank of                                                                                 Senior Preferred Equity
     TIP                                                 1/16/2009f                            $20.0 billion
                                America                                                                                 Warrants
                                                                                                                        Mandatorily Convertible Preferred Stockg
     AIFP                       GMAC                     12/29/2008                              $5.0 billion
                                                                                                                        Preferred Stock Purchase Warrants that are exercised immediately
                                                                                                                        Mandatorily Convertible Preferred Stockh
     AIFP                       GMAC                     5/21/2009                               $7.5 billion           Preferred Stock Purchase Warrants that are exercised immediately
                                                                                                                        Common Equity Interesth
     AIFP                       GMAC                     5/29/2009                               $0.9 billion           Common Equity Interest

                                                                                                                        Trust Preferred Securities
     AIFP                       GMAC                     12/30/2009                              $2.5 billion
                                                                                                                        Trust Preferred purchase warrants that are exercised immediately
                                                                                                                        Mandatorily Convertible Preferred Stock
     AIFP                       GMAC                     12/30/2009                              $1.3 billion
                                                                                                                        Preferred Stock Purchase Warrants that are exercised immediately
     AGP                        Citigroup                12/23/2009                              $2.2 billion           Trust Preferred Securities with warrants
     PPIP                       All PPIF                 “9/30/2009 and lateri”                $10.0 billion            Membership interest in a partnership
                                Managers
     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CPP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
       Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
     f
        Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 1/15/2009.
     g
       On December 30, 2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatory convertible preferred stock (“MCP”).
     h
       On December 30, 2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 35% to 56% due to this
       conversion.
     i
       Agreements signed by fund managers on various dates. First agreement signed on 9/30/2009.

     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
     12/31/2008; Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and
     Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler, Indicative
     Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS,
     response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/5/2010.
                                                                                                     quarterly report to congress I january 30, 2010                 47




Investment Information                                                                             Dividends      Term of Agreement
1-3% of risk-weighted assets, not to exceed $25 billion for each QFI                     “5% for first 5 years,   Perpetual
                                                                                               9% thereafter”
15% of senior preferred amount                                                                              —     Up to 10 years
1-3% of risk-weighted assets, not to exceed $25 billion for each QFI                     “5% for first 5 years,   Perpetual
                                                                                               9% thereafter”
5% of preferred amount                                                                                     9%     Perpetual

$41.6 billion aggregate liquidation preference                                                            10%     Perpetual
2% of issued and outstanding common stock on investment date of 11/25/2008; the                             —     Up to 10 years
warrant was originally for 53,798,766 shares and had a $2.50 exercise price, but after
the 6/30/2009 split, it is for 2,689,938.30 shares and has an exercise price of $50.
Up to $29.8 billion aggregate liquidation preference. As of 9/30/2009, the aggregate                      10%     Perpetual (life of the facility is 5 years)
liquidation preference was $3.2 billion.
150 common stock warrants outstanding; $0.00002 exercise price                                              —     Up to 10 years
$20 billion                                                                                                8%     Perpetual
10% of total preferred stock issued; $10.61 exercise price                                                  —     Up to 10 years
$20 billion                                                                                                8%     Perpetual
10% of total preferred stock issued; $13.30 exercise price                                                  —     Up to 10 years
$5 billion                                                                                                 9%     Converts to common equity interest after 7 years
5% of original preferred amount                                                                            9%     Converts to common equity interest after 7 years
$4.5 billion                                                                                               9%     Converts to common equity interest after 7 years
5% of original preferred amount                                                                            9%     Converts to common equity interest after 7 years
$3.0 billion                                                                                                —     Perpetual
This equity interest was obtained by exchanging a prior debt obligation with GM. See                        —     Perpetual
“Debt Agreements” table for more information.
$2.5 billion                                                                                               8%     Redeemable upon the repayment of the debenture
5% of trust preferred amount
$1.3 billion                                                                                               9%     Converts to common equity interest after 7 years
5% of preferred amount


Each of the membership interests will be funded upon demand from the fund manager.                          —     8 years with the possibility of extension for 2
                                                                                                                  additional years.
48               special inspector general I troubled asset relief program




     Table 2.4

      Debt Agreements
     TARP                                                          Date
     Program           Company                                     of Agreement                  Cost Assigned          Description of Investment
     CPP —             53 QFIs                                     1/14/2009      a
                                                                                                     $0.5 billion       Senior Subordinated Securities
     S-Corps
                                                                                                                        Senior Subordinated Security Warrants that are exercised
                                                                                                                        immediately
     AIFP              GM                                          12/31/2008                       $19.8 billionb      Debt Obligation with Warrants and Additional Note




     AIFP              GM                                          1/16/2009                         $0.9 billion       Debt Obligation



     AIFP              Chrysler                                    1/2/2009c                         $4.8 billionb      Debt Obligation with Additional Note




     AIFP              Chrysler Financial                          1/16/2009                         $1.5 billion       Debt Obligation with Additional Note




     AIFP              Chrysler                                    5/1/2009                          $3.8 billion       Debt Obligation with Additional Note




     AIFP              Chrysler                                    5/27/2009                         $6.6 billion       Debt Obligation with Additional Note, Equity Interest




     AIFP              GM                                          6/3/2009, amended                $30.1 billion       Debt Obligation with Additional Note
                                                                   7/10/2009




     ASSP              GM Supplier Receivables LLC                 4/9/2009                          $2.5 billion       Debt Obligation with Additional Note



     ASSP              Chrsyler Receivables SPV LLC                4/9/2009                          $1.0 billion       Debt Obligation with Additional Note



     PPIP              All PPIF Managers                           “9/30/2009                       $20.0 billion       Debt obligation with contingent interest promissory note
                                                                   and later”d


     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
     c
       Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.
     d
       Agreements signed by fund managers on various dates. First agreement signed on 9/30/2009.

     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
     12/31/2008; Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan
     and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler,
     Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,”
     1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/5/2010.
                                                                                                   quarterly report to congress I january 30, 2010                     49




Investment Information                                                               Interest / Dividends                            Term of Agreement
Each QFI may issue senior securities with an aggregate principal amount of           7.7% for first 5 years; 13.8% thereafter        30 years
1% – 3% of its risk-weighted assets, but not to exceed $25 billion.
Treasury will receive warrants to purchase an amount equal to 5% of the              13.8%                                           30 years
senior securities purchased on the date of investment.
This loan was funded incrementally; $4 billion funded on 12/31/2008, $5.4            For General Advances - (i) the greater of (a)   12/29/2011
billion funded on 1/21/2009, $4 billion funded on 2/17/2009. Subsequently,           3-Month LIBOR or (b) 2% plus (ii) 3%; For
this loan was then amended; $2 billion on 4/22/2009 and $4 billion on                Warrant Advances (i) the greater of (a) 3-
5/20/2009 (General Advances). In addition, on 5/27/2009, $361 million was            Month LIBOR for the related Interest Period
set aside in an SPV for the AWCP (Warranty Advances).                                or (b) 2% plus (ii) 3.5%
This loan was exchanged for a portion of GM’s common equity interest                 3-Month LIBOR + 3%                              1/16/2012
in GMAC LLC on 5/29/2009. See “Equity Agreement” table for more
information.
Loan of $4 billion; Additional note of $267 million (6.67% of the maximum            For General Advances - (i) the greater of (a)   1/2/2012
loan amount). Subsequently, this loan was then amended; $500 million on              3-Month LIBOR or (b) 2% plus (ii) 3%; For
4/29/2009, this amount was never drawn and subsequentlly de-obligated                Warrant Advances (i) the greater of (a) 3-
(General Advances). In addition, on 4/29/2009, $280 million was set aside in         Month LIBOR for the related Interest Period
an SPV for the AWCP, this advance was repaid (Warrant Advances).                     or (b) 2% plus (ii) 3.5%
Loan was funded incrementally at $100 million per week until it reached              LIBOR + 1% for first year                       1/16/2014
the maximum amount of $1.5 billion on 4/9/2009. Additional note is $75               LIBOR + 1.5% for remaining years
million (5% of total loan size), which vests 20% on closing and 20% on each
anniversary of closing.
Loan of $3.0 billion committed to Chrysler for its bankruptcy period.                (i) the greater of (a) 3 Month Eurodollar or    9/30/2009, subject to certain
Subsequently, this loan was amended; $757 million was added on                       (b) 2% plus (ii) 3.0%                           conditions
5/20/2009. Treasury funded $1.9 billion during bankruptcy period. The
remaining amount will be de-obligated.
Commitment to New CarCo Acquisition LLC (renamed Chrysler Group LLC                  For $2 billion: (i) The 3-Month Eurodollar      For $2 billion note:
on or about 6/10/2009) of up to $6.642 billion. The total loan amount is             Rate, plus (ii) (a) 5% or, on loans extended    12/10/2011; provided that
up to $7.142 billion including $500 million of debt assumed from Treasury’s          past the original maturity date, (b) 6.5%.      issuer may extend maturity for
1/2/2009 credit agreement with Chrysler Holding LLC. The debt obligations            For $5.142 billion note: (i) The 3-Month        up to $400 million of principal
are secured by a first priority lien on the assets of New CarCo Acquisition          Eurodollar Rate plus 7.91% and (ii) an          to 6/10/2017.  For other
LLC (the company that purchased Chrysler LLC’s assets in a sale pursuant to          additional $17 million in PIK interest per      notes: 6/10/2017.
section 363 of the Bankruptcy Code).                                                 quarter. For other notes: 3-Month Eurodollar
                                                                                     Rate plus 7.91%.
Original $30.1 billion funded. Amended loan documents provided that $986             Originally, (i) the greater of (a) 3 Month      Originally 10/31/2009, For
million of the original DIP loan was left for the old GM. In addition $7.1 billion   Eurodollar or (b) 2% plus (ii) 3.0%. For        amounts assumed by New
was assumed by New GM of which $0.4 billion was repaid resulting in $6.7             amounts assumed by New GM, the interest         GM, June 10, 2015, subject
billion remaining outstanding.                                                       rates became (i) the greater of (a) 3-Month     to acceleration
                                                                                     Eurodollar or (b) 2% plus (ii) 5%
The original amount was $3.5 billion, but it was decreased permanently to            (i) the greater of (a) LIBOR for the related    4/9/2010
$2.5 billion effective 7/1/2009.                                                     interest period or (b) two percent (2%) plus
                                                                                     (ii) three and five-tenths percent (3.5%)
The original amount was $1.5 billion, but it was decreased permanently to            (i) the greater of (a) LIBOR for the related    4/9/2010
$1.0 billion effective 7/1/2009.                                                     interest period or (b) two percent (2%) plus
                                                                                     (ii) three and five-tenths percent (3.5%)
Each of the loans will be funded incrementally, upon demand by the fund              LIBOR + 1%                                      The debt obligation for each
manager.                                                                                                                             fund matures at the earlier of
                                                                                                                                     the dissolution of the fund or
                                                                                                                                     10 years.
50                special inspector general I troubled asset relief program




     Table 2.5

      LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 12/31/2009
                                                                                         Current                                                                                                 Amount
                                                                                      Number of                   Current            Stock Price                                      “In the Money” or
                                                          Transaction                  Warrants                    Strike                  as of                  In or Out          “Out of the Money”
     Participant                                                Date                 Outstanding                    Price           12/31/2009              of the Money?            as of 12/31/2009
     Capital Purchase Program (“CPP”):
       Bank of America Corporation                        10/28/2008                  73,075,674                    $30.79                   $15.06                        OUT                    ($15.73)
       Bank of America Corporation                           1/9/2009                 48,717,116                    $30.79                   $15.06                        OUT                    ($15.73)
       Citigroup Inc.                                     10/28/2008                 210,084,034                    $17.85                     $3.31                           N/A                    N/A
       Wells Fargo & Company                              10/28/2008                 110,261,688                    $34.01                   $26.99                        OUT                     ($7.02)
     Systemically Significant Failing Institutions (“SSFI”) Program/AIG Investment Program:
       AIGa                                               11/25/2008                   2,689,938                    $50.00                   $29.98                        OUT                    ($20.02)
       AIGa                                                 4/17/2009                           150                  $0.00                   $29.98                             IN                 $29.98
     Targeted Investment Program (“TIP”):
       Citigroup Inc.                                     12/31/2008                 188,501,414                    $10.61                     $3.31                       OUT                     ($7.30)
       Bank of America Corporation                         1/16/2009                 150,375,940                    $13.30                   $15.06                             IN                  $1.76
     Asset Guarantee Program (“AGP”):
       Citigroup Inc.                                      1/16/2009                  66,531,728                    $10.61                     $3.31                       OUT                     ($7.30)
     Notes: Numbers affected by rounding.
     a
       All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.

     Sources: Treasury, Transactions Report, 1/4/2010; Treasury, responses to SIGTARP data call, 1/5/2010 and 10/7/2009; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.




                                                                           Table 2.6

                                                                            DIVIDENDs, interest payments, and fees
                                                                            by program ($ MIllions)
                                                                           Program            Dividends               Interest                Feesa                 Total
                                                                           CPP                 $8,283.1                  $17.6                $13.3            $8,314.0
                                                                           SSFI                          —                    —                    —                     —
                                                                           TIP                   3,004.4                      —                    —            3,004.4
                                                                           AGP                      276.7                     —                    —               276.7
                                                                           AIFP  b
                                                                                                    936.1                343.0                     —            1,279.1
                                                                           ASSP                          —                 11.3                    —                 11.3
                                                                           PPIP                          —                   1.7                   —                     1.7
                                                                           Total            $12,500.3                  $373.6                $13.3         $12,887.3
                                                                           Notes: Numbers affected by rounding. Data as of 12/31/2009.
                                                                           a
                                                                             There were $13 million in fees received as part of the Banco Popular exchange and $300,000
                                                                             in fees from the public auction of warrants.
                                                                           b
                                                                             Includes AWCP.

                                                                           Sources: Treasury, response to SIGTARP data call, 1/5/2010; Capital IQ, Inc. (a division of
                                                                           Standard & Poor’s), www.capitaliq.com.
                                                                              quarterly report to congress I january 30, 2010         51




Financial Institution SUPPORT Programs
Treasury created five TARP programs that involve investment of capital or guaran-
tee of assets in return for equity in financial institutions. Two investment pro-
grams, the Capital Purchase Program (“CPP”) and the Capital Assistance Program
(“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
three programs, the Systemically Significant Failing Institutions (“SSFI”) program,
Targeted Investment Program (“TIP”), and Asset Guarantee Program (“AGP”),
were made available on a case-by-case basis to specific institutions needing excep-
tional assistance above that of CPP. Treasury has indicated that it does not expect
to make any additional investments through these previously announced programs,
although it is contemplating new programs to support small-business lending that
may mirror CPP.56
    On November 9, 2009, Treasury announced that CAP will close with no invest-
ments having been made. CAP was originally set up to “provide a mechanism for               For more information on CPP, CAP,
additional taxpayer support in financial institutions subject to the Supervisory            and SCAP, see SIGTARP’s July 2009
Capital Assessment Program (“SCAP”)” — the evaluation of capital adequacy of                Quarterly Report and SIGTARP’s October
                                                                                            2009 Quarterly Report, pages 45 and 55,
the 19 largest bank holding companies (“BHCs”) commonly referred to as the
                                                                                            respectively.
“stress test.”57 According to the Federal Reserve, 9 of the 10 bank holding compa-
nies that needed to raise additional capital as a result of SCAP have successfully
done so in the private markets. The exception, GMAC, has received $3.8 billion58
from Treasury through the Automotive Industry Financing Program (“AIFP”)
to meet its remaining capital needs.59 For more information on GMAC, see the
“Automotive Industry Support Programs” discussion in this section.

Capital Purchase Program
According to Treasury, the purpose of CPP was to invest in healthy, viable banks to
promote financial stability, maintain confidence in the financial system, and permit
institutions to meet the credit needs of American consumers and businesses.60
Treasury has invested a total of $204.9 billion of TARP funds in QFIs under CPP.61
    CPP was amended to provide additional funding for small banks in May 2009;
on November 21, 2009, Treasury closed the last application window for CPP for
Small Banks.62 According to SIGTARP analysis, as of December 31, 2009, 64
banks had been funded under CPP for Small Banks for a total of $382.3 million.63
Although small banks may no longer apply to CPP for assistance, Treasury has indi-
cated that it intends to launch a similar program, investing capital in small banks in
an effort to stimulate small-business lending.64
    In the Treasury Secretary’s December 9, 2009, announcement of Treasury’s
plans to wind down its TARP investments, he commented that CPP “through
which the majority of TARP investments in banks have been made, is effectively
closed.”65 As of December 31, 2009, through CPP, Treasury has received payments
52                  special inspector general I troubled asset relief program




 Figure 2.5
                                                            of approximately $17.6 million in interest, $8.3 billion in dividends, and $4.0 bil-
     SNAPSHOT OF CPP FUNDS                                  lion through the sale of warrants.66 For a summary of CPP funds outstanding and
     OUTSTANDING AND REPAID,
                                                            associated repayments, see Figure 2.5.
     BY QUARTER
     $ Billions
                                                            Status of Funds
             $198.8 $203.2 $204.6 $204.9
               $0.4                                         As of December 31, 2009, Treasury had purchased $204.9 billion in preferred
 $200
      $177.5 $198.4 $70.1 $70.7 $121.9                      stock and subordinated debentures from 707 different QFIs in 48 states, the
  150 $177.5                                                District of Columbia, and Puerto Rico. See Figure 2.6 for the geographical dis-
                                 $133.1 $133.9              tribution of all the QFIs that have received funding. Although the eight largest
      100
                                                    $83.0   investments accounted for $134.2 billion of the program, CPP also had many more
       50
                                                            modest investments: 331 of 707 recipients received $10 million or less. Table 2.7
         0                                                  and Table 2.8 show the distribution of the investments by size.
             Q408        Q109     Q209     Q309     Q409

                  CPP Funds Outstanding at Quarter’s End
                  CPP Funds Repaid at Quarter’s End         Table 2.7


 Notes: Numbers affected by rounding. Data as of            CPP INVESTMENT SUMMARY BY TRANSACTION
 12/31/2009 and reflected in calendar quarters.
                                                                                                                                                 Originala                 Currentb
 Source: Treasury, Transactions Report, 1/4/2010.           Total Investment                                                               $204.9 Billion                 $83 Billion
                                                            Largest Capital Investment                                                          $25 Billion               $25 Billion
                                                            Smallest Capital Investment                                                         $301,000                  $301,000
                                                            Average Capital Investment                                                     $277.6 Million            $122.9 Million
                                                            Median Capital Investment                                                        $10.3 Million              $9.9 Million
                                                            Notes: Numbers affected by rounding. Data as of 12/31/2009.
                                                            a
                                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                            b
                                                              Current amount does not include those investments that have already been repaid and is based on total investments
                                                            outstanding.

                                                            Source: Treasury, Transactions Report, 1/4/2010.


                                                            Table 2.8
                                                            CPP INVESTMENT SIZE BY INSTITUTION
                                                                                                                                         Originala                                  Currentb
                                                            $10 Billion or More                                                                    6                                          1
                                                            $1 Billion to $10 Billion                                                             19                                         12
                                                            $100 Million to $1 Billion                                                            57                                         45
                                                            Less than $100 Million                                                              625                                        591
                                                            Total                                                                              707                                        649
                                                            Notes: Numbers affected by rounding. Data as of 12/31/2009. Data is based on the institutions’ total CPP investments. There are more
                                                            than 30 institutions that have received multiple transactions through CPP.
                                                            a
                                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                            b
                                                              Current amount does not include those investments that have already been repaid and is based on total investments outstanding.

                                                            Source: Treasury, Transactions Report, 1/4/2010.
                                                                            quarterly report to congress I january 30, 2010                               53




Figure 2.6

TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                             $10 Billion or More
                                                                                             $1 Billion to $10 Billion
                                                                                             $100 Million to $1 Billion
                                                                                             $10 Million to $100 Million
                                                                                             Less than $10 Million
                                                                                             $0



                                                                                          Note: Banks in Montana and Vermont did not receive any CPP funds.

                                                                                          Source: Treasury, “Local Impact of the Capital Purchase Program,”
                                                                                          12/9/2009, www.financialstability.gov, accessed 1/7/2010.




   Although CPP was meant for investments in healthy and viable banks, some
CPP recipients have filed for bankruptcy protection. As of December 31, 2009,
three CPP participants have sought bankruptcy protection:

•	 UCBH Holdings, Inc. (“UCBH”) declared bankruptcy on November 24,
   2009, after its main banking subsidiary, United Commercial Bank (“UCB”), was
   closed by the FDIC on November 6, 2009.67 Treasury invested $298.7 million in
   UCBH through CPP on November 14, 2008.68
•	 Pacific Coast National Bancorp declared bankruptcy on December 17, 2009,
   after its main banking subsidiary, Pacific Coast National Bank, was closed by the
   FDIC on November 13, 2009.69 Treasury invested $4.1 million in Pacific Coast
   National Bancorp through CPP on January 16, 2009.70
•	 CIT Group Inc. (“CIT”) filed for bankruptcy protection on November 1,
   2009.71 Treasury invested $2.3 billion in CIT through CPP on December 31,
   2008.72
54           special inspector general I troubled asset relief program




                                                        According to Treasury, “it is unlikely that Treasury will receive any significant
      Net Asset Value: The value of all of
                                                    recovery on these investments.” In addition, in its TARP Financial Statements
      the assets minus any estimated costs
      associated with those assets.                 dated September 30, 2009, Treasury estimates the net asset value of its investment
                                                    in CIT at zero.73 For a more detailed discussion of these failures and the effect
                                                    they have on TARP funds, see “TARP Tutorial: How Taxpayers Lose TARP Money
                                                    When Banks Fail” in this section.

                                                    Repayment of Funds
     For more information on CPP repayment,         As of December 31, 2009, 64 banks had repurchased some or all of their shares
     see SIGTARP’s July 2009 Quarterly Report,      from Treasury, with Treasury receiving $121.9 billion in principal repayments, leav-
     page 48.                                       ing an outstanding CPP balance of approximately $83.0 billion. Table 2.9 shows
                                                    the 12 CPP share repurchases greater than $1 billion completed as of December
                                                    31, 2009. For a full listing of CPP share repurchases, see Appendix D: “Transaction
                                                    Detail.”
                                                        As of December 31, 2009, six out of the eight institutions that received the
                                                    largest CPP investments had repurchased their preferred shares including Bank
                                                    of America, which is discussed in greater detail in the next section. Although
                                                    Citigroup did not repay its CPP funds, it did repay its TIP investment and ter-
                                                    minated its AGP agreement.74 See the “Targeted Investment Program and Asset
                                                    Guarantee Program” discussion in this section for details.


                                                    Table 2.9

                                                     CPP SHARE REPURCHASES GREATER THAN $1 BILLION,
                                                     AS OF 12/31/2009 ($ Billions)
                                                    Repurchase                                                              Amount of
                                                    Date                         Institution                               Repurchase
                                                    6/17/2009                    JPMorgan Chase & Co.                           $25.0
                                                    12/23/2009                   Wells Fargo & Company                           25.0
                                                    12/09/2009                   Bank of America Corporation                     25.0
                                                    6/17/2009                    Morgan Stanley                                  10.0
                                                    6/17/2009                    The Goldman Sachs Group, Inc.                   10.0
                                                    6/17/2009                    U.S. Bancorp                                     6.6
                                                    6/17/2009                    Capital One Financial Corporation                3.6
                                                    6/17/2009                    American Express Company                         3.4
                                                    6/17/2009                    BB&T Corp.                                       3.1
                                                    6/17/2009                    The Bank of New York Mellon Corporation          3.0
                                                    6/17/2009                    State Street Corporation                         2.0
                                                    6/17/2009                    Northern Trust Corporation                       1.6
                                                    Total                                                                     $118.3
                                                    Note: Numbers affected by rounding.

                                                    Source: Treasury, Transactions Report, 1/4/2010.
                                                                            quarterly report to congress I january 30, 2010   55




Bank of America Repayment
On December 9, 2009, Bank of America repaid $45 billion in TARP funds ($25
billion from CPP and $20 billion from TIP) making it the largest single TARP
repayment to date. In addition to the $45 billion to repurchase its preferred shares
held by Treasury, Bank of America also paid an additional $190 million of accrued
dividends owed to Treasury.75 As of December 31, 2009, Treasury still held Bank of
America’s warrants that it had received in connection with CPP and TIP. As a result
of its repayment, Bank of America is no longer considered an “exceptional assis-
tance” institution and is no longer subject to TARP executive compensation restric-
tions going forward.76 For more information on Treasury’s investments with Bank
of America, see SIGTARP’s Quarterly Report to Congress dated April 21, 2009 (the
“April 2009 Quarterly Report”) and SIGTARP’s Quarterly Report to Congress dated
July 21, 2009 (the “July 2009 Quarterly Report”) on pages 76 and 69, respectively.
     Under the terms of the authorization from the Federal Reserve and Treasury,
Bank of America repurchased its preferred shares using $19.3 billion in capi-
tal raised during a recent securities offering, in addition to excess cash on hand
generated through normal business operations. In the securities offering, Bank
of America sold 1.29 billion securities equivalent to common equity for $15.00
each.77 Additionally, Bank of America agreed to increase equity by $3 billion
through asset sales by June 30, 2010, subject to approval by the Federal Reserve.78
Bank of America will also issue restricted common stock in lieu of cash compensa-
tion to employees of approximately $1.7 billion. Taken together, these three actions
brought the total increase in common shareholders’ equity associated with TARP
redemption to $24 billion. As reported in SIGTARP’s Quarterly Report to Congress
dated October 21, 2009 (the “October 2009 Quarterly Report”), Bank of America
had previously agreed to pay $425 million to Treasury, the FDIC, and the Federal
Reserve to terminate the AGP term sheet. According to Treasury, this fee compen-
sates the Government for the value Bank of America received from the announce-
ment of the possible Government guarantee and loss sharing agreement.79

Dividend and Interest Payments
As of December 31, 2009, Treasury had received $8.3 billion from both dividends
and interest from its CPP investments. Among CPP recipients, 74 QFIs have
missed CPP dividend payments to Treasury; some of these institutions made the
payments on a later date. As of December 31, 2009, this has resulted in $140.7
million in missed CPP dividend payments.80
    If a QFI misses six quarterly dividend payments, Treasury obtains the right
to elect two directors to sit on the QFI’s board.81 As of December 31, 2009, no
participants were yet subject to this penalty (the program has been in existence for
less than five quarters). Out of the 74 QFIs that have missed dividend payments,
15 have since paid their outstanding dividends, and one has not paid any dividends
56             special inspector general I troubled asset relief program




                                                            to the Government for the last four quarters. Table 2.10 lists the banks that have
                                                            one or more missed dividend payment as of December 31, 2009. For a complete
                                                            listing of CPP recipients and the institutions that have paid dividends or interest,
                                                            see Appendix D: “Transaction Detail.”
     Table 2.10

     CPP-Related Missed dividend payments, AS OF 12/31/2009                           (continued)

                                                                                                                                     Value of Missed
                                                                         Cumulative/                   Number of Consecutive               Dividends
     Institution                                                         Non-Cumulative             Missed Dividend Payments          ($ Thousands)
     CIT Group Inc.                                                      Cumulative                                       2                $58,250.0
     Popular, Inc.                                                       Cumulative                                       1                 11,687.5
     First BanCorp                                                       Cumulative                                       2                 10,000.0
     First Banks, Inc.                                                   Cumulative                                       2                   8,049.7
     Sterling Financial Corporation/Sterling Savings Bank                Cumulative                                       2                   7,575.0
     UCBH Holdings, Inc.                                                 Cumulative                                       2                   7,468.4
     Pacific Capital Bancorp                                             Cumulative                                       3                   6,773.8
     Anchor BanCorp Wisconsin, Inc.                                      Cumulative                                       3                   4,354.2
     Dickinson Financial Corporation II                                  Cumulative                                       2                   3,980.0
     Central Pacific Financial Corp.                                     Cumulative                                       2                   3,375.0
     Midwest Banc Holdings, Inc.                                         Cumulative                                       3                   3,179.4
     Seacoast Banking Corporation of Florida/Seacoast National Bank      Cumulative                                       3                   1,875.0
     Integra Bank Corporation                                            Cumulative                                       1                   1,044.8
     Hampton Roads Bankshares, Inc.                                      Cumulative                                       1                   1,004.3
     Independent Bank Corporation                                        Cumulative                                       1                     900.0
     Centrue Financial Corporation                                       Cumulative                                       2                     816.7
     Blue Valley Ban Corp                                                Cumulative                                       3                     815.6
     Royal Bancshares of Pennsylvania, Inc.                              Cumulative                                       2                     760.2
     PremierWest Bancorp                                                 Cumulative                                       1                     517.5
     Heritage Commerce Corp.                                             Cumulative                                       1                     500.0
     Cascade Financial Corporation                                       Cumulative                                       1                     487.1
     TIB Financial Corp/TIB Bank                                         Cumulative                                       1                     462.5
     One United Bank                                                     Non-Cumulative                                   3                     452.4
     Pacific City Financial Corporation/Pacific City Bank                Cumulative                                       2                     441.5
     United American Bank                                                Non-Cumulative                                   3                     349.0
     Rogers Bancshares, Inc.                                             Cumulative                                       1                     340.6
     Commonwealth Business Bank                                          Non-Cumulative                                   3                     314.8
     TriState Capital Holdings, Inc.                                     Cumulative                                       1                     313.4
     FC Holdings, Inc. (First Community Bank, National Association)      Cumulative                                       1                     286.7
     Citizens Bancorp                                                    Cumulative                                       2                     283.4
                                                                                                                               Continued on next page.
                                                                             quarterly report to congress I january 30, 2010             57




CPP-Related Missed dividend payments, AS OF 12/31/2009                (continued)

                                                                                                                     Value of Missed
                                                         Cumulative/                   Number of Consecutive               Dividends
Institution                                              Non-Cumulative             Missed Dividend Payments          ($ Thousands)
Peninsula Bank Holding Co.                               Cumulative                                       3                     237.5
Northern States Financial Corporation / Norstates Bank   Cumulative                                       1                     215.1
Idaho Bancorp                                            Cumulative                                       2                     188.0
The Connecticut Bank and Trust Company                   Non-Cumulative                                   3                     178.6
Pacific Coast National Bancorp                           Cumulative                                       3                     168.4
Pacific International Bancorp Inc                        Cumulative                                       2                     162.5
Premier Service Bank                                     Non-Cumulative                                   3                     160.5
One Georgia Bank                                         Non-Cumulative                                   2                     155.7
Commerce National Bank                                   Non-Cumulative                                   3                     150.0
Farmers & Merchants Bancshares, Inc.*                    Cumulative                                       1                     149.9
Ridgestone Financial Services, Inc./Ridgestone Bank      Cumulative                                       1                     148.5
Regent Bancorp, Inc*                                     Cumulative                                       1                     136.0
Georgia Primary Bank                                     Non-Cumulative                                   2                     132.2
Lone Star Bank                                           Non-Cumulative                                   3                     129.8
OSB Financial Services, Inc.                             Cumulative                                       1                     127.9
Syringa Bancorp                                          Cumulative                                       1                     109.0
Patterson Bancshares, Inc                                Cumulative                                       2                     100.6
Pierce County Bancorp                                    Cumulative                                       1                      92.7
Pacific Commerce Bank**                                  Non-Cumulative                                   2                      87.3
Citizens Commerce Bancshares, Inc.                       Cumulative                                       1                      85.8
US Metro Bank*                                           Non-Cumulative                                   2                      81.9
Beach Business Bank                                      Non-Cumulative                                   1                      81.8
Rising Sun Bancorp                                       Cumulative                                       1                      81.5
Grand Mountain Bancshares, Inc.                          Cumulative                                       2                      77.3
Saigon National Bank                                     Non-Cumulative                                   4                      75.5
Midtown Bank & Trust Company*                            Non-Cumulative                                   1                      71.1
Citizens Bank & Trust Company                            Non-Cumulative                                   2                      65.4
Northeast Bancorp*                                       Cumulative                                       1                      52.8
Redwood Capital Bancorp*                                 Cumulative                                       1                      51.8
Pathway Bancorp                                          Cumulative                                       1                      50.8
Community Bank of the Bay                                Non-Cumulative                                   3                      50.7
IA Bancorp, Inc/Indus American Bank*                     Cumulative                                       1                      49.9
Community First Bank                                     Non-Cumulative                                   2                      50.0
Congaree Bancshares, Inc.*                               Cumulative                                       1                      44.8
Omega Capital Corp./Front Range Bank                     Cumulative                                       1                      38.4
Goldwater Bank, N.A.*                                    Non-Cumulative                                   1                      35.0
Tri-State Bank of Memphis*                               Non-Cumulative                                   1                      34.9
Fresno First Bank                                        Non-Cumulative                                   2                      33.4
                                                                                                               Continued on next page.
58                special inspector general I troubled asset relief program




      CPP-Related Missed dividend payments, AS OF 12/31/2009                                                      (continued)

                                                                                                                                                                                       Value of Missed
                                                                                              Cumulative/                               Number of Consecutive                                Dividends
     Institution                                                                              Non-Cumulative                         Missed Dividend Payments                           ($ Thousands)
     Green Circle Investments, Inc./Peoples Trust & Savings Bank*                             Cumulative                                                                 1                              32.7
     Maryland Financial Bank                                                                  Non-Cumulative                                                             1                              23.2
     Seacoast Commerce*                                                                       Non-Cumulative                                                             1                              14.2
     Bern Bancshares, Inc.*                                                                   Cumulative                                                                 1                              13.4
     Corning Savings and Loan Association*                                                    Non-Cumulative                                                             1                                   8.7
     The Freeport State Bank                                                                  Non-Cumulative                                                             1                                   4.1
     Total                                                                                                                                                                                   $140,693.3

     Notes: Numbers affected by rounding. Approximately $2.7 million of the $140.7 million in missed CPP dividend payments are non-cumulative and Treasury has no legal right to missed dividends that are
     non-cumulative.
     *CPP recipients that have since fully paid missed dividends.
     **CPP recipients that have partially paid missed dividends.

     Source: Treasury, response to SIGTARP data call, 1/12/2010.



                                                                          Warrant Disposition
                                                                          To facilitate a return to the taxpayer, EESA mandated that Treasury receive war-
                                                                          rants when it invests in troubled assets. The warrants provide Treasury the right
                                                                          to purchase shares of common stock for publicly traded institutions, or preferred
                                                                          stock or debt in the case of non-publicly traded institutions, at a fixed price.82 CPP
                                                                          warrants expire 10 years from the date of the CPP investment. As of December 31,
                                                                          2009, Treasury had not exercised its right under the warrants to purchase common
                                                                          shares in any of the public institutions.83 For non-public institutions, warrants are
                                                                          immediately exercised upon closing of the initial investment.84
                                                                              According to Treasury-issued guidance, after a CPP recipient repays its TARP
                                                                          funds, there are three means through which Treasury may dispose of the recipient’s
                                                                          warrants or preferred shares from exercised warrants:85

                                                                          •	 A publicly traded TARP recipient may repurchase its warrants at fair market
                                                                             value through negotiations with Treasury, as set forth in the CPP agreements.
                                                                             Thirty-one publicly traded institutions have repurchased their warrants in this
                                                                             manner.
                                                                          •	 A non-publicly traded TARP recipient may repurchase its Treasury-held pre-
                                                                             ferred shares that resulted from the exercise of its warrants. There have been 6
                                                                             non-publicly traded institutions that have repurchased their preferred shares.
                                                                          •	 If a publicly traded TARP recipient does not repurchase the warrants directly
                                                                             from Treasury, then Treasury will sell the warrants on the open market through
                                                                             an auction. As of December 31, 2009, Treasury had auctioned its warrants
                                                                             in three institutions: JPMorgan Chase & Co. (“JPMorgan”), Capital One
                                                                             Financial Corporation (“Capital One”), and TCF Financial Corporation (“TCF
                                                                             Financial”).

                                                                          Repurchase of Warrants by Financial Institutions
                                                                          As of December 31, 2009, 31 public institutions had repurchased their warrants
                                                                          for a total of $2.9 billion, and 6 private institutions whose warrants were immedi-
                                                                          ately exercised into preferred shares repurchased those shares for a total of
                                                                                                                           quarterly report to congress I january 30, 2010   59




$2.6 million. For a list of the top 10 public institutions that had repaid their TARP
funds and repurchased their warrants as of December 31, 2009, see Table 2.11.
For a list of private institutions that had repaid their TARP funds and repurchased
their preferred share as of December 31, 2009, see Table 2.12. For a full listing of
all warrant repurchases, see Appendix D: “Transaction Detail.”
Table 2.11

tOP 10 CPP WARRANT REPURCHASES (PUBLIC), AS OF 12/31/2009
                                                                                     Number of                      Amount of
Repurchase                                                                            Warrants                    Repurchase
Date                    Institution                                                Repurchased                     ($ Millions)
07/22/2009              The Goldman Sachs Group, Inc.                                 12,205,045                       $1,100.0
08/12/2009              Morgan Stanley                                                65,245,759                           950.0
07/29/2009              American Express Company                                      24,264,129                           340.0
07/15/2009              U.S. Bancorp                                                  32,679,102                           139.0
                        The Bank of New York Mellon                                                                        136.0
08/05/2009                                                                            14,516,129
                        Corporation
08/26/2009              Northern Trust Corporation                                     3,824,624                             87.0
07/22/2009              BB&T Corp.                                                    13,902,573                             67.0
07/08/2009              State Street Corporationa                                      2,788,104                             60.0
12/30/2009              Trustmark Corporation                                          1,647,931                             10.0
05/27/2009              FirstMerit Corporation                                            952,260                              5.0
Total                                                                             172,025,656                         $2,894.0

Notes: Numbers affected by rounding. This table represents warrants for common stock issued to Treasury by publicly traded
TARP recipients.
a
  State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.

Source: Treasury, Transactions Report, 1/4/2010.

Table 2.12

CPP REPURCHASES of preferred shares resulting from immediate
exercise of warrants (private), AS OF 12/31/2009
                                                                               Number of                             Amount of
Repurchase                                                                      Warrants                           Repurchase
Date                   Institution                                           Repurchased                         ($ Thousands)
4/15/2009              Centra Financial Holdings, Inc.                                     750                              $750.0
04/22/2009             First ULB Corp.                                                     245                                245.0
5/27/2009              First Manitowoc Bancorp, Inc.                                       600                                600.0
11/10/2009             Midwest Regional Bancorp, Inc.                                        35                                 35.0
11/18/2009             1st United Bancorp, Inc.                                            500                                500.0
12/23/2009             Midland States Bancorp, Inc.                                        509                                509.0
Total                                                                                   2,639                           $2,639.0

Notes: Numbers affected by rounding. This table represents the preferred shares held by Treasury as a result of the exercise of war-
rants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.

Source: Treasury, Transactions Report, 1/4/2010.
60            special inspector general I troubled asset relief program




                                                     Treasury Auction
     Dutch Auction: For Treasury’s warrant
                                                     In those instances in which a CPP recipient cannot agree with Treasury on a
     auctions (which have multiple bidders
     bidding for different quantities of the         negotiated price for its warrants, the warrants are sold through an auction process.
     asset), the accepted price is set at the        Treasury uses a modified Dutch auction that allows investors to submit bids to the
     lowest bid of the group of high bidders,        auction agent (Deutsche Bank), at specified increments above a minimum price
     whose collective bids fulfill the amount        that is set for each auction.86 Deutsche Bank receives bids from the bidders and
     offered by Treasury. In an example,             determines the final price of the warrants. It then allocates the warrants to the
     three investors place bids to own a             winning bidders.87 On June 8, 2009, SIGTARP announced an audit of Treasury’s
     portion of 100 shares offered by the            process for the disposition of warrants. This audit is expected to be released over
     issuer.                                         the upcoming months.
                                                         According to the prospectus issued by the participating TARP recipient, bid-
     Bidder A wants 50 shares at $4/share
                                                     ding begins at 8:00 a.m. on a specific date that is set by Deutsche Bank. Bidders
     Bidder B wants 50 shares at $3/share
                                                     have until 6:30 p.m. on the same day to place their bids. For all auctions, there is a
     Bidder C wants 50 shares at $2/share
                                                     minimum bid price, a minimum size (i.e., number of warrants), and set bidding in-
                                                     crements that are all determined by Deutsche Bank and Treasury. TARP recipients
     The seller selects Bidder A and B as
     the two highest bidders, and their col-         may choose to bid on their own warrants but are under no obligation to participate.
     lective bids consume the 100 shares             In order to place a bid, a bidder must have an account with either Deutsche Bank
     offered. The winning price is $3, which         or a network broker.
     is what both bidders pay per share.                 Once the submission deadline has passed, bids that have not been withdrawn
     Bidder C’s bid is not filled.                   are considered final and cannot be revoked or changed — meaning bidders that
                                                     have successfully bid on the warrants will be obligated to purchase the amount that
     Auction Agent: A firm (such as an               is allocated to them by Deutsche Bank at the final price.88
     investment bank) that buys an issuance
     of securities from one institution and          Warrant Auctions for Capital One, JPMorgan Chase, and TCF Financial
     resells the securities to another inves-
                                                     On November 19, 2009, Treasury announced its intent to sell the warrant positions
     tor or multiple investors. Also called an
                                                     it holds in JPMorgan, Capital One, and TCF Financial through an auction process.
     “underwriter.”
                                                     Each of these institutions repaid its TARP funds and chose not to repurchase its
                                                     warrants directly from Treasury, allowing Treasury to auction off the warrants in the
     Prospectus: Documents which disclose
     and describe a securities offering              public market.89 Treasury completed all three auctions, raising approximately $1.1
     to the public and private investors,            billion.90 Final closing information for all auctions is found in Table 2.13.
     containing information required under
     Federal and state securities laws as
     applicable.

     Network Broker: An intermediary be-
     tween a buyer and seller of a security.
     In the auction of Treasury warrants,
     there is a set group of brokers that will
     be allowed to accept and submit bids
     to Deutsche Bank, the auction agent.
                                                                                                        quarterly report to congress I january 30, 2010   61




Table 2.13

TREASURY AUCTIONS, AS OF 12/31/2009
                                              Capital One                    JPMorgan             TCF Financial
Date of Auction                                 12/3/2009                  12/10/2009               12/15/2009
# of Warrants Offered                          12,657,960                   88,401,697                3,199,988
Minimum Bid Price                                     $7.50                        $8.00                    $1.50
Minimum Bid Size                              100 warrants                 100 warrants            100 warrants
Clearing Price                                      $11.75                       $10.75                     $3.00
Proceeds to Treasury                         $146.5 Million               $936.1 Million              $9.5 Million
Note: Numbers affected by rounding.

Sources: Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/
data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009; JPMorgan, “Prospectus Supplement,” 12/11/2009, www.
sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 12/29/2009; TCF Financial, “Prospectus
Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed
12/29/2009.




Use of Funds
From SIGTARP’s inception, it has been recommending that Treasury require all
TARP recipients to report periodically on their use of TARP funds. As reported in
the SIGTARP audit, “Additional Insight on Use of Troubled Asset Relief Program
Funds,” dated December 10, 2009, Treasury has recently agreed to survey and
report upon recipients’ use of TARP funds. Treasury will be obtaining and reporting
to the public qualitative responses from each TARP recipient on its use of TARP
funds, backed by quantitative data obtained from the recipients’ regulators and
Treasury’s own analysis. Treasury will be collecting and publicly reporting this data
on an institution-by-institution basis, and will publish the names of any institutions
that do not respond. SIGTARP believes that this reporting will provide meaningful
information to the public and to policy makers on whether TARP programs have
met their goals.
62            special inspector general I troubled asset relief program




                                                              TARP Tutorial: How Taxpayers Lose TARP
                                                              Money When Banks Fail

                                                              Introduction
     Problem List: A list of banks that the
                                                              The creation of TARP elevated the taxpayers’ exposure to bank failures by making them
     FDIC considers to be weak in terms
     of safety and soundness. See the
                                                              direct investors in more than 700 institutions — generally as preferred shareholders. The
     discussion “The Mechanics of Closing                     recent bankruptcies of CIT, UCBH, and Pacific Coast National Bancorp, all TARP recipients
     a Bank” for more information.                            through CPP, are tangible examples of the risk that failing CPP banks pose to the U.S.
                                                              taxpayer. This tutorial provides a briefing on the mechanics of a bank closing in which a
     “Run” on the Bank: A situation in
                                                              TARP investment is involved and describes possible outcomes for distressed financial
     which large numbers of depositors
     suddenly and simultaneously demand                       institutions and the resulting impact on their investors, including U.S. taxpayers.
     to withdraw their deposits from                              Bank failures are on the rise — a common occurrence after a financial crisis or major
     a bank. This may be caused by a                          recession. Table 2.14 shows the number of bank failures in the United States from 2000 –
     decline in depositor confidence or
                                                              2009, including the period that marks the current credit crisis.
     fear that the bank will be closed by
     the chartering agency. Banks keep                            It is impossible to predict how many additional banks will succumb over the next
     only a small fraction of their deposits                  several years. According to the FDIC website, however, the number of institutions on its
     in cash reserves, and thus, large                        “Problem List” is at a 16-year high. As of September 30, 2009, there were 552 insured
     numbers of withdrawals in a short
                                                              institutions on the list, the largest number of problem institutions since the fallout from
     period of time can cause even a
     healthy bank to have a severe liquidity
                                                              the savings and loan (“S&L”) crisis resulted in 575 institutions being placed on the list by
     crisis that could cause the bank to be                   December 31, 1993.91 The FDIC does not publish the names of problem banks on its web-
     unable to meet its obligations and fail.                 site for fear that disclosing such information would cause a “run” on the bank’s deposits.
                                                                  As the current credit crisis continues to evolve, more bank failures are likely in the near
       Table 2.14
                                                              future. The FDIC has predicted that the additional bank failures expected to occur over the
       NUMBER OF U.S. BANK                                    next several years will cost the agency approximately $100 billion to resolve.92
       FAILURES, 2000 – 2009
       Year             Number of Failed Banks
                                                              Federal Agencies with Financial Institution Supervisory and
       2000                                              7
                                                              Regulatory Authority
       2001                                              4
                                                              U.S. depository institutions report to at least one of five different Federal agencies as
       2002                                            11
       2003                                              3
                                                              their “primary Federal regulator.” Although some banks are state-chartered, they too are
       2004                                              4    subject to Federal regulation through their dealings with the FDIC or the Federal Reserve.
       2005                                              0    Depository institutions can be classified as banks, thrifts, or credit unions; for purposes of
       2006                                              0    this section, the term “bank” will refer to all types of depository institutions.
       2007                                              3
       2008                                            25
       2009                                          140
       Source: FDIC, “Failures and Assistance Transactions,
       Number of Institutions, United States and DC, 1934-
       2009,” www2.fdic.gov/hsob/HSOBSummaryRpt.asp?
       BegYear=2009&EndYear=1934&State=2, accessed
       1/6/2010.
                                                                                                                        quarterly report to congress I january 30, 2010             63




     The various financial Federal regulatory agencies and the institution types regulated
                                                                                                                                        Charter: The legal authorization to
by each are described in Table 2.15. As seen in Figure 2.7, the largest group of institu-
                                                                                                                                        conduct business granted to a financial
tions by asset size is the commercial banking community with $14 trillion in assets under                                               institution by the Federal or state
management.                                                                                                                             government.

Table 2.15                                                                                                                              Banks: Institutions that accept demand
BANKING SUPERVISORY AND REGULATORY AGENCIES                                                                                             deposits or deposits that the deposi-
Federal Agency                                    Institutions Supervised as “Primary Regulator”                                        tor may withdraw by check or similar
Board of Governors of the Federal                 Bank holding companies (including financial holding companies),                       means for payment to third parties or
Reserve System (“FRB”)                            state-chartered Federal Reserve member commercial banks                               others, and that are engaged in the
Federal Deposit Insurance                         State-chartered Federal Reserve nonmember commercial                                  business of making commercial loans.
Corporation (“FDIC”)                              banks, state-chartered savings banks                                                  Banks also take other types of depos-
National Credit Union Administration              Credit unions                                                                         its and make residential, consumer,
(“NCUA”)
                                                                                                                                        and other types of loans. Generally,
Office of the Comptroller of the                  National chartered commercial banks                                                   commercial banks specialize in provid-
Currency (“OCC”)
                                                                                                                                        ing short-term business credit.
Office of Thrift Supervision (“OTS”)              State or Federal charter savings and loans (thrift) associations

Sources: Federal Financial Institutions Examination Council, “Enforcement Actions and Orders,” 11/23/2009, www.ffiec.gov/enforce-       Thrifts: Organizations that, like banks,
ment.htm, accessed 12/9/2009; FDIC, “Historical Statistics on Banking, Introduction,” www2.fdic.gov/hsob/help.asp#DEFINITIONS,
accessed 12/10/2009; FRB, “The Federal Reserve System, Purposes & Functions, Section 5: Supervision and Regulation,” www.               accept savings account deposits, but
federalreserve.gov/pf/pdf/pf_5.pdf, accessed 12/10/2009.
                                                                                                                                        which specialize in providing real estate
                                                                                                                                        lending, such as loans for single-family
Figure 2.7                                                                                                                              homes and other residential properties.
                                                                                                                                        Savings banks and savings and loan
FINANCIAL ASSETS OWNED BY INSTITUTION TYPE
AND FEDERAL REGULATOR, AS OF 9/30/2009                                                                                                  associations are examples of thrifts.
$ Trillions
                                                                                                                                        Credit Unions: Non-profit financial
                        0       $3.0          $6.0         $9.0         $12.0        $15.0
                                                                                                                                        cooperative organizations composed
Commercial Banks                                                                                                                        of individuals with a common affiliation
(FRB, FDIC, OCC)a
                                                                                                                                        (such as place of employment). These
              Thrifts                                                                                                                   individuals pool their funds to form the
               (OTS)
                                                                                                                                        institution’s deposit base and typically
      Credit Unions                                                                                                                     the group owns and controls the institu-
            (NCUA)                                                                                                                      tion together. Credit unions also accept
                                                                                                                                        savings account deposits and provide
Note: Numbers affected by rounding.                                                                                                     loans.
a
  Commercial banks include U.S.-chartered commercial banks, foreign banking offices in the U.S.,
  bank holding companies, and banks in U.S.-affiliated areas.

Source: Federal Reserve, Flow of Funds Accounts of the United States, Report Z.1, 12/10/2009,
www.federalreserve.gov/releases/Z1/current/Z1.pdf, accessed 12/14/2009.
64             special inspector general I troubled asset relief program




                                                          Although the Federal Reserve, FDIC, OCC, OTS, and state banking regulators perform
     What is the FDIC? The FDIC was created
                                                      primary supervisory and regulatory functions over banks within their charter authority,
     in 1933 in response to the thousands of
                                                      when regulators decide that a bank is in trouble and should be closed, the FDIC is the
     bank failures following the Great Depres-
     sion.93 The agency has three functions:94        agency responsible for resolving the bank’s financial structuring problems and acting as
     1. insuring consumer’s deposits at               the bank’s receiver.98 NCUA performs a similar function for credit unions.
          banks
     2. examining and supervising financial
                                                      The Mechanics of Closing a Bank
          institutions
     3. resolving banks that are deemed               The FDIC defines a bank failure as the closing of a bank by a Federal or state banking
          “insolvent” or “failed” and therefore       regulatory agency. A bank is typically closed when it becomes severely undercapitalized or
          placed into FDIC “receivership”             is unable to meet its obligations.99 Upon closing, the Federal or state banking regulatory
     The FDIC’s basic insurance amount,
                                                      agency typically appoints the FDIC as receiver for the failed bank.
     which is set by statute, is currently
                                                          According to the FDIC, the FDIC, as receiver, assumes the task of managing or dispos-
     $250,000 per depositor, per insured
     bank. The FDIC provides separate                 ing of the failed bank’s assets in a manner that attempts to maximize value and minimize
     coverage for deposits held in different          cost and settling the failed bank’s debts. The FDIC generally proceeds one of two ways:100
     account ownership categories. This
     means that depositors may qualify
                                                      •	 The FDIC transfers the deposit liabilities and sells the assets to a healthy bank (“sell the
     for more coverage if they have funds
     in different ownership categories.95                bank”).
     For example, a depositor who holds a             •	 The FDIC pays the depositors and liquidates the assets.
     single account in her name at a banking
     institution and who also holds a joint
                                                          The FDIC historically has preferred to sell the bank. This method involves selling the
     account with someone else at that same
     banking institution would be entitled to a       deposits and loans of the failed institution to another institution.101 Loans and other assets
     maximum coverage of $500,000. The
     FDIC is funded by premiums that banks
     pay for deposit insurance coverage
     and from earnings the FDIC makes on               Insolvent: A condition where a financial institution has liabilities that exceed its assets.
     its investments.96 The FDIC’s Deposit             By definition, shareholders’ equity in such a situation will be negative.
     Insurance Fund also has a line of credit
     with Treasury, which was permanently in-          Receiver: In bankruptcy, an independent and impartial third party appointed by the
     creased from $30 billion to $100 billion          court to assume the responsibility for efficiently recovering the maximum amount
     on May 20, 2009, as part of the Helping           possible from the disposition of the bankrupt entity’s assets in order to satisfy its
     Families Save Their Homes Act. This line          obligations to creditors. In banking, receivership typically translates into the bank’s
     of credit may also be increased to $500           operations and assets being assumed by the FDIC, which as the appointed receiver,
     billion through the end of 2010 if certain        may proceed to liquidate the insolvent institution or transfer some or all of its as-
     conditions are met.97                             sets to another institution. Unlike in bankruptcy law, the FDIC is not subject to court
                                                       supervision in administering the assets and liabilities of a failed institution. The FDIC is
                                                       appointed by the failed bank’s chartering authority.
                                                                                         quarterly report to congress I january 30, 2010             65




that are not sold in the initial sale to the assuming institution will be packaged and sold on
the broader financial market. The FDIC will service the loans of the closed bank until such              Purchase and Assumption (“P&A”):
time that it is able to sell them.
                                 102                                                                     A P&A is a method used by the FDIC
                                                                                                         to resolve a failing bank. In a P&A, a
    When the FDIC is preparing for the sale of a failing bank or thrift (which often occurs
                                                                                                         healthy financial institution purchases
before action is taken against the failing bank), it solicits potential bidders, or potential “as-       certain assets of a failed bank or thrift
suming institutions” that may be interested in acquiring the failed entity’s deposit franchise           and assumes certain liabilities, includ-
and/or the institution’s assets. The bidding process is confidential. The FDIC will set up a             ing all insured deposits.

due diligence website with estimated valuations and estimated shutdown costs for poten-
                                                                                                         Loss Sharing Agreement: An agree-
tial assuming banks to analyze. Interested banks will bid on the failed bank’s deposits.                 ment within a P&A in which the FDIC
    After bids are received, the FDIC selects the option that will cost the FDIC the least to            agrees to share in both the future
protect the failed bank’s insured depositors.103 Once an assuming bank is identified, the                losses and recoveries on certain as-
                                                                                                         sets of a failed bank with the assuming
FDIC will draft a purchase and assumption (“P&A”) transaction agreement identifying the
                                                                                                         institution. In the standard loss sharing
assets and liabilities to be assumed by the healthy bank, and, if applicable, it will draft a
                                                                                                         agreement, the FDIC will reimburse the
loss sharing agreement detailing the manner in which the FDIC and the assuming bank will                 assuming institution for 80% of any
share in any potential losses and recoveries on certain assets of the failed bank. These                 losses incurred on the acquired assets.
agreements may also provide for additional payments to the FDIC if the acquiring institu-                The assuming institution will absorb the
                                                                                                         remaining 20%.
tion’s stock price increases after the transaction.104 Such provisions are known as “equity
appreciation instruments” and may be used more frequently by the FDIC in P&A transac-                    Equity Appreciation Instrument: An
tions in 2010.105                                                                                        agreement entered into by the FDIC
    The FDIC will hold any assets that the assuming bank does not acquire until such                     and an acquiring institution as part of
                                                                                                         the P&A agreement in which the FDIC
assets can be sold. The FDIC may use structured loan sales transactions to dispose of
                                                                                                         receives additional cash payments or
the failed banks’ remaining loan portfolio. According to the FDIC, these types of transac-               stock from the acquiring institution
tions involve the sale of loans through the use of private/public partnerships. The benefit              if its stock price increases after the
of these relationships is that they leverage the asset management expertise of the private               transaction.

                                                                                                         Structured Loan Sales: Loans ac-
                                                                                                         quired by the FDIC from failed financial
    Undercapitalized: A condition in which a financial institution does not meet its regula-
                                                                                                         institutions are generally sold in pools
    tor’s requirements for having sufficient capital to continue to operate under a defined
                                                                                                         through auctions. Typically, sales con-
    level of adverse conditions.
                                                                                                         tain loans that have similar characteris-
                                                                                                         tics and are refined into pools accord-
    Loan Servicing: Collecting and processing the payments made on a loan during
                                                                                                         ing to specific criteria.
    the life of the loan including billing the borrower; collecting principal, interest, and
    payments into an escrow account; disbursing funds from the escrow account to pay
    taxes and insurance premiums; and forwarding funds to an investor if the loan has
    been sold in the secondary market.
66           special inspector general I troubled asset relief program




                                                    sector while providing the FDIC with a financial interest in all future cash flows generated
                                                    by the assets over time.106
                                                        In general, when the FDIC becomes the receiver of a failed bank it will pay off bank
                                                    creditors in the following priority:107


                                                    1.	 insured and uninsured depositors
                                                    2.	 general unsecured creditors
                                                    3.	 subordinated debt holders
                                                    4.	 shareholders


                                                        Shareholders are the last in line to receive their payment. This priority of claims is
                                                    similar to the order in which creditors are paid off when a company declares bankruptcy.
                                                    This situation is discussed in more detail in the following section.


                                                    Effect of a Bank Failure on a TARP Investment
     For more details on TARP’s CPP                 Since the inception of CPP in October 2008, Treasury has invested $204.9 billion in
     investments, see the “Capital Purchase         more than 700 financial institutions.108 In exchange for the funds invested through CPP,
     Program” discussion in this section.           Treasury received preferred shares and warrants and, in some cases, subordinated debt,
                                                    from TARP recipients. Should a TARP recipient fail, it is the nature of Treasury’s investment
                                                    that will determine whether taxpayers receive any payments in the bankruptcy or closing
                                                    process.
                                                        Preferred shares differ from common shares in that preferred shares typically have a
                                                    fixed rate of return, or dividend, which is paid over a set amount of time. Preferred shares
                                                    typically have fewer voting rights than common shares. Preferred shares also have a
                                                    higher claim on the assets and earnings of a corporation than common stock.
                                                        When a company declares bankruptcy, it can reorganize its debts or wind down and
                                                    liquidate assets; in either scenario, its assets may be sold to pay off debts and other credi-
                                                    tors according to the priorities as set forth in the U.S. Bankruptcy Code. Bankruptcy law
                                                    determines the order of payment in the event a company declares bankruptcy.
                                                                                           quarterly report to congress I january 30, 2010             67




Typically, the order of payment is as follows:109


1.	 secured creditors — creditors with a lien on a specific asset
2.	 unsecured creditors — creditors owed a debt not secured by a specific asset
3.	 shareholders — holders of equity in the company, including both preferred and
    common shareholders


    If there is any money left after paying off all debt holders and other creditors, any
remaining assets are returned to the company’s shareholders with preferred shareholders
receiving payment before common shareholders. Shareholders thus take on the greatest
amount of risk when they invest in a company. As preferred shareholders, U.S. taxpayers
fall in the category of shareholder in many of the Government’s TARP investments. If the
institutions fail, the taxpayers, like the other shareholders, will typically lose their invest-         For more information about bank-
                                                                                                         ruptcy and the hierarchy of claims, see
ment if there are no remaining funds after creditors have been paid.
                                                                                                         SIGTARP’s July 2009 Quarterly Report,
    When a bank is placed into receivership, shareholders will typically fare no better in               “TARP Tutorial: Bankruptcy,” page 97.
terms of recouping their investment than shareholders of a bankrupt company. This is be-
cause after depositors are paid off, the FDIC pays off remaining creditors’ claims accord-
ing to a similar priority as that dictated by U.S. bankruptcy law, which places shareholders
at the bottom of the list as discussed previously.110
                                                                                                           Bank Holding Company (“BHC”): A com-
                                                                                                           pany that controls a bank. Typically,
Recent TARP Losses: Financial Institutions in Trouble                                                      a company controls a bank through
According to the CPP application guidelines, TARP funds may be invested in bank hold-                      the ownership of 25% or more of its
                                                                                                           voting securities. The Federal Reserve
ing companies (“BHCs”), financial holding companies, insured depository institutions, and
                                                                                                           defines a bank holding company as
S&L holding companies that engage solely or predominately in activities that are permis-                   any company that directly or indirectly
sible for financial holding companies under relevant law.111 In this section, we examine                   owns, controls, or has the power to
two cases in which TARP funds were invested in bank holding companies that went into                       vote 25% or more of any class of the
                                                                                                           voting shares of a bank; controls in any
bankruptcy.
                                                                                                           manner the election of a majority of
    Although Treasury has projected an overall profit from CPP, any such profit will be                    the directors or trustees of a bank; or
diminished by billions of dollars in losses in certain CPP investments in which the banks                  is found to exercise a controlling influ-
have closed or reorganized. Three TARP recipients — CIT, UCBH, and Pacific Coast                           ence over the management or policies
National Bancorp — have declared bankruptcy. Although there were two different paths to                    of a bank.
68             special inspector general I troubled asset relief program




                                                      the organizations’ bankruptcies, the result for taxpayers appears to be the same — total
                                                      or near-total loss of their investment. CIT and UCBH illustrate these two possible paths for
                                                      failing banks.


                                                      CIT — How TARP Funds Are Lost When a Financial Institution Files for
                                                      Bankruptcy Protection
                                                      On December 31, 2008, Treasury invested $2 billion of CPP funds in CIT, a bank holding
                                                      company with various commercial finance businesses including lending to small and mid-
                                                      size businesses.112 CIT, which was founded in 1908, is a major lender to small businesses,
                                                      with more than $60 billion in finance and leasing assets supporting more than one million
                                                      borrowers.113 The current credit crisis left CIT with numerous bad loans, and the company
                                                      experienced severe liquidity problems.
     Chapter 11 Bankruptcy: A form of bank-               On November 1, 2009, CIT filed Chapter 11 Bankruptcy.114 Its depository institution,
     ruptcy in which a company typically              CIT Bank, however, did not file bankruptcy. As part of the company’s plan of reorganiza-
     reorganizes itself.
                                                      tion, CIT expected to reduce the total debt of its holding company by approximately $10
                                                      billion, which would significantly reduce its liquidity needs over the next three years.115
     Plan of Reorganization: A proposal
     prepared by a company in Chapter 11              None of CIT’s operating subsidiaries, including CIT Bank, a Utah state bank, were part
     bankruptcy. The plan, often prepared             of the bankruptcy filing, and those subsidiaries were expected to continue to operate as
     with the cooperation of creditors, de-           usual.116
     tails the necessary steps the company
                                                          The company’s plan of reorganization was approved by the bankruptcy court on
     must take in order to emerge from
     bankruptcy as a viable entity.                   December 8, 2009.117 Upon exiting bankruptcy, all of CIT’s existing common and pre-
                                                      ferred stock was deemed to no longer have any value and was cancelled.118 For its CPP
     Contingent Value Rights (“CVRs”): A              investment in CIT, the Government initially received preferred shares and warrants. Upon
     type of right given to stockholders of
                                                      the effectiveness of the plan of reorganization, on December 10, 2009, CIT’s shares and
     a company undergoing a reorganiza-
     tion that ensures the stockholders will          warrants were extinguished, and former holders of preferred shares received contingent
     receive additional benefit if a specified        value rights (“CVRs”). The CVRs were first introduced on October 16, 2009, as part of
     event occurs.                                    CIT’s attempt to work with creditors to formulate its plan of reorganization in anticipation of
                                                      voluntarily filing Chapter 11 bankruptcy.119
                                                          Theoretically, CVRs place Treasury in a position to recoup part of its investment in CIT.
                                                      If, in the future, the senior and junior debt holders are paid back 100%, then any residuals
                                                      would go to the CVR holders. At this time, it is unlikely that there will be any residual to
                                                                                    quarterly report to congress I january 30, 2010          69




pay Treasury for its preferred stock investment; in its TARP Financial Statements, Treasury
listed the value of its CIT investment as zero.120


UCBH — How TARP Funds Are Lost When a Financial Institution
Is Closed
On November 14, 2008, Treasury invested $298.7 million in UCBH through TARP’s CPP.121
Less than one year later, on November 6, 2009, UCB, the main banking subsidiary of
UCBH, was closed and sold to East West Bank.122
    According to the FDIC announcement of UCB’s closing, as of October 23, 2009, UCB
had total assets of $11.2 billion and total deposits of approximately $7.5 billion. East West
Bank paid the FDIC a premium of 1.1% for the right to assume all of UCB’s deposits. East
West Bank also agreed to purchase approximately $10.2 billion in UCB’s assets.123
    According to the FDIC, all shares of UCB were owned by its holding company,
UCBH.124 UCBH’s main asset was its ownership of UCB bank stock. When UCB was placed
into receivership, that bank’s stock became worthless, and, as a direct result, UCBH was
forced into bankruptcy. On November 24, 2009, UCBH filed a Chapter 7 (liquidating)                  Chapter 7 Bankruptcy: A form of bank-
                                                                                                    ruptcy in which the company ceases all
bankruptcy.125
                                                                                                    operations and liquidates its assets.
    UCBH’s stock was delisted from the NASDAQ stock exchange on November 9, 2009,
due to NASDAQ concerns that there would be no residual interest remaining for sharehold-
ers once the liquidation of the company’s assets takes place.126 In cases such as this, it
is rare for equity investors (such as Treasury through its CPP investment) to recoup any of
their investment because UCBH’s liabilities exceed its assets and, therefore, no remaining
value will likely be allocated to its equity investors.


Comparison of Reopening vs. Liquidation
The two previous examples — CIT and UCB — represent the two most likely results for
a failed financial institution. Either the company emerges from the process intact under
its original name (and possibly management) as in the case of CIT, or it is broken up and
the assets sold off, as in the case of UCB. In either case, U.S. taxpayers, as preferred
shareholders, will likely lose 100% of their investment.
70            special inspector general I troubled asset relief program




                                                     Systemically Significant Failing Institutions Program/AIG
                                                     Investment Program
                                                     According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                     program was established to “provide stability and prevent disruptions to financial
                                                     markets from the failure of institutions that are critical to the functioning of the
     Cumulative Preferred Stock: A type of           nation’s financial system.”127 As of December 31, 2009, $69.8 billion had been al-
     stock that requires a defined dividend          located through the SSFI program to American International Group, Inc. (“AIG”),
     payment. If the company does not                the sole participant.128 In its TARP Financial Statements, Treasury projected that,
     pay the dividend, it still owes the             as of September 30, 2009, the present value of its investment in AIG would result
     missed dividend to the stock’s owner.           in a loss of $30.4 billion.129

     Non-cumulative Preferred Stock:                 Status of SSFI Funds
     Unpaid dividends do not accrue on
                                                     On November 2, 2008, Treasury made its initial investment in AIG with the
     shares of stock when a company
                                                     purchase of $40 billion of Series D cumulative preferred AIG stock and common
     does not make a dividend payment.
                                                     stock warrants. On April 17, 2009, AIG and Treasury signed a securities exchange
                                                     agreement in which Treasury exchanged the Series D cumulative preferred stock
     Equity Capital Facility: A commitment
     to invest equity capital in a firm under        for Series E non-cumulative preferred stock. In addition to the exchange agree-
     certain future conditions.                      ment, on April 17, 2009, Treasury committed to fund an equity capital facility for
                                                     AIG under which $29.8 billion may be drawn down in exchange for more preferred
                                                     stock and additional common stock warrants. As of December 31, 2009, AIG had
                                                     drawn down $5.3 billion from the equity capital facility.130

     For more information on AIG’s preferred         AIG Update
     stock purchase, the AIG exchange, or its        Subsequent to SIGTARP’s October 2009 Quarterly Report, AIG continued to
     equity capital facility, see SIGTARP’s July     restructure its business. On November 6, 2009, AIG reported a net income of
     2009 Quarterly Report, page 60.
                                                     $455 million for the quarter ending September 30, 2009 — its second straight
                                                     quarterly profit—in contrast to the net loss of $24.5 billion posted in third-quarter
                                                     2008.131

                                                     Dividend Payments
                                                     On November 2, 2009, AIG failed to pay its fourth consecutive dividend payment
                                                     to Treasury.132 As a result, under the documents governing Treasury’s preferred
                                                     shares in AIG, Treasury has the right to elect the greater of (a) two members of the
                                                     AIG board of directors or (b) 20% of the entire board. This right will be retained
                                                     by Treasury until dividends are paid on Treasury’s preferred stock for four quarters
                                                     (need not be consecutive).133
                                                         According to Treasury, it has the right to select up to 3 of the 11 AIG directors.
                                                     Treasury is coordinating with AIG and has hired the executive search firm Korn/
                                                     Ferry International to assist in the selection of the directors.134 As of December 31,
                                                     2009, no directors had been selected by Treasury. The selection is expected to be
                                                     completed by mid-February.
                                                                               quarterly report to congress I january 30, 2010             71




Credit Facility Reduction
As discussed in SIGTARP’s April 2009 Quarterly Report, FRBNY announced plans                AIG is also the subject of at least three
to modify its September 2008 Revolving Credit Facility (a Federal Reserve facil-            SIGTARP audits. The first audit, dated
                                                                                            October 14, 2009, examines the large
ity not involving TARP funds) established with AIG. On December 1, 2009, AIG
                                                                                            bonus payments made to employees in
announced that it closed two transactions with FRBNY in which FRBNY accepted                AIG Financial Products Corp. (“AIGFP”)
$25 billion in preferred equity interests in two of AIG’s insurance special purpose         in March 2009. The second audit, dated
vehicles (“SPVs”) as satisfaction for $25 billion owed by AIG under the Revolving           November 17, 2009, examines the pay-
Credit Facility. As a result of the transactions, AIG’s outstanding principal balance       ments made to AIG’s counterparties by
on the credit facility decreased from $42 billion to $17 billion, and its total borrow-     FBRNY. The third yet-to-be-released
                                                                                            audit will examine Treasury’s governance
ing capacity under the facility was reduced from $60 billion to $35 billion.135
                                                                                            of financial institutions in which it has
                                                                                            acquired ownership interests, including
Sale of Business and Assets                                                                 AIG. To view these audit reports, visit www.
During the ten-month period ended October 31, 2009, AIG entered into agree-                 SIGTARP.gov. For more information on the
ments to sell or completed the sale of assets expected to generate $5.6 billion in          audit entitled “Factors Affecting Efforts to
after-tax proceeds.136 These dispositions included agreements to sell Nan Shan              Limit Payments to AIG Counterparties,” see
                                                                                            Section 1 of this report.
Life Insurance Company, Ltd. for $2.15 billion137 and portions of its investment
advisory and asset management business for $300 million.138 Consistent with the
terms of the Revolving Credit Facility, AIG announced plans to use proceeds from
the sale and disposition of its assets and operations to pay down its credit facility
with FRBNY.139 Treasury will receive no reimbursement from AIG unless and until
the FRBNY line of credit is repaid.140

Use of Funds Report
As part of AIG’s equity capital facility agreement with Treasury, it must submit a
use of funds report describing the expected use of the proceeds received from the
facility.141 As of December 31, 2009, the funds drawn down on the equity capital fa-
cility had been used to meet capital solvency requirements resulting from declines
in the value of investments and to purchase shares of United Guaranty Corporation
(“UGC”), an AIG subsidiary. In addition, funds have been used to provide capital
support to UGC and settle payments for UGC.142

Targeted Investment Program and Asset Guarantee Program
As of December 31, 2009, Treasury had invested and received repayment for
$40 billion of TARP funds in Citigroup and Bank of America through the Targeted
Investment Program (“TIP”).143
    The $40 billion investment occurred as a result of a $20 billion investment in
Citigroup on December 31, 2008, and an investment in Bank of America of
$20 billion on January 16, 2009.144 Although the Government still holds Citigroup
and Bank of America warrants from its TIP investments, the program is effectively
closed.
72            special inspector general I troubled asset relief program




                                                         On January 15, 2009, Treasury pledged $5 billion in loss protection for ap-
                                                     proximately $301 billion of Citigroup assets under the Asset Guarantee Program
                                                     (“AGP”).145 Although this was not a direct investment of cash, taxpayers faced up to
                                                     $5 billion in TARP exposure through the Government’s guarantee of the assets. In
                                                     return for the loss protection agreement, Treasury received approximately $4 billion
                                                     in Citigroup preferred stock.146 The AGP agreement was terminated on December
                                                     23, 2009.

                                                     Citigroup, Inc.
                                                     Treasury has not made any additional investments in Citigroup since January
                                                     2009; however, Treasury’s initial investments have been modified through a series
      Exchanges: In reference to the Citi-           of securities offerings. Through private, public, and Treasury CPP exchanges,
      group agreement, taking one type of            Citigroup exchanged a total of approximately $58 billion of preferred and trust
      stock (i.e., preferred) and converting         preferred securities into common stock. Additionally, on July 30, 2009, Treasury
      it at a specific rate to another type of       exchanged its TIP and AGP preferred shares for trust preferred shares. As a result
      stock (i.e., common).                          of the exchanges, Treasury controlled approximately $24 billion in Citigroup trust
                                                     preferred securities and approximately $25 billion (33.6%) of Citigroup’s outstand-
                                                     ing common stock.147 Table 2.16 shows Treasury’s initial investment in Citigroup
     For more information on the Citigroup ex-
     change offering and a timeline of key events,
                                                     and its remaining investment.
     see SIGTARP’s October 2009 Quarterly
     Report, pages 68 and 69.                        Status of Citigroup TARP Investments
                                                     As of December 31, 2009, Citigroup had repurchased the $20 billion in trust
                                                     preferred securities issued to Treasury under TIP and terminated the loss shar-
                                                     ing agreement under AGP. In addition, Treasury has announced plans to sell its
                                                     common equity position in Citigroup over the next 6 – 12 months.148 Citigroup is
                                                     no longer considered an “exceptional assistance” institution and is therefore not
                                                     subject to the oversight of the Special Master for TARP Executive Compensation
                                                     (the “Special Master”).149 However, Citigroup is subject to the executive compensa-
                                                     tion restrictions that apply to all TARP recipients.


                                                     Table 2.16

                                                     TREASURY’s Investment in Citigroup                            ($ Billions)
                                                                                                    Original Investment /                  Current Investment /
                                                     Program             Date                                Commitment           Commitment, as of 12/31/2009

                                                     CPP                 10/28/2008                               $25.0                                  $25.0
                                                     TIP                 12/31/2008                                 20.0                                    —
                                                     AGP                 1/15/2009                                   5.0                                    —
                                                     Total                                                        $50.0                                 $25.0

                                                     Note: Numbers affected by rounding.

                                                     Source: Treasury, Transactions Report, 1/4/2010.
                                                                               quarterly report to congress I january 30, 2010   73




Repurchase of TIP Trust Preferred Shares
Citigroup’s agreement with Treasury regarding the repurchase of $20 billion of
trust preferred securities called for Citigroup to issue $20.5 billion of new debt and
equity. On December 22, 2009, Citigroup announced that it had completed the
sale of $17 billion of new common stock and $3.5 billion of other debt and equity
for a total of $20.5 billion of new debt and equity securities.150 Citigroup also com-
mitted to issue $1.7 billion of common stock in lieu of compensation to employees.
This included a commitment to issue that much additional common stock to the
market if the employee issuance does not occur.151 The proceeds from this sale
were then used on December 22, 2009, to repurchase Treasury’s $20 billion of
trust preferred securities that Treasury had received from its TIP investment.152 As
a result of Citigroup’s common stock offering, Treasury’s share of Citigroup’s com-
mon stock was diluted from 33.6% to approximately 27.4%.153

Termination of AGP
On December 23, 2009, Treasury and Citigroup finalized the termination of their
loss sharing agreement made under AGP. The termination agreement included the
following terms:154

•	 Treasury’s guarantee commitment was terminated.
•	 In light of the early termination of the guarantee, Treasury agreed to cancel
   $1.8 billion of the $4.0 billion trust preferred securities issued by Citigroup as
   part of the AGP agreement.
•	 The FDIC and Treasury agreed that, subject to the conditions set out in the
   termination agreement, the FDIC may transfer $800 million of trust preferred
   securities to Treasury at the close of Citigroup’s participation in the FDIC’s
   Temporary Liquidity Guarantee Program.

    Because Treasury never made a payment to Citigroup under AGP, the taxpayer
should recognize a positive return from the program when Treasury liquidates the
trust preferred securities and warrants it still holds.155 As of December 31, 2009,
Treasury had not announced plans to sell these interests.

Citigroup and CPP Common Shares
On December 14, 2009, Treasury announced that it would begin liquidating its
common stock position in Citigroup. Treasury initially intended to sell $5 billion
of its CPP common equity ownership in Citigroup through a secondary offering
concurrent with Citigroup’s own equity offering; the purpose of Citigroup’s offer-
ing was to raise capital in order to repurchase its TIP shares in an effort to meet
Government regulatory requirements.156 However, Treasury did not participate
after tepid demand in the marketplace reduced Citigroup’s offering price below the
74           special inspector general I troubled asset relief program




                                                    $3.25 per-share price that Treasury had paid for its shares.157 In addition, Treasury
     Lockout Period: As it pertains to Trea-        had to agree to a lockout period of 90 days in order to encourage investors in the
     sury’s Citigroup holdings, refers to a         marketplace to participate in Citigroup’s equity offering.158 In return, Citigroup
     period of time during which Treasury           agreed to pay all costs associated with Treasury’s future sales of Citigroup common
     may not try to sell any of its shares          stock.159 Treasury has stated that it hopes to sell its stake in Citigroup over the next
     in Citigroup. This reassures potential         6 – 12 months.160
     buyers of Citigroup stock that the
     market will not be further flooded
                                                    IRS Deferred Tax Asset Change—Notice 2010-2
     with other shares, which might cause
                                                    On December 11, 2009, the Internal Revenue Service (“IRS”) issued Notice 2010-
     downward pressure on Citigroup’s
                                                    2, which provides guidance pertaining to Internal Revenue Code section 382 and
     stock price.
                                                    TARP recipients.161 Generally, section 382 limits the ability of a corporation to use
     Deferred Tax Asset: An asset (such as          its losses (i.e., net operating losses and certain built-in losses) as deferred tax assets
     a tax loss) that a company can use to          to offset future taxable income if there has been an ownership change. An owner-
     reduce its future taxes.                       ship change occurs when a shareholder owning 5% or more of the company (a
                                                    “5% shareholder”) increases its interest by more than 50 percentage points over a
                                                    measuring period (generally three years). In certain situations small shareholders
                                                    are aggregated and treated as one 5% shareholder.162
                                                         In Notice 2008-100, the IRS stated that neither the acquisition of stock by
                                                    Treasury pursuant to its TARP authority nor the subsequent redemption of that
                                                    stock would count for purposes of determining whether an ownership change has
                                                    occurred.163 Notice 2010-2 provides that if Treasury sells its TARP-related stock
                                                    to small (less than 5%) shareholders, and those shareholders are aggregated and
                                                    treated as a single 5% shareholder, then the small shareholders’ ownership in the
                                                    corporation shall not be considered to have increased solely as a result of such a
                                                    sale.164
                                                         Pursuant to Notice 2010-2, a sale by Treasury of Citigroup stock acquired
                                                    through TARP to a small shareholder will not contribute to the creation of an
                                                    ownership change under section 382.165 This new guidance could cost American
                                                    taxpayers billions of dollars of tax revenue if Citigroup returns to profitability. On
                                                    the other hand, the retained deferred tax assets will increase Citigroup’s value and
                                                    therefore increase the price of Citigroup’s common stock, of which Treasury owns
                                                    approximately 27.4%.166

                                                    Bank of America
                                                    As of December 31, 2009, Bank of America had received and repaid a total of
                                                    $45 billion of TARP funds. Treasury invested $45 billion in Bank of America
                                                    through three separate cash infusions under TIP and CPP.167
                                                       For more on the Bank of America repayment, see the “Capital Purchase
                                                    Program” discussion in this section.
                                                                             quarterly report to congress I january 30, 2010         75




Asset Support Programs
Treasury, either on its own or in conjunction with the Federal Reserve, announced
several programs intended to support demand in financial markets for hard-to-
value assets and to restart the credit markets: the Term Asset-Backed Securities
Loan Facility (“TALF”), the Public-Private Investment Program (“PPIP”), and the
Unlocking Credit for Small Businesses (“UCSB”)/Small Business Administration
(“SBA”) loan support initiatives. In the December 9, 2009, letter sent to Congress
certifying extension of TARP until October 3, 2010, the Treasury Secretary indi-
cated that additional TARP funding could be released to support small business
and community lending initiatives and TALF.168
     The Federal Reserve’s TALF program had been announced to provide funding
to institutions pledging asset-backed securities (“ABS”) as collateral.169 According
to Treasury, it will provide up to $30 billion of TARP funds to support this program.
Treasury’s current TALF commitment is $20 billion to support the $200 billion in
TALF lending currently authorized by the Federal Reserve, but it subsequently indi-
cated that it is prepared to provide up to $30 billion should the Federal Reserve and
Treasury need to expand the program.170 TALF is scheduled to terminate in March
2010 for non-mortgage-backed ABS and legacy commercial mortgage-backed secu-                 Commercial Mortgage-Backed Securi-
                                                                                             ties (“CMBS”): A financial instrument
rities (“CMBS”) and in June 2010 for newly issued CMBS.171 Through December
                                                                                             that is backed by a commercial real
31, 2009, the Federal Reserve had facilitated 17 TALF subscriptions for a total of
                                                                                             estate mortgage or a group of com-
$61.7 billion in TALF loans: 10 subscriptions related to non-mortgage-backed ABS
                                                                                             mercial real estate mortgages that
totaling $52.9 billion in TALF loans, and 7 CMBS subscriptions resulting in                  are packaged together.
$8.8 billion in TALF loans. As of December 31, 2009, $39 billion of ABS TALF
loans and $8.5 billion of CMBS TALF loans remained outstanding.172 According                 Legacy CMBS: CMBS issued before
to the Federal Reserve, “the aggregated amount outstanding can vary from the ag-             January 1, 2009.
gregate amount requested or funded at subscription for reasons including prepay-
ments and principal pay downs.”173
     In addition to the expansion of TALF, PPIP, as announced, included two
subprograms, the Legacy Loans Program and the Legacy Securities Program. The
Legacy Loans Program was intended to utilize equity provided by Treasury and
debt guarantees provided by the FDIC to facilitate purchases of legacy mortgage
loans held by banks. On July 31, 2009, the FDIC launched a pilot sale of assets as
a proposed funding mechanism for the Legacy Loans Program. No TARP funds
were used in the sale and Treasury has budgeted no funding for this program going
forward.174 The Legacy Securities Program, on the other hand, utilizes equity and
debt financing provided by Treasury through TARP to facilitate purchases of legacy
mortgage-backed securities (“MBS”) held by various financial institutions.
     Through the UCSB/SBA loan support initiatives, Treasury has indicated fund-
ing of up to $30 billion for a number of programs designed to stimulate small-
business lending.
76          special inspector general I troubled asset relief program




                                                   Term Asset-Backed Securities Loan Facility
                                                   In November 2008, the Federal Reserve and Treasury announced TALF, under
                                                   which FRBNY would issue up to $200 billion in loans to make credit available to
                                                   consumers and small businesses; up to $20 billion in TARP funds would be used to
                                                   purchase surrendered collateral of TALF loans.175 Subsequently, Treasury indicated
                                                   that it would increase its commitment to TALF up to $30 billion should the Federal
                                                   Reserve and Treasury need to expand the program.176 As of December 31, 2009,
                                                   there had been no surrender of collateral.177 TALF has been divided into two parts:

                                                   •	 lending program — originates loans to eligible borrowers
                                                   •	 asset disposition facility (“TALF LLC”) — an SPV used by FRBNY to
                                                      purchase and manage any collateral surrendered by borrowers from the TALF
                                                      lending program

                                                       FRBNY manages both the lending program and TALF LLC. The funding for
                                                   the lending program comes in the form of loans issued by FRBNY; the loans are
                                                   issued on a non-recourse basis. According to Treasury, the funding for TALF LLC
     Non-Recourse Loan: A secured loan
                                                   will first come from a portion of interest payments made by borrowers from the
     whereby the borrower is relieved of
                                                   lending program, then from Treasury’s use of up to $30 billion in TARP funds to
     the obligation to repay the loan upon
                                                   purchase subordinated debt from TALF LLC, and finally, from FRBNY. Because
     the surrender of the collateral.
                                                   TALF loans are non-recourse, borrowers may, except in the event of a breach of
                                                   representation, warranties, or covenants by the borrower, walk away from the loans,
                                                   surrender the collateral to FRBNY, and have no further obligation to repay the
                                                   loan.
                                                       Securities eligible to be considered as collateral for TALF loans include:

                                                   •	 Non-mortgage-backed ABS. Certain ABS backed by collateral other than com-
                                                      mercial or residential real estate loans. Eligibility criteria are discussed in detail
                                                      in the October 2009 Quarterly Report, pages 75-76.
                                                   •	 Newly issued CMBS. CMBS issued after January 1, 2009.
                                                   •	 Legacy CMBS. CMBS issued before January 1, 2009.

                                                       As of December 31, 2009, FRBNY had no immediate plans to expand the types
                                                   of eligible collateral.178 On August 17, 2009, the Federal Reserve and Treasury
                                                   announced the extension of TALF beyond the originally contemplated termination
                                                   date of December 31, 2009. For TALF loans collateralized by newly issued ABS
                                                   and legacy CMBS, availability has been extended by FRBNY through March 2010
                                                   due to the continuing impairment of the markets. Additionally, TALF loans collater-
                                                   alized by newly issued CMBS will be made by FRBNY through June 2010 in order
                                                   to provide the market enough time to arrange newly issued CMBS transactions.179
                                                                               quarterly report to congress I january 30, 2010            77




Program Updates
Subsequent to SIGTARP’s October 2009 Quarterly Report, a number of TALF pro-
gram updates have been announced. The following program-related developments
occurred and are discussed in greater detail in this section:

•	 FRBNY hired CWCapital Investments LLC (“CWCapital”) to provide under-
   writing advisory services on newly issued CMBS.
•	 First sale of newly issued CMBS under TALF was completed.
•	 FRBNY announces that all proposed collateral will be subject to a formal risk
   assessment.                                                                                 CUSIP: Unique identifying number
•	 FRBNY announced the rejection of 11 legacy CMBS CUSIPs during the                           assigned to all registered securities in
   quarter.                                                                                    the United States and Canada.
•	 The Federal Reserve issued the final rule amending Federal Reserve Regulation
   A on determining the eligibility of nationally recognized statistical rating organi-        Credit Underwriting: The process
   zations (“NRSROs”) to provide credit ratings for non-mortgage-backed ABS in                 used by a financial institution to de-
   TALF.                                                                                       termine the risks involved in providing
•	 FRBNY changed the date for monthly distributions of principal and interest.                 credit to a borrower and to measure
                                                                                               those risks against standards estab-
                                                                                               lished by the financial institution’s
Hiring of CWCapital Investments LLC for Underwriting Advisory Services
                                                                                               board of directors.
FRBNY has engaged CWCapital to provide credit underwriting advisory services for
commercial mortgage loans backing newly issued CMBS. CWCapital will review
credit files for completeness and prudent lending standards, interview brokers in
the areas where the collateral backing CMBS is located, and visit the property site
of the underlying collateral as directed by FRBNY.
    During the term of the agreement with FRBNY, CWCapital is prohibited from
providing advisory or other services to any Government agencies under PPIP with-
out the express prior written consent of FRBNY. The company must also establish
an “ethical wall” to make sure TALF confidential information is only available to
those employees with authorized access.
    CWCapital must maintain a list of its employees and independent contrac-
tors assigned to provide services to FRBNY in connection with TALF, known as
“Restricted Persons” under the contract. Restricted Persons are generally prohib-
ited from providing analytical, reporting, valuation, or advisory services related to
proposed, newly issued CMBS to anyone other than FRBNY. Restricted Persons
cannot share TALF confidential information with anyone except another Restricted
Person or FRBNY and its designated representatives and contractors, no mat-
ter how that information was obtained. They may not discuss non-confidential
information regarding TALF with anyone other than another Restricted Person or
FRBNY without prior consultation with CWCapital’s compliance department. They
are further prohibited from trading proposed CMBS, either personally or on behalf
of CWCapital clients.
78            special inspector general I troubled asset relief program




                                                         In addition, Restricted Persons who are also management-level employees of
                                                     CWCapital may not trade in any CMBS or any stock or debt securities of any bank,
                                                     bank holding company, insurance company, or any other financial institution that is
                                                     a recipient of funds under an economic stabilization program adopted by Treasury
                                                     or the Federal Reserve.
                                                         FRBNY or its designated representatives have the right to examine any records
                                                     CWCapital creates or obtains in connection with providing these services and
     Federal Open Market Committee                   to audit CWCapital’s performance under the contract to determine its compli-
     (“FOMC”): A committee made up of the            ance with the requirements of the contract. Audits and ad hoc reviews may also
     members of the Board of Governors
                                                     be conducted by the Federal Reserve or the Federal Open Market Committee
     of the Federal Reserve, the president
                                                     (“FOMC”).180
     of FRBNY, and presidents of four other
     Federal Reserve Banks, who serve on
                                                     Newly Issued CMBS Subscription
     a rotating basis. The FOMC oversees
     open market operations, which is the            The first sale of newly issued CMBS under TALF was settled on November 25,
     main tool used by the Federal Reserve           2009. This offering was the first new CMBS issuance in the market since June
     to influence overall monetary and credit        2008. The issue, underwritten by The Goldman Sachs Group, Inc. (“Goldman
     conditions in the United States. For a          Sachs”), provided financing in the form of $323 million in TALF-eligible bonds for
     detailed description of the FOMC, see           Developers Diversified Realty, a U.S. retail mall operator; $72 million of the issue
     SIGTARP’s July 2009 Quarterly Report,           was financed through TALF.181 According to a Federal Reserve official, “investor
     page 131.                                       demand for the new issuance was high, in part because of the improved investor
                                                     protections put in place so that securities would be eligible collateral for TALF
                                                     loans. In the end, non-TALF investors purchased almost 80 percent of the TALF-
                                                     eligible securities.”182


     For more information on the TALF risk           Risk Assessment Process
     assessment process, see SIGTARP’s October       According to FRBNY, it now conducts a risk assessment on ABS and CMBS pro-
     2009 Quarterly Report, page 78.                 posed as collateral for TALF loans. Among other considerations, the risk assess-
                                                     ment conducted on legacy CMBS seeks to determine if the value of the collateral
                                                     when stressed under adverse economic conditions will exceed the requested loan
                                                     amount.183 The collateral for ABS is evaluated for credit quality, transparency, and
                                                     simplicity of structure.184
                                                         For legacy CMBS, the loan amount will be based on the lesser of the dollar
                                                     purchase price on the trade date, the market price as of the subscription date, or
                                                     a value based on FRBNY’s risk assessment. For other types of securities, FRBNY
                                                     will value the collateral based on the market price.185 Once collateral values for the
                                                     various classes of securities are determined, loan amounts are calculated by taking
                                                     a haircut from the collateral value. See SIGTARP’s April 2009 Quarterly Report,
                                                     pages 96-98, for a description of TALF mechanics and haircut amounts.
                                                         FRBNY provides to the sponsor or issuer a “good faith” indication of whether
                                                     a proposed transaction is likely to satisfy the risk assessment process within two
                                                     weeks of receiving the required information. Issuers will have the opportunity to
                                                     provide clarification to FRBNY during the assessment process.186
                                                                            quarterly report to congress I january 30, 2010          79




Legacy CMBS Acceptances and Rejections
Each security potentially pledged as collateral for a TALF loan can be identified
by its unique CUSIP number. As of December 31, 2009, FRBNY had accepted
373 legacy CMBS CUSIPs and rejected 15 legacy CMBS CUSIPs; of the rejected
CUSIPS, 11 were rejected during this quarter.187 According to FRBNY, it reserves
the right to reject any legacy CMBS as collateral based on the terms and condi-
tions of TALF.188 According to FRBNY, the rejection of those 15 legacy CMBS was
based on either a failure to meet the terms and conditions of TALF or FRBNY’s risk
assessment, including an assessment of whether the stressed value of the legacy
CMBS exceeded the requested loan amount. This risk assessment assists FRBNY
in the determination of whether the total amount of money lent to the borrower
would exceed the total value of the legacy CMBS should the market deteriorate,
which could result in a loss to FRBNY.189                                                   Nationally Recognized Statistical Rat-
    According to FRBNY, the list of rejected legacy CMBS CUSIPs does not in-                ing Organization (“NRSRO”): A credit
                                                                                            rating agency registered with the
clude legacy CMBS identified in a loan request that may have been rejected “due
                                                                                            SEC. Credit rating agencies provide
to the failure to properly complete a TALF loan request form, the failure to provide
                                                                                            their opinion on the creditworthi-
a sales confirmation that meets the requirements of the [Master Loan and Security
                                                                                            ness of companies and the financial
Agreement], borrower ineligibility, or the FRBNY’s assessment of the reasonable-            obligations issued by companies. The
ness of the secondary market transaction price.”190 FRBNY does not publish a list of        ratings distinguish between invest-
rejected ABS or newly issued CMBS CUSIPs. Legacy CMBS were created before                   ment grade and non-investment grade
the existence of TALF so borrowers cannot know the eligibility of an issuance with-         equity and debt obligations.
out a determination by FRBNY. TALF-eligible ABS and newly issued CMBS, on
the other hand, are structured specifically to meet TALF requirements, eliminat-            There are 10 NRSROs currently regis-
ing the need for rejection; potential investors can review the prospectuses of those        tered with the SEC:
securities for TALF eligibility.191                                                         •	 A.M. Best Company, Inc.
                                                                                            •	 DBRS Ltd.
Revised Rule for Evaluating Nationally Recognized Statistical Rating                        •	 Egan-Jones Rating Company
                                                                                            •	 Fitch, Inc.
Organizations
                                                                                            •	 Japan Credit Rating Agency, Ltd.
At the inception of TALF, collateral was limited to ABS that had received the
                                                                                            •	 LACE Financial Corp.
highest credit rating from at least two of the three largest nationally recognized
                                                                                            •	 Moody’s Investors Service, Inc.
statistical rating organizations (“NRSROs”): Moody’s Investor Services (“Moody’s”),         •	 Rating and Investment Information,
Standard & Poor’s (“S&P”), and Fitch Ratings (“Fitch”). With the addition of                   Inc.
CMBS as eligible collateral in May 2009, FRBNY expanded beyond the three larg-              •	 Realpoint LLC
est NRSROs to accept credit ratings for CMBS-backed loans from two additional               •	 Standard & Poor’s Ratings Services
NRSROs with substantial experience rating CMBS: DBRS Ltd. and Realpoint
LLC. On December 9, 2009, the Federal Reserve published in the Federal Register
a final rule amending Federal Reserve Regulation A (the “Final Rule”) which
                                                                                         For more information on the NRSRO
determines the eligibility of NRSROs to provide credit ratings for ABS in TALF;
                                                                                         designation and SEC regulations on
the Final Rule does not apply to CMBS. Similar to the expansion of TALF-eligible         NRSROs established by CRARA, see
credit rating agencies for CMBS, the Federal Reserve anticipates that the Final          SIGTARP’s October 2009 Quarterly
Rule will likely increase the number of TALF-eligible credit rating agencies from        Report, pages 122-128.
80   special inspector general I troubled asset relief program




                                            the three largest to include other NRSROs with experience rating specific ABS
                                            categories.192 For a discussion of the impact of credit rating agencies on TARP, see
                                            SIGTARP’s October 2009 Quarterly Report, Section 3.
                                                The Final Rule describes an approach specific to the types of assets accepted
                                            as collateral in TALF. At a minimum, FRBNY will only accept a credit rating issued
                                            by a firm registered with the Securities and Exchange Commission (“SEC”) as an
                                            NRSRO for issuers of ABS pursuant to the Credit Rating Agency Reform Act of
                                            2006 (“CRARA”). In addition, the NRSRO must have issued ratings on at least 10
                                            transactions within a specified asset category since September 30, 2006. According
                                            to the Final Rule, the asset categories include:

                                            •	   Category 1 — auto loans, floorplan loans, and equipment loans
                                            •	   Category 2 — credit card receivables and insurance premium finance loans
                                            •	   Category 3 — mortgage servicing advance receivables
                                            •	   Category 4 — student loans

                                                An NRSRO must have a current and publicly available rating methodology
                                            for each ABS sector for which it applies to FRBNY for consideration, and the
                                            rating methodology must continue to remain public for an NRSRO to maintain
                                            eligibility.193
                                                The Final Rule describes the process whereby FRBNY determines whether an
                                            NRSRO can become eligible to have its ratings accepted for TALF ABS. FRBNY
                                            may also, at any time, review the eligibility requirements of an NRSRO and deter-
                                            mine that credit ratings from that NRSRO will no longer be accepted for any or all
                                            classes of securities for which it had previously qualified. In addition, the NRSRO
                                            must agree to discuss with FRBNY its views of the credit risk of any transaction
                                            within the TALF asset sector that has been submitted to TALF and upon which the
                                            NRSRO is being or has been consulted by the issuer.
                                                An NRSRO wishing to be considered for TALF can submit documentation to
                                            FRBNY at any time.194 According to FRBNY, it will notify an NRSRO of its eligi-
                                            bility within five business days of FRBNY’s receipt of a complete application.195
                                            NRSROs approved under the Final Rule are eligible for participation beginning
                                            with the February 2010 subscription;196 however, because the non-mortgage-
                                            backed ABS portions of TALF to which the Final Rule would apply are currently
                                            scheduled to end on March 31, 2010, any newly approved NRSRO will have only
                                            two months to participate in the program.197

                                            Payment Date Change
                                            On November 30, 2009, FRBNY announced that it had received consents on
                                            behalf of existing TALF borrowers to extend the date of monthly disbursements
                                            of principal and interest on underlying collateral by one day. The payment date
                                                                                                                         quarterly report to congress I january 30, 2010                             81




for monthly principal and interest disbursements for TALF loans will now be four
business days after interest on the loan is accrued.198 According to FRBNY, the
change was made “to ensure accurate operational execution of principal and inter-
est payments.”199

TALF Subscription Activity
As of December 31, 2009, FRBNY had conducted 17 subscriptions for TALF: 10
related to non-mortgage-backed ABS and 7 related to CMBS. The 17 TALF sub-
scriptions resulted in $61.7 billion in TALF loans made to 139 TALF borrowers,
some of which borrowed both ABS- and CMBS-backed loans. Of the total bor-
rowers, 104 pledged non-mortgage-backed ABS collateral and 74 pledged CMBS
collateral. As of December 31, 2009, $47.5 billion of the TALF loans remained
outstanding.200

Subscriptions Using Non-Mortgage-Backed Collateral
As of December 31, 2009, FRBNY had facilitated 10 TALF non-mortgage-backed
ABS subscriptions, totaling approximately $52.9 billion in TALF loans settled; of
the non-mortgage-backed ABS loans settled, $39 billion were outstanding.201 Table
2.17 includes all non-mortgage-backed ABS TALF loans settled since the inception
of the program. According to FRBNY, the market for newly issued ABS totaled ap-
proximately $134 billion in 2009, of which $94 billion were TALF-eligible.202


Table 2.17

TALF Loans Settled by ABS Sector (Non-mortgage-backed Collateral)                                                                      ($ billions)

                               March           April            May              June           July        August             Sept          Oct           Nov               Dec
ABS Sector                      2009          2009             2009              2009          2009          2009             2009          2009          2009              2009             Total
Auto Loans                        $1.9          $0.8             $2.3             $2.9          $2.8            $0.6            $1.2          $0.2           $—                $—           $12.7
Student Loans                        —             —               2.3              0.2           1.0             2.4            0.2           0.3            0.1              0.7             7.2
Credit Card Receiv-
                                    2.8           0.9              5.5              6.0           1.5             2.6            4.4           0.2           0.1               1.5           25.5
ables
Equipment Loans                      —             —               0.4              0.6            —               —             0.1          0.0a            0.1              0.2             1.4
Floorplan Loans                      —             —                —                 —            —              1.0              —           0.9            0.4              0.2             2.5
Small-Business
                                     —             —               0.1             0.0a           0.1             0.1            0.2           0.3            0.4              0.3             1.4
Loans
Servicing Advance
                                     —             —                —               0.4          0.0a             0.1              —           0.5             —               0.1             1.2
Receivables
Premium Finance                      —             —                —               0.5            —               —             0.5             —             —                —              1.0
Total                            $4.7          $1.7           $10.6             $10.7           $5.4           $6.8            $6.5          $2.4          $1.1              $3.0          $52.9

Notes: Numbers affected by rounding. Data as of 12/31/2009.
a
  June Small-Business loans TALF loans settled was for approximately $29 million, July 2009 servicing receivables TALF loans settled was for approximately $34 million, and October 2009 equipment
  loans TALF loans settled was for approximately $39 million. For purposes of this table the amounts round to $0.0 billion.

Sources: FRBNY, “TALF Non-CMBS Operations,” no date, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 1/5/2010; Federal Reserve, response to SIGTARP draft report,
1/15/2010; FRBNY, response to SIGTARP data call, 1/21/2010.
82   special inspector general I troubled asset relief program




                                            Subscriptions Using Commercial Mortgage-Backed Collateral
                                            As of December 31, 2009, FRBNY had facilitated 7 TALF CMBS subscriptions to-
                                            taling approximately $8.8 billion in TALF loans; of the TALF CMBS loans settled,
                                            $8.5 billion were outstanding.203 For a summary of TALF CMBS loans by date and
                                            collateral asset category, see Table 2.18.


                                            Table 2.18

                                            TALF LOANS SETTLED (CMBS COLLATERAL)                                     ($ BILLIONS)

                                            Type of                     June July August September October November December
                                            Collateral Assets           2009 2009 2009        2009   2009      2009     2009                                               Total
                                            Newly issued CMBS             $—       $—          $—                $—           $—              $0.1              $—          $0.1
                                            Legacy CMBS                      —       0.6         2.1              1.4           1.9             1.3              1.3             8.7
                                            Total                         $ — $0.6            $2.1              $1.4         $1.9             $1.4             $1.3        $8.8
                                            Notes: Numbers affected by rounding. Data as of 12/31/2009. Of the $8.8 billion in TALF loans collateralized by CMBS, $8.5 billion
                                            were outstanding.

                                            Sources: FRBNY, “TALF CMBS Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 1/5/2010;
                                            Federal Reserve, response to SIGTARP draft report, 1/15/2010; FRBNY, response to SIGTARP data call, 1/21/2010.
                                                                            quarterly report to congress I january 30, 2010           83




Public-Private Investment Program
The Public-Private Investment Program (“PPIP”) is designed to purchase legacy               The FDIC has launched a pilot program
assets from institutions through Public-Private Investment Funds (“PPIFs”), which           of PPIP for loans (the Legacy Loans
are joint ventures that combine capital from private equity investors, public equity        Program), but as of December 31, 2009,
                                                                                            it does not involve TARP funds. For more
investments from TARP funds, and non-recourse debt also from TARP funds. As
                                                                                            information on the Legacy Loans Program,
of December 31, 2009, Treasury had committed $18.6 billion of equity and debt               see SIGTARP’s October 2009 Quarterly
financing to PPIP.204 Treasury has stated that PPIP will utilize up to approximately        Report, page 84.
$30 billion of TARP funds.205
    In creating PPIP on March 23, 2009,206 Treasury, along with the FDIC and the
Federal Reserve, announced the program’s design to serve three basic principles:207

•	 maximizing the impact of each taxpayer dollar
•	 sharing risk and profits with private-sector participants
•	 creating a mechanism to determine market prices competitively for troubled
   assets held by banks

Legacy Securities Program
According to Treasury, the Legacy Securities Program was designed to “restart               For more information on the Legacy
the market for legacy securities, allowing banks and other financial institutions           Securities Program and the PPIF Limited
                                                                                            Partnership Agreements, see SIGTARP’s
to free up capital and stimulate the extension of new credit.”208 PPIP is designed
                                                                                            October 2009 Quarterly Report, page 85.
to be a long-term program lasting eight years, with the possibility of two one-year
extensions.209
    The legacy securities eligible for purchase by PPIFs are asset-backed securities
supported by real estate-related loans issued before January 1, 2009, and originally
rated AAA (or its equivalent) by two or more credit rating agencies designated as           Non-Agency Residential Mortgage-
nationally recognized statistical ratings organizations (“NRSROs”).210 These securi-        Backed Securities (“RMBS”): A financial
ties include non-agency residential mortgage-backed securities (“RMBS”) and                 instrument backed by a group of
CMBS.                                                                                       residential real estate mortgages that
                                                                                            are not guaranteed by a Government-
                                                                                            sponsored enterprise (“GSE”) such as
Legacy Securities Program Update
                                                                                            the Federal National Mortgage Associa-
As of December 31, 2009, Treasury had signed final agreements with nine private
                                                                                            tion (“Fannie Mae”) or the Federal Home
fund managers each of which will manage an individual PPIF.211 These legal agree-           Loan Mortgage Corporation (“Freddie
ments define the terms and scope of the limited partnership, such as the PPIFs’             Mac”).
financing options, investment restrictions, reporting requirements, and compliance
rules.212
    As of December 31, 2009, PPIFs have raised $6.2 billion of private-sector
equity capital, which Treasury matched for a total equity capital of $12.4 billion.
Treasury also provided $12.4 billion of debt capital, resulting in $24.8 billion of
PPIF purchasing power.213 If each of the PPIF managers raises the maximum
84           special inspector general I troubled asset relief program




                                                    Table 2.19

                                                     PPIP Purchasing Power                        ($ BILLIONS)

                                                                                                                                                                               Total
                                                                                                             Private-Sector             Treasury          Treasury        Purchasing
                                                                                                             Equity Capital               Equity              Debt            Power
                                                    AG GECC PPIF Master Fund, L.P.                                          $0.7               $0.7             $1.3                $2.6
                                                    AllianceBernstein Legacy Securities Master                                1.1                1.1              2.1                 4.2
                                                    Fund, L.P.
                                                    BlackRock PPIF, L.P.                                                      0.6                0.6              1.2                 2.3
                                                    Invesco Legacy Securities Master Fund,                                    0.5                0.5              1.0                 2.0
                                                    L.P.
                                                    Marathon Legacy Securities Public-Private                               0.4a                 0.4              0.8                 1.6
                                                    Investment Partnership, L.P.
                                                    Oaktree PPIP Fund, L.P.                                                   0.5                0.5              0.9                 1.8
                                                    RLJ Western Asset Public/Private Master                                   0.5                0.5              1.0                 2.0
                                                    Fund, L.P.
                                                    UST/TCW Senior Mortgageb                                                  1.0                1.0              2.0                 4.1
                                                    Securities Fund, L.P.
                                                    Wellington Management Legacy Securities                                   1.0                1.0              2.0                 4.1
                                                    PPIF Master Fund, L.P.
                                                    Current Totals as of 12/31/2009                                        $6.2               $6.2            $12.4               $24.8
                                                    Maximum Potential Totalsc                                            $10.0              $10.0             $20.0               $40.0
                                                    Notes: Numbers affected by rounding.
                                                    a
                                                      Treasury exempted Marathon from the requirement of raising $500 million in initial capital from private-sector investors prior to
                                                      Marathon’s closing on 11/30/2009. As of the closing date, Marathon had raised $400 million.
                                                    b
                                                      On 12/4/2009, Treasury froze TCW’s PPIF. On 1/4/2010, TCW withdrew as a manager in PPIP. Its holdings have been liquidated at a
                                                      profit and TCW has paid back its loan to Treasury.
                                                    c
                                                      Represents Treasury’s maximum equity and debt obligations if limited partners other than Treasury fund their maximum equity obliga-
                                                      tions.

                                                    Source: Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended November 30, 2009,”
                                                    received 1/6/2010.




                                                    amount of private capital, the program will create approximately $40 billion in pur-
                                                    chasing power for legacy securities. Table 2.19 shows all equity and debt invested
                                                    under the program.

                                                    PPIF Monthly Performance Reports
     International Securities Identification        Each PPIF manager must submit to Treasury and SIGTARP an audited annual re-
     Number (“ISIN”): Unique identifying            port and unaudited quarterly and monthly reports on behalf of the PPIFs. Monthly
     number assigned to all internationally         PPIF reports include the following:214
     traded securities.
                                                    •	 PPIF holdings (including CUSIP or ISIN, date of purchase, security description,
                                                       par value, cost, fair market value, and accrued income)
                                                    •	 purchases and sales
                                                    •	 capital activity including contributions and withdrawals of securities and cash
                                                    •	 a summary of changes in its investments’ fair market value
                                                                              quarterly report to congress I january 30, 2010   85




•	 performance data (including 1-month, 3-month, year-to-date, latest 12 months,
   since inception [cumulative by month] and since inception [annualized])
•	 management discussion and analysis of the partnership’s investment activities
•	 an analysis of current market conditions

Disclosure of PPIF Transactions and Holdings
As the PPIFs have commenced operations in earnest over the past quarter,
SIGTARP has been in discussions with Treasury and with the PPIF managers
themselves concerning the appropriate disclosure of data about the activity in the
PPIFs. As previously recommended, SIGTARP continues to believe that transpar-
ency in PPIP will be vital to the overall success, and credibility, of the program.
However, as urged by Treasury and the PPIF managers, SIGTARP acknowledges
that there is a risk that publishing security-by-security information at this time —
i.e., during the ramp-up period when the PPIF managers are building their
portfolios — could be detrimental to the interests of the taxpayer investors.
Specifically, such disclosure could reveal the PPIF managers’ investment strategies,
thereby putting the PPIFs (and taxpayers) at a disadvantage vis-à-vis private market
participants who could potentially anticipate a PPIF manager’s strategy, purchase
targeted securities, and sell them to the PPIF at a higher price, thereby harming
the taxpayers. Accordingly, and consistent with SIGTARP’s previous recommenda-
tion (which contemplated temporary redaction of information that could harm
taxpayer interests), SIGTARP has decided not to disclose such security-by-security
information at this time. SIGTARP anticipates that once the ramp-up period is
substantially concluded, security-by-security data will be appropriate for disclosure.

Fund Performance
The performance of each fund — its gross and net returns since inception — is
listed in Table 2.20 as reported by each PPIF manager. The returns are calculated
based on a methodology requested by Treasury. Each PPIF, on behalf of its private
and Government investors, has a three-year investment period to purchase legacy
securities in the market.215 The program envisions “predominantly a long-term
buy and hold strategy” of up to eight years for each PPIF, subject to extension
with Treasury’s permission.216 The following data reflects a snapshot of the funds’
performance over the quarter ending December 31, 2009, and may not be predic-
tive of the funds’ performance over the long term. According to some of the PPIF
managers, it would be premature to draw any long-term conclusions about the per-
formance of the funds from the data reported below because, among other things,
some PPIF managers have not yet fully implemented investment strategies and
have not yet fully drawn down on capital commitments from Treasury.
86                 special inspector general I troubled asset relief program




                                                                      Table 2.20

                                                                      PPIF reported investment returnsa
                                                                                                                                                                                         Cumulative
                                                                                                                                                 1-Month                3-Month               Since
                                                                      Manager                                                                     Return                 Returnb          Inception
                                                                                                                                 Gross               2.02%                     N/A              4.86%
                                                                      AG GECC PPIF Master Fund, L.P.
                                                                                                                                 Net                 1.94%                     N/A              3.94%

                                                                      AllianceBernstein Legacy Securities Master                 Gross               5.45%                  0.25%               0.25%
                                                                      Fund, L.P.                                                 Net                 5.11%                (0.57%)              (0.57%)
                                                                                                                                 Gross               0.78%                  1.53%               1.53%
                                                                      BlackRock PPIF, L.P.
                                                                                                                                 Net                 0.65%                  1.04%               1.04%
                                                                                                                                 Gross               1.73%                  3.81%               3.81%
                                                                      Invesco Legacy Securities Master Fund, L.P.
                                                                                                                                 Net                 1.49%                  2.82%               2.82%

                                                                      Marathon Legacy Securities Public-Private                  Gross               0.00%                     N/A              0.00%
                                                                      Investment Partnership, L.P.                               Net               (1.35%)                     N/A             (1.35%)
                                                                                                                                 Gross                  N/A                    N/A                  N/A
                                                                      Oaktree PPIP Fund, L.P.c
                                                                                                                                 Net                    N/A                    N/A                  N/A

                                                                      RLJ Western Asset Public/Private Master                    Gross               2.24%                     N/A              3.75%
                                                                      Fund, L.P.                                                 Net                 1.91%                     N/A              3.26%

                                                                      UST/TCW Senior Mortgage Securities Fund,                   Gross             (0.72%)                     N/A              0.90%
                                                                      L.P.d                                                      Net               (0.81%)                     N/A              0.68%

                                                                      Wellington Management Legacy Securities                    Gross               0.74%                (0.80%)              (0.80%)
                                                                      PPIF Master Fund, L.P.                                     Net                 0.58%                (1.23%)              (1.23%)
                                                                      Notes: Five PPIF managers, AllianceBernstein, BlackRock, Invesco, TCW, and Wellington, submitted October monthly trading PPIF
                                                                      reports. Two additional PPIFs, Angelo Gordon/GECC and RLJ Western Asset, began trading in November. All seven of these managers
                                                                      submitted reports for November. The two remaining managers, Marathon and Oaktree, became active PPIF managers in December. All
                                                                      nine PPIF managers submitted monthly reports for December.
                                                                      a
                                                                        Time-weighted geometrically linked returns. The net returns include the deduction of management fees and partnership expenses
                                                                        attributable to Treasury.
                                                                      b
                                                                        Certain PPIFs have not yet been actively trading for three months, and therefore do not have a three-month return.
                                                                      c
                                                                        As of 12/31/2009, Oaktree has not drawn, borrowed, or invested any capital.
     Figure 2.8
                                                                      d
                                                                        On 12/4/2009, Treasury froze TCW’s PPIF. On 1/4/2010, TCW withdrew as a manager in PPIP. Its holdings have been liquidated at a
                                                                        profit and TCW has paid back its loan to Treasury.

     AGGREGATE COMPOSITION OF PPIF                                    Sources: PPIF Monthly Performance Reports submitted by each PPIF manager, December 2009.

     PURCHASES, AS OF 12/31/2009
     % of $3.4 Billion
                                                                      The performance indicators in Table 2.20 are listed as reported by the PPIF man-
                CMBS                                                  agers without further analysis by SIGTARP. The net returns include the deduction
                       13%                                            of certain management fees and expenses. Further, several of the fund managers
                                                                      have told SIGTARP that they are capitalizing start-up expenses in the first few
                                      87%          RMBS               quarters, which accounts for some of these expenses.
                                                                          According to Treasury, each PPIF manager may trade in both RMBS and
                                                                      CMBS except Oaktree, which may only purchase CMBS.217 Figure 2.8 shows the
                                                                      collective value of securities purchased by all of the PPIFs as of December 31,
                                                                      2009, broken down by RMBS and CMBS.
     Note: Numbers affected by rounding.                                  PPIF investments can be classified by their underlying asset types. For RMBS,
     Source: Treasury, response to SIGTARP draft report, 1/22/2010.   the underlying assets are home mortgages for residences occupied by up to four
                                                                               quarterly report to congress I january 30, 2010                           87




families.218 For CMBS, the assets are the commercial real estate mortgages: office,
retail, multi-family, hotel, industrial (such as warehouses), mobile-home parks,                Multi-Family: Residential properties
mixed-use (i.e., a combination of commercial and residential), and self-storage.219             with five or more distinct units, such as
Figure 2.9 breaks down CMBS investment distribution by sector. All RMBS invest-                 apartments or townhouses.
ments are considered residential. In this program, RMBS investments are limited
to non-agency RMBS.
    Non-agency RMBS and CMBS securities can be classified by estimated risk                  Figure 2.9

(sometimes referred to as “quality”). The type of risk of most concern to investors          AGGREGATE CMBS PURCHASES BY
is that the borrower(s) will default and the underlying collateral will be sold at a         SECTOR, AS OF 12/31/2009
                                                                                             % of $438.6 Milliona
loss. There are no universal standards for ranking mortgage quality. The designa-
tions vary depending on the context in which they are used. In general, however,                  Multifamily
the higher the quality level, the higher will be the requirements for the borrower’s                        15.3%
credit, completeness of documentation, and underwriting standards. The invest-                                              30.0%         Office
ment-quality levels of risk for RMBS can be characterized as follows:
                                                                                              Other 25.9%

•	 Prime: High-quality mortgages that have a low default risk and are made to bor-
   rowers with good credit records.220                                                                                28.8%
•	 Alt-A: A non-standard mortgage made to borrowers characterized by a strong                                                 Retail

   credit history but with less traditional features; for example, reduced documen-          Notes: Numbers affected by rounding.
   tation, low down payment, or non-owner occupier.221                                       a
                                                                                               Calculated based on monthly data supplied by the PPIF
                                                                                               managers.
•	 Subprime: A mortgage extended to borrowers with some credit impairment,
                                                                                             Sources: PPIF Monthly Performance Reports, December 2009.
   limited or no documentation about income and assets, high loan-to-value ratios,
   or high payment-to-income ratios.222
•	 Option Adjustable Rate Mortgage (“ARM”): A mortgage that does not have
   a fixed interest rate — where the interest will change based on an index rate,
   allowing the borrower to choose among several payment options each month in-
   cluding, for example, interest-only payments, or payments that may be less than
   the amount of interest due each month (negative amortization).223

The investment-quality levels of risk for CMBS are as follows:224

•	 Super Senior: The safest credit level of CMBS. Creditors are the first to receive
   interest and principal payments, but receive a lower interest payment due to the
   lower level of risk.
•	 AM (Mezzanine): Creditors receive interest and principal payments after super
   senior creditors but before junior creditors. Therefore, the interest rate is higher
   than that paid to super senior creditors, but lower than that paid to junior
   creditors.
•	 AJ (Junior): Creditors receive interest and principal payments only after the
   higher-ranking creditors have been paid. The interest rate is higher to compen-
   sate for the higher level of risk.
88                  special inspector general I troubled asset relief program




     Figure 2.10
                                                                        Figure 2.10 and Figure 2.11 show the distribution of the PPIP-held non-agency
     AGGREGATE RMBS PURCHASES BY
     QUALITY, AS OF 12/31/2009                                        RMBS and CMBS investments by their respective risk levels as reported by PPIF
     % of $3.0 Billion                                                managers.

                     5%
                     Option ARM                                       Update on PPIF Manager TCW
                                                                      On December 4, 2009, The TCW Group, Inc. (“TCW”) dismissed Jeffrey Gund-
         12%
         Subprime                                                     lach, a “key man” under TCW’s contract with Treasury, who served as TCW’s chief
                                                                      investment officer and the lead portfolio manager of its PPIF. At that time, consis-
                                                                      tent with the terms of the Limited Partnership Agreement, Treasury froze TCW’s
                                            42%       Prime
                                                                      PPIF and halted all fund transactions.225 On January 4, 2010, TCW withdrew as a
                       41%                                            manager in PPIP.226 According to Treasury and TCW, TCW liquidated the approxi-
            Alt-A
                                                                      mately $500 million in securities held by its PPIF at a profit and paid back the loan
                                                                      from Treasury with interest. Treasury entered into a winding-up and liquidation
     Note: Numbers affected by rounding.                              agreement with TCW governing the liquidation and distribution of the fund. Trea-
     Source: Treasury, response to SIGTARP draft report, 1/22/2010.   sury will allow TCW’s private investors to re-allocate their funds to a different PPIF
                                                                      of their choice. In this case, Treasury will still provide matching debt and equity
                                                                      investments.227
     For more information on the “key man”                                During the formation of PPIP, SIGTARP recommended that Treasury adopt
     provisions, see SIGTARP’s July 2009                              strict “key man” provisions in its fund manager agreements, which were subse-
     Quarterly Report, page 227.                                      quently included in Treasury’s agreements. The agreements provide that the PPIF
                                                                      obtain the services of the personnel who were promised during the application pro-
                                                                      cess. As a result of these important “key man” provisions, Treasury had the option
     Figure 2.11                                                      of terminating TCW’s involvement in PPIP because key personnel were no longer
     AGGREGATE CMBS PURCHASES BY                                      running the PPIF.
     QUALITY, AS OF 12/31/2009
     % of $440.0 Million

         AJ (Junior)
                         20%

                                             41%      Super Senior



                         39%
     AM (Mezzanine)


     Note: Numbers affected by rounding.

     Source: Treasury, response to SIGTARP draft report, 1/22/2010.
                                                                             quarterly report to congress I january 30, 2010           89




Unlocking Credit for Small Businesses (“UCSB”)/
Small Business Administration Loan Support Initiative
On March 16, 2009, Treasury announced the Unlocking Credit for Small
Businesses (“UCSB”) program to encourage banks to extend more credit to
                                                                                             7(a) Program: SBA loan program
small businesses.228 Under the UCSB program, Treasury originally stated that it
                                                                                             guaranteeing a percentage of loans for
would purchase up to $15 billion in securities backed by pools of Small Business
                                                                                             small businesses that cannot otherwise
Administration (“SBA”) loans from two SBA participating programs: the
                                                                                             obtain conventional loans at reasonable
7(a) Program and the 504 Community Development Loan Program. According to
                                                                                             terms.
Treasury, the UCSB program is designed to provide banks the necessary liquidity to
start writing new small-business loans again.229                                             504 Community Development Loan
    During Congressional testimony more than six months later, on September                  Program: SBA program combining
24, 2009, Assistant Treasury Secretary for Financial Stability, Herbert Allison, said        Government-guaranteed loans with
that Treasury would soon announce further program details.230 Subsequently, on               private-sector mortgage loans to
October 21, 2009, the Administration issued a press release noting Treasury’s plan           provide loans of up to $10 million for
to unfreeze the secondary markets through the UCSB program and announcing a                  community development.
number of small-business lending initiatives, including:231

•	 making low-cost capital available to community banks and community develop-
   ment financial institutions
•	 increasing loan limits for the 7(a) and 504 programs

     In announcing TARP’s extension on December 9, 2009, the Treasury Secretary
also said that additional TARP funds would be allocated to small-business lend-
ing initiatives. Subsequently, Treasury announced the commitment of up to $30
billion for programs designed to stimulate small-business lending. Treasury has not
determined the apportionment of the $30 billion for the programs, however it is
expected that UCSB will receive substantially less than the $15 billion originally
announced.232 As of December 31, 2009, no funds had been disbursed under the
small-business lending initiatives, and no further details have been announced.
90            special inspector general I troubled asset relief program




                                                     Automotive Industry Support Programs
                                                     During the current financial crisis, Treasury, through TARP, launched three auto-
                                                     motive programs: the Automotive Industry Financing Program (“AIFP”), the Auto
                                                     Supplier Support Program (“ASSP”), and the Auto Warranty Commitment Program
                                                     (“AWCP”). According to Treasury, these programs were established “to prevent a
                                                     significant disruption of the American automotive industry that poses systemic risk
                                                     to financial market stability and will have a negative effect on the real economy of
                                                     the United States.”233 AWCP is now closed.
                                                          During the last quarter, GMAC was the only automotive company to receive
                                                     additional Government assistance in the form of $3.8 billion through AIFP. As of
                                                     December 31, 2009, Treasury’s commitments through all automotive industry sup-
                                                     port programs totaled $84.8 billion and were distributed to GM, Chrysler, GMAC,
                                                     and Chrysler Financial.234 Treasury’s investments also provided some of the financ-
                                                     ing for GM and Chrysler during their restructuring periods; both firms entered and
                                                     emerged from bankruptcy during 2009. Of the $84.8 billion invested in Chrysler,
                                                     GM, and their finance companies, $3.3 billion has been repaid. Treasury’s invest-
                                                     ments in GM and Chrysler were restructured in bankruptcy, and the Government
                                                     now holds a 60.8% common equity stake in post-bankruptcy GM (“New GM”)
                                                     and an 8% pro forma common equity stake in post-bankruptcy Chrysler (“New
                                                     Chrysler”).235 See page 107 of the July 2009 Quarterly Report for a discussion
                                                     of Treasury’s pro forma ownership in Chrysler. Because of this restructuring into
                                                     equity, Treasury’s ability to recover the full amount of its GM and Chrysler invest-
                                                     ment will depend upon each company’s share price when Treasury eventually sells
     Market Capitalization: The value of a           its stock. However, in order for Treasury, and thus the U.S. taxpayers, to recoup
     corporation determined by multiplying           their investment in GM, New GM would need to achieve an estimated market
     the current market price of one share           capitalization of $66.9 billion when Treasury sells its shares; GM had a market
     of the corporation by the number of             capitalization of $57 billion at its peak in 2000. Similarly, Chrysler would need an
     total outstanding shares.                       estimated market capitalization of $54.8 billion for Treasury to earn enough on the
                                                     sale of its equity to break even. Chrysler’s last publicly disclosed valuation was an
                                                     estimated $37 billion when it merged with Daimler in 1998. Treasury notes “that
                                                     the companies’ past equity values are not comparable to today’s equity values be-
                                                     cause the companies have substantially restructured their balance sheets through
                                                     bankruptcy.”236 According to the TARP Financial Statements, Treasury projected
                                                     that, as of September 30, 2009, the AIFP investments will result in a $30.5 billion
                                                     loss to U.S. taxpayers.237
                                                          Treasury investments in the three TARP automotive industry support programs
                                                     and any repayments of principal are summarized in Table 2.21, categorized by the
                                                     timing of the investment in relation to GM and Chrylser’s progress through the
                                                     bankruptcy process.
                                                                                                                        quarterly report to congress I january 30, 2010   91




Table 2.21

TARP AUTOMOTIVE PROGRAMS COMMITMENTS AND REPAYMENTS,
AS OF 12/31/2009 ($ BILLIONS)
Pre-Chrysler and                                                                   Chrysler
GM Bankruptcies                                Chrysler                 GM         Financial              GMAC                Total
AIFP                                                $4.0    a
                                                                     $19.4               $1.5  b
                                                                                                           $13.4            $38.3
ASSP                                                  1.0 c
                                                                       2.5  d
                                                                                                                                3.5
AWCPe                                                  0.3              0.4                                                     0.6
Subtotal                                             $5.3            $22.3                $1.5             $13.4            $42.4
Chrysler and GM in
Bankruptcy (DIP Financing)
AIFP                                                 $1.9f           $30.1                                                  $32.0
Subtotal                                             $1.9            $30.1                                                  $32.0
Post-Chrysler and GM
Bankruptcies
AIFP                                                $6.6g                                                   $3.8h           $10.4
Subtotal                                             $6.6                                                    $3.8           $10.4
Subtotals by Program
AIFP                                               $12.5             $49.5                $1.5             $17.2            $80.7
ASSP                                                   1.0              2.5                                                     3.5
AWCP                                                   0.3              0.4                                                     0.6
Total Commitments                                  $13.8            $52.4                $1.5             $17.2             $84.8
Principal Repayments
AIFP                                                                 ($1.0)             ($1.5)                               ($2.5)
ASSP                                                                   (0.1)                                                  (0.1)
AWCP                                                ($0.3)             (0.4)                                                  (0.6)
Subtotal                                            ($0.3)           ($1.5)             ($1.5)                               ($3.3)
Net Commitments                                    $13.5            $50.9                  $—             $17.2             $81.5
Notes: Numbers affected by rounding.
a
  According to Treasury, the 4/29/2009 $500 million expansion of the 1/2/2009 $4 billion loan was de-obligated before being funded.
b
  Has been repaid.
c
  Announced as $1.5 billion but was reduced to $1.0 billion on 7/8/2009.
d
  Announced as $3.5 billion but was reduced to $2.5 billion on 7/8/2009.
e
  AWCP has been repaid in full and was terminated in July 2009.
f
  According to Treasury, $1.9 billion of the original $3.8 billion of announced funding was de-obligated before being funded.
g
  Approximately $4.7 billion of this commitment was provided in working capital; approximately $2.0 billion was used to pay senior
  secured lenders.
h
  Capital injection enabling GMAC to comply with SCAP requirements.

Source: Treasury, Transactions Report, 1/4/2010, www.treas.gov, accessed 1/5/2010.
92   special inspector general I troubled asset relief program




                                            Automotive Industry Financing Program
                                            As of December 31, 2009, Treasury had invested $80.7 billion through the
                                            Automotive Industry Financing Program (“AIFP”) to support the automotive
                                            manufacturing companies and their financing arms in order to “avoid a disorderly
                                            bankruptcy of one or more automotive companies.”238 As of December 31, 2009,
                                            Treasury had received approximately $1.3 billion in interest and dividend payments
                                            on AIFP investments. AIFP-related principal payments included $1.0 billion from
                                            GM and $1.5 billion from Chrysler Financial.239 Treasury’s AIFP investments, as
                                            well as the interest and dividends earned on the investments, are listed in Table 2.22.

                                            General Motors
                                            Treasury has committed $52.4 billion of assistance to GM since December 2008,
                                            including $2.9 billion in commitments for ASSP and AWCP. Of the $49.5 billion
                                            committed directly to GM, $19.4 billion was provided pre-bankruptcy, and $30.1
                                            billion was provided during bankruptcy. All of Treasury’s investment in GM was
                                            either converted into common and preferred stock of New GM, or debt assumed
                                            by New GM. Treasury’s $49.5 billion investment in GM is now a 60.8% common
                                            equity stake in New GM, $2.1 billion in preferred stock in New GM, and $7.1
                                            billion of debt assumed by New GM (of which $360 million was repaid as part of
                                            the wind-down of the warranty program and an additional $1 billion was repaid
                                            on December 18, 2009).240 Under the terms of the bankruptcy reorganization, the
                                            UAW, bondholders, Treasury, and the Governments of Canada and Ontario are the



                                            Table 2.22

                                            AIFP STATUS OF FUNDS, AS OF 12/31/2009
                                                                                                                                                            Total Interest
                                                                                 TARP                    Principal                    Principal            and Dividends
                                            Financial                     Commitment                   Reductions                  Outstanding                  Received
                                            Institution                     ($ Billions)                ($ Billions)                 ($ Billions)              ($ Millions)
                                            GMa                                      $49.5                     ($1.0)                       $48.5                   $361.6
                                            Chrysler  a
                                                                                       12.5                         —                        12.5                       55.2
                                            GMAC                                       17.2                         —                        17.2                     854.8
                                            Chrysler Financialb                         1.5                      (1.5)                           —                       7.4
                                            Total                                   $80.7                     ($2.5)                       $78.2                $1,279.1
                                            Notes: Numbers affected by rounding. Interest and dividend amounts do not include ASSP but may include AWCP.
                                            a
                                              Post-bankruptcy, interest accrues in the note for GM and Chrysler.
                                            b
                                              Has been repaid.

                                            Sources: Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20
                                            Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010; Treasury, response to SIGTARP data call, 1/12/2010.
                                                                              quarterly report to congress I january 30, 2010            93




owners of New GM.241 See SIGTARP’s October 2009 Quarterly Report, page 93,
for more detail on New GM’s ownership.
    According to Treasury, New GM will attempt an initial public offering (“IPO”)
within one year of its emergence from bankruptcy — by July 10, 2010. Treasury                 Initial Public Offering: When a firm
has indicated that it may reduce its ownership in New GM by gradually selling its             first sells equity shares to the general
shares following the IPO.242                                                                  public.


Executive Management Changes
On December 1, 2009, Frederick Henderson resigned as a director, president, and
chief executive officer (“CEO”) of GM.243 According to an Administration spokes-
person, the Government was not involved in the management decision to replace
Mr. Henderson, although it is noted that 10 of the 13 members of GM’s board of
directors have been designated by Treasury.244 On January 26, 2010, GM named
Edward Whitacre, GM’s Chairman of the Board of Directors, as Chairman and
CEO.245

Debt Reduction
GM signed an agreement with Treasury on November 13, 2009, to begin mak-
ing quarterly payments of $1.0 billion on its remaining $6.7 billion Treasury debt
beginning in the fourth quarter of 2009, thus completing the payment by June
2010.246 The original maturity date of the Government debt was July 2015.247
The accelerated payback schedule, however, will be suspended in the event of an
IPO.248 The source of funds for these quarterly payments will be other TARP funds
currently held in an escrow account.249 For more information on GM’s use of TARP
funds to pay down its TARP debt, see SIGTARP’s audit report entitled “Additional
Insight on Use of Troubled Asset Relief Program Funds” dated December 10,
2009, available at www.SIGTARP.gov.

Chrysler
Pursuant to Chrysler’s Chapter 11 bankruptcy filing on April 30, 2009, substan-
tially all of its assets were sold to a newly formed entity, New Chrysler, on June 10,
2009. The remaining assets and the debt, including $3.7 billion in TARP funding,
were retained in the old company, renamed Old Carco LLC (“Old Chrysler”) which
remains in bankruptcy.250 As of December 31, 2009, no repayment of TARP funds
had been received from Old Chrysler, and none is anticipated.251
     On December 14, 2009, Old Chrysler filed a petition plan with the U.S.
Bankruptcy Court, Southern District of New York (“Bankruptcy Court”) outlining
its final liquidation plan. The plan provided for no repayment of TARP funds to
Treasury.252 See Table 2.23 for the status of TARP funds invested in Old Chrysler
and New Chrysler.
94            special inspector general I troubled asset relief program




                                                     Table 2.23

     For more information on bankruptcy              STATUS OF FUNDS INVESTED IN CHRYSLER, as of 12/31/2009                                                          ($ BILLIONS)
     procedures, see SIGTARP’s July 2009             Entity                                Committed                            Paid             Transferred                Outstanding
     Quarterly Report, “TARP Tutorial:               Old Chrysler                                    $5.3                         $—                     ($1.5)  a
                                                                                                                                                                                       $3.8
     Bankruptcy,” page 97.
                                                     New Chrysler                                      8.5                       (0.3)                        1.5                        9.8
                                                     Total                                        $13.8                       ($0.3)                         $—                      $13.5
                                                     Notes: Numbers affected by rounding.
                                                     a
                                                       Transfer amounts include $0.5 billion of the $4 billion initial debt obligation to Old Chrysler assumed by New Chrysler on 6/10/2009
                                                       and $1 billion transferred when New Chrysler assumed the obligations under ASSP.

                                                     Source: Treasury, Transactions Report, 1/4/2010, accessed 1/4/2010.


                                                        As of December 31, 2009, the plan had not been accepted by the bankruptcy
                                                     court and is subject to a vote by the creditors.253

                                                     Automotive Financing Companies
                                                     GMAC	
                                                     Treasury’s initial investment in GMAC was the purchase of $5 billion in preferred
     Mandatorily Convertible Preferred
                                                     equity on December 29, 2008.254 At the time of this investment, GMAC reorga-
     (“MCP”) Share: In certain TARP                  nized into a bank holding company and thus became eligible to receive TARP funds
     programs, a type of preferred share             and participate in other Government support programs.255 At that time, the Federal
     that can be converted to common                 Reserve required GMAC to raise $2 billion of new equity; GMAC raised $1.1
     stock under certain parameters at the           billion through private investments, and Treasury loaned GM the remaining $884
     discretion of the company and must              million to purchase GMAC equity.256 On May 7, 2009, the Federal Reserve an-
     be converted to common stock by a               nounced that of the 19 bank holding companies evaluated through its SCAP stress
     certain date.                                   test, 10, including GMAC, would be required to raise additional capital.257 On May
                                                     21, 2009, Treasury purchased an additional $7.5 billion of mandatorily convert-
     Trust Preferred Securities: Securities          ible preferred (“MCP”) shares in GMAC and a portion of these funds was used to
     with both equity and debt characteris-
                                                     satisfy in part the SCAP requirement.258 On May 29, 2009, Treasury exchanged its
     tics, created by establishing a trust and
                                                     $884 million loan to GM for a portion of GM’s common equity interests in GMAC;
     issuing debt to it.
                                                     as a result of that exchange, Treasury held 35.4% of GMAC’s common shares.259
                                                          On November 9, 2009, the Federal Reserve announced that, of the 10 bank
                                                     holding companies identified through its stress testing as needing additional capital,
                                                     only GMAC failed to raise enough funds to meet the requirement.260 On December
                                                     30, 2009, Treasury announced that GMAC met its SCAP capital requirement upon
                                                     receipt of an additional $3.8 billion from AIFP.261 Treasury received $2.5 billion in
                                                     trust preferred securities plus $1.3 billion in MCP in exchange for this investment.
                                                     Treasury also received warrants to purchase $127 million of trust preferred securi-
                                                     ties and $63 million of MCP, which it exercised immediately. In addition, Treasury
                                                     is converting $3 billion of the MCP it acquired under previous TARP invest-
                                                     ments to common stock. As a result of these transactions, Treasury’s ownership of
                                                     GMAC’s common stock increased from 35.4% to 56.3%, and it holds an additional
                                                     $2.5 billion in trust preferred securities and $11.4 billion in MCP.262 Treasury
                                                     also has the right to designate two additional directors, for a total of four, on the
                                                                                                                            quarterly report to congress I january 30, 2010             95




nine-member board. GMAC remains a TARP exceptional assistance recipient and,
as such, continues under the supervision of the Special Master for TARP Executive
Compensation.263

Chrysler Financial
In January 2009, Treasury loaned $1.5 billion to a bankruptcy-remote special
purpose vehicle (“SPV”) to support Chrysler Financial’s retail loan originations. In                                                        Bankruptcy-Remote Special Purpose
July 2009, Chrysler Financial repaid the entire loan and $7.4 million in interest to                                                        Vehicle (“SPV”): An SPV is an off-
Treasury.264 Chrysler Financial is no longer originating loans and intends to wind                                                          balance-sheet legal entity that holds
down its operations by December 31, 2011.265                                                                                                the transferred assets presumptively
                                                                                                                                            beyond the reach of the entities provid-
Auto Supplier Support Program                                                                                                               ing the assets (e.g., legally isolated).
                                                                                                                                            An SPV is “bankruptcy remote” if that
On March 19, 2009, Treasury announced the $5 billion Auto Supplier Support
                                                                                                                                            entity is unlikely to become insolvent
Program (“ASSP”) in an effort to “help stabilize the automotive supply base and
                                                                                                                                            as a result of its own activities, is
restore credit flows in a critical sector of the American economy.”266 Because of
                                                                                                                                            adequately insulated from the conse-
worries about the auto manufacturers’ ability to pay, suppliers had not been able
                                                                                                                                            quences of a related party’s insolvency,
to borrow from banks using their receivables as collateral. ASSP allows automotive                                                          and contains certain characteristics
parts suppliers to access Government-backed protection for money owed to them                                                               which enhance the likelihood that it will
for the products they ship to manufacturers. Chrysler and GM participate in the                                                             not become the subject of insolvency
program with commitments of $1 billion for Chrysler and $2.5 billion for GM.267                                                             proceedings.
ASSP is continuing to operate and is scheduled to terminate in April 2010; New
GM and New Chrysler can add receivables at their discretion. Table 2.24 summa-
rizes the status of the ASSP investments.


Table 2.24

ASSP STATUS OF FUNDS, AS OF 12/31/2009                                       ($ MILLIONS)

                                                                                                                   Total
                                               TARP                  Principal             Principal            Interest
Financial Institution                    Commitments               Reductionsa          Outstanding            Received
GM Supplier Receivable LLC                         $3,500               ($1,140)               $2,360                   $7
Chrysler Receivable LLC                              1,500                   (500)               1,000                      4
Total                                             $5,000               ($1,640)                $3,360                 $11
Note: Numbers affected by rounding.
a
  At the request of GM and Chrysler, on 7/8/2009, the original commitments were reduced to $2.5 billion and $1.0 billion,
  respectively. In addition, GM made a principal repayment of $140 million on 11/20/2009.

Sources: Treasury, Transactions Report, 1/4/2010, accessed 1/6/2010; Treasury, response to SIGTARP data call,
1/12/2010.
96            special inspector general I troubled asset relief program                                                                      96




                                                     Homeowner Support Program
     For more information on Making Home             Making Home Affordable Program
     Affordable, see SIGTARP’s October 2009          The Making Home Affordable (“MHA”) program was introduced by the
     Quarterly Report, page 94.
                                                     Administration on February 18, 2009, as a collection of three major initiatives: a
                                                     loan modification program, a loan refinancing program, and additional support for
                                                     reduced mortgage interest rates.268 According to Treasury, the program was de-
                                                     signed to offer assistance to millions of homeowners making a good-faith effort to
                                                     pay their mortgages and to protect families and communities from the destructive
                                                     impact of the housing crisis.269 Subsequently, Treasury has created a foreclosure
                                                     alternative program as a part of MHA.
                                                         TARP funds are primarily dedicated to one initiative within MHA, the Home
                                                     Affordable Modification Program (“HAMP”).270 According to Treasury, HAMP is a
                                                     $75 billion program that will lower monthly mortgage payments for homeowners
                                                     by providing loan modification incentive payments to the servicers and loan holders
                                                     (lenders or investors — referred to as investors in this section) and by protect-
                                                     ing against further loss of collateral value.271 In addition, the MHA program now
                                                     includes foreclosure alternatives for those not able to complete a HAMP modifica-
                                                     tion. Of the $75 billion reserved for HAMP, $50 billion will be funded through
                                                     TARP and will be used to modify private-label mortgages.
     Private-Label Mortgages: Loans that
     are not owned or guaranteed by Fannie
                                                         Of the $50 billion in TARP funding, $10 billion has been allocated to encour-
     Mae, Freddie Mac, or another Federal            age HAMP modification by protecting investors from potential home-price declines
     agency.                                         in their mortgage portfolio assets in regions where forestalling foreclosure may lead
                                                     to significant losses. According to Treasury, the purpose of the Home Price Decline
     Government-Sponsored Enterprises                Protection (“HPDP”) program is to “encourage additional lender participation and
     (“GSEs”): Private corporations created          HAMP modifications in areas with recent price declines by helping to offset any
     by the Government to pursue public              incremental collateral loss on modifications that do not succeed.”272 In addition,
     policy goals designated in their char-          Treasury estimates that another $4.6 billion of the TARP $50 billion allocation
     ters. They are chartered by the U.S.            will be used for the Home Affordable Foreclosure Alternatives (“HAFA”) program,
     Government, but their liabilities are           previously referred to as the Short-Sales/Deeds-In-Lieu of Foreclosure (“SS/DIL”)
     not officially considered to be direct
                                                     program, designed to provide alternatives to foreclosure.273
     Government obligations.
                                                         Beyond the TARP support, the additional $25 billion in HAMP funding is pro-
                                                     vided under the Housing and Economic Recovery Act of 2008 (“HERA”) and will
                                                     be used to modify mortgages that are owned or guaranteed by the Federal National
                                                     Mortgage Association (“Fannie Mae”) and the Federal Home Loan Mortgage
     For more information on the role of             Corporation (“Freddie Mac”), two of the Government-sponsored enterprises
     GSEs in the residential mortgage mar-           (“GSEs”).274
     ket, see Section 3: “Federal Support of
     the Residential Mortgage Market” in this        Status of Funds
     report.
                                                     As of December 31, 2009, Treasury had signed agreements with 102 loan ser-
                                                     vicers allocating up to $35.5 billion under HAMP.275 Of that $35.5 billion, as of
                                                     December 31, 2009, $15.4 million had been spent on incentives for 11,574 of
97                                                                                                                                quarterly report to congress I january 30, 2010                                 97




     Table 2.25
                                                                                                                                                  For an example of a HAMP loan modifica-
     FIVE LARGEST HOME AFFORDABLE MODIFICATION PROGRAM FUNDING                                                                                    tion, see SIGTARP’s April 2009 Quarterly
     ALLOCATIONS, AS OF 12/31/2009 ($ Billions)
                                                                                                                                                  Report, page 117.
                                                                                                                    Adjusted
     Institution                                                Ultimate Parent Company                             Funding Capa
     Countrywide Home Loans Servicing LP                        Bank of America Corporation                         $6.8
     J.P. Morgan Chase Bank, NA                                 JPMorgan Chase & Co.                                  3.9
     Wells Fargo Bank, NA                                       Wells Fargo & Company                                 3.7
     OneWest Bank                                               OneWest Bank Group, LLC                               2.2
     Wachovia Mortgage, FSB                                     Wells Fargo & Company                                 2.1
     Notes: Numbers affected by rounding.
     a
       Funding cap amounts represent the funding allocated to each institution. Funds are not spent until successful completion of certain loan
       modification milestones.

     Sources: Treasury, Transactions Report, 1/4/2010; Factiva website, http://fce.factiva.com/pcs/default.aspx, accessed 6/24/2009;
     Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009.




     the 66,465 permanent modifications.276 The remaining permanent modifications
     will receive incentive payments in the next quarter. Of that $15.4 million, approxi-
     mately $12.1 million represents incentive payments to servicers and $3.2 million
     represents payments to investors.277 Borrower incentive payments begin only after
     one year of participation in the program.278
                                                                                                                                                      Permanent Modification: In the design
         To date, the largest allocation of incentive payments went to Countrywide
                                                                                                                                                      of MHA, a permanent modification is
     Home Loans Servicing LP, now owned by Bank of America, which is eligible to
                                                                                                                                                      a five-year mortgage modification,
     receive up to $6.8 billion in TARP funds. The average allocation to each servicer                                                                after which the borrower’s interest
     through HAMP is $348.5 million.279 The amount of funding allocated to a servicer                                                                 rate gradually returns to the rate in
     does not represent the amount of incentives paid to the servicer; rather, the alloca-                                                            effect on the day the modification was
     tion is the maximum amount, or cap, of potential incentive payments that Treasury                                                                executed, fixed on a 30-year term.
     has approved for each servicer. Table 2.25 provides details regarding the five largest
     allocations made under HAMP as of December 31, 2009.
         As of December 31, 2009, 102 servicers had signed Servicer Participation                                                                 Table 2.26
     Agreements to modify loans under HAMP.280 Participating servicers have initiated
                                                                                                                                                  HAMP SNAPSHOT, AS OF 12/31/2009
     902,620 trial modifications, but only 66,465 of these modifications have become
                                                                                                                                                  Number of Trial Period Plan
     permanent modifications.281 A snapshot of HAMP modifications is shown in                                                                     Offers Extended to Borrowers
     Table 2.26.                                                                                                                                  (Cumulative)                                      1,164,507
                                                                                                                                                  Number of HAMP Trials Started
                                                                                                                                                  Since Program Inception                             902,620
     Mortgage Modification Conversion Drive
                                                                                                                                                  Number of Active Trial
     In late July 2009, representatives of the Administration set a goal of initiating
                                                                                                                                                  Modifications                                       787,231
     500,000 trial loan modifications by November 1, 2009.282 This goal was reached
                                                                                                                                                  Number of Permanent
     on October 8, 2009, at which point the Administration met with MHA servicers to                                                              Modifications Completed                               66,465
     discuss additional ways to improve servicer efficiency and responsiveness.283                                                                Notes: Survey data provided by servicers. Trial and permanent
                                                                                                                                                  modifications as reported by the HAMP system of record.
         After reaching the trial modification goal, Treasury and the Department of
                                                                                                                                                  Source: Treasury, “Making Home Affordable Program Servicer
     Housing and Urban Development (“HUD”) announced a Mortgage Modification                                                                      Performance Report Through December 2009,” no date,
                                                                                                                                                  http://financialstability.gov/docs/report.pdf, accessed
     Conversion Drive on November 30, 2009, to address the low conversion rates of                                                                1/18/2010.
98            special inspector general I troubled asset relief program                                                                         98




                                                     trial modifications to permanent modifications. According to Treasury, this effort
                                                     includes outreach tools and resources for borrowers in the trial phase of their modi-
                                                     fied mortgage to help them convert to permanent modifications.284

                                                     Servicer Accountability
                                                     Treasury announced that it has created additional participation requirements
                                                     intended to hold servicers more accountable for their commitment to the program
                                                     and their responsibility to borrowers. According to Treasury, these updates include
                                                     the following:285

     Short Sale: A sale of a home,                   •	 The seven largest servicers submitted detailed plans to Treasury regarding their
     typically for less than mortgage value,            strategy for reaching decisions on individual loans.
     by which the borrower sells the home            •	 The seven largest servicers have been assigned a Treasury/Fannie Mae account
     and the lender collects the sales                  liaison to monitor daily progress and report back to Treasury.
     proceeds as satisfaction of the unpaid          •	 All servicers report their statistics related to new trial modifications and the con-
     mortgage balance, thus avoiding fore-              version of trial modifications to permanent modifications, which were published
     closure (which is the legal process by
                                                        in the December MHA Servicer Performance Report.
     which the lender assumes ownership of
                                                     •	 The seven largest servicers report daily to the Treasury/Fannie Mae account liai-
     the home).
                                                        sons on the status of each modification, revealing situations in which borrowers
     Deed-in-Lieu of Foreclosure: Instead of
                                                        are struggling to move from the trial phase to the permanent phase.
     going through the process of foreclo-           •	 Servicers failing to meet performance obligations may be subjected to remedies
     sure, the borrower surrenders the deed             as provided in the Servicer Participation Agreement.
     to the home voluntarily to the lender
     often as satisfaction of the unpaid             Home Affordable Foreclosure Alternatives (“HAFA”) Program
     mortgage balance.                               On November 30, 2009, Treasury released guidance regarding the Home
                                                     Affordable Foreclosure Alternatives (“HAFA”) program (previously referred to as the
     In both cases, the borrowers lose               SS/DIL program). Where a mortgage modification is not practical, HAFA creates
     ownership of their homes but they               financial incentives for borrowers, servicers, and investors to avoid a foreclosure by
     avoid some of the negative aspects of           utilizing a short sale or a deed-in-lieu of foreclosure. According to Treasury, these
     an official foreclosure.
                                                     options generally provide borrowers, investors, and communities with a better out-
                                                     come than a typical foreclosure sale.286
     For more information on the benefits of
     a short sale or deed-in-lieu of foreclosure     Eligibility
     transaction, see SIGTARP’s October 2009         In order to participate in HAFA, a servicer must execute a HAMP Servicer
     Quarterly Report, page 100.                     Participation Agreement by October 3, 2010, and have a formal policy describ-
                                                     ing its process for determining HAFA consideration.287 Treasury suggests servicers
                                                     consider such factors as severity of the loss, local market conditions, timing of the
                                                     pending foreclosure, and borrower motivation and cooperation.288 After determin-
                                                     ing that a borrower is eligible, the servicer must discuss the options with the bor-
                                                     rower and review relevant financial information before extending a formal offer for
                                                     a short sale or deed-in-lieu of foreclosure.289
                                                                             quarterly report to congress I january 30, 2010                                         99




Incentives
After successfully completing a short sale or deed-in-lieu of foreclosure, borrowers,
servicers, and investors are eligible for HAFA incentive payments. These payments
are as follows:290
                                                                                           Figure 2.12
•	 Borrower Relocation Assistance — A $1,500 incentive payment to the                      HAMP TRIAL MODIFICATIONS
   borrower.                                                                               STARTED AND TRIAL PLANS EXTENDED
                                                                                           5/2009 – 12/2009
•	 Servicer Incentive — A $1,000 incentive payment for the servicer.
•	 Investor Reimbursement for Subordinate Lien Releases — For every $3 an                 1,200,000

   investor pays to secure release of a subordinate lien, such as a second mortgage
   or a home equity line of credit, the investor is reimbursed $1, up to a reimburse-      800,000
   ment limit of $1,000 per transaction.

                                                                                           400,000
Compliance
Treasury has selected Freddie Mac to serve as the HAFA compliance agent. Freddie
Mac has indicated that it will use both employees and contractors to confirm ser-                   0
                                                                                                        May June July         Aug Sept Oct          Nov     Dec
vicers’ adherence to HAFA program requirements.291                                                      (and prior)


                                                                                                           HAMP Trial Modifications (Cumulative)
                                                                                                           HAMP Trial Plans Extended to Borrowers
Servicer Performance Report                                                                                (Cumulative)

In August 2009, Treasury began publishing HAMP Servicer Performance Reports                Notes: All trial modifications started are reported on the month the
on a monthly basis; these reports contain metrics to “document the number of               first payment is posted. Data based on numbers reported by
                                                                                           servicers to the HAMP system of record. September data includes
                                                                                           10/1/2009. October data is 10/2/2009 through 10/29/2009.
struggling homeowners already helped under the [MHA] program, provide infor-               November data is through 11/26/2009.

mation on servicer performance and expand transparency around the initiative.”292          Source: Treasury, “Making Home Affordable Program Servicer
                                                                                           Performance Report Through December 2009,” no date,
According to Treasury, the initial data contained on the reports was derived from          http://financialstability.gov/docs/report.pdf, accessed 1/18/2010.


weekly activity surveys submitted by servicers. Beginning with the November
HAMP Servicer Performance Report, representing HAMP activity through                       Table 2.27
September 30, 2009, Treasury was able to report loan level data provided by ser-
                                                                                            TOP 5 HAMP ACTIVITY BY STATE
vicers into the HAMP system of record.293
                                                                                                                                             Percentage of
                                                                                                                   Trial and                   All Trial and
Overall Performance Metrics                                                                                     Permanent                       Permanent
                                                                                           State               Modifications                  Modifications
Figure 2.12 shows the monthly increases in HAMP trial modifications started and
                                                                                           California                   172,288                            20.2%
HAMP trial plans extended to borrowers.
                                                                                           Florida                      105,108                            12.3%
    Modifications have been initiated in all 50 states, the District of Columbia,
                                                                                           Illinois                       44,942                              5.3%
Guam, Puerto Rico, and the U.S. Virgin Islands. However, as Table 2.27 shows, a
                                                                                           Arizona                        43,126                              5.1%
large percentage of the modifications have been concentrated in a few states.
                                                                                           New York                       38,282                              4.5%
                                                                                           Notes: HAMP activity reflects all active trial and permanent
                                                                                           modifications as of 12/31/2009. Seventy-five trial and 38
                                                                                           permanent modifications were reported without state distinc-
                                                                                           tions and are included in the total for all trial and permanent
                                                                                           modifications.

                                                                                           Source: Treasury, “Making Home Affordable Program Servicer
                                                                                           Performance Report Through December 2009,” no date,
                                                                                           http://financialstability.gov/docs/report.pdf, accessed
                                                                                           1/18/2010.
100   special inspector general I troubled asset relief program




                                             Table 2.28

                                             top 5 hamp servicers by NUMBER OF permanent modificationS
                                                                                                                                                                                                                                                                                                              Active Trials and
                                                                                                                            Estimated                                              Active                                                                                                                    Permanents as a
                                                                                                                              Eligible                                                Trial                                            Permanent                                                           Share of Estimated
                                             Servicer                                                                      Mortgagesa                                       Modificationsb                                           Modificationsb                                                        Eligible Mortgages
                                             GMAC Mortgage, Inc.                                                                            69,281                                                     20,672                                                        9,872                                                     44%
                                             Wells Fargo Bank, NA                                                                     350,169                                                       110,284                                                          8,424                                                     34%
                                             J.P. Morgan Chase                                                                        424,965                                                       146,828                                                          7,139                                                     36%
                                             Bank, NAc
                                             Ocwen Financial                                                                                64,797                                                           7,427                                                   5,332                                                     20%
                                             Corporation, Inc
                                             CitiMortgage, Inc.d                                                                      241,981                                                       107,999                                                          4,999                                                     47%
                                             Notes:
                                             a
                                               Estimated eligible mortgages with 60+ day delinquencies are as of 11/30/2009.
                                             b
                                               Active trial and permanent modifications as reported into the HAMP system of record by servicers are as of 12/31/2009.
                                             c
                                               J.P. Morgan Chase Bank, NA includes EMC Mortgage Corporation.
                                             d
                                               CitiMortgage, Inc. includes CitiMortgage, Inc. Master Servicing Division.

                                             Source: Treasury, “Making Home Affordable Program Servicer Performance Report Through December 2009,” no date, http://financial-
                                             stability.gov/docs/report.pdf, accessed 1/18/2010.


                                             Figure 2.13

                                              TRIAL MODIFICATION TRACKER: TRIAL MODIFICATION
                                              STARTS AS A SHARE OF ESTIMATED ELIGIBLE MORTGAGES

                                              50%

                                              40

                                              30

                                              20

                                              10

                                                0
                                                    CitiMortgage
                                                                   Saxon
                                                                           GMAC
                                                                                  J.P. Morgan Chase
                                                                                                      Select Portfolio
                                                                                                                         Aurora
                                                                                                                                  Wells Fargo
                                                                                                                                                Bayview
                                                                                                                                                          Green Tree
                                                                                                                                                                       PNC Mortgage
                                                                                                                                                                                      Nationstar
                                                                                                                                                                                                   US Bank
                                                                                                                                                                                                             OneWest
                                                                                                                                                                                                                       CCO
                                                                                                                                                                                                                             Ocwen
                                                                                                                                                                                                                                     Bank of America
                                                                                                                                                                                                                                                       Litton
                                                                                                                                                                                                                                                                Bank United
                                                                                                                                                                                                                                                                              American Home
                                                                                                                                                                                                                                                                                              Carrington
                                                                                                                                                                                                                                                                                                           HomeEq
                                                                                                                                                                                                                                                                                                                    Wachovia




                                              Notes: Numbers may be affected by rounding. Includes active trial and permanent modifications.
                                              December trials as a share of 60+ day delinquencies on 11/30/2009.

                                              Source: Treasury, “Making Home Affordable Program Servicer Performance Report Through
                                              December 2009,” no date, http://financialstability.gov/docs/report.pdf, accessed 1/18/2010.




                                             Servicer Metrics
                                             HAMP modification activity by the five servicers that have initiated the most per-
                                             manent modifications is described in Table 2.28. Figure 2.13 shows the trial modi-
                                             fications started by each servicer as a percent of that respective servicer’s estimated
                                             number of eligible mortgages.
                                                                            quarterly report to congress I january 30, 2010          101




Executive Compensation
As discussed in SIGTARP’s previous quarterly reports, TARP participants have had
to comply with executive compensation restrictions since the program’s inception.
The executive compensation restrictions set forth in section 111 of the Emergency
Economic Stabilization Act of 2008 (“EESA”) have been changed by statutory
amendments and have been interpreted and implemented by successive Treasury
regulations and notices.
    On February 17, 2009, section 111 of EESA was amended by section 7001 of
the American Recovery and Reinvestment Act of 2009 (“ARRA”), which further
required that Treasury promulgate regulations to implement ARRA amendments.294            For more information on the Rule and
On June 10, 2009, Treasury released its Interim Final Rule on TARP Standards for          a summary of the timeline on TARP
Compensation and Corporate Governance (the “Rule”),295 which “implement[s]                executive compensation restrictions, see
ARRA provisions, consolidates all of the executive-compensation related provisions        SIGTARP’s July 2009 Quarterly Report,
                                                                                          page 118.
that are specifically directed at TARP recipients into a single rule (superseding
all prior rules and guidance), and utilizes the discretion granted to the [Treasury]
Secretary under ARRA to adopt additional standards, some of which are adapted
from principles set forth” in guidance previously provided by Treasury in February
2009.296
    The Rule applies to institutions that meet its definition of a TARP recipient.
As long as the TARP recipient has an outstanding “obligation” to the Federal
Government (as defined in the Rule; this does not include warrants to purchase
common stock), it must adhere to the guidelines set forth under the Rule.297
    Several TARP programs, however, are exempt from the executive compensation
restrictions outlined in the Rule:298

•	 TALF participants are exempt from the Rule because they do not directly
   receive TARP assistance. The TARP funds are used to purchase surrendered
   collateral in the program.
•	 PPIP participants are exempt because no participant will own more than 50% of
   the TARP recipient, the PPIF itself (PPIP rules cap ownership interests in the
   PPIF at 9.9%).
•	 MHA participants are exempt from the Rule by virtue of statutory language
   included in the ARRA amendments.                                                       For more information on executive
                                                                                          compensation issues and findings, refer
                                                                                          to SIGTARP’s audit, “Despite Evolving
   Treasury has announced that it may seek statutory language exempting other             Rules on Executive Compensation,
TARP recipients from the Rule in connection with initiatives to stimulate small-          SIGTARP Survey Provides Insights on
business lending.                                                                         Compliance,” issued on August 19, 2009.
                                                                                          A copy of this audit can be found on
                                                                                          SIGTARP’s website, www.SIGTARP.gov.
102          special inspector general I troubled asset relief program




                                                    Special Master
                                                    Treasury created the Office of Special Master for TARP Executive Compensation
                                                    (the “Special Master”) on June 15, 2009, naming Kenneth R. Feinberg to the posi-
                                                    tion. Special Master Feinberg’s responsibilities include reviewing and approving
                                                    executive compensation at TARP recipients as follows:299

                                                    •	 Review of Payments — review and approve any payments of compensation for
Senior Executive Officers (“SEOs”): A
“named executive officer” of a TARP recipi-            their 5 senior executive officers (“SEOs”) and 20 next most highly paid employ-
ent as defined under Federal securities                ees of TARP recipients that have received exceptional assistance
law, which generally includes the principal         •	 Review of Structures — review and approve the structure of compensation at
executive officer (“PEO”), principal financial         TARP recipients that have received exceptional assistance for their 100 most
officer (“PFO”), and the next three most               highly compensated employees, including the SEOs
highly compensated executive officers.              •	 Review of Prior Payments — review bonuses, retention awards, and other
                                                       compensation paid to SEOs and the 20 next most highly compensated employ-
Exceptional Assistance: Companies                      ees before February 17, 2009, by all TARP recipients and, where appropriate,
receiving assistance under SSFI, TIP, AGP,             negotiate reimbursements
AIFP, and any future Treasury program
                                                    •	 Interpretation — provide advisory opinions with respect to the application of
designated by the Treasury Secretary as
                                                       the Rule and whether compensation payments and plans are consistent with
providing exceptional assistance. Current
                                                       EESA, TARP, and the public interest
recipients are: AIG, GM, GMAC, Chrysler,
and Chrysler Financial.
                                                        On August 14, 2009, the seven TARP participants receiving exceptional assis-
                                                    tance delivered their proposed executive compensation structures and the con-
                                                    templated compensation payments for the five SEOs and the 20 next most highly
                                                    compensated employees.300 However, only 136 employees were affected by the
                                                    Special Master’s determinations because of employee attrition.301
                                                        The Special Master is required to issue a compensation determination within
                                                    60 days of a substantially complete submission.302 Each company may, within 30
                                                    days of that determination, request in writing that the Special Master reconsider
                                                    the determination set forth in the company determination memorandum.303 If a re-
                                                    quest for reconsideration is not received within 30 days, the determination set forth
                                                    by the Special Master will be treated as the final determination. Determinations
                                                    with respect to these proposals were issued by Special Master Feinberg on October
                                                    22, 2009. On November 20, 2009, AIG submitted a written request for recon-
                                                    sideration of the initial ruling on its proposal with respect to a single employee’s
                                                    compensation package.304 Subsequently, on December 11, 2009, a second round
                                                    of rulings regarding the compensation structures for the 26th to 100th most
                                                    highly compensated employees plus any additional executive officers not covered
                                                                                                                    quarterly report to congress I january 30, 2010   103




Figure 2.14

EXECUTIVE COMPENSATION DETERMINATIONS TIMELINE


 AUGUST 2009                            OCTOBER 2009                     NOVEMBER 2009                    DECEMBER 2009                    JANUARY 2010



              AUGUST 14                    OCTOBER 5                          NOVEMBER 21                             DECEMBER 11               JANUARY 10
              Proposed                     Proposed                          Reconsideration                          The Special Master        Reconsideration
              compensation                 compensation                   request due for the                         released                  request due for the
              structures                   structures because                    October 22                           determinations for        December 11
              because of the               of the Office of the              determinations.                          the 26−100 most           determinations.
              Office of the                Special Master for                                                         highly compensated
              Special Master for           26−100 most                                                                employees.
              the 5 SEOs and               highly compen-
              the next 20 most             sated employees.
              highly compen-
                                                              OCTOBER 22
              sated employees.
                                                              The Special Master
                                                              released determinations
                                                              for the 5 SEOs and the
                                                              next 20 most highly
                                                              compensated employees.



Source: Treasury, Executive Compensation Web Source, www.financialstability.gov/above/executivecompensation.html, accessed 12/30/2009.




by the October 22, 2009, rulings at “exceptional assistance” recipients were is-
sued.305 See Figure 2.14 for a timeline of events surrounding the Special Master’s
determinations.

Exceptional Assistance Compensation Determinations for the
25 Most Highly Compensated Employees
On October 22, 2009, Special Master Feinberg issued his first rulings for the
seven firms that received exceptional TARP assistance (AIG, Citigroup, Bank of
America, Chrysler, GM, GMAC, and Chrysler Financial). The rulings provided
determinations regarding the compensation structures and amounts payable to
each individual institution’s SEOs and the 20 next most highly compensated em-
ployees. Although Chrysler Financial paid back its TARP obligation, it is still under
restriction because it is an affiliate of Old Chrysler under the Rule (more than 50%
ownership), which has an outstanding TARP obligation that qualifies as excep-
tional assistance. In addition, although Citigroup repaid certain TARP obligations,
eliminating its requirement for Special Master approval of its 2010 compensation
payments, it will remain subject to the Special Master’s October 22 and December
11 determinations for 2009. Because certain Citigroup TARP obligations remain
outstanding, until those obligations are repaid in full, Citigroup remains subject to
the compensation restrictions in the Rule that are applicable to all TARP recipi-
ents. Although Bank of America repaid its TARP obligations, its top 25 executives
were still subject to the October 22 rulings.
104            special inspector general I troubled asset relief program




      For more information on the specific               The October 22 determinations applied to compensation structures and
      principles used in reviewing compensa-          amounts payable with respect to 2009, although certain requirements of the
      tion plans, see SIGTARP’s July 2009             determinations only applied prospectively and thus were effective only for the last
      Quarterly Report, pages 122-123.                two months of the calendar year.306 The primary purpose was to set up restrictions
                                                      that would maximize long-term shareholder value and protect taxpayer interests.307
                                                      According to the Special Master, he used the following guiding principles to inform
                                                      the determinations he issued for each “exceptional assistance” recipient:308

                                                      •	 Reform pay practices for top executives to align compensation practices with
                                                         long-term value creation and financial stability.
                                                      •	 Significantly reduce compensation across the board.
      Public Interest Standard: Regulatory            •	 Require salaries to be paid in company stock held over the long term.
      standard that the Special Master is             •	 Require incentive compensation to be paid in the form of long-term restricted
      required to apply in making determina-             stock — and to be contingent on performance and on TARP repayment.
      tions. Refers to the determination of           •	 Require immediate reform of practices not aligned with shareholder interests or
      whether TARP recipient compensation                consistent with the public interest standard.
      plans are aligned with the best interests
      of the U.S. taxpayer.                               The following guidelines were the same for all the “exceptional assistance”
                                                      recipients:
      Safe Harbor: The Special Master
      will automatically approve proposed
                                                      •	 Cash salary limited to $500,000 (“safe harbor” in the Rule) was deemed ac-
      compensation to employees of TARP
                                                         ceptable, and any amount above this dollar value would require Special Master
      recipients receiving exceptional assis-
                                                         approval.309
      tance so long as the employee’s total
                                                      •	 No more than $25,000 should be provided in “other” compensation and perqui-
      annual compensation is not more than
      $500,000, with any additional com-                 sites. If the entity pays more than $25,000, it must provide justification to the
      pensation paid in the form of long-term            Special Master.310
      restricted stock.                               •	 Benefits under Supplemental Executive Retirement Plans (and similar deferred-
                                                         compensation programs) as well as severance arrangements were frozen by the
      Supplemental Executive Retirement                  Special Master.
      Plans: In such plans, employers periodi-        •	 Cash bonuses may no longer be awarded to the 25 most highly compensated
      cally credit employees with an entitle-            employees.311
      ment to post-retirement payments.
      Over time, these credits accumulate                Of the seven submitted proposals, only Chrysler Financial’s proposal was ac-
      and employees may become entitled to
                                                      cepted as being in-line with the public interest standard without modification.312
      substantial cash guarantees payable on
                                                      Common deficiencies in the other proposals included:313
      retirement.

                                                      •	 Cash salaries and bonuses were excessive.
                                                      •	 Stock salaries were eligible for redemption without a sufficient waiting period
                                                         (approximately three years).
                                                      •	 Compensation plans were not sufficiently tied to performance-based bench-
                                                         marks and metrics.
                                                                             quarterly report to congress I january 30, 2010   105




•	 Financial “perks,” including, among others, private airplane transportation,
   country club dues, and golf outings were not limited or restricted.
•	 Compensation plans called for excessive levels of severance and executive retire-
   ment benefits.
•	 Companies did not attempt to include their guaranteed compensation contracts
   (which pre-dated TARP executive compensation restrictions) into their current
   compensation proposals.

    The resulting alternative payment arrangements imposed by the Special Master
will be discussed in greater detail in an upcoming SIGTARP Audit entitled, “The
Review of Office of the Special Master Decisions on Executive Compensation.”

Exceptional Assistance Compensation Determinations for the
26th to 100th Highest Paid Employees
On December 11, 2009, Special Master Feinberg issued his second round of rul-
ings, covering executive compensation structures for the 26th to 100th highest paid
employees (plus any additional executive officers not covered by the October 22
rulings) at AIG, Citigroup, GM, and GMAC. Chrysler and Chrysler Financial were
exempt from the second round of rulings because the annual compensation for
their executives (excluding “long-term restricted stock” as defined in the Rule) does
not exceed the $500,000 “safe harbor” in the Rule.314 Because Bank of America
repaid its TARP obligations on December 9, 2009, it also was not subject to these
new rulings.315
    Special Master Feinberg concluded that each of the remaining four propos-
als (AIG, Citigroup, GM, and GMAC) required modification in order to meet the
public interest standard and used the following guiding principles to inform his
determinations:316

•	 Reform compensation to protect long-term value creation and financial stability.
•	 In most instances, limit cash to 45% of total compensation.
•	 Freeze excessive executive severance and retirement pay.
•	 Restrict the use of short-term cash compensation.
•	 Forbid incentive compensation without real achievement of objective goals.
•	 Restructure pay to focus executives on the long term by requiring that at least
   50% of compensation be held for three years or more.
•	 End pay practices that are not aligned with shareholder and taxpayer interests.
106   special inspector general I troubled asset relief program
              federal support of the
S ec tion 3   residential mortgage
              market
108   special inspector general I troubled asset relief program
                                                                                                                        quarterly report to congress I january 30, 2010             109




Overview
This section describes the role of the Federal Government in supporting the mortgage
markets and, by extension, home prices, particularly since the onset of the financial cri-
                                                                                                                                        Housing Market “Bubble”: A bubble
sis. This discussion is intended to place into context the Troubled Asset Relief Program
                                                                                                                                        is a condition in which market values
(“TARP”)-related programs that support or otherwise relate to the housing market.                                                       of assets rise precipitously above
     A majority of the troubled assets in the financial system originated in a housing                                                  their underlying, long-term value. As
market “bubble.” The high prices for housing from 2004 – 2007 were fueled by many                                                       it pertains to the residential housing
factors, including unrealistic expectations of future home price increases, low interest                                                market bubble in the United States
rates, overrated mortgage-backed securities (“MBS”), and lax standards by lenders for                                                   from 2004 – 2007, prices rose
granting new mortgages. As the bubble burst and housing prices plummeted during the                                                     beyond the point of sustainability.
current crisis, the private mortgage market froze. The U.S. Federal Government both                                                     Homeowners borrowed against their
leveraged its existing mortgage-related infrastructure and created new programs to pro-                                                 properties based on these inflated
vide support to the housing market as insurer in the primary market, guarantor in the                                                   values, and, when the market prices
                                                                                                                                        for homeowners came crashing
secondary market, and buyer of mortgage-related assets during the current economic
                                                                                                                                        down, many homeowners owed
crisis. By supporting the mortgage markets, the Federal response has acted to lower in-
                                                                                                                                        more money on their homes than the
terest rates, thus maintaining demand for housing and, by extension, supporting home
                                                                                                                                        homes are now worth.
prices. In addition to the use of TARP to modify existing mortgages, the Government
acted through a collection of Federal agencies, Government-sponsored enterprises                                                        Mortgage-Backed Securities (“MBS”):
(“GSEs”), and Federal programs.                                                                                                         A pool of mortgages bundled
     The Government’s efforts to support home prices and the residential mortgage                                                       together by a financial institution
markets have resulted in its increasing presence as owner and guarantor of residential                                                  and sold as securities — a type of
mortgages. Figure 3.1 captures the expanding percentage of mortgage flows attribut-                                                     asset-backed security.
able to the Government-backed mortgage entities like the Federal National Mortgage
Association (“Fannie Mae”), the Federal Home Loan Mortgage Corporation (“Freddie                                                        Mortgage-Related Assets: Residential
                                                                                                                                        or commercial mortgages and any
Figure 3.1                                                                                                                              securities, obligations, or other instru-
NET MORTGAGE BORROWINGS,                                                                                                                ments that are based on or related to
GOVERNMENT VS. PRIVATE, 1988 − 2009                                                                                                     such mortgages.
% of Total Net Mortgage Borrowings

100%                                                                                                             1989-1992
                                                                                                                                        Government-Sponsored Enterprises
                                                                                                                 S&L Crisis             (“GSEs”): Private corporations cre-
 80%                                                                                                             2004                   ated by the Government to pursue
                                                                                                                 Private MBS
 60%
                                                                                                                 boom; Fannie           certain public policy goals designated
                                                                                                                 Mae/Freddie Mac
                                                                                                                 constraints            in their charters. They are chartered
 40%                                                                                                                                    by the U.S. Government, but their
                                                                                                                 2008/2009
                                                                                                                 Current                liabilities are not officially considered
 20%                                                                                                             economic
                                                                                                                 crisis                 to be direct Government obligations.
  0                                                                                                                                     The housing GSEs include Fannie
      88 89 90 91 92 93 94 95 96 97 98 99 00 01 02 03 04 05 06 07 08 09                                                                 Mae, Freddie Mac, and the 12 Fed-
                                                                                                                                        eral Home Loan Banks (“FHLBs”).
          Private Mortgages
          Government and GSE Mortgages


Notes: Numbers affected by rounding. 2009 data is an estimate based on annualizing three quarters of data.
Government’s 100% share in 2008 -- 2009 is a result of negative net mortgage borrowings by the private sector.

Sources: Federal Reserve, www.federalreserve.gov/releases/Z1/Current/z1r-3.pdf, accessed 1/12/2010;
OFHEO, Report of the Special Examination of Freddie Mac, December 2003, ofheo.gov/Preview-
FHFAWWW/webfiles/749/specialreport122003.pdf, accessed 1/12/2010.
110                 special inspector general I troubled asset relief program




  Figure 3.2
                                                           Mac”), and the Government National Mortgage Association (“Ginnie Mae”) in the
  CHANGE IN MORTGAGE OWNERSHIP,
                                                           mortgage-related finance market.
  GOVERNMENT VS. PRIVATE,
  2004 − 2009                                                  During the 1989 – 1992 crisis in the savings and loan (“S&L”) industry, the
  $ Trillions                                              Government stepped in as a counterweight to the loss of lending capacity in that
  $1.00                                                    sector — a pattern that is being repeated today and that reflects the countercycli-
                                                           cal nature of Federal mortgage support institutions. Over the course of the 1990s,
  $0.75                                                    private lenders accounted for approximately half of net mortgage borrowings. The
                                                           precipitous drop in Government-backed lending that began in 2003 reflected a
  $0.50                                                    surge in private mortgage lending, particularly lending related to private-label MBS.
                                                           By 2005, this activity was not only accounting for a majority of new loans, but was
  $0.25                                                    drawing existing mortgages away from the Government sector through refinanc-
                                                           ing. In addition, growing constraints on the size of Fannie Mae and Freddie Mac
      0.00                                                 further reduced the Government-backed share of net borrowings. Accordingly, the
             2004     2005   2006       2007   2008 2009   Government-backed percentage share of net new mortgages decreased significantly
   0.00
                                                           in 2003 and 2004, accounting for almost none of the net borrowings from 2004 to
 $-0.25                                                    2005. In recent years, as the private sector experienced mounting losses as a result
                                                           of the current economic crisis and responded by reducing new originations, the
 $-0.50                                                    Government share of net borrowings once again increased. According to Federal
                                                           Reserve net borrowings data, the Federal Government and the organizations it
 $-0.75                                                    backs now guarantee or issue almost all net new borrowings for mortgages and
                                                           MBS.
 $-1.00                                                        The effect of these changes can be seen in the changes in dollar amounts of
                Government-Backed
                                                           holdings as opposed to percentages, which are harder to interpret when the total
                Privately Backed                           change is negative. The Federal Government is stepping in as the private sector has
  Note: Numbers affected by rounding.                      shed more than $1.5 trillion of mortgage assets in the past two years. Figure 3.2
  Source: Federal Reserve, Flow of Funds                   illustrates this active downsizing by the private sector and the reduction in its expo-
  Accounts of the United States Report Z.1, 12/10/2009,
  www.federalreserve.gov/releases/Z1/Current/Z1r-3.pdf,    sure as well as some of the accompanying decrease in values due to foreclosures.
  accessed 1/12/2010.
                                                               In short, between net mortgage lending and existing mortgage management, the
                                                           Federal Government now completely dominates the housing mortgage market, with
                                                           the taxpayer shouldering the risk that had once been borne by the private sector.




      For more information on Federal assis-
      tance, see Section 3: “TARP in Context:
                                                           Net Mortgage Borrowings: For mortgages,      Foreclosure: Legal termination of a bor-
      Financial Institution Support and Policies
                                                           “net borrowings” consist of the dollar sum   rower’s mortgage rights, usually following a
      Outside of TARP,” in SIGTARP’s July
      2009 Quarterly Report.                               of new mortgage loans made during a          payment default, and transfer to the lender.
                                                           year, minus the principal payoffs or other
                                                           reductions of existing mortgages. This
                                                           is not the same as market share, which
                                                           captures only mortgage originations.
                                                                              quarterly report to congress I january 30, 2010            111




The Role of the U.S. Government in the
Residential Mortgage Market
The Federal Government’s support of the residential mortgage market has
changed over time to include support of both the primary mortgage market and                  Mortgage Market: Institutions and
secondary mortgage market and emergency support during the current economic                   individuals who are involved with
crisis. For a summary of the associated agencies, companies, and programs                     mortgage finance in one way or
within each type of market support, see Figure 3.3 on the following page.                     another: includes lenders, mortgage
    Historically, the Government’s first approach to providing residential mort-              brokers, mortgage insurers, loan
                                                                                              servicers, mortgage investors, MBS
gage assistance was to assist the homeowner directly by insuring mortgages
                                                                                              packagers, etc.
against loss to the lender. This insurance encourages financial institutions to pro-
vide mortgages to potential homeowners who otherwise might not have qualified
                                                                                              Primary Mortgage Market: The mar-
for a mortgage, because, through these programs, the Government ensures that
                                                                                              ket for newly originated mortgages.
the lenders/owners of the mortgages will be compensated if the borrowers fail to
make their mortgage payments. The first agency to do so, the Federal Housing                  Secondary Mortgage Market: The
Administration (“FHA”), was created in 1934 during the Great Depression and                   market for buying and selling existing
pioneered the use of 30-year fixed-rate mortgages with low down payments. FHA                 mortgages; this could be in the form
was large enough that the terms it set created the standard in the private sector.            of whole mortgage or MBS sales.
With an FHA-insured mortgage, the borrower pays a fee to FHA for the insur-
ance, and, if the borrower subsequently defaults, FHA pays a settlement to the                Both the primary and secondary
lender. The U.S. Department of Veterans Affairs (“VA”) and the U.S. Department                mortgage markets are over-the-
of Agriculture (“USDA”) followed with similar programs for their own constitu-                counter markets — there is no
                                                                                              central exchange. Rather, loans are
ents — veterans and rural populations.
                                                                                              bought and sold through personal and
    FHA and the other mortgage insurers deal with individual loans on a loan-
                                                                                              institutional networks.
by-loan basis. To facilitate a more wholesale approach to mortgage financing that
could tap large institutional investors and broadly expand the capacity of lenders
                                                                                              Insurer: An entity that will pay for any
to provide more mortgage loans, Congress created a second type of organiza-                   losses incurred in case of default.
tion, the GSE, which was designed to act as guarantor against loss for a whole
pool of mortgages, creating a “secondary” mortgage market. Both Fannie Mae                    Guarantor: An entity that provides
and Freddie Mac act as guarantors. The purpose of their guaranties is to expand               a promise to make payments in the
the capacity of lenders to provide more mortgage loans. Ginnie Mae, although a                event that the issuer is unable. This
Government agency and thus not a GSE, rounds out the group of guarantors; its                 promise mitigates potentially higher
focus is on MBS composed of mortgages that had been insured by FHA or other                   risks for certain types of investments.
Federal agencies. Fannie Mae and Freddie Mac also purchase mortgages as part
of their investment portfolio.
    A network of 12 Federal Home Loan Banks (“FHLBs”) acquired, over time,
the same mortgage pooling and guaranteeing powers of Fannie Mae and Freddie
Mac. FHLBs today mostly lend against mortgages, rather than guaranteeing or
purchasing them.
    Beginning in late 2008, the Government also became a large investor in
mortgages and MBS, as well as purchasing the debt of the crumbling GSEs.
112             special inspector general I troubled asset relief program




      Figure 3.3

      GOVERNMENT SUPPORT OF RESIDENTIAL MORTGAGE MARKET


       SUPPORT OF PRIMARY                                                     SUPPORT OF SECONDARY                                                           EMERGENCY SUPPORT
       MORTGATE MARKET                                                        MORTGAGE MARKET                                                                DURING CRISIS
       Insure Mortgages of Homeowners                                         Guarantee/Securitize MBS and                                                   Buy MBS, Tax Subsidies, and
                                                                              Purchase Mortgages                                                             Support of GSEs

      FHA                                                                     Fannie Mae                                                                     Federal Reserve
      $757 billion insured                                                    $2.8 trillion guaranteed/securitized                                           $1.1 trillion purchased
      •   Low down payment                                                                                                                                   $1.25 trillion maximum
      •   Aimed at first-time homebuyers; low/                                                                                                               •   Mortgage Purchase Program (“MPP”)
          moderate income borrowers



      VA                                                                      Freddie Mac                                                                    Treasury
      $269 billion insured                                                    $1.9 trillion guaranteed/securitized                                           $331 billion GSE MBS and senior
      •   0% down                                                                                                                        Guarantee/          preferred stock purchased               Buy
      •   For Veterans                                                                                                                   Securitize          • GSE MBS and debt purchases halted     MBS
                                                                                                                                         MBS                 • No limit on senior preferred stock
                                                                                                                                                               purchasesa


      USDA                                                                    Ginnie Mae                                                                     Treasury/TARP
      $56 billion insured and originated                                      $864 billion guaranteed/securitized                                            Up to $40 billion to support PPIP
      • 0% down                                                               • Can only guarantee mortgages of                                              •   Created by EESA
      • For rural homes                                                         FHA/VA/USDA
      • Some payment subsidies                                                • Has “timely pay” full faith and credit
                                                                                of U.S. Government


                                                                              Federal Home Loan Banks—12                                                     Treasury/IRS
                                                                              $1 trillion advanced or purchased                                              2009 First-Time Homebuyer Tax Credit    Tax
                                                                                                                                                                                                     Subsidies
                                                                              •   Lending against and purchasing                                             • Provides up to an $8,000 tax credit
                                                                                  mortgages                                                                  • Program extended to April 2010




                                                                              Fannie Mae
                                                                              $752 billion purchased                                     Purchase
                                                                                                                                         Mortgages




                                                                              Freddie Mac
                                                                              $762 billion purchased




       THERE IS SOME OVERLAP:
                                                                              100% of Ginnie Mae MBS are backed by
                                                                              FHA/VA/USDA



      Notes: Numbers affected by rounding. For simplicity, certain smaller programs, such as HUD’s Public and Indian Housing (“PIH”) insurance, are not shown.
      a
        Maximum authorized amount is $400 billion plus losses in 2010 -- 2012.

      Sources: FHA Insurance: www.hud.gov/offices/hsg/fhafy09annualmanagementreport.pdf, p. 10, accessed 1/6/2010; FHA Delinquency Rate:
      portal.hud.gov/portal/page/portal/HUD/federal_housing_administration/docs/FHA%20Actuarial%20Review%20Briefing.pdf, slide 23, accessed 1/6/2010; FHA FY09 Annual Management Report,
      www.hud.gov/offices/hsg/fhafy09annualmanagementreport.pdf, accessed 1/12/2010; SEC Forms 10-K for Fannie Mae and Freddie Mac. SEC Forms 10-Q for FHLBs, Federal Reserve Board, Statement of
      Financial Condition, Report H.4.1, 12/31/2009, www.federalreserve.gov/Releases/H41/20091231/, accessed 1/9/2010; U.S. Treasury, “Final Monthly Treasury Statement of Receipts and Outlays,”
      November 2009, www.fms.treas.gov/mts/index.html, accessed 1/9/2010; Ginnie Mae: www.ginniemae.gov/media/ISS_Summary/dec09_RPB.pdf, accessed 1/22/2010.
                                                                                                                      quarterly report to congress I january 30, 2010   113




While the Federal Reserve invested in GSE debt and MBS, Treasury invested heav-
ily in the GSE MBS, stock, and debt. These emergency efforts were complemented
by new Government tax subsidies, such as the First-Time Homebuyer Tax Credit,
which were designed to encourage individual participation in the housing market.



Support of Primary Mortgage Market
There are three major Federal agencies that support the primary mortgage market
by insuring mortgages: FHA, VA, and USDA. They provide insurance policies on
individual mortgages. The borrower typically pays the agency a fee for the insur-
ance, and then, if the borrower defaults on the mortgage, the lender receives a
claim check for most of its loss from the agency. The ability to get mortgage insur-
ance on a mortgage makes lenders more likely to provide borrowers more afford-
able terms — such as a low or no down payment or lower interest rates. Table 3.1
details the characteristics of the three major Federal mortgage insurers.


Table 3.1

Federal Mortgage Insurers (As of 9/30/2009, unless noted)
Size of Agenciesa                                                FHA                              VA                   USDA
Mortgage Amount        Insuredb,c                       $757 Billion                  $269 Billion                $56 Billion
Mortgage # Insuredd                                       5.5 Million                   1.4 Million               0.4 Million
Average Size of a Single Mortgage                         $138,000                      $199,000                  $125,965


Terms of Insurance
Eligible Borrowers                               Low/Mod Income                            Veterans                      Rural
Maximum Mortgage                                          $729,750                             None                     Nonee
Minimum Down Payment                                            3.5%                           0.0%                      0.0%


Recent Performance
90-day Delinquency Rate                                7.4% approx                   4.4% approx               5.8% approx
Notes: Numbers affected by rounding.
a
  There are a few smaller insurer programs, such as the HUD Public and Indian Housing–Indian Home Loan Guarantee Program, which
  were not included due to size.
b
  Represents loan principal amount; insured portion can be less. Includes direct and insured loans for USDA and VA.
c
  Includes single-family homes and condominiums. Does not include reverse mortgages.
d
  Mortgage number insured is calculated by dividing the mortgage amount insured by the average size of a single mortgage.
e
  USDA maximum is based on borrower income, not mortgage size. At the highest income allowable (115% of area median), a
  borrower should be able to afford a $170,000 mortgage.

Sources: HUD Mortgage Letter 2009-50, “2010 FHA Maximum Limits,” www.hud.gov/offices/adm/hudclips/letters/mortgagee/
files/09-50ml.pdf, accessed 1/4/2010; FHA, FHA Annual Management Report FY2009, www.hud.gov/offices/hsg/fhafy09an-
nualmanagementreport.pdf, accessed 1/4/2010; OMB, Department of Veterans Affairs 2010 Budget, www.whitehouse.gov/omb/
budget/fy2010/assets/vet.pdf, page 19, accessed 1/4/2010; OMB, Department of Agriculture 2010 Budget, www.whitehouse.
gov/omb/budget/fy2010/assets/agr.pdf, accessed 1/4/2010; GPO, Budget of the United States Government: Federal Credit
Supplement Fiscal Year 2009, Table: 2. Loan Guarantees: Subsidy Rates, Commitments, and Average Loan Size, www.gpoaccess.
gov/USbudget/fy09/cr_supp.html, accessed 1/11/2010; FHFA, Foreclosure Prevention Report First Quarter 2009, www.fhfa.
gov/webfiles/2976/1Q09_Foreclosure_Prevention_Report_Final_06-23-09.pdf, pg. 8, for FHA and VA delinquency rates, accessed
1/12/2010; USDA, response to SIGTARP data call, 1/13/2010.
114          special inspector general I troubled asset relief program




                                                    The Federal Housing Administration (“FHA”)
      Single-Family Homes: In the finan-            FHA insures multiple types of mortgages including multifamily properties (apart-
      cial markets, individual, standalone          ments), condominiums, and nursing homes, but primarily insures mortgages on
      homes with up to four units are               single-family homes. The agency was created in 1934 during the Great Depression
      known as single-family housing,               to provide housing credit in a nation that had just experienced several waves of
      to distinguish them from multifam-            bank failures and widespread reluctance of banks to write new mortgages. FHA
      ily housing (apartments and group             helps potential homebuyers who would not normally be in the pool of buyers —
      homes) and institutional housing (col-        individuals with less down payment cash available, individuals with lower credit
      lege dorms, prisons, etc.).
                                                    scores, or those with homes in underserved neighborhoods. By bringing these buy-
                                                    ers into the market, and minimizing the risks by pooling their strengths, FHA’s pro-
      FHA-Approved Lender: A business
                                                    grams increase the demand for all homes, thus supporting home prices in general.
      that has been granted approval by
                                                        In 1965, FHA was incorporated into the newly created U.S. Department of
      HUD to service FHA-insured mort-
      gages based on certain qualifying             Housing and Urban Development (“HUD”).317 It is 100% owned by the Federal
      criteria. FHA-approved lenders can be         Government; its employees are members of the Federal civil service and are consid-
      mortgage bankers, banks, thrifts, and         ered HUD staff. The agency is designed to operate on a break-even basis, charging
      credit unions, as well as state, local,       fees sufficient to cover estimated future losses.318 “Thus, all of FHA’s liabilities are
      and Federal Government entities.              considered covered by budgetary resources.”319
                                                        Borrowers wishing to obtain mortgage insurance from FHA must submit ap-
                                                    plications through an FHA-approved lender. The lender may be a bank, a thrift, or
                                                    a mortgage banker certified as eligible to do business with FHA.
                                                        As of September 30, 2009, FHA insured more than 5 million single-family
                                                    mortgages, which, coupled with its insurance programs for multifamily homes,
                                                    manufactured homes, and hospitals, makes it the largest Government insurer of
                                                    mortgages in the world.320 It had $757 billion in single-family mortgages under
                                                    coverage as of September 30, 2009.321 Its volume has increased dramatically in the
                                                    past two years — from $56 billion in new loans in 2007322 to more than $300 bil-
                                                    lion in 2009 — as the private sector cut back dramatically on lending to the types
                                                    of borrowers that typically benefit from FHA-backed mortgages — i.e., subprime
                                                    borrowers.323 The agency estimates that 75% of its insurance policies were written
                                                    in the past two years.
                                                        FHA’s current rate of “serious delinquencies” (i.e., mortgages more than 90 days
                                                    overdue) was approximately 7.4% at the end of September 2009. This is increased
                                                    from its historical range of 5%. Because FHA sets its fees and premiums at levels
                                                    projected to break even, it only needs to obtain additional funds during periods of
                                                    extraordinary losses. On November 12, 2009, FHA announced the results of an
                                                    actuarial study of its single-family mortgage fund. The report states that, under the
                                                    expected economic assumptions, the agency’s capital level of reserves and available
                                                    funds would be drawn down to as low as 0.53% (the ratio of reserves and available
                                                    funds divided by its outstanding mortgage obligation). This is below the normally
                                                    required statutory capital level of 2.0%;324 however, FHA may draw down on a line
                                                    of credit from Treasury to increase its reserves.
                                                                              quarterly report to congress I january 30, 2010   115




The U.S. Department of Veterans Affairs (“VA”)
As a benefit to veterans of the U.S. armed forces, the VA offers a program that
guarantees mortgages in a manner similar to FHA. The VA-guaranteed mortgage is
available only to military veterans and surviving spouses of service-disabled veterans.
Like the FHA program, the VA attempts to operate the program on a break-even
basis. There is no down payment required, and the VA may also cover some closing
costs.325
    This program includes financing for new construction and for modifying homes
to meet the requirements of disabled veterans.326 The program was originally es-
tablished after World War II to support veterans, who often lacked a credit history
after being deployed for several years, by providing access to favorable credit terms
to purchase a home.327
    Veterans wishing to obtain a mortgage guaranteed by the VA must provide an
application and a “Certificate of Eligibility” to a VA-approved lender. As with FHA,
the lender may be a bank, a thrift, or a mortgage banker certified as eligible to do
business with the agency. Most VA-guaranteed loans are sold into Ginnie Mae pools.
    Like FHA, the VA can obtain funds from Treasury should it experience higher-
than-expected losses. As of September 30, 2009, VA had a total of $269 billion in
single-family mortgages under coverage. Its current reported default rate is approxi-
mately 4.4% for greater-than-90-day delinquencies.

The U.S. Department of Agriculture (“USDA”), Rural Development
Within USDA’s Rural Development office, the Rural Housing Service offers loans
to help purchase or renovate homes in rural areas.328 In general, a “rural area” is a
town with a population of 20,000 or less.329 USDA provides two types of loan pro-
grams: a direct loan program, which is aimed at low- and very low-income house-
holds, and a guaranteed loan program, which operates like the FHA program.330
    USDA differs from the other insurers in its maintenance of a local office system
with direct lending capability. Several hundred USDA service centers in small
towns around the country provide direct mortgage lending.331 Homebuyers can
walk into a service center, fill out an application for a mortgage, receive personal
financial counseling to determine qualification if necessary, and get their loan
directly from the Government. This applies to USDA’s direct loan program. For
USDA’s other program, the loan insurance program, homebuyers can go to their
local bank or mortgage banker as they would with FHA or VA and their loan would
be insured by USDA.
    As of January 12, 2010, USDA had a total of $39.6 billion in single-family
mortgages under coverage, as well as $15.9 billion in direct loans. Its volume has
increased dramatically in the past two years since the private sector has reduced
new lending — from $3.1 billion in new loans in 2007 to more than $16.2 billion
in 2009.332 USDA’s current reported delinquency rate is approximately 5.8% for
greater-than-90-day delinquencies.
116          special inspector general I troubled asset relief program




                                                    Support of the Secondary Mortgage Market
                                                    Congress has created several GSEs to support the secondary mortgage markets
                                                    through their efforts to issue and guarantee whole portfolios of mortgages in the
                                                    form of MBS. The housing-related GSEs include Fannie Mae, Freddie Mac, and
                                                    the 12 FHLBs.333 Fannie Mae and Freddie Mac are private, shareholder-owned
                                                    companies. Fannie Mae started out as a Government agency in 1938 but con-
                                                    verted to a shareholder-owned corporation in 1968.334 Freddie Mac was formed as
                                                    a shareholder-owned company in 1970. The 12 FHLBs are a system of regional
                                                    banks with a membership composed of commercial banks, savings institutions,
                                                    credit unions, insurance companies, and Community Development Financial
                                                    Institutions based on certain eligibility criteria.335 Unlike Fannie Mae and Freddie
                                                    Mac, the FHLBs provide liquidity to the mortgage market through their “advance”
                                                    program, under which the FHLB will loan cash to a member in return for that
                                                    member posting suitable mortgages or MBS as collateral.
      “Full Faith and Credit” Obligation: An            Ginnie Mae performs similar functions as Fannie Mae and Freddie Mac but is
      absolute and legally binding commit-          not technically a GSE because it is directly owned by the U.S. Government. Only
      ment of the U.S. Government. MBS              Ginnie Mae’s liabilities explicitly carry a “full faith and credit” obligation of the U.S.
      with this level of security are rated         Government, while the GSEs, and particularly Fannie Mae and Freddie Mac, carry
      AAA. Only Ginnie Mae securities have          an all but explicit Government guarantee.
      this level of protection.                         The GSEs share a number of defining characteristics: their purpose as deter-
                                                    mined by Congress, their organizational structure, their regulatory agency, and
                                                    their relationship with the Federal Government. This section first describes their
                                                    commonalities and then explores each organization’s individual characteristics. The
                                                    general statistics of these institutions are listed in Table 3.2.
                                                                                                                        quarterly report to congress I january 30, 2010                    117




Table 3.2

Federal Mortgage Guarantors and purchasers, As of 11/30/2009
Ownership                                                         Fannie Mae                  Freddie Mac                         FHLBsa                   Ginnie Mae
Ticker Symbol                                                                FNM                           FRE                     Various                            N/A
% Owned by U.S. Government                                                 79.9%                        79.9%                         0.0%                          100%
Size of Agencies
MBS Guaranteed ($ Billions)                                            $2,813.2                     $1,860.8                           $—                         $863.5
MBS/Mortgages in Portfolio ($ Billions)                                    752.2                        761.8                       366.8                             N/A
Advances on Mortgage, MBS ($ Billions)                                        N/A                          N/A                      677.9                             N/A
Total MBS Exposure ($ Billions)                                       $3,565.5                     $2,622.6                    $1,044.7                          $863.5
Company Debt Outstanding ($ Billions)                                    $782.3                        $809.2                      $979.9                             N/A
Treasury Equity Investment ($ Billions)                                    $60.0                        $51.0                            $0                           N/A


Recent Performance
90-day Delinquency Rate                                                    4.98%                        3.72%                      Variesb                         Variesc

Note: Numbers affected by rounding.
a
  Numbers represent combined amounts of all 12 Federal Home Loan Banks.
b
  Each FHLB has a different method of reporting delinquency rates. The following banks reported 90-day delinquency rates as of 9/30/2009: Boston at 5.4%, Des Moines at
  2.1%, and Indianapolis at 4.2%.
c
  Underlying mortgages are FHA, VA, or USDA and delinquency rates reflect this, as well as issuers’ option to repurchase nonperforming loans at 90 days’ delinquent.

Sources: Monthly Review Report for Fannie Mae, www.fanniemae.com/ir/pdf/monthly/2009/113009.pdf, Fannie Mae MBS and Portfolio, www.fanniemae.com/ir/monthly/index.
jhtml;jsessionid=HRD5R23GT4HXFJ2FECHSFGQ?s=Monthly+Summary; Freddie Mac, www.freddiemac.com/investors/volsum/pdf/1109mvs.pdf, www.fanniemae.com/ir/pdf/
monthly/2009/113009.pdf, and 10Q for Freddie Mac; Freddie Mac MBS and Mortgages, www.freddiemac.com/investors/volsum/, accessed 1/12/2010. Fannie and Freddie
Senior Preferred Stock, see www.fhfa.gov/webfiles/15323/TreasFed12172009.pdf, accessed 1/12/2010; Ginnie Mae, www.ginniemae.gov/media/iss_summary/dec09_RPB.
pdf, accessed 1/22/2010; FHLB’s, www.fhlb-of.com/specialinterest/financialframe2.html, accessed 1/12/2010; GPO, Budget of the United States Government: Federal Credit
Supplement Fiscal Year 2009, Table: 2. Loan Guarantees: Subsidy Rates, Commitments, and Average Loan Size, www.gpoaccess.gov/USbudget/fy09/cr_supp.html, accessed
1/11/2010.




The Liquidity Function of GSEs
One of the GSEs’ primary functions is to provide liquidity in the mortgage market.
Liquidity refers to the ease with which assets can be traded and turned into cash. If                                                           Liquidity: The ability to easily convert
a market is liquid there is a healthy supply and demand for the market assets — the                                                             an asset to cash, without any signifi-
assets and cash are flowing well. Should either the supply or demand for the asset                                                              cant loss in value or transaction cost.
be reduced, the flow is reduced, and the market could ultimately stop working, or
become illiquid. In the financial sector, a bank’s liquidity refers to whether it will
have the cash it needs on hand to meet its obligations.336
    Thousands of small banks and lenders in the United States use the GSEs as
large, centralized institutions to which they can sell their loans, thus avoiding the
difficulty and expense of assembling and selling portfolios on their own. GSEs buy
packages of mortgages from banks and other lenders for cash, giving those lend-
ers additional funds to make new mortgage loans and removing from their balance
sheets the risk of default on the loans. This provides the lenders with liquidity and
enables them to make more home loans.337
118            special inspector general I troubled asset relief program




      Fannie Mae and Freddie Mac do not               Mortgage-Backed Securities Guaranties, Advances, and Portfolio
      provide direct mortgages to individuals,        Holdings
      but rather support the secondary mortgage       Originally, the GSE business model called for the GSEs to guarantee mortgage
      market by buying mortgages and then             pools that had been sold as MBS in exchange for guarantee fees from lenders
      “securitizing,” i.e., packaging the mortgages
                                                      and management fees. On the Government side, Ginnie Mae offered MBS as an
      into MBS and selling these securities to
      investors. Lenders pay the GSE a guaran-        investment product in 1970, which helped to increase rapidly the mortgage lend-
      tee fee for assuming the payment risk. By       ing activities for the residential housing market.341 Ginnie Mae’s MBS programs
      securitizing these groups of mortgages, the     guarantee the timely principal and interest payments on MBS collateralized with
      GSE provides mortgage brokers and lend-         mortgage pools created by its approved lenders. Fannie Mae and Freddie Mac
      ers with cash in exchange for a guarantee       operate similar guarantee programs. When these GSEs guarantee an MBS, even
      of payments on mortgages.338 In addition,
                                                      if a substantial portion of the underlying borrowers default and the servicers fail
      both GSEs purchase MBS directly for
      their own portfolio.339                         to make the required payments to the investors who hold the MBS, the GSEs will
           As GSEs, Fannie Mae and Freddie            make the required payments.342
      Mac are also frequently able to borrow               Fannie Mae and Freddie Mac are engaged in two major mortgage financing
      cash at a lower interest rate than other        operations — the securitization/guarantee of MBS, and the acquisition and man-
      institutions, thus maintaining a lower          agement of MBS and mortgage-related assets for their own portfolios. Mortgage
      cost of capital than private MBS issu-
                                                      lenders sell their mortgages to Fannie Mae and Freddie Mac who securitize the
      ers. Before the housing boom, private
      companies dominated the residential             mortgages. The lenders pay Fannie Mae and Freddie Mac a credit guarantee fee
      mortgage-backed securities market, creat-       for assuming the risk that the borrowers will not pay their mortgages and investors
      ing a variety of products that both hedged      will not receive their payments under the terms of the MBS.343 The guarantee fee,
      against different types of risk and provided    along with other management fees collected over a mortgage’s life, were originally
      an investment return. However, when the         the primary sources of earnings for Freddie Mac.344 In the 1990s, Fannie Mae and
      housing market deflated, these companies
                                                      Freddie Mac dramatically increased purchasing for their own portfolios, and these
      decreased investing capital in the market.
      The Government, through investing in the        purchases included mortgage loans and MBS, including their own guaranteed
      secondary mortgage markets, stepped in to       MBS. In effect, they started to do more than just guarantee the holdings of MBS
      continue to support this market and infuse      investors against loss; they began buying those MBS for their own portfolios as
      capital to provide liquidity so that banks      investments, subjecting themselves to tremendous risk of loss should those securi-
      would continue to loan to homeowners.340        ties decline in value.345
                                                           The changing size of Fannie Mae’s and Freddie Mac’s portfolio holdings over
      For more information on the securitiza-         time can be seen in Figure 3.4. In 2004, Government regulators began questioning
      tion process, see SIGTARP’s April 2009          the level of portfolio holdings, eventually instituting a cap on how much mortgage-
      Quarterly Report, page 92.
                                                      related asset exposure Fannie Mae and Freddie Mac could keep in their portfolios.
                                                      This explains the resulting dip in portfolio holdings in Figure 3.4 and the leveling
                                                      off of the portfolios to approximately $700 billion. Under their current agreements
                                                      with Treasury, Fannie Mae and Freddie Mac were permitted to increase their
                                                      portfolio holdings to $900 billion each by the end of 2009.346 The Government has
                                                      required the companies to reduce their portfolios from the current $900 billion cap
                                                      at a rate of 10% each year after 2009 until they reach $250 billion each.347
                                                           In addition to the FHLBs’ advances program previously mentioned, the FHLBs
                                                      also buy mortgages and MBS for their own portfolios. As with Fannie Mae and
                                                                                quarterly report to congress I january 30, 2010                             119




Freddie Mac, the portfolio strategy has caused an increased risk of loss for institu-          Figure 3.4
tions within the FHLB system.
                                                                                              FANNIE MAE AND FREDDIE MAC
                                                                                              PORTFOLIO AND GUARANTEE
The Legal and Organizational Structure of the GSEs                                            EXPOSURE, 1998 − 2009
The GSEs are private, shareholder-owned companies. They were created by acts                  $ Trillions

of Congress, which established them under special charters. The charters place
                                                                                              $2.5
certain responsibilities on them, but also grant them certain privileges. In the case
of Fannie Mae and Freddie Mac, the basic charter requires them to:348                          2.0

                                                                                               1.5
•	 increase liquidity in the residential mortgage markets
•	 operate nationwide                                                                          1.0

•	 provide assistance to the secondary market for residential mortgages
                                                                                               0.5


   In return for these responsibilities, they are granted certain privileges:                    0
                                                                                                     98 99 00 01 02 03 04 05 06 07 08 09

•	 GSEs are exempt from state and local income taxes.                                                   Fannie Mae MBS Guaranteed
                                                                                                        Freddie Mac MBS Guaranteed
•	 GSE securities are exempt from Securities and Exchange Commission (“SEC”)
                                                                                                        Fannie Mae MBS Owned
   registration (although they register their common stock voluntarily).                                Freddie Mac MBS Owned

•	 GSE debt may enjoy many of the privileges of U.S. Government debt.
                                                                                              Notes: Numbers affected by rounding. All data is for 12/31,
                                                                                              except for 2009 which is 11/30 data.

    One privilege that the charters do not grant is the explicit backing of the U.S.          Sources: Fannie Mae Monthly Summary, 1998 – 2009, accessed
                                                                                              1/6/2010; www.fanniemae.com/ir/monthly/index.jhtml;
Government. As a result of various steps taken by the U.S. Government, it has                 jsessionid=HRD5R23GT4HXFJ2FECHSFGQ?s=Monthly+Summary;
                                                                                              Freddie Mac Monthly Summary, 1998 – 2009
been generally anticipated in the markets, however, that the Federal Government               www.freddiemac.com/investors/volsum/ and sec.gov filings,
                                                                                              accessed 1/6/2010.
will fully back Fannie Mae and Freddie Mac as needed. This “implied guarantee”
of the Federal Government historically provided the GSEs with high credit ratings,
low capital requirements, and access to funds from private institutions at below-
market rates, as lenders were willing to lend at lower interest rates because they
were confident that the U.S. Government would step in to make payments on
their behalf if necessary. During the financial crisis of 2008, the U.S. Government
did, in fact, step in to support the obligations of Fannie Mae and Freddie Mac,
culminating in the September 2008 conservatorship and the December 2009 an-
nouncement that the United States would essentially provide them with limitless
support over the next several years.349
    This conservatorship is administered by their regulatory agency, the Federal
Housing Finance Agency (“FHFA”). Conservatorship leaves the companies in
the daily operational control of management and is not a bankruptcy proceeding.
In taking the companies into conservatorship, Treasury supplied much-needed
capital to the firms, whose deteriorating financial position was characterized by the
FHFA Director as of “critical importance” and a threat to the continued function-
ing of the residential financial markets.350 As a result of the Government fund-
ing, the Government holds an 80% equity stake in both Fannie Mae and Freddie
120             special inspector general I troubled asset relief program




      Conservatorship versus Receivership:
                                                       Mac, transforming its previously implicit guarantee351 to an all but explicit
      In the case of Fannie Mae and Freddie
                                                       guarantee.352
      Mac, conservatorship involved FHFA
                                                           As part of the conservatorship process, Fannie Mae and Freddie Mac
      taking control of the companies as
      authorized by the Housing and Eco-               agreed to a receivership provision within their agreements with Treasury. This
      nomic Recovery Act (“HERA”) of 2008.             provision requires FHFA to monitor the capital ratios of the companies and to
      The powers of the board of directors,            officially place the companies into receivership should they ever drop into a
      officers, and shareholders are trans-            “negative equity” status, as defined by the agreement. Such a negative equity
      ferred to FHFA. However, the day-to-day          status has occurred regularly since September 2008, but each time Treasury
      operations of the company are still with         has provided taxpayer money as capital — in the form of purchasing preferred
      its existing management. In a receiver-          stock through its Preferred Stock Purchase Agreement (“PSPA”) — to bring
      ship, shareholders are permanently               the companies into a position of positive equity.354 To date, Treasury has in-
      terminated, whereas in a conservator-            vested $60 billion in Fannie Mae and $51 billion in Freddie Mac.355 Although
      ship shareholder rights are temporarily
                                                       Treasury had previously agreed to a $400 billion cap on such assistance, on
      assumed by the controlling entity.
                                                       December 24, 2009, it removed these limits.

      Conservatorship versus Nationalization:
                                                       Use of the GSEs in Subsidizing Foreclosure Avoidance
      Under nationalization, the U.S. Govern-
      ment would explicitly assume the obliga-         As part of their charters, the GSEs are expected to provide particular support
      tions and operations of the GSEs. As             to low- and moderate-income homebuyers in areas that are underserved by
      then-Treasury Secretary Henry Paulson            the private sector. Since the financial crisis began, to address the high levels
      noted in early 2009, “Explicitly guaran-         of foreclosures, the GSEs have instituted special programs including:
      teeing Fannie and Freddie’s obligations
      would essentially nationalize this signifi-      •	 Home Affordable Refinance Program. Fannie Mae administers this
      cant portion of the U.S. housing finance            program, providing support for mortgage servicers by easing its normally
      market.”353 Nationalization would also              required underwriting criteria in order to help distressed homebuyers refi-
      require the Government to take Fannie               nance their mortgages into low-rate, long-term mortgages. As an example
      Mae and Freddie Mac’s debt obligations
                                                          of the relaxed underwriting restrictions, borrowers may have up to a 125%
      and losses on to the Federal Govern-
                                                          loan-to-value (“LTV”) ratio, instead of the usual 80% ceiling.356
      ment’s balance sheet, which would be
                                                       •	 Foreclosure Moratoria. In the past year, Fannie Mae and Freddie Mac
      recognized as an on-budget event. If
                                                          have reduced the foreclosures of homes in certain markets in their portfo-
      recorded as an on-budget event, then
      a full U.S. Government takeover of a                lios during certain periods.357
      company would necessitate adding its             •	 Mortgage Modifications. Fannie Mae and Freddie Mac are actively
      debt and net guarantees to the U.S.                 attempting to modify mortgages that they own in their own portfolios
      Treasury debt. In the case of Fannie Mae            through the TARP-related Home Affordable Modification Program
      and Freddie Mac, which together have                (“HAMP”).
      approximately $1.6 trillion in outstanding
      debt and a great deal of guarantee expo-         Role of the Federal Housing Finance Agency (“FHFA”)
      sure, this likely could not be done under        FHFA was formed under the Housing and Economic Recovery Act of 2008
      the $12.3 trillion Treasury debt ceiling         (“HERA”). HERA formed a legislative merger of the Office of Federal
      set by Congress. The September 2008
                                                       Housing Enterprise Oversight (“OFHEO”), the Federal Housing Finance
      conservatorship of the GSEs avoided
                                                       Board (“FHFB”), and parts of HUD. FHFA regulates Fannie Mae, Freddie
      such a result.
                                                                            quarterly report to congress I january 30, 2010            121




Mac, and the 12 FHLBs.358 This new organization incorporated the missions of its
predecessors, which included OFHEO’s mission to provide safety and soundness                Loan-to-Value (“LTV”) Ratio: In real es-
oversight for Fannie Mae and Freddie Mac, FHFB’s mission to provide safety and              tate lending, the outstanding principal
soundness and mission oversight of the FHLBs, coupled with HUD’s responsibility             amount of the loan divided by the
to oversee Fannie Mae and Freddie Mac’s mission compliance and to set housing               appraised value of the property.
goals for these companies. As such, GSEs still operate under mandates to promote
homeownership for low- and middle-income families and underserved communi-
ties, and FHFA’s oversight continues to support these activities by monitoring their
abilities to meet these goals.359

Current Controls on Fannie Mae and Freddie Mac
Under the conservatorship of FHFA, Fannie Mae and Freddie Mac have, in the ag-
gregate, funded 74% of all new mortgages originated in the second quarter of 2009,
up from 54% in 2007 and 37% in 2006.360
   When Fannie Mae and Freddie Mac went into conservatorship in September
2008, then-Secretary of the Treasury (“Treasury Secretary”) Henry Paulson devel-
oped a four-step plan to reduce the future systemic risk that both organizations
faced regarding their exposure to MBS. The four steps included the following:361

•	 Treasury Investment Established — creating PSPAs, which are contractual
   agreements between Treasury and the conserved entities in which Treasury
   receives senior preferred equity shares and warrants in exchange for capital.
   Under the PSPAs, Treasury expects to fund Fannie Mae and Freddie Mac until
   December 2012.362
•	 10% Per-Year Portfolio Reductions — reducing the mortgage-related asset
   portfolios of Fannie Mae and Freddie Mac by 10% per year, mostly through
   natural maturations of the existing debt that was used to fund their portfolios.
   The Government has set this expectation with a goal portfolio size of $250 bil-
   lion each.
•	 Secured Lending Credit Facility Established— establishing a secured lending
   credit facility available to Fannie Mae, Freddie Mac, and the FHLBs (“GSE-
   CF”) to help stabilize the current market. The facility expired on December 31,
   2009, and was never drawn down.363
•	 GSE MBS Purchase Program Established — initiating a temporary program
   to purchase GSE MBS, named the GSE MBS Purchase Facility (“GSE MBS-
   PF”), to help stabilize the current market. GSE MBS-PF reached a peak of
   $111 billion and expired on December 31, 2009.364

Federal National Mortgage Association (“Fannie Mae”)
As can be seen earlier in this section, in Table 3.2, as of November 30, 2009,
122              special inspector general I troubled asset relief program




                                                                  Fannie Mae has two major areas of mortgage activity: the securitization and guar-
  Figure 3.5                                                      antee of $2.8 trillion of MBS and the management of its own portfolio of $752 bil-
                                                                  lion in mortgage- and MBS-related assets. The amount of Fannie Mae-guaranteed
  FANNIE MAE AND FREDDIE MAC
                                                                  MBS has increased more than 300% since 1998.365 Fannie Mae’s portfolio has
  DELINQUENCIES: % OF MORTGAGES
  > 90 DAYS, 1998 − 2009                                          been funded with its more than $782 billion in debt, as seen previously in Table
 5%
                                                                  3.2. The serious delinquency rate (greater-than-90-days delinquent) on single-
                                                                  family mortgages guaranteed by Fannie Mae has increased in the past two years to
 4%                                                               4.98%, as seen in Figure 3.5.

 3%
                                                                  Federal Home Loan Mortgage Corporation (“Freddie Mac”)
 2%
                                                                  As of November 30, 2009, Freddie Mac’s outstanding MBS guarantees were at
                                                                  $1.9 trillion, while its own portfolio of holdings had reached $761.8 billion.366 The
 1%                                                               amount of Freddie Mac-guaranteed MBS has increased more than 800% since
                                                                  1998. Its own portfolio was originally capped at $728.1 billion, with a 2% per-year
  0
       98 99 00 01 02 03 04 05 06 07 08 09                        escalation, but the cap was subsequently raised to $900 billion when the conser-
            Fannie Mae                                            vatorship was established.367 Freddie Mac’s portfolio has been funded with more
            Freddie Mac                                           than $809 billion in debt. Freddie Mac’s delinquency rates have, like Fannie Mae’s,
      Sources: Fannie Mae Monthly Summary, 1998 – 2009,           increased dramatically, with Freddie Mac’s greater-than-90-days delinquency rate
      www.fanniemae.com/ir/monthly/index.jhtml;jsessionid=HRD5
      R23GT4HXFJ2FECHSFGQ?s=Monthly+Summary; Freddie Mac          now at 3.72% as seen in Figure 3.5.
      Monthly Summary, 1998 – 2009, accessed 1/6/2010;
      www.freddiemac.com/investors/volsum/ and sec.gov filings,
      accessed 1/6/2010.
                                                                  The Government National Mortgage Association (“Ginnie Mae”)
                                                                  Despite being an MBS-guarantee enterprise, Ginnie Mae is fairly well protected
                                                                  from the two primary risks of its business: credit risk and interest rate risk. In the
                                                                  area of credit risk, it benefits from the statutory requirement that it only guaran-
                                                                  tee pools of mortgages that are already insured by a Federal agency — FHA, VA,
                                                                  or USDA. In the area of interest rate risk, Ginnie Mae takes very little exposure
                                                                  because it avoids portfolio purchases of MBS. As of November 30, 2009, Ginnie
                                                                  Mae had $863.5 billion of its guaranteed MBS outstanding.368 As reported in its
                                                                  fiscal year 2009 annual report, Ginnie Mae had net revenues of $509.6 million and
                                                                  capital reserves of $14 billion.369

                                                                  Federal Home Loan Banks (“FHLBs”)
                                                                  Since HERA, the FHLBs are now also under the oversight of the FHFA. Until
                                                                  December 31, 2009, the FHLBs had access to the same Treasury GSE-CF as
                                                                  Fannie Mae and Freddie Mac, which permitted Treasury to purchase FHLBs’ debt
                                                                  in exchange for assets as collateral. The program expired, however, with no outlays
                                                                  of funds to FHLBs or to Fannie Mae or Freddie Mac.370
                                                                      Total FHLB advances were $678 billion as of September 30, 2009.371 This is
                                                                  reduced from approximately $1.0 trillion at the end of 2008, which, according to
                                                                  FHFA, can be attributed to an increase in deposits at member banks and a decrease
                                                                  in mortgage originations, coupled with the support of Federal liquidity programs
                                                                                                                   quarterly report to congress I january 30, 2010   123




and changing market conditions.372 Even these financial institutions, however, are
facing challenging times meeting regulatory capital requirements. On average, the
FHLBs have a capital ratio of 4.2%, only slightly more than the 4% required by
banking regulators.373

Emergency Support During the Crisis
By mid-2008, market conditions made it increasingly difficult for Fannie Mae and
Freddie Mac to sell their debt and MBS at reasonable interest rates. The Federal
Reserve and Treasury responded by drawing on existing authorities to begin pur-
chase programs for these entities. Table 3.3 shows the currently outstanding hold-
ings under these programs.

Federal Reserve
The Federal Reserve is currently pursuing two major programs related to the GSEs.

   Federal Reserve Mortgage Purchase Program (“MPP”). In announcing
the creation of the MPP, the Federal Reserve stated “Under the MBS purchase
program, the Federal Reserve will purchase MBS backed by Fannie Mae, Freddie
Mac, and Ginnie Mae; the program is being established to support the mortgage
and housing markets and to foster improved conditions in financial markets more
generally.”374


Table 3.3

Current status of Federal reserve/treasury support for
fannie mae and freddie mac, As of 12/31/2009 ($ Billions)
                                                                                                                 Maximum
                                                                       Expires        Committed                 Authorized
Federal Reserve System
Mortgage Purchase Program (“MPP”)                               3/31/2010                      $910                  $1,250
GSE Debt Purchase Facility (“GSE-DPF”)                          3/31/2010                       160                       200


Treasury Department
Preferred Stock Purchase Agreements (“PSPA”) 12/31/2012                                        $111                No Limita
GSE MBS Purchase Facility (“GSE MBS-PF”)                       12/31/2009                       220                   Expired
GSE Credit Facility (“GSE-CF”)                                 12/31/2009                           0                 Expired
Total Support                                                                              $1,401
Notes: Numbers affected by rounding.
a
  Maximum authorized amount is $400 billion + losses in 2010 – 2012.

Sources: Federal Reserve Board, FAQs: MBS Purchase Program, www.newyorkfed.org/markets/mbs_faq.html, effective 11/25/2009,
accessed 1/4/2010; Federal Reserve Board, Statement of Financial Condition, Report H.4.1, 12/31/2009, www.federalreserve.gov/
Releases/H41/20091231/, accessed 1/4/2010; Federal Reserve Press Release, 3/18/2009, www.federalreserve.gov/newsevents/
press/monetary/20090318a.htm, accessed 1/4/2010; Treasury Press Release, “Treasury Issues Update on Status of Support for
Housing Programs,” 12/24/2009, www.ustreas.gov/press/releases/2009122415345924543.htm, accessed 1/4/2010. FHFA,
response to SIGTARP data call, 1/15/2010.
124        special inspector general I troubled asset relief program




                                                      MPP is the largest Government program for the residential mortgage market
                                                  and focuses on Fannie Mae and Freddie Mac. The Federal Reserve announced the
                                                  program on November 25, 2008, with the intention of supporting home prices:
  For more information on the Federal             “This action is being taken to reduce the cost and increase the availability of credit
  Reserve MBS purchase programs, see              for the purchase of homes, which in turn should support housing markets and
  SIGTARP’s July 2009 Quarterly Report,           foster improved conditions in financial markets more generally.”375 Current plans
  page 146.
                                                  are to continue purchases of MBS until March 31, 2010, at which time its total
                                                  holdings are expected to be $1.25 trillion.376 These holdings can be seen in
                                                  Figure 3.6 as part of the Federal Reserve’s balance sheet.

                                                       Federal Reserve GSE Debt Purchase Facility (“GSE-DPF”). This program


                                                  Figure 3.6

                                                  FEDERAL RESERVE BALANCE SHEET ASSETS (1/3/2007 − 1/6/2010)
                                                  $ Trillions


                                                   $2.5




                                                    2.0




                                                    1.5

                                                                                                                                                                       1/3/2009


                                                    1.0




                                                     .5




                                                      0
                                                          1/3/2007         7/3/2007           1/3/2008          7/3/2008          1/3/2009           7/3/2009          1/3/2010


                                                                GSE Mortgage-Backed Securities (MBS)
                                                                GSE Mortgage-Related Debt
                                                                U.S. Treasury Securities
                                                                All Other (TAF, CPFF, MMIFF, etc.)

                                                          Note: The “all other” category includes various Federal Reserve programs such as the Term Auction Facility (“TAF”), the
                                                          Commercial Paper Funding Facility (“CPFF”), and the Money Market Investor Funding Facility (“MMIFF”).

                                                          Source: Federal Reserve Board, Statistical Release H.4.1, “Factors Affecting Reserve Balances,” 1/6/2010,
                                                          www.federalreserve.gov/releases/h41/20100107/, accessed 1/7/2010.
                                                                               quarterly report to congress I january 30, 2010   125




provides for the purchase of direct obligations of Fannie Mae, Freddie Mac,
and the FHLBs in the secondary market. As of December 31, 2009, the Federal
Reserve had purchased $159.9 billion of Fannie Mae and Freddie Mac debt.377
Federal Reserve holdings of Fannie Mae and Freddie Mac debt were $125.5 billion
at the end of 2009, and given that the two entities currently have approximately
$1.586 trillion in total debt, this means that the Federal Reserve owns about 8% of
their outstanding debt.378 Earlier in this section, Figure 3.5 shows Fannie Mae and
Freddie Mac debt levels, which are different from their MBS guarantee levels.
    Figure 3.6 shows the effect of these two purchase programs on the balance
sheet of the Federal Reserve. In substance, the Federal Reserve, through the
secondary markets, has effectively purchased more than $1 trillion in mortgages
and MBS off of the balance sheets of financial institutions and other private inves-
tors. According to Federal Reserve Vice Chairman Donald L. Kohn, the Federal
Reserve’s announced purchases of GSE-guaranteed MBS, GSE debt, and Treasury
securities “were successful in reducing long-term interest rates” and “increased the
availability of mortgages to households.”379

U.S. Department of the Treasury
Throughout 2009, Treasury had three GSE-related programs in operation, provid-
ing facilities through which Treasury could buy the preferred stock, debt, and MBS
of the companies. Treasury initiated its three programs on September 7, 2008, at
the time FHFA placed Fannie Mae and Freddie Mac into conservatorship.380
    The Treasury PSPA was immediately employed to provide capital to the com-
panies to backstop their losses. As of December 31, 2009, Treasury’s PSPA hold-
ings totaled $111 billion, $50 billion to Freddie Mac and $61 billion to Fannie
Mae, and the program has no limit going forward until it expires on December 31,
2012.381 Complementing this program was the GSE MBS-PF, currently totaling
$220 billion in purchased MBS, and the GSE-CF, which has no current balance;
both of these programs expired on December 31, 2009.

2009 First-Time Homebuyer Tax Credit
Established under the Worker, Homeownership, and Business Assistance Act of
2009, the First-Time Homebuyer Tax Credit provides up to an $8,000 tax credit
to first-time homebuyers subject to certain income caps, and provides a dollar-
per-dollar decrease in the tax liability or increase in the tax refund received by the
filer.382 The tax credit only applies to the purchase of a primary residence. The tax
credit has been extended until April 30, 2010. In addition, a $6,500 tax credit was
granted to existing homeowners who are purchasing new homes.383
126          special inspector general I troubled asset relief program




                                                    Mechanisms for Supporting Home Prices
                                                    Supporting home prices is an explicit policy goal of the Government. As the White
                                                    House stated in the announcement of HAMP for example, “President Obama’s pro-
                                                    grams to prevent foreclosures will help bolster home prices.”384
                                                        In general, housing obeys the laws of supply and demand: higher demand leads
                                                    to higher prices. Because increasing access to credit increases the pool of potential
                                                    home buyers, increasing access to credit boosts home prices. The Federal Reserve
                                                    can thus boost home prices by either lowering general interest rates or purchasing
                                                    mortgages and MBS. Both actions, which the Federal Reserve is pursuing, have the
                                                    effect of lowering interest rates, which increases demand by permitting borrowers
                                                    to afford a higher home price on a given income. Similarly, the Administration is
                                                    boosting home prices by encouraging bank lending (such as through TARP) and by
                                                    instituting purchase incentives such as the First-Time Homebuyer Tax Credit. All
                                                    of these actions increase the demand for homes, which increases home prices. In
                                                    addition to direct Government activity, home prices can be lifted by general expec-
                                                    tations among homebuyers of future price increases. Figure 3.7 provides a graphic
                                                    representation of the relationship between possible Government actions and their
                                                    impact on home prices.
      Figure 3.7

      LINKS FROM POLICY TARGETS TO INCREASES IN HOME PRICES


      WHEN THIS CHANGES:                               IN GENERAL, IT LEADS TO THIS:            WHICH LEADS TO THIS:


             General
             Interest
             Rates
                                                      Mortgage                Ability to               Home
                                                      Interest                Pay Higher               Prices
                                                      Rates                   Home Prices
             Amount of
             Mortgages
             Purchased



             Bank
             Lending



             Homebuyer
                                                      Demand
             Tax
                                                      for Homes
             Incentives


             Number
             of Jobs
             Created


             Government
             Actions
             that Increase
             Expectations
             of Higher
             Prices
              tarp operations and
S ec tion 4
              administration
128   special inspector general I troubled asset relief program
                                                                                                  quarterly report to congress I january 30, 2010   129




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress au-
thorized the Secretary of the Treasury (“Treasury Secretary”) to build the operation-
al and administrative infrastructure to support the Troubled Asset Relief Program
(“TARP”) activities. EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”), which is responsible for
administering TARP.385 Treasury has the authority to establish program vehicles,
issue regulations, directly hire or appoint employees, enter into contracts, and
designate financial institutions as financial agents of the Federal Government.386
In addition to permanent and interim staff, OFS relies on contractors and financial
agents in legal, investment consulting, accounting, and other key service areas.387


TARP Administrative and Program
Expenditures	
As of December 31, 2009, Treasury had incurred $70.8 million in TARP-related
administrative expenditures.388 Table 4.1 provides a summary of these expenditures
and additional obligations through December 31, 2009. These costs are allocated
to “personnel services” and “non-personnel other services” with a few exceptions.

Table 4.1

TARP Administrative expenditures and obligations
                                                          Obligations for Period   Expenditures for Period
Budget Object Class Title                                  Ending 12/31/2009          Ending 12/31/2009
Personnel Services
Personnel Compensation & Services                                  $21,596,766               $21,339,480
Total Personnel Services                                          $21,596,766                $21,339,480
Non-Personnel Services
Travel & Transportation of Persons                                    $420,922                  $387,868
Transportation of Things                                                 11,960                    11,960
Rents, Communications, Utilities & Misc.                               229,092                     88,930
Charges
Printing & Reproduction                                                     395                       395
Other Services                                                      66,818,800                 48,409,231
Supplies & Materials                                                   300,145                    290,167
Equipment                                                              232,054                    222,675
Land & Structures                                                            —                          —
Dividends and Interest                                                        8                         8
Total Non-Personnel Services                                      $68,013,376                $49,411,234
Total                                                             $89,610,142                $70,750,714
Note: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 1/13/2010.
130           special inspector general I troubled asset relief program




                                                           Furthermore, Treasury released a summary of programmatic expenditures
                                                       including costs to hire financial agents and legal firms associated with TARP opera-
                                                       tions. Treasury had incurred $159.2 million of programmatic costs as of December
                                                       31, 2009.389
                                                           According to the “Office of Financial Stability, Agency Financial Report, Fiscal
                                                       Year 2009” (“TARP Financial Statements”), TARP operations cost the Government
                                                       approximately $167 million in fiscal year 2009.390
                                                           These costs are not reflected in determining any gains or losses on the TARP-
                                                       related transactions and are not included in the $699 billion limit on asset purchas-
                                                       es. Therefore, these expenditures will add to the Federal budget deficit regardless of
                                                       whether TARP transactions result in a gain or a loss for the Government.391


                                                       Current Contractors and Financial
                                                       Agents
                                                       As of December 31, 2009, Treasury had retained 58 private-sector firms, includ-
                                                       ing 13 financial agents and 45 contractors to provide a range of services to assist in
                                                       administering TARP. Treasury streamlined solicitation procedures and structured
                                                       several agreements and contracts pursuant to Federal acquisition regulations to al-
                                                       low for flexibility in obtaining the required services expeditiously. Table 4.2 includes
                                                       service providers retained as of December 31, 2009.392

      Table 4.2

      OFS SERVICE CONTRACTS         (continued)

      Date          Vendor                                          Purpose                                       Type of Transactiona
      10/10/2008    Simpson, Thacher & Bartlett MNP, LLP            Legal Services — TARP Implementation          BPA

      10/11/2008    Ennis Knupp & Associates Inc                    Investment and Advisory Services              BPA

      10/14/2008    Bank of New York Mellon Corporation             Custodian and Cash Management                 Financial Agent

      10/16/2008    PricewaterhouseCoopers                          Internal Control Services                     BPA

      10/18/2008    Ernst & Young LLP                               Accounting Services                           BPA
      10/23/2008    GSA – Turner Consulting Group, Inc.b            Process Mapping Consultant Services           IAA

      10/29/2008    Hughes Hubbard & Reed LLP                       Legal Services — Capital Purchase Program     BPA
      10/29/2008    Squire Sanders & Dempsey LLP                    Legal Services — Capital Purchase Program     BPA
      10/31/2008    Lindholm & Associates Inc.b
                                                                    Human Resources Services                      Contract
      11/7/2008     Connenschein Nath & Rosenthal                   Legal Services — Auto Industry Loans          Contract
      11/14/2008    Securities and Exchange Commission              Detailees                                     IAA

      11/14/2008    CSC Systems and Solutions                       IT Services                                   Procurement
                                                                                                                              Continued on next page.
                                                                                   quarterly report to congress I january 30, 2010                  131




OFS SERVICE CONTRACTS           (continued)

Date         Vendor                                        Purpose                                            Type of Transactiona
12/3/2008    Trade and Tax Bureau – Treasury               IT Services                                        IAA
12/5/2008    Department of Housing and Urban Development   Detailees                                          IAA
12/5/2008    Washington Post                               Human Resources Advertisements                     Procurement
12/10/2008   Thacher Proffitt & Wood    c
                                                           Legal Services                                     BPA
12/12/2008   Pension Benefit Guaranty Corporation          Legal Services                                     IAA
12/15/2008   Office of Thrift Supervision                  Detailees                                          IAA
12/24/2008   Cushman and Wakefield of VA, Inc.             Painting                                           Procurement
1/6/2009     Office of the Controller of the Currency      Detailees                                          IAA
1/7/2009     Colonial Parking                              Parking                                            Procurement
1/9/2009     Internal Revenue Service                      Detailees                                          IAA
1/27/2009    Cadwalader Wickersham & Taft, LLP             Bankruptcy Legal Services                          BPA
1/27/2009    Whitaker Brothers Bus. Machines               Paper Shredder                                     Procurement
2/2/2009     Government Accountability Office              Oversight                                          IAA
2/9/2009     Pat Taylor and Associates, Inc.b              Temporary Employee Services for Document Pro-      Contract
                                                           duction, FOIA Assistance, and Program Support
2/12/2009    Locke Lord Bissell & Lidell LLP               Interim Legal Services — Treasury Investment       Contract
                                                           under EESA
2/18/2009    Freddie Mac                                   Homeownership Preservation Program                 Financial Agent
2/18/2009    Fannie Mae                                    Homeownership Preservation Program                 Financial Agent
2/20/2009    Congressional Oversight Panel                 Oversight                                          IAA
2/20/2009    Simpson, Thacher & Bartlett MNP, LLP          Legal Services — Capital Assistance Program        Contract
2/22/2009    Venable LLP-1                                 Legal Services — Capital Assistance Program        Contract
3/6/2009     The Boston Consulting Group Inc               Management Consulting Services — Auto Industry     Contract
3/16/2009    EARNEST Partners                              Asset Management Services                          Financial Agent
3/23/2009    Heery International Inc.                      Architects                                         Procurement
3/30/2009    McKee Nelson, LLPd                            SBA Initiative Legal Services                      Contract
3/30/2009    Sonnenschein Nath & Rosenthal LLP             Legal Services — Auto Investment                   Contract
3/30/2009    Cadwalader Wickersham & Taft, LLP             Legal Services — Auto Investment                   Contract
3/30/2009    Haynes and Boone LLP                          Legal Services — Auto Investment                   Contract
3/31/2009    FI Consulting  b
                                                           Credit Reform Modeling and Analysis                BPA
4/3/2009     American Furniture Rentalsb                   Furniture Rental                                   Procurement
4/3/2009     The Boston Consulting Group Inc               Management Consulting — Auto Industry              Contract
4/17/2009    Herman Miller Inc                             Aeron Chairs                                       Procurement
4/17/2009    Bureau of Printing and Engraving              Detailee                                           IAA
4/21/2009    AllianceBernstein LP                          Asset Management Services                          Financial Agent
4/21/2009    FSI Group LLC                                 Asset Management Services                          Financial Agent
4/21/2009    Piedmont Investment Advisors LLC              Asset Management Services                          Financial Agent
5/14/2009    Phacil Inc.b                                  FOIA Services                                      Contract
5/26/2009    Anderson, McCoy & Orta, LLPb                  Legal Services — Public-Private Investment Funds   Contract
                                                           (PPIFs)
                                                                                                                          Continued on next page.
132                special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                        (continued)

      Date                  Vendor                                                         Purpose                                            Type of Transactiona
      5/26/2009             Simpson, Thacher & Bartlett MNP LLP                            Legal Services — Public-Private Investment Funds   Contract
                                                                                           (PPIFs)
      6/8/2009              Department of Interior                                         IT Services                                        IAA
      6/29/2009             Department of Interior                                         Website Testing                                    IAA
      7/15/2009             Judicial Watch                                                 Legal Services                                     Contract
      7/17/2009             KornFerry International                                        Administrative Support                             Contract
      7/30/2009             Cadwalader Wickersham & Taft, LLP                              Legal Advisory                                     Contract
      7/30/2009             Debevoise & Plimpton, LLP                                      Legal Advisory                                     Contract
      7/30/2009             Fox Hefter Swibel Levin & Carol, LLP                           Legal Advisory                                     Contract
      8/11/2009             NASA                                                           Detailee                                           IAA
      8/18/2009             Mercer, Inc.                                                   Administrative Support                             Contract
      9/2/2009              Knowledge Mosaic Inc.         a
                                                                                           Administrative Support                             Contract
      9/10/2009             Equilar, Inc.a                                                 Administrative Support                             Contract
      9/14/2009             PricewaterhouseCoopers                                         Asset Management Services                          Contract
      9/30/2009             SNL Financial LC                                               Financial Advisory                                 Contract
      12/8/2009             Anderson, McCoy & Orta, LLP             a
                                                                                           Legal Services                                     BPA
      12/22/2009            Avondale Investments, LLC          a
                                                                                           Financial Advisory                                 Financial Agent
      12/22/2009            Bell Rock Capital, LLCa                                        Financial Advisory                                 Financial Agent
      12/22/2009            Howe Barnes Hoefer and Arnett, Inc.                            Financial Advisory                                 Financial Agent
      12/22/2009            KBW Asset Management, Inc.                                     Financial Advisory                                 Financial Agent
      12/22/2009            Lombardia Capital Partners, LLC             a
                                                                                           Financial Advisory                                 Financial Agent
      12/22/2009            Paradigm Asset Management, LLCa                                Financial Advisory                                 Financial Agent
      Notes:
      a
        IAA = Inter-Agency Agreement, BPA = Blanket Purchase Agreement.
      b
        Small- or Women-, or Minority-Owned Small Business.
      c
        Contract responsibilities assumed by Sonnenschein Nath & Rosenthal via novation.
      d
        Contract responsibilities assumed by Bingham McCutcheon via novation.

      Source: Treasury, response to SIGTARP data call, 1/12/2010.




                                                                            Asset Managers
                                                                            As required by EESA, the Special Inspector General for the Troubled Asset Relief
                                                                            Program (“SIGTARP”) provides biographical information for each person or entity
                                                                            hired to manage the Government’s troubled assets acquired through TARP.393
                                                                            Subsequent to SIGTARP’s Quarterly Report to Congress, dated October 21,
                                                                            2009 (the “October 2009 Quarterly Report”), OFS hired six asset managers for its
                                                                            Capital Purchase Program (“CPP”).394 Additionally, the Public-Private Investment
                                                                            Program (“PPIP”) finalized its PPIP agreements for all nine Public-Private
                                                                            Investment Fund (“PPIF”) managers.
                                                                              quarterly report to congress I january 30, 2010   133




Capital Purchase Program Asset Managers
On December 23, 2009, Treasury hired six more firms to assist in the management
of its CPP portfolio of assets issued by banks and other institutions participating in
CPP. The six firms were chosen from a pool of applicants to Treasury’s public solici-
tation for asset managers with less than $2 billion in assets under management.395
The six firms are:

•	 Avondale Investments, LLC (“Avondale”). According to Treasury, Avondale is
   a Native American-owned asset management firm experienced in working with
   small and community banks. Based in Oklahoma City, Avondale Investments
   has specific geographic expertise of financial institutions in the Mountain and
   Southwest regions of the country.396
•	 Bell Rock Capital, LLC (“Bell Rock”). According to Treasury, Bell Rock is a
   woman-owned investment management firm focusing on the financial services
   industry. Based in Rehoboth Beach, Delaware, Bell Rock has specific expertise
   in the banking sector and with institutions in the Mid-Atlantic region.397
•	 Howe Barnes Hoefer & Arnett, Inc. (“Howe Barnes”). According to Treasury,
   Howe Barnes is a full-service investment and advisory firm based in Chicago,
   specializing in community banks and thrifts.398
•	 KBW Asset Management, Inc. (“KBW”). According to Treasury, KBW is an
   asset management firm based in New York City focusing on the financial institu-
   tions sector with a focus on both equity and fixed income securities.399
•	 Lombardia Capital Partners, LLC (“Lombardia”). According to Treasury,
   Lombardia is a Hispanic-owned money management firm based in Pasadena,
   California, with more than $1.7 billion in assets under management focusing on
   valuations across market capitalizations.400
•	 Paradigm Asset Management, LLC (“Paradigm”). According to Treasury,
   Paradigm is an African American-owned asset management firm based in White
   Plains, New York, providing investment strategies built specifically for institu-
   tional investors.401

Duties
According to Treasury, all six managers will perform duties that include but are not
limited to the following:402

•	 provide Treasury with analysis of the capital structure, risk, and financial condi-
   tion of financial institutions
•	 provide ongoing valuations of the equity and debt securities issued by institu-
   tions in CPP and other programs under EESA
•	 assist in the execution of transactions in compliance with Treasury’s policy for
   the management and disposition of assets
134   special inspector general I troubled asset relief program




                                             •	 reconcile books and records with banks and Treasury
                                             •	 produce periodic management status reports
                                             •	 provide opinions on Treasury’s response to corporate actions, proxy voting, dis-
                                                closures, and other business notifications
                                             •	 advise on strategy and timing to execute warrants or monetize equity securities
                                                or debt obligations

                                             Public-Private Investment Fund Managers
                                             As of December 31, 2009, Treasury had signed final agreements with nine private
                                             fund managers each of which will manage an individual PPIF.403 The nine firms
                                             are:

                                             •	 AllianceBernstein L.P. is a publicly traded investment management firm
                                                that offers research and diversified investment services to institutional clients,
                                                individuals and private clients in major markets around the world. It has $496
                                                billion in assets under management and employs more than 500 investment
                                                professionals in more than 20 countries.404
                                             •	 Angelo, Gordon & Co. is a privately held registered investment advisor focused
                                                on alternative investing. The firm was founded in 1988 and currently man-
                                                ages, with its affiliates, approximately $21 billion in assets. Angelo, Gordon &
                                                Co. is partnering with GE Capital Real Estate for the purposes of PPIP asset
                                                management.405
                                             •	 BlackRock Inc. is a publicly traded asset management firm and provides global
                                                investment management, risk management, and advisory services to institution-
                                                al, intermediary, and individual investors around the world. The firm has $3.2
                                                trillion in assets under management and employs more than 8,500 professionals
                                                in 24 countries.406
                                             •	 Invesco Ltd. is a publicly traded global investment management company.
                                                The firm provides investment solutions for retail, institutional, and high net
                                                worth clients around the world. With $417 billion in assets under management,
                                                Invesco Ltd. employs approximately 4,900 individuals in 20 countries; the com-
                                                pany is listed on the New York Stock Exchange under the symbol IVZ.407
                                             •	 Marathon Asset Management LP is a private alternative investment and as-
                                                set management company. Marathon’s core businesses include hedge funds,
                                                structured finance, emerging markets, and real estate. Founded in 1998, the
                                                firm has more than $11 billion in assets under management and 140 profes-
                                                sionals worldwide with headquarters in New York City and investment offices in
                                                London and Singapore.408
                                             •	 Oaktree Capital Management L.P. is an investment management firm special-
                                                izing in less efficient markets and alternative investments. Founded in 1995,
                                                Oaktree Capital Management has $67.4 billion in assets under management.
                                                                             quarterly report to congress I january 30, 2010   135




   The firm is headquartered in Los Angeles and has more than 500 employees in
   10 countries.409
•	 RLJ Western Asset Management LP is a newly created, minority-owned entity
   that is 49% owned by Western Asset Management, the fixed-income affiliate of
   Legg Mason, Inc. and 51% owned by The RLJ Companies, the portfolio holding
   company owned by Robert L. Johnson. Western Asset Management is a global
   investment firm, and The RLJ Companies include private equity real estate
   funds, a private equity mid-sized buyout fund, and a bank, Urban Trust Bank.410
•	 TCW Group Inc. is a private asset management firm, headquartered in Los
   Angeles, offering individual and institutional investors a range of U.S. equity
   and U.S. fixed income alternatives, as well as international investment strate-
   gies. As of September 30, 2009, TCW had approximately $108 billion in assets
   under management. TCW’s management has an average of 23 years of industry
   experience and the firm’s portfolio managers have approximately 11 years of ten-
   ure with TCW.411 On January 4, 2010, TCW withdrew as a manager in PPIP.412
   Treasury has entered into a winding-up and liquidation agreement with TCW.413
•	 Wellington Management Company LLP is a private partnership investment
   advisory firm headquartered in Boston. Wellington Management has more than
   $506 billion in assets under management and serves as an investment advisor to
   more than 1,600 institutions located in more than 40 countries.414



Internal Controls
According to Treasury, “Treasury requires financial institutions participating in
exceptional assistance TARP programs, such as the Targeted Investment Program
(“TIP”), Asset Guarantee Program (“AGP”), [SSFI/] AIG Investment Program, and
Automotive Industry Financing Program (“AIFP”) to establish appropriate internal
controls and to monitor compliance with defined requirements under the securities
purchase agreement (“SPA”) with the Treasury. The requirements under the agree-
ments include restrictions on dividends and repurchases, executive compensation
restrictions, and restrictions on lobbying and expenses. Treasury also requires these
TARP participants to submit a report and certification on a quarterly basis regard-
ing compliance with requirements in the SPA and the implementation of internal
controls.”415
    During the fourth quarter of 2009, OFS compliance met with American
International Group, Inc. (“AIG”), Citigroup Inc. (“Citigroup”) and Bank of
America to discuss each company’s governance structure and processes relating
to TARP requirements. According to Treasury, similar meetings will take place
with General Motors Corporation (“GM”), GMAC Inc. (“GMAC”), and Chrysler
Holding LLC (“Chrysler”), during the first quarter 2010.416
136   special inspector general I troubled asset relief program




                                                 As of December 31, 2009, as a result of their repayments of TARP funds,
                                             Citigroup and Bank of America are no longer classified as “exceptional assistance”
                                             programs. As a result, Citigroup and Bank of America no longer have to submit
                                             internal control reports and certifications to OFS compliance.417
S e ction 5   SIGtarp recommendations
138   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I january 30, 2010           139




One of the responsibilities of the Office of the Special Inspector General for the
Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations to the
U.S. Department of the Treasury (“Treasury”) and those other Federal agencies
managing Troubled Asset Relief Program (“TARP”) initiatives so that the various
TARP programs can be designed or modified to facilitate transparency and effective
oversight and to prevent fraud, waste, and abuse. SIGTARP has made such recom-
mendations in its quarterly reports to Congress and in several of its audit reports.
This section discusses developments with respect to SIGTARP’s prior recommen-
dations and, in the table at the end of this section, summarizes all past SIGTARP
recommendations and notes the extent of their implementation. Appendix G:
“Correspondence” sets forth Treasury’s written responses to this section.


Treasury’s Adoption of SIGTARP’s Use of
Funds Recommendation
From its inception, SIGTARP’s most fundamental recommendation with respect to
basic transparency in the operation of TARP has been that Treasury should require
all TARP recipients to report periodically on their use of TARP funds. The efficacy
of this common-sense recommendation — initially made in December 2008 (just
eight days into SIGTARP’s existence) and later examined through a survey of 364
TARP recipients and supported by an initial audit report issued in July 2009 —            SIGTARP’s initial use of funds audit,
was reconfirmed in a further audit report entitled “Additional Insight on Use of          entitled “SIGTARP Survey Demonstrates
                                                                                          that Banks Can Provide Meaningful
Troubled Asset Relief Program Funds,” which was released December 10, 2009.
                                                                                          Information on Their TARP Funds,” was
This audit demonstrated, once again, that meaningful information supporting               issued on July 20, 2009. Its follow-on
basic transparency in the operation of TARP can indeed be generated by requiring          audit, entitled “Additional Insight on Use
TARP recipients to report on what they did with the taxpayers’ money. Even when           of Troubled Asset Relief Program Funds,”
TARP recipients do not segregate TARP funds, they are fully capable of providing a        was released on December 10, 2009. Copies
general indication of what they have been able to do that they would not otherwise        of both audits can be found on SIGTARP’s
                                                                                          website, www.SIGTARP.gov.
have been able to do without TARP funds.
    Notwithstanding Treasury’s previously articulated skepticism about this recom-
mendation — saying that use of funds reporting would not be “meaningful” and
deeming the recommendation “closed” as recently as this past September — to its
credit, Treasury has been willing to remain engaged with SIGTARP on this issue
and has recently informed SIGTARP that it has decided to undertake surveying and
reporting on recipients’ use of TARP funds. Specifically, Treasury will be obtain-
ing and reporting to the public qualitative responses from each TARP recipient on
its use of TARP funds, backed by quantitative data obtained from the recipients’
regulators and Treasury’s own analysis. For the first time, Treasury will be collect-
ing and publicly reporting this data on an institution-by-institution basis. Although
regrettably delayed, SIGTARP believes that Treasury’s decision to provide this basic
transparency will give meaningful information to the public and to policymakers
140            special inspector general I troubled asset relief program




                                                      on whether the TARP programs have met their goals and, as a result, may enhance
                                                      the credibility of TARP. If implemented as described, Treasury’s plan on this front
                                                      will constitute an adoption of SIGTARP’s recommendation and will finally give the
                                                      American people the basic transparency they deserve in these investments.


                                                      Developments in the Implementation of the
                                                      Public-Private Investment Program
                                                      In previous quarterly reports to Congress, SIGTARP made a series of recommen-
                                                      dations related to the design of the Public-Private Investment Program (“PPIP”).
                                                      Treasury has adopted some of those recommendations and has rejected others, as
                                                      summarized in Table 5.1 at the end of this section. This report does not discuss
                                                      those recommendations further. Over the past quarter, however, the Public-Private
                                                      Investment Funds (“PPIFs”) have begun operations in earnest, and several issues
                                                      have arisen that implicate prior recommendations concerning conflict-of-interest
                                                      walls and transparency.

                                                      Conflict-of-Interest Walls Revisited
      For a detailed discussion of SIGTARP’s          As detailed in prior quarterly reports to Congress, one of SIGTARP’s most impor-
      recommendation concerning “walls” in            tant recommendations with respect to PPIP has been that Treasury require strict
      PPIP, and Treasury’s response thereto, see      information barriers or “walls” between the PPIF managers making investment
      SIGTARP’s July 2009 Quarterly Report,           decisions on behalf of the PPIF and those employees of the fund management
      pages 175-180.
                                                      company who manage non-PPIF funds trading in the same kinds of securities.
                                                      For various reasons, Treasury has decided that requiring such walls “is simply not
                                                      practical in the context of PPIP,” and has refused to adopt this recommendation.
                                                      Instead, Treasury instituted a number of provisions that it believes address the
                                                      problems that conflict-of-interest walls would cover, including a trade allocation
                                                      policy that would require an equitable allocation of securities between the PPIF
                                                      and non-PPIF funds run by the same management company. Although these other
                                                      provisions were a step in the right direction, SIGTARP believes Treasury’s posi-
                                                      tion overstates the practical difficulties walls present, underestimates the efficacy
                                                      of walls, and overestimates the ability to predict the ways that fund managers can
                                                      devise to take advantage of the very valuable information they have due to the fact
                                                      that they are operating a PPIF that has the ability to affect prices in these relatively
                                                      illiquid markets.
                                                           Two circumstances have come to light over the past quarter that relate to the
                                                      conflict-of-interest wall issue, both of which are subject to ongoing reviews by
                                                      SIGTARP’s Audit or Investigations divisions and will be described further in sub-
                                                      sequent reports. First, notwithstanding Treasury’s refusal to require a wall in PPIP,
                                                      one of the PPIF managers — AllianceBernstein L.P. (“AllianceBernstein”) — has
                                                      imposed an ethical wall or informational barrier on its own initiative because it felt
                                                                                quarterly report to congress I january 30, 2010   141




that it was best practice to do so; indeed, AllianceBernstein informed Treasury of its
intent to do so at the same time that Treasury was insisting that the imposition of
such walls was, among other things, “simply not practical.” AllianceBernstein’s ethi-
cal wall, along with the previously discussed fact that three of the nine managers al-
ready operate similar walls in connection with their activities in other Government
programs, simply belies that walls would not have been possible in PPIP.
    Second, a series of unusual trades undertaken in one of the PPIFs just weeks
after trading began has highlighted the problems that can arise in the absence of
a robust conflict-of-interest wall. The basic facts relating to these trades, initially
brought to SIGTARP’s attention by OFS officials, are as follows. The PPIF man-
agement company in question operates both a PPIF and one or more non-PPIF
funds that invest in similar securities (i.e., mortgage-backed securities (“MBS”)).
In the case of this fund management company, the same person is the portfolio
manager for both the PPIF and the non-PPIF fund. In late October, the portfolio
manager directed that a particular MBS from the non-PPIF fund be sold after the
security — in this case a residential MBS — had been downgraded by a rating
agency. According to the company, multiple bids were received, and a quantity of the
security was sold to a dealer. Within minutes of the sale, however, the same portfolio
manager purchased, for the PPIF, the same amount of the same security from the
dealer at a slightly higher price. Later in the day, the portfolio manager bought more
of the security for the PPIF from the dealer at the original price.
    The management company involved (the identity of which is not being disclosed
at this time pending SIGTARP’s investigation) asserts that there was nothing inap-
propriate about these trades, and Treasury has concluded that the trades did not
violate PPIF rules. The facts, however, give rise to difficult questions. Was the initial
purchase really arm’s length, or was the dealer aware that the portfolio manager was
prepared to repurchase the securities immediately? How can a manager conclude
that it is wise to sell a security at one price but then almost simultaneously repur-
chase the same securities at a higher price? Were these trades designed to push the
risk of this downgraded security from the private, non-PPIF fund onto the taxpayer-
supported PPIF? SIGTARP will seek the answers to these questions as part of its on-
going investigation. Even assuming that the answers to all of these questions reveal
that the trades in this case did not violate the PPIF rules, the fact that these issues
require examination in the first instance is the direct result of Treasury’s refusal to
require information barriers or walls in PPIP. Simply put, if there was an effective
barrier between those managing the PPIF and the managers’ non-PPIF funds, we
would not have to worry whether the portfolio managers were acting to benefit one
fund over the other. In an environment in which large portions of the public already
view the fairness of Government programs with skepticism, whether fairly or un-
fairly, the reputational risk associated with this review is a wholly unnecessary cost.
    SIGTARP’s investigation of the matter is ongoing.
142        special inspector general I troubled asset relief program




                                                  Update on Recommendations from SIGTARP
                                                  Audit Reports
                                                  In addition to the follow-up use of funds audit discussed above, one other audit
                                                  issued over the past quarter — the audit concerning executive compensation issues
                                                  relating to American International Group, Inc. (“AIG”) — contained formal recom-
                                                  mendations. Those recommendations are summarized below, along with a descrip-
                                                  tion of the responses of Treasury and the other agencies involved.
                                                      As discussed more fully in Section 1 of this report, SIGTARP’s audit of the
                                                  Government’s oversight of AIG executive compensation concluded, among other
                                                  things, that Treasury invested tens of billions of taxpayer dollars in AIG, designed
                                                  AIG’s contractual executive compensation restrictions, and helped manage the
                                                  Government’s majority stake in AIG for several months, all without having any de-
                                                  tailed information about the scope of AIG’s very substantial, and very controversial,
                                                  executive compensation obligations. Treasury’s failure to discover the scope and
                                                  scale of AIG’s executive compensation obligations, in particular at AIG Financial
                                                  Products Corp. (“AIGFP”), potentially resulted in a missed opportunity to avoid the
                                                  explosively controversial events surrounding the AIGFP retention payments and the
                                                  considerable public and Congressional concern that followed. In sum, Treasury did
                                                  not conduct direct oversight of AIG’s executive compensation prior to March 19,
                                                  2009, but chose instead essentially to defer to the Federal Reserve Bank of New
                                                  York (“FRBNY”). SIGTARP also found that coordination between the Office of the
                                                  Special Master for TARP Executive Compensation (the “Special Master”) and the
                                                  FRBNY officials with the greatest knowledge of the AIG compensation structure
                                                  would be in the best interests of the Government.

  SIGTARP’s audit on AIG executive                     In light of the audit findings, SIGTARP made three recommendations:
  compensation, entitled “Extent of Federal
  Agencies’ Oversight of AIG Compensation
                                                  •	 The Secretary of the Treasury should direct the Special Master to work with
  Varied, and Important Challenges
  Remain,” was issued on October 14,                 FRBNY officials in understanding AIG compensation programs and retention
  2009. A copy of the audit can be found on          challenges before developing future compensation decisions that may affect
  SIGTARP’s website, www.SIGTARP.gov.                both Treasury’s and FRBNY’s ability to get repaid.
                                                  •	 Treasury should establish policies to guide any similar future decisions to take
                                                     a substantial ownership position in financial institutions that would require an
                                                     advance review so that Treasury can be reasonably aware of the obligations and
                                                     challenges facing such institutions.
                                                  •	 Treasury should establish policies to guide decision making in determining
                                                     whether it is appropriate to defer to another agency when making TARP pro-
                                                     gramming decisions where more than one Federal agency is involved. Moreover,
                                                     to the extent that Treasury chooses to rely on another agency to provide
                                                                            quarterly report to congress I january 30, 2010   143




   oversight of TARP-related activities, SIGTARP recommends that Treasury
   establish controls to ensure that effective communication takes place so that
   Treasury can carry out its own oversight role.

   Treasury concurred with these recommendations. Based on SIGTARP’s audit
work and after receipt of a draft report that contained these recommendations,
the Special Master initiated contact with Federal Reserve Officials. SIGTARP will
monitor progress on these recommendations and will report on such progress as
necessary in future reports.


Tracking the Implementation of
Recommendations in Previous Reports
SIGTARP has now made dozens of individual recommendations, and updating
compliance of each one in narrative form would be impractical. The follow-
ing table, Table 5.1, summarizes SIGTARP’s prior recommendations, gives an
indication of SIGTARP’s view of the level of implementation to date, and pro-
vides a brief explanation for that view where necessary. For more details on the
recommendations, readers are directed to SIGTARP’s earlier quarterly reports to
Congress. Treasury’s views on the level of implementation of the recommenda-
tions are set forth in Appendix G: “Correspondence.”
table 5.1                                                                                                                                                                                      144
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
1            Treasury should include language in the automobile industry
        *    transaction term sheet acknowledging SIGTARP’s oversight
             role and expressly giving SIGTARP access to relevant docu-
             ments and personnel.
                                                                                              X
2           Treasury should include language in new TARP agreements                                                                                       Although Treasury has made
            to facilitate compliance and oversight. Specifically, SIGTARP                                                                                 substantial efforts to comply with
            recommends that each program participant should (1) ac-                                                                                       this recommendation in many
            knowledge explicitly the jurisdiction and authority of SIGTARP                                                                                of its agreements, there have
            and other oversight bodies, as relevant, to oversee compli-                                                                                   been exceptions, including in its
            ance of the conditions contained in the agreement in question,                                                                                agreements with servicers in MHA.
            (2) establish internal controls with respect to that condition,                                                                               Treasury has further stated that
            (3) report periodically to the Compliance department of the                                                                                   it will only implement this recom-
            Office of Financial Stability (“OFS-Compliance”) regarding the                                                                                mendation in circumstances that it
            implementation of those controls and its compliance with                                                                                      deems “appropriate.”
            the condition, and (4) provide a signed certification from an
            appropriate senior official to OFS-Compliance that such report
            is accurate.                                                                                    X
3           All existing TARP agreements, as well as those governing new
                                                                                                                                                                                               special inspector general I troubled asset relief program




            transactions, should be posted on the Treasury website as
            soon as possible.                                                                X
4           Treasury requires all TARP recipients to report on the actual                                                                                 See discussion in this section.
        *   use of TARP funds.                                                                                            X
5           Treasury quickly determines its going-forward valuation meth-
        *   odology.                                                                         X
6           Treasury begins to develop an overall investment strategy to
        *   address its portfolio of stocks and decide whether it intends to
            exercise warrants of common stock.                                               X
7           In formulating the structure of TALF, Treasury should consider                                                                                The Federal Reserve has adopted
        *   requiring, before committing TARP funds to the program, that                                                                                  mechanisms that address this
            certain minimum underwriting standards and/or other fraud                                                                                     recommendation.
            prevention mechanisms be put in place with respect to the
            ABS and/or the assets underlying the ABS used for collateral.                    X
8           Agreements with TALF participants should include an acknowl-
        *   edgment that: (1) they are subject to the oversight of OFS-
            Compliance and SIGTARP, (2) with respect to any condition im-
            posed as part of TALF, that the party on which the condition is
            imposed is required to establish internal controls with respect
            to each condition, report periodically on such compliance, and
            provide a certification with respect to such compliance.                                                                    X
9           Treasury should give careful consideration before agreeing                                                                                    This recommendation has been
        *   to the expansion of TALF to include MBS without a full review                                                                                 implemented with respect to
            of risks that may be involved and without considering certain                                                                                 CMBS, and the Federal Reserve
            minimum fraud protections.                                                                                                                    has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
10          Treasury should oppose any expansion of TALF to legacy MBS                                                                                    This recommendation has been
        *   without significant modifications to the program to ensure a full                                                                             implemented with respect to
            assessment of risks associated with such an expansion.                                                                                        CMBS, and the Federal Reserve
                                                                                                                                                          has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.
11          Treasury should formalize its valuation strategy and begin                                                                                    Since SIGTARP’s last quarterly
            providing values of the TARP investments to the public.                                                                                       report, Treasury has committed to
                                                                                                                                                          publish its valuation estimates four
                                                                                             X                                                            times each year.
12          Treasury and the Federal Reserve should provide to SIGTARP,                                                                                   The Federal Reserve and Treasury
        *   for public disclosure, the identity of the borrowers who sur-                                                                                 continue to oppose this basic
            render collateral in TALF.                                                                                                                    aspect of transparency in the TALF
                                                                                                                                                          program. SIGTARP intends to revisit
                                                                                                                                                          this issue with the Federal Reserve
                                                                                                                                                          once a collateral surrender takes
                                                                                                                                        X                 place.
13          In TALF, Treasury should dispense with rating agency deter-                                                                                   The Federal Reserve has an-
        *   minations and require a security-by-security screening for                                                                                    nounced that RMBS will not be
            each legacy RMBS. Treasury should refuse to participate if                                                                                    eligible for TALF loans, rendering
            the program is not designed so that RMBS, whether new or                                                                                      this recommendation moot.
            legacy, will be rejected as collateral if the loans backing par-
            ticular RMBS do not meet certain baseline underwriting criteria
            or are in categories that have been proven to be riddled with
            fraud, including certain undocumented subprime residential
            mortgages.                                                                                                                             X
14          In TALF, Treasury should require significantly higher haircuts                                                                                This recommendation has been
        *   for all MBS, with particularly high haircuts for legacy RMBS, or                                                                              implemented with respect to
            other equally effective mitigation efforts.                                                                                                   CMBS, and the Federal Reserve
                                                                                                                                                          has announced that it will not be
                                                                                             X                                                            expanding TALF to RMBS.
15          Treasury should require additional anti-fraud and credit protec-                                                                              The Federal Reserve has adopted
        *   tion provisions, specific to all MBS, before participating in an                                                                              mechanisms that address this
            expanded TALF, including minimum underwriting standards and                                                                                   recommendation with respect to
            other fraud prevention measures.                                                                                                              CMBS, and has announced that
                                                                                                                                                          it will not be expanding TALF to
                                                                                             X                                                            RMBS.
16          Treasury should design a robust compliance protocol with
        *   complete access rights to all TALF transaction participants for
            itself, SIGTARP, and other relevant oversight bodies.                                                                       X
17          Treasury should not allow Legacy Securities PPIFs to invest
        *   in TALF unless significant mitigating measures are included to
            address these dangers.                                                           X

Note:
                                                                                                                                                                                                 quarterly report to congress I january 30, 2010




        *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                 145
SIGTARP RECOMMENDATIONS TABLE                          (continued)                                                                                                                                  146
                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
18          All TALF modeling and decisions, whether on haircuts or any
        *   other credit or fraud loss mechanisms, should account for po-
            tential losses to Government interests broadly, including TARP
            funds, and not just potential losses to the Federal Reserve.                     X
19          Treasury should address the confusion and uncertainty on
        *   executive compensation by immediately issuing the required
            regulations.                                                                     X
20          Treasury should significantly increase the staffing levels of
            OFS-Compliance and ensure the timely development and imple-
            mentation of an integrated risk management and compliance
            program.                                                                                                      X
21          Treasury should require CAP participants to (1) establish an                                                                                  Treasury closed the program with
        *   internal control to monitor their actual use of TARP funds, (2)                                                                               no investments having been made,
            provide periodic reporting on their actual use of TARP funds,                                                                                 rendering this recommendation
            (3) certify to OFS-Compliance, under the penalty of criminal                                                                                  moot.
            sanction, that the report is accurate, that the same criteria of
            internal controls and regular certified reports should be applied
            to all conditions imposed on CAP participants, and (4) acknowl-
            edge explicitly the jurisdiction and authority of SIGTARP and
                                                                                                                                                                                                    special inspector general I troubled asset relief program




            other oversight bodies, as appropriate, to oversee conditions
            contained in the agreement.                                                                                                            X
22          Treasury should impose strict conflict-of-interest rules upon                                                                                 Treasury has adopted some signifi-
        *   PPIF managers across all programs that specifically address                                                                                   cant conflict-of-interest rules related
            whether and to what extent the managers can (1) invest PPIF                                                                                   to this recommendation, but has
            funds in legacy assets that they hold or manage on behalf of                                                                                  failed to impose other significant
            themselves or their clients or (2) conduct PPIF transactions                                                                                  safeguards.
            with entities in which they have invested on behalf of them-
            selves or others.                                                                               X
23          Treasury should require that all PPIF fund managers (1) have                                                                                  Treasury’s agreements with PPIF
        *   stringent investor-screening procedures, including comprehen-                                                                                 managers include investor-screen-
            sive “Know Your Customer” requirements at least as rigorous                                                                                   ing procedures such as “Know Your
            as that of a commercial bank or retail brokerage operation to                                                                                 Customer” requirements. Treasury
            prevent money laundering and the participation of actors prone                                                                                has agreed that it will have ac-
            to abusing the system, and (2) be required to provide Treasury                                                                                cess to any information in a fund
            with the identities of all of the beneficial owners of the private                                                                            manager’s possession relating to
            interests in the fund so that Treasury can do appropriate                                                                                     beneficial owners. However, Trea-
            diligence to ensure that investors in the funds are legitimate.                                                                               sury is not making an affirmative
                                                                                                                                                          requirement that managers obtain
                                                                                                                                                          and maintain beneficial owner
                                                                                                            X                                             information.
24          Treasury should require most-favored-nation clauses, PPIF
        *   managers to acknowledge that they owe Treasury a fiduciary
            duty, and that each manager adopt a robust ethics policy and
            compliance apparatus.                                                            X

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                                Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
25          Treasury should require servicers in MHA to submit third-party                                                                                Treasury has decided to adopt this
            verified evidence that the applicant is residing in the subject                                                                               important SIGTARP recommenda-
            property before funding a mortgage modification.                                                                                              tion and its program administra-
                                                                                                                                                          tor Fannie Mae has developed
                                                                                                                                                          guidelines to require servicers to
                                                                                                                                                          verify owner occupancy through
                                                                                                                          X                               third-party sources.
26          In MHA, Treasury should require a closing-like procedure be                                                                                   See discussion in Section 5 of
        *   conducted that would include (1) a closing warning sheet that                                                                                 SIGTARP’s October 2009 Quarterly
            would warn the applicant of the consequences of fraud; (2)                                                                                    Report.
            the notarized signature and thumbprint of each participant;
            (3) mandatory collection, copying, and retention of copies of
            identification documents of all participants in the transaction;
            (4) verbal and written warnings regarding hidden fees and
            payments so that applicants are made fully aware of them; (5)
            the benefits to which they are entitled under the program (to
            prevent a corrupt servicer from collecting payments from the
            Government and not passing the full amount of the subsidies
            to the homeowners); and (6) the fact that no fee should be
            charged for the modification.                                                                   X
27          Additional anti-fraud protections should be adopted in MHA to                                                                                 Treasury stated that it plans to
            verify the identity of the participants in the transaction and to                                                                             implement additional anti-fraud
            address the potential for servicers to steal from individuals                                                                                 protection to verify that borrower
            receiving Government subsidies without applying them for the                                                                                  incentives are paid and Freddie
            benefit of the homeowner.                                                                                                                     Mac will verify that incentive pay-
                                                                                                                                                          ments to servicers are appropri-
                                                                                                                                                          ately applied to borrowers and
                                                                                                                                                          investors as part of its compliance
                                                                                                                          X                               reviews of servicers.

28          In MHA, Treasury should require the servicer to compare the                                                                                   Treasury has rejected SIGTARP’s
        *   income reported on a mortgage modification application with                                                                                   recommendation and does not
            the income reported on the original loan application.                                                                                         require income reported on the
                                                                                                                                                          modification application to be
                                                                                                                                                          compared to income reported on
                                                                                                                                        X                 the original loan application.
29          In MHA, Treasury should require that verifiable, third-party in-
        *   formation be obtained to confirm an applicant’s income before
            any modification payments are made.                                              X

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                quarterly report to congress I january 30, 2010
                                                                                                                                                                                                147
SIGTARP RECOMMENDATIONS TABLE                          (continued)                                                                                                                                148
                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
30          In MHA, Treasury should defer payment of the $1,000 incen-                                                                                    Rather than deferring payment
        *   tive to the servicer until after the homeowner has verifiably                                                                                 of the incentive until after the
            made a minimum number of payments under the mortgage                                                                                          homeowner has verifiably made
            modification program.                                                                                                                         a minimum number of payments
                                                                                                                                                          on its permanent modification,
                                                                                                                                                          Treasury will pay the incentive after
                                                                                                                                                          the servicer represents that the
                                                                                                                                                          homeowner has made three pay-
                                                                                                                                        X                 ments during the trial period.
31          In MHA, Treasury should proactively educate homeowners
        *   about the nature of the program, warn them about modifica-
            tion rescue fraudsters, and publicize that no fee is necessary
            to participate in the program.
                                                                                             X
32          In MHA, Treasury should require its agents to keep track of the                                                                               While Treasury’s program adminis-
        *   names and identifying information for each participant in each                                                                                trator, Fannie Mae, has developed a
            mortgage modification transaction and to maintain a database                                                                                  HAMP system of record that main-
            of such information.                                                                                                                          tains the servicers’ and investors’
                                                                                                                                                          names and participating borrowers’
                                                                                                                                                          personally-identifiable information,
                                                                                                                                                                                                  special inspector general I troubled asset relief program




                                                                                                                                                          such as names and addresses,
                                                                                                                                                          the database is not constructed to
                                                                                                                                                          maintain other information that may
                                                                                                                                                          assist in detecting insiders who are
                                                                                                                          X                               committing large-scale fraud.
33          Treasury should require the imposition of strict information bar-                                                                             Treasury has refused to adopt
            riers or “walls” between the PPIF managers making investment                                                                                  this significant anti-fraud measure
            decisions on behalf of the PPIF and those employees of the                                                                                    designed to prevent conflicts of
            fund management company who manage non-PPIF funds.                                                                                            interest. This represents a material
                                                                                                                                        X                 deficiency in the program.

34          Treasury should periodically disclose PPIF trading activity and                                                                               See discussion in this section.
            require PPIF managers to disclose to SIGTARP, within seven
            days of the close of the quarter, all trading activity, holdings,
            and valuations so that SIGTARP may disclose such information,
            subject to reasonable protections, in its quarterly reports.                                                                X
35          Appropriate metrics be defined and an evaluation system be                                                                                    Treasury has indicated that it will
            put in place to monitor the effectiveness of the PPIF manag-                                                                                  substantively adopt this recommen-
            ers, both to ensure they are fulfilling the terms of their agree-                                                                             dation and is developing appropri-
            ments and to measure performance.                                                                             X                               ate metrics.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                          Partially                    Not
              Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
36          The conditions that give Treasury “cause” to remove a PPIF                                                                                    Treasury has refused to adopt this
            manager should be expanded to include a manager’s perfor-                                                                                     recommendation relying solely on
            mance below a certain standard benchmark, or if Treasury                                                                                      Treasury’s right to end the invest-
            concludes that the manager has materially violated compliance                                                                                 ment period after 12 months, dur-
            or ethical rules.                                                                                                                             ing which time the PPIF manager’s
                                                                                                                                                          performance may continue to fall
                                                                                                                                                          below a standard benchmark poten-
                                                                                                                                                          tially putting significant Government
                                                                                                                                        X                 funds at risk.
37          Treasury should require PPIF managers to disclose to Trea-
        *   sury, as part of the Watch List process, not only information
            about holdings in eligible assets but also holdings in related
            assets or exposures to related liabilities.                                      X
38          Treasury should require PPIF managers to obtain and maintain                                                                                  Treasury has agreed that it can
            information about the beneficial ownership of all of the private                                                                              have access to any information in a
            equity interests, and Treasury should have the unilateral ability                                                                             fund manager’s possession relating
            to prohibit participation of private equity investors.                                                                                        to beneficial owners. However,
                                                                                                                                                          Treasury is not making an affirma-
                                                                                                                                                          tive requirement that managers
                                                                                                                                                          obtain and maintain beneficial
                                                                                                                                                          owner information. Treasury will
                                                                                                                                                          not adopt the recommendation to
                                                                                                                                                          give itself unilateral ability to deny
                                                                                                                                                          access to or remove an investor,
                                                                                                                                                          stating that such a right would
                                                                                                                                        X                 deter participation.
39          Treasury and FRBNY should (1) examine Moody’s assertions                                                                                      Treasury and the Federal Reserve
        *   that some credit rating agencies are using lower standards to                                                                                 have discussed concerns about
            give a potential TALF security the necessary AAA rating and (2)                                                                               potential overrating or rating shop-
            develop mechanisms to ensure that acceptance of collateral                                                                                    ping with the rating agencies, and
            in TALF is not unduly influenced by the improper incentives to                                                                                have agreed to continue to develop
            overrate that exist among the credit agencies.                                                                                                and enhance risk management
                                                                                                                                                          tools and processes, where ap-
                                                                                                                          X                               propriate.
40          Treasury should more explicitly document the vote of each                                                                                     Treasury’s Office of Financial Stabil-
        *   Investment Committee member for all decisions related to the                                                                                  ity has implemented SIGTARP’s
            investment of TARP funds.                                                                                                                     recommendation to document
                                                                                                                                                          each specific vote of individual
                                                                                                                                                          Investment Committee members
                                                                                                                                                          when deciding whether to approve
                                                                                                                                                          or disapprove proposed TARP
                                                                                             X                                                            investments.

Note:   *Indicates that Treasury considers the recommendation closed and will take no further action.                                                               Continued on next page.
                                                                                                                                                                                                   quarterly report to congress I january 30, 2010
                                                                                                                                                                                                   149
SIGTARP RECOMMENDATIONS TABLE                         (continued)                                                                                                                               150
                                                                                                        Partially                    Not
            Recommendation                                                          Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
41        Treasury should improve existing control systems to document                                                                                  Treasury adopted SIGTARP’s
     *    the occurrence and nature of external phone calls and in-                                                                                     recommendation only for docu-
          person meetings about actual and potential recipients of fund-                                                                                menting external communications
          ing under the CPP and other similar TARP-assistance programs                                                                                  with Federally registered lobbyists
          to which they may be part of the decision making.                                                                                             related to TARP funding, but not for
                                                                                                                                                        any third parties not registered as
                                                                                                                                                        lobbyists. Treasury issued guidance
                                                                                                                                                        that restricted employees from
                                                                                                                                                        communicating with any external
                                                                                                                                                        entities about TARP funding unless
                                                                                                          X                                             under certain circumstances.
42        The Secretary of the Treasury should direct the Special Master                                                                                The Special Master has consulted
          to work with FRBNY officials in understanding AIG compensa-                                                                                   with FRBNY regarding AIG executive
          tion programs and retention challenges before developing fu-                                                                                  compensation programs.
          ture compensation decisions that may affect both institutions’
          ability to get repaid by AIG for Federal assistance provided.
                                                                                           X
43        Treasury should establish policies to guide any similar future                                                                                Treasury has agreed to develop
          decisions to take a substantial ownership position in financial                                                                               policies and protocols that can be
          institutions that would require an advance review so that                                                                                     used in evaluating whether to make
                                                                                                                                                                                                special inspector general I troubled asset relief program




          Treasury can be reasonably aware of the obligations and chal-                                                                                 an investment in institutions requir-
          lenges facing such institutions.                                                                                                              ing exceptional assistance.
                                                                                                                        X
44        Treasury should establish policies to guide decision making                                                                                   Treasury has agreed to work
          in determining whether it is appropriate to defer to another                                                                                  closely with other Federal agencies
          agency when making TARP programming decisions where                                                                                           that are involved in TARP programs.
          more than one Federal agency is involved. In making those
          oversight determinations, Treasury should bear in mind that
          its role under EESA, as the primary manager of TARP, carries
          with it certain obligations to protect taxpayer interests, to
          promote transparency and to foster accountability to the
          American people and to Congress; other agencies, operating
          with different missions and under different legal and regulatory
          frameworks, may not have the same priorities.                                                   X

Note: *Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                quarterly report to congress I january 30, 2010                     151



Endnotes
1. 	    Although SIGTARP estimates needs of $28.3 million, it has requested $23.2 million because section 402(c)(1) of the Helping Families Save Their
        Homes Act of 2009, P.L. No. 111-22, provided SIGTARP with $15 million in supplemental funding. However, section 402(c)(2) requires SIGTARP,
        in using these funds, to “prioritize the performance of audits or investigations of recipients of non-recourse Federal loans made under any” Emergency
        Economic Stabilization Act of 2008 program. The supplemental funding, thus, is not available for SIGTARP’s general operational uses, and SIGTARP
        expects that it will take approximately three fiscal years, i.e., $5 million per year for FY 2010, FY 2011, and FY 2012, to expend the supplemental fund-
        ing in a manner consistent with the statute.
2. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
3. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
4. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
5. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
6. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
7. 	    Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
        Government Reform Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
8. 	    Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
        Government Reform Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
9. 	    OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
10. 	   Treasury Press Release, “New Report Shows Higher Returns, Lower Spending Under TARP Than Previously Projected,” 12/10/2009, http://financialsta-
        bility.gov/latest/tg_12092009.html, accessed 1/6/2010.
11. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
12. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
13. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
14. 	   Commitment source: Treasury, response to SIGTARP data call, 1/5/2010. The $699 billion represents the $700 billion authorized for TARP by EESA
        less the $1.2 billion reduction as a result of the Helping Families Save Their Homes Act of 2009 (P.L. 111-22).
15. 	   From a budgetary perspective, what Treasury planned to spend (not acutal disbursements/cash outlays). Treasury, Transactions Report, 1/4/2010, http://
        financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010; Treasury, response
        to SIGTARP data call, 1/5/2010.
16. 	   Treasury, response to SIGTARP data call, 1/5/2010.
17. 	   As of December 31, 2009, 67 TARP recipients in various programs had repaid their TARP funds. Under the Capital Purchase Program (“CPP”) 64
        TARP recipients had repaid a total $121.9 billion. Chrysler Financial, LLC had repaid its TARP funds under the Automotive Industry Financing
        Program (“AIFP”) totaling $2.5 billion; and the two participants under the Auto Warranty Commitment Program (“AWCP”) had repaid a total $641
        million. GM paid back $140 million under the Auto Supplier Support Program (“ASSP”). Under the Targeted Investment Program (“TIP”) Bank of
        America and Citigroup had repaid $40 billion. Treasury and Citigroup also terminated their agreement under the Asset Guarantee Program (“AGP”),
        reducing Treasury’s exposure by $5 billion.
18. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
19. 	   Treasury, response to SIGTARP data call, 1/5/2010.
20. 	   Treasury, response to SIGTARP data call, 1/12/2010.
21. 	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 1/5/2010.
22. 	   Treasury, response to SIGTARP data call, 1/5/2010.
23. 	   Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
24. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
25. 	   Treasury Press Release, “Treasury Announcement Regarding the Capital Assistance Program,” 11/9/2009, http://financialstability.gov/latest/
        tg_11092009.html, accessed 12/29/2009.
26. 	   Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 9/1/2009.
27. 	   The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series E non-cumulative preferred without any cash
        outlay by Treasury. Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20
        as%20of%2012-30-09.pdf, accessed 1/6/2010.
28. 	   Treasury, response to SIGTARP data call, 1/5/2010.
29. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
30. 	   Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
        09.pdf, accessed 1/6/2010.
31. 	   OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
32. 	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.financialstability.gov/latest/
        hp1358.html, accessed 12/16/2009.
33. 	   Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
        09.pdf, accessed 1/6/2010.
34. 	   Note 3 on page 17 of the 1/4/2010 Transactions Report states that the Treasury entered into the termination agreement on 12/23/2009. Treasury,
        Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-09.pdf,
        accessed 1/6/2010.
152             special inspector general I troubled asset relief program



      35. 	 Treasury, response to SIGTARP data call, 1/5/2010.
      36. 	 Federal Reserve Board, response to SIGTARP draft report, 1/13/2010.
      37. 	 This number was calculated by summing the March, April, May, June, July, August, September, October, November, and December TALF loan sub-
            scriptions. FRBNY, “Term Asset-Backed Securities Loan Facility,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 1/5/2010.
      38. 	 This number was calculated by summing the June, July, August, September, October, November, and December TALF CMBS loan subscriptions.
            FRBNY, “Term Asset-Backed Securities Loan Facility,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 1/5/2010; Federal Reserve
            Board, response to SIGTARP draft report, 1/13/2010.
      39. 	 Treasury, “Public-Private Investment Program,” 12/2/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 12/16/2009.
      40. 	 FDIC, response to SIGTARP draft report, 1/14/2010.
      41. 	 FDIC, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, www.fdic.gov/news/news/press/2009/pr09131.html, accessed 12/16/2009.
      42. 	 Treasury, response to SIGTARP data call, 1/5/2010.
      43. 	 Treasury, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Fund,” 12/22/2009, www.finan-
            cialstability.gov/latest/pr_12182009c.html, accessed 12/29/2009.
      44. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.
            html, accessed 10/6/2009.
      45. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
            12/16/2009.
      46. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/6/2010.
      47. 	 Treasury, “Obama Administration Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-
            restructuring-factsheet_043009.pdf, accessed 12/16/2009.Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-re-
            ports/1-4-10%20Transactions%20Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010.
      48. 	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treas.gov/press/releases/docs/supplier_sup-
            port_program_3_18.pdf, accessed 12/16/2009.
      49. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/6/2010.
      50. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/6/2010.
      51. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/doc/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/4/2010.
      52. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
            Government Reform Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
      53. 	 Treasury Press Release, “Relief for Responsible Homeowners One Stop Closer Under New Treasury Guidelines,” 3/4/2009, www.financialstability.gov/
            latest/tg48.html, accessed 12/16/2009.
      54. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 4/28/2009, www.treas.gov/press/releases/reports/housing_fact_sheet.pdf,
            accessed 12/16/2009.
      55. 	 Treasury, response to SIGTARP draft report, 1/15/2010.
      56. 	 Treasury, TARP Budgetary Briefing, 1/4/2010.
      57. 	 Treasury, “Treasury Announcement Regarding the Capital Assistance Program,” 11/9/2009, www.financialstability.gov/latest/tg_11092009.html, ac-
            cessed 11/16/2009.
      58. 	 Treasury, Transactions Report, 1/4/2010, http://www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%20
            12-30-09.pdf, accessed 1/4/2010.
      59. 	 Federal Reserve Press Release, no title, 11/9/2009, www.federalreserve.gov/newsevents/press/bcreg/20091109a.htm, accessed 11/16/2009.
      60. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
      61. 	 Treasury, Section 105a Congressional Report, 12/10/2009, www.financialstability.gov/docs/105CongressionalReports/November%202009%20TARP%20
            Monthly%20105(a)%20Report_12.10.2009.pdf, accessed 12/28/2009.
      62. 	 Treasury, Section 105a Congressional Report, 12/10/2009, www.financialstability.gov/docs/105CongressionalReports/November%202009%20TARP%20
            Monthly%20105(a)%20Report_12.10.2009.pdf, accessed 12/28/2009.
      63. 	 This number is based on Treasury’s Transactions Report dated 1/4/2010, for investment amounts identified as CPP for Small Banks funds either as an
            institution’s initial funding or for institutions receiving additional funds beyond that of their original CPP investment.
      64. 	 White House Press Release, “President Obama Announces New Efforts to Improve Access to Credit for Small Businesses,” no date, http://www.white-
            house.gov/assets/documents/small_business_final.pdf, accessed 1/20/2010.
      65. 	 Treasury, “Letter From Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for TARP,” 12/9/2009, www.financialstability.gov/latest/
            pr_12092009.html, accessed 12/11/2009.
      66. 	 Treasury, response to SIGTARP data call, 1/12/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20
            of%2012-30-09.pdf, accessed 1/4/2010.
      67. 	 FDIC, Failed Bank List, 12/17/2009, www.fdic.gov/bank/individual/failed/banklist.html, accessed 12/17/2009.
      68. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/4/2010.
      69. 	 FDIC, Failed Bank List, 12/17/2009, www.fdic.gov/bank/individual/failed/banklist.html, accessed 12/17/2009.
      70. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/4/2010.
      71. 	 CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
            www.cit.com/media-room/press-releases/index.htm, accessed 12/10/2009.
      72. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
            09.pdf, accessed 1/4/2010.
                                                                                             quarterly report to congress I january 30, 2010                   153


73. 	 Treasury, Section 105a Congressional Report, 12/10/2009, www.financialstability.gov/docs/105CongressionalReports/November%202009%20TARP%20
       Monthly%20105(a)%20Report_12.10.2009.pdf, accessed 12/28/2009.
74. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/4/2010.
75. 	 Bank of America Corp, “Bank of America Completes Repayment of TARP,” 12/9/2009, http://investor.bankofamerica.com/phoenix.
       zhtml?c=71595&p=irol-newsArticle&ID=1364022&highlight=, accessed 12/11/2009.
76. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/4/2010.
77. 	 Bank of America Corp, “Bank of America Completes Repayment of TARP,” 12/9/2009, http://investor.bankofamerica.com/phoenix.
       zhtml?c=71595&p=irol-newsArticle&ID=1364022&highlight=, accessed 12/11/2009.
78. 	 Bank of America Corp, “Bank of America Completes Repayment of TARP,” 12/9/2009, http://investor.bankofamerica.com/phoenix.
       zhtml?c=71595&p=irol-newsArticle&ID=1364022&highlight=, accessed 12/11/2009.
79. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
80. 	 Approximately $2.7 million of the $140.7 million in missed CPP dividend payments are non-cumulative. Treasury, response to SIGTARP data call,
       1/12/2010.
81. 	 Treasury, CPP Securities Purchase Agreements, various dates, www.financialstability.gov, accessed 7/4/2009.
82. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
       cialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
83. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.
       pdf, accessed 1/4/2010.
84. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
       cialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
85. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
       cialstability.gov/latest/tg_06262009.html, accessed 6/26/2009.
86. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009, www.financialstability.gov/latest/
       tg_11192009b.html, accessed 11/19/2009.
87. 	 Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed
       12/4/2009.
88. 	 Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed
       12/4/2009.
89. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009, www.financialstability.gov/latest/
       tg_11192009b.html, accessed 11/19/2009.
90. 	 TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm,
       accessed 12/29/2009; JP Morgan Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/
       d424b5.htm, accessed 12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/
       data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009.
91. 	 FDIC, “FDIC-Insured Institutions Earned $2.8 Billion in the Third Quarter of 2009,” 11/24/2009, www.fdic.gov/news/news/press/2009/pr09212.html,
       accessed 12/9/2009.
92. 	 FDIC, “Frequently Asked Questions on Prepaid Assessments,” www.fdic.gov/deposit/insurance/prepay/, accessed 12/9/2009.
93. 	 FDIC, “Who is the FDIC?” www.fdic.gov/about/learn/symbol/index.html, accessed 12/10/2009.
94. 	 FDIC, “Mission, Vision and Values,” www.fdic.gov/about/mission/index.html, accessed 12/10/2009.
95. 	 FDIC, “Deposit Insurance Summary,” www.fdic.gov/deposit/deposits/dis/index.html, accessed 12/9/2009.
96. 	 FDIC, “Who is the FDIC?” www.fdic.gov/about/learn/symbol/index.html, accessed 12/9/2009.
97. 	 FDIC, “Frequently Asked Questions on Prepaid Assessments,” www.fdic.gov/deposit/insurance/prepay/, accessed 12/9/2009.
98. 	 FDIC, “Resolutions Handbook: Chapter 7 – The FDIC’s Role as Receiver,” 4/2/2003, www.fdic.gov/bank/historical/reshandbook/ch7recvr.pdf, accessed
       12/17/2009.
99. 	 FDIC, “A Borrower’s Guide to an FDIC Insured Bank Failure,” www.fdic.gov/bank/individual/failed/borrowers/, accessed 12/09/2009.
100. 	 FDIC, “Managing the Crisis,” December 1997, www.fdic.gov/bank/historical/managing/history1-02.pdf, accessed 12/16/2009.
101. 	 FDIC, “Managing the Crisis,” December 1997, www.fdic.gov/bank/historical/managing/history1-02.pdf, accessed 12/16/2009.
102. 	 FDIC, “A Borrower’s Guide to an FDIC Insured Bank Failure,” www.fdic.gov/bank/individual/failed/borrowers/, accessed 12/9/2009.
103. 	 FDIC, “Loss-Share Questions and Answers,” www.fdic.gov/bank/individual/failed/lossshare/, accessed 12/9/2009.
104. 	 New York Community Bancorp Inc., 8-K Filing, 12/7/2009, www.faqs.org/sec-filings/091207/NEW-YORK-COMMUNITY-BANCORP-INC_8-K/, ac-
       cessed 1/7/2010.
105. 	 Sidel, Robin, “FDIC Moves to Seize Slice of Bank-Stock Rallies,” Wall Street Journal, 12/30/2009, http://online.wsj.com/article/SB1000142405274870
       4234304574626153895931822.html, accessed 1/6/2010.
106. 	 FDIC, “Structured Loan Sales,” 10/2/2009, www.fdic.gov/buying/historical/structured/index.html, accessed 1/8/2010.
107. 	 FDIC, “When a Bank Fails — Facts for Depositors, Creditors, and Borrowers, Priority of Payments and Timing,” 7/17/2008, www.fdic.gov/consumers/
       banking/facts/priority.html, accessed 01/7/2010.
108. 	 Treasury, Transactions Report, 1/4/2010, http://www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%20
       12-30-09.pdf, accessed 1/15/2010.
109. 	 SEC, “What every investor should know: Corporate Bankruptcy,” 2/3/2009, www.sec.gov/investor/pubs/bankrupt.htm, accessed 12/11/2009.
110. 	 FDIC, “Failed Bank Information for United Commercial Bank, San Francisco, CA,” 11/12/2009, http://www.fdic.gov/bank/individual/failed/ucb.html,
       accessed 12/9/2009.
111. 	 Treasury, “Application Guidelines for TARP Capital Purchase Program,” www.financialstability.gov/docs/CPP/application-guidelines.pdf, accessed
       1/8/2010.
154             special inspector general I troubled asset relief program



      112. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/25/2010.
      113. 	 CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
             ir.cit.com/phoenix.zhtml?c=99314&p=irol-newsArticle&ID=1349179&highlight, accessed 12/10/2009.
      114. 	 CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
             ir.cit.com/phoenix.zhtml?c=99314&p=irol-newsArticle&ID=1349179&highlight, accessed 12/10/2009.
      115. 	 CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
             ir.cit.com/phoenix.zhtml?c=99314&p=irol-newsArticle&ID=1349179&highlight, accessed 12/16/2009.
      116. 	 CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
             ir.cit.com/phoenix.zhtml?c=99314&p=irol-newsArticle&ID=1349179&highlight, accessed 12/16/2009.
      117. 	 CIT, “CIT Prepackaged Plan of Reorganization Confirmed by Court,” 12/8/2009, www.cit.com/media-room/press-releases/index.htm, accessed
             12/17/2009.
      118. 	 CIT, “Common & Preferred Stockholder Information Frequently Asked Questions,” 11/13/2009, www.cit.com/wcmprod/groups/content/@wcm/@cit/@
             about/documents/information/s4006874.pdf, accessed 12/9/2009.
      119. 	 Original restructuring: CIT, “CIT Launches Restructuring Plan,” 10/1/2009, www.cit.com/media-room/press-releases/index.htm, accessed 12/17/2009;
             Amendment: CIT, “CIT Amends Restructuring Plan,” 10/16/2009, ir.cit.com/phoenix.zhtml?c=99314&p=irol-newsArticle_pf&ID=1343107, accessed
             12/17/2009.
      120. 	 Office of Financial Stability, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed
             12/29/2009.
      121. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/25/2010.
      122. 	 FDIC, “Failed Bank Information for United Commercial Bank, San Francisco, CA,” 11/12/2009, www.fdic.gov/bank/individual/failed/ucb.html, ac-
             cessed 12/9/2009.
      123. 	 FDIC, “East West Bank, Pasadena, California Assumes All the Deposits of United Commercial Bank, San Francisco, California,” 11/6/2009, www.fdic.
             gov/news/news/press/2009/pr09201, accessed 12/10/2009.
      124. 	 FDIC, “Failed Bank Information for United Commercial Bank, San Francisco, CA,” 11/12/2009, www.fdic.gov/bank/individual/failed/ucb.html, ac-
             cessed 12/9/2009.
      125. 	 Lexis Nexis, Bankruptcy Filings, California Bankruptcy Record, UCBH Holdings, Inc., accessed 1/9/2010.
      126. 	 UCBH, 8-K, 11/16/2009, http://google.brand.edgar-online.com/displayfilinginfo.aspx?FilingID=6892898-6413-7261&type=sect&TabIndex=2&compan
             yid=11860&ppu=%252fdefault.aspx%253fcompanyid%253d11860%2526amp%253bformtypeId%253d135, accessed 12/9/2009.
      127. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 12/7/2009.
      128. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/7/2010.
      129. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
      130. 	 Treasury, response to SIGTARP data call, 1/6/2010.
      131. 	 American International Group, Inc., “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%20
             3Q09%20Press%20Release.pdf, accessed 12/7/2009.
      132. 	 Treasury, response to SIGTARP data call, 1/6/2010.
      133. 	 Treasury, “Securities Exchange Agreement dated as of April 17, 2009, between American International Group, Inc. and United States Department of
             the Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.E.Securities.Exchange.Agreement.pdf, accessed 1/6/2010.
      134. 	 Treasury, response to SIGTARP data call, 1/6/2010.
      135. 	 American International Group, Inc, “AIG closes two transactions that reduce debt AIG owes Federal Reserve Bank of New York by $25 Billion,”
             12/1/09, http://phx.corporate-ir.net/External.File?item=UGFyZW50SUQ9MjE4ODl8Q2hpbGRJRD0tMXxUeXBlPTM=&t=1, accessed 12/7/2009.
      136. 	 American International Group, Inc, “Third Quarter Results Press Release,” 11/6/2009, http://www.aigcorporate.com/investors/2009_November/AIG%20
             3Q09%20Press%20Release.pdf, accessed 12/7/2009.
      137. 	 American International Group, Inc, “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%20
             3Q09%20Press%20Release.pdf, accessed 12/7/2009.
      138. 	 American International Group, Inc, “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%20
             3Q09%20Press%20Release.pdf, accessed 12/7/2009.
      139. 	 American International Group, Inc, “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%20
             3Q09%20Press%20Release.pdf, accessed 12/7/2009.
      140. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
      141. 	 Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International Group, Inc. and United States Department of the
             Treasury,” 4/17/2009, www.financialstability.gov/docs/agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 1/13/2009.
      142. 	 Treasury, response to SIGTARP data call, 1/6/2010.
      143. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/7/2010.
      144. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/7/2010.
      145. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/7/2010.
      146. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/7/2010.
      147. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
      148. 	 Citigroup, Inc, “Repaying TARP and Other Capital Actions,” 12/14/2009, www.citigroup.com/citi/fin/data/p091214a.pdf, accessed 12/14/2009.
                                                                                              quarterly report to congress I january 30, 2010                    155


149. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 12/17/2009.
150. 	 Citigroup Press Release, “Citi Prices $17 Billion Common Stock Offering and $3.5 Billion of Tangible Equity Units, 12/16/2009, www.citigroup.com/
       citi/press/2009/091216e.htm, accessed 12/16/2009.
151. 	 Federal Reserve, response to SIGTARP data call, 1/18/2010.
152. 	 Citigroup, Inc., “Repaying TARP and Other Capital Actions,” 12/14/2009, www.citigroup.com/citi/fin/data/p091214a.pdf, accessed 12/14/2009.
153. 	 Citigroup Press Release, “Citi Prices $17 Billion Common Stock Offering and $3.5 Billion of Tangible Equity Units,” 12/16/2009, www.citigroup.com/
       citi/press/2009/091216e.htm, accessed 12/16/2009; Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/lat-
       est/st_12172009.html, accessed 12/17/2009. The 27.4% Treasury ownership of Citigroup’s outstanding common stock figure was calculated by dividing
       the $25 billion of Citigroup common stock owned by Treasury by the amount of Citigroup common stock outstanding after Citigroup’s issuance of $17
       billion of new common stock for the repurchase of TIP shares.
154. 	 Treasury, Transactions Report, 1/4/2010, http://financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/7/2010.
155. 	 Treasury, “Treasury Receives $45 Billion in Repayments from Wells Fargo and Citigroup TARP Repayments Now Total $164 Billion,” 12/22/2009, www.
       financialstability.gov/latest/pr_12232009b.html, accessed 12/22/2009.
156. 	 Citigroup, Inc., “Repaying TARP and Other Capital Actions,” 12/14/2009, www.citigroup.com/citi/fin/data/p091214a.pdf, accessed 12/14/2009.
157. 	 Citigroup, Exchange Agreement, 6/9/2009, http://sec.gov/Archives/edgar/data/831001/000119312509128765/dex103.htm, accessed 1/6/2010.
158. 	 Citigroup, Inc, “Citi Prices $17 Billion Common Stock Offering and $3.5 Billion of Tangible Equity Units,” 12/16/2009, www.citigroup.com/citi/
       press/2009/091216e.htm, accessed 12/16/2009.
159. 	 Treasury, response to SIGTARP data call, 1/6/2010.
160. 	 Citigroup, Inc., “Repaying TARP and Other Capital Actions,” 12/14/2009, www.citigroup.com/citi/fin/data/p091214a.pdf, accessed 12/14/2009.
161. 	 Treasury, response to SIGTARP data call, 1/6/2010.
162. 	 Treasury, response to SIGTARP data call, 1/16/2010.
163. 	 Treasury, response to SIGTARP data call, 1/6/2010.
164. 	 Treasury, response to SIGTARP data call, 1/16/2010.
165. 	 Treasury, response to SIGTARP data call, 1/16/2010.
166. 	 Citigroup Press Release, “Citi Prices $17 Billion Common Stock Offering and $3.5 Billion of Tangible Equity Units,” 12/16/2009, www.citigroup.com/
       citi/press/2009/091216e.htm, accessed 12/16/2009; Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/lat-
       est/st_12172009.html, accessed 12/17/2009. The 27.4% Treasury ownership of Citigroup’s outstanding common stock figure was calculated by dividing
       the $25 billion of Citigroup common stock owned by Treasury by the amount of Citigroup common stock outstanding after Citigroup’s issuance of $17
       billion of new common stock for the repurchase of TIP shares.
167. 	 Treasury, Transactions Report, 1/4/2010, financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-09.pdf,
       accessed 1/7/2010.
168. 	 Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
       TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 12/9/2009.
169. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/talf_terms.html, accessed
       12/7/2009.
170. 	 Federal Reserve, response to SIGTARP data call, 1/12/2010.
171. 	 Federal Reserve Press Release, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility,”
       8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 8/20/2009.
172. 	 Federal Reserve, response to SIGTARP draft report, 1/15/2010.
173. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
174. 	 FDIC Press Release, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, www.fdic.gov/news/news/press/2009/pr09131.html, accessed
       9/22/2009.
175. 	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008, www.
       federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/13/2010.
176. 	 Federal Reserve, response to SIGTARP data call, 1/12/2010.
177. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
178. 	 FRBNY, response to SIGTARP data call, 1/21/2010.
179. 	 Federal Reserve Press Release, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility,”
       8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 8/20/2009.
180. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
181. 	 Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,” 12/2009, www.federalreserve.
       gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 1/13/2010. Reuters, “UPDATE 2-Developers Diversified deal ends CMBS drought,”
       11/16/2009, www.reuters.com/article/idUSNN1651253720091116, accessed 12/8/2009.
182. 	 Federal Reserve, “Jon D. Greenlee, Associate Director, Division of Banking Supervision and Regulation, Small Business Lending, Before the
       Subcommittee on Oversight and Investigations, Committee on Financial Services, U.S. House of Representatives, Southfield, Michigan,” 11/30/2009,
       www.federalreserve.gov/newsevents/testimony/greenlee20091130a.htm, accessed 12/8/2009.
183. 	 Federal Reserve Press Release, “Federal Reserve announces changes to procedures for evaluating asset-backed securities pledged to the Term Asset-
       Backed Securities Loan Facility (TALF),” 10/5/2009, www.federalreserve.gov/newsevents/press/monetary/20091005b.htm, accessed 12/7/2009. FRBNY,
       “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 12/23/2009, p. 28, www.newyorkfed.org/markets/talf/faq_091130_blackline.
       pdf, accessed 1/5/2010.
184. 	 FRBNY, “Risk Assessment Principles for Non-Mortgage-Backed ABS,” no date, www.newyorkfed.org/markets/talf/risk_assessment_principles.pdf,
       accessed 12/7/2009.
185. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 12/23/2009, p. 38, www.newyorkfed.org/markets/talf/faq_091130_
       blackline.pdf, accessed 1/5/2010.
156             special inspector general I troubled asset relief program



      186. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 12/23/2009, p. 18, www.newyorkfed.org/markets/talf/faq_091130_
             blackline.pdf, accessed 1/5/2010.
      187. 	 FRBNY, “Accepted and Rejected Legacy CMBS,” 11/17/2009, www.newyorkfed.org/markets/talf_cusips.html, accessed 12/8/2009.
      188. 	 FRBNY, “Accepted and Rejected Legacy CMBS,” 11/17/2009, www.newyorkfed.org/markets/talf_cusips.html, accessed 12/8/2009.
      189. 	 FRBNY, “Accepted and Rejected Legacy CMBS,” 11/17/2009, www.newyorkfed.org/markets/talf_cusips.html, accessed 12/8/2009.
      190. 	 FRBNY, response to SIGTARP draft report, 10/8/2009.
      191. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
      192. 	 Federal Reserve System, “Extensions of Credit by Federal Reserve Banks,” 74 Federal Register 65016, 12/9/2009, edocket.access.gpo.gov/2009/pdf/E9-
             29296.pdf, accessed 12/14/2009.
      193. 	 Federal Reserve System, “Extensions of Credit by Federal Reserve Banks,” 74 Federal Register 65015, 12/9/2009, edocket.access.gpo.gov/2009/pdf/E9-
             29296.pdf, accessed 12/14/2009.
      194. 	 Federal Reserve System, “Extensions of Credit by Federal Reserve Banks,” 74 Federal Register 65014–65015, 12/9/2009, edocket.access.gpo.gov/2009/
             pdf/E9-29296.pdf, accessed 12/14/2009.
      195. 	 Federal Reserve System, “Extensions of Credit by Federal Reserve Banks,” 74 Federal Register 65017, 12/9/2009, edocket.access.gpo.gov/2009/pdf/E9-
             29296.pdf, accessed 12/14/2009.
      196. 	 Federal Reserve System, “Extensions of Credit by Federal Reserve Banks,” 74 Federal Register 65015, 12/9/2009, edocket.access.gpo.gov/2009/pdf/E9-
             29296.pdf, accessed 12/14/2009.
      197. 	 Federal Reserve Press Release, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility (TALF),”
             8/17/2009, www.federalreserve.gov/newsevents/press/monetary/20090817a.htm, accessed 12/28/2009.
      198. 	 FRBNY, “Statement Regarding TALF Loan Payment Date Change,” 11/30/2009, www.newyorkfed.org/markets/st091130.html, accessed 12/8/2009.
      199. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
      200. 	 Federal Reserve, response to SIGTARP draft report, 1/15/2010.
      201. 	 Federal Reserve, response to SIGTARP draft report, 1/15/2010.
      202. 	 FRBNY, response to SIGTARP data call, 1/12/2010.
      203. 	 Federal Reserve, response to SIGTARP draft report, 1/15/2010.
      204. 	 Treasury, response to SIGTARP data call, 1/5/2010.
      205. 	 Treasury, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Fund,” 12/22/2009, www.finan-
             cialstability.gov/latest/pr_12182009c.html, accessed 12/29/2009.
      206. 	 Treasury Press Release, “Treasury Department Releases Details on Public-Private Investment Program,” 3/24/2009, www.financialstability.gov/latest/
             tg65.html, accessed 11/24/2009.
      207. 	 Treasury, “Public-Private Investment Program,” 11/18/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 11/24/2009.
      208. 	 Treasury, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009, www.treas.gov/press/
             releases/tg82.htm, accessed 11/24/2009.
      209. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      210. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.
             treas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed 12/14/2009.
      211. 	 Treasury, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Fund,” 12/22/2009, www.finan-
             cialstability.gov/latest/pr_12182009c.html, accessed 1/5/2010.
      212. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      213. 	 Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended November 30, 2009,” received 1/6/2009.
      214. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      215. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20(re-
             dacted).pdf, accessed 12/14/2009.
      216. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.
             treas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed 12/14/2009.
      217. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      218. 	 HUD, “Multifamily Real Estate for Sale,” no date, www.hud.gov/offices/hsg/mfh/pd/multifam.cfm, accessed 12/29/2009.
      219. 	 BlackRock, “BlackRock PPIF, L.P., Management Discussion & Analysis for Month Ended October 31, 2009,” received 11/17/2009.
      220. 	 State of New Jersey Department of Banking & Insurance, “Home Mortgage Foreclosures/Subprime Lending,” no date, www.nj.gov/dobi/division_con-
             sumers/finance/foreclose_subprime.html, accessed 1/12/2010.
      221. 	 Federal Reserve Bank of St. Louis, “The Financial Crisis: A Timeline of Events and Policy Actions Glossary,” no date, http://timeline.stlouisfed.org/index.
             cfm?p=glossary, accessed 1/6/2010.
      222. 	 Federal Reserve Bank of St. Louis, “The Financial Crisis: A Timeline of Events and Policy Actions Glossary,” no date, http://timeline.stlouisfed.org/index.
             cfm?p=glossary, accessed 1/6/2010.
      223. 	 The Federal Reserve Board, “Consumer Handbook on Adjustable-Rate Mortgages,” no date, www.federalreserve.gov/pubs/arms/arms_english.htm, ac-
             cessed 1/8/2010.
      224. 	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, http://cop.senate.gov/documents/cop-
             081109-report.pdf, accessed 12/29/2009.
      225. 	 Treasury, briefing on TCW, 1/5/2010.
      226. 	 TCW, “TCW Opts Out of U.S. Treasury Public-Private Investment Program,” 1/4/2010, www.tcw.com/TCW/application?namespace=portal&origin=Arc
             hivePressReleasesContent.jsp&event=bea.portal.framework.internal.refresh&pageid=NewsDetail&ContentId=13933&TaxonomyCode=&PersonCode=,
             accessed 1/5/2010.
      227. 	 Treasury, briefing on TCW, 1/5/2010.
                                                                                             quarterly report to congress I january 30, 2010                    157


228. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.
       html, accessed 3/17/2009.
229. 	 Small Business Administration, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed
       6/30/2009.
230. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
231. 	 White House, “Fact Sheet: President Obama Announces New Efforts to Improve Access to Credit for Small Businesses,” no date, www.whitehouse.gov/
       assets/documents/small_business_final.pdf, accessed 12/29/2009.
232. 	 Treasury, response to SIGTARP data call, 1/5/2010.
233. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
       9/2/2009.
234. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/6/2010.
235. 	 Treasury, Auto Team, GAO interview, 6/5/2009; Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20
       Transactions%20Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010.
236. 	 GAO 10-151, “TROUBLED ASSET RELIEF PROGRAM Continued Stewardship Needed as Treasury Develops Strategies for Monitoring and
       Divesting Financial Interests in Chrysler and GM,” 11/2/2009, www.gao.gov/new.items/d10151.pdf, p. 26, accessed 1/10/2010.
237. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, p. 110, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
238. 	 Purpose of investment: Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstability.gov/roadtostability/autoprogram.html,
       accessed 9/4/2009. Amount of Government investment: Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-re-
       ports/1-4-10%20Transactions%20Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010.
239. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/6/2010.
240. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/6/2010.
241. 	 Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_
       gm-factsheet.html, accessed 12/17/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and 7/13/2009.
242. 	 Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the
       Oversight and Government Reform Committee,” 12/17/2009, financialstability.gov/latest/st_12172009.html, accessed 12/18/2009.
243. 	 GM, 8K, 12/1/2009, www.sec.gov/Archives/edgar/data/1467858/000119312509248377/d8k.htm, accessed 12/10/2009.
244. 	 Government involvement: White House, “Briefing by White House Press Secretary Robert Gibbs, 12/2/09,” www.whitehouse.gov/the-press-office/
       briefing-white-house-press-secretary-robert-gibbs-12209, accessed 12/9/2009; Board composition: GM, 8K, 8/7/2009, www.sec.gov/Archives/edgar/
       data/1467858/000119312509169233/d8k.htm, accessed 12/9/2009.
245. 	 GM Press Release, “Ed Whitacre to Continue as GM CEO,” 1/26/2010, media.gm.com/content/media/us/en/news/news_detail.print.GMCOM.html/
       content/Pages/news/us/en/2010/Jan/0125whitacre_ceo, accessed 1/28/2010.
246. 	 GM, 8K, 11/16/2009, p. 105, www.sec.gov/Archives/edgar/data/1467858/000119312509235641/d8k.htm, accessed 12/10/2009.
247. 	 GM, 8K, Exhibit 99.1: “News Release Dated November 16, 2009 and Financial Statements,” 11/16/2009, p. 3, www.sec.gov/Archives/edgar/
       data/1467858/000119312509238453/dex991.htm, accessed 12/11/2009.
248. 	 GM, 8K, 11/16/2009, p. 105, www.sec.gov/Archives/edgar/data/1467858/000119312509235641/d8k.htm, accessed 12/10/2009.
249. 	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, p. 17, www.sigtarp.gov/reports/audit/2009/Additional_
       Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 12/29/2009.
250. 	 United States Bankruptcy Court Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure Statement with Respect to the
       Joint Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, summary page and pp. 6,9, chap11.epiqsystems.com/ViewDocument.
       aspx?DocumentPk=4cb6e8a2-cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009.
251. 	 United States Bankruptcy Court Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure Statement with Respect to the Joint
       Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, p.7, chap11.epiqsystems.com/ViewDocument.aspx?DocumentPk=4cb6e8a2-
       cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009.
252. 	 United States Bankruptcy Court Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure Statement with Respect to the Joint
       Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, p.7, chap11.epiqsystems.com/ViewDocument.aspx?DocumentPk=4cb6e8a2-
       cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009.
253. 	 United States Bankruptcy Court Southern District of New York, Case No. 09-50002, Docket No. 6078, “Disclosure Statement with Respect to
       the Joint Plan of Liquidation of Debtors and Debtors in Possession,” 12/14/2009, cover and summary, chap11.epiqsystems.com/ViewDocument.
       aspx?DocumentPk=4cb6e8a2-cef6-4982-bb7b-d7409bc74512, accessed 12/16/2009.
254. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
       09.pdf, accessed 1/6/2010.
255. 	 Treasury Press Release, “Treasury Announces TARP Investment in GMAC,” 12/29/2008, www.treas.gov/press/releases/hp1335.htm, accessed 1/6/2010.
256. 	 Treasury, Auto Team, SIGTARP interview, 6/1/2009.
257. 	 Federal Reserve, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, www.federalreserve.gov/newsevents/bcreg20090507a1.
       pdf, accessed 12/11/2009.
258. 	 Amount of transaction: Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20
       Report%20as%20of%2012-30-09.pdf, accessed 1/6/2010. Use of funds: Treasury, Auto Team, SIGTARP interview, 6/1/2009.
259. 	 Treasury, Transactions Report, 1/4/2010, p. 16, footnote 3, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20
       as%20of%2012-30-09.pdf, accessed 1/6/2010.
260. 	 Federal Reserve Press Release, “Federal Reserve Board Makes Announcement Regarding the Supervisory Capital Assessment Program (SCAP),”
       11/9/2009, www.federalreserve.gov/newsevents/press/bcreg/20091109a.htm, accessed 12/11/2009.
261. 	 Treasury Press Release, “Treasury Announces Restructuring of Commitment To GMAC,” 12/30/2009, www.ustreas.gov/press/releases/tg501.htm, ac-
       cessed 12/30/2009.
158             special inspector general I troubled asset relief program



      262. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/6/2010.
      263. 	 Treasury Press Release, “Treasury Announces Restructuring of Commitment to GMAC,” 12/30/2009, www.ustreas.gov/press/releases/tg501.htm, ac-
             cessed 12/30/2009.
      264. 	 Principal: Treasury, Transactions Report, 1/4/2010, p. 15, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20
             as%20of%2012-30-09.pdf, accessed 1/6/2010. Interest: Treasury, Cumulative Interest Report, 8/20/2009, p. 15, www.financialstability.gov/docs/divi-
             dends-interest-reports/October%202009_Dividends%20and%20Interest%20Report.pdf, accessed 12/11/2009.
      265. 	 Treasury, response to SIGTARP draft report, 10/8/2009. Treasury, Office of the Special Master for TARP Executive Compensation letter to General
             Counsel, Chrysler Financial Corp., 10/22/2009, treas.gov/press/releases/docs/20091022%20Chrysler%20Financial%20Letter.pdf, accessed 12/11/2009.
      266. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed
             12/10/2009.
      267. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as%20of%2012-30-
             09.pdf, accessed 1/6/2010.
      268. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.ustreas.gov/press/releases/reports/housing_fact_sheet.pdf,
             accessed 12/7/2009.
      269. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.ustreas.gov/press/releases/reports/housing_fact_sheet.pdf,
             accessed 12/7/2009.
      270. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.
             pdf, accessed 1/4/2010.
      271. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.ustreas.gov/press/releases/reports/housing_fact_sheet.pdf,
             accessed 12/7/2009.
      272. 	 Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.financialstability.gov/latest/tg_07312009.html, accessed
             12/7/2009.
      273. 	 Treasury, response to SIGTARP data call, 1/12/2010.
      274. 	 Treasury, response to SIGTARP draft report, 4/9/2009.
      275. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.
             pdf, accessed 1/4/2010.
      276. 	 Treasury, response to SIGTARP data call, 1/14/2010; Treasury, response to SIGTARP draft report, 1/15/2010.
      277. 	 Treasury, response to SIGTARP data call, 1/14/2010.
      278. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      279. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.
             pdf, accessed 1/4/2010.
      280. 	 Treasury, Transactions Report, 1/4/2010, www.financialstability.gov/docs/transaction-reports/1-4-10%20Transactions%20Report%20as20of%2012-30-09.
             pdf, accessed 1/4/2010.
      281. 	 Treasury, “Making Home Affordable Program Servicer Performance Report Through December 2009,” no date, http://financialstability.gov/docs/report.
             pdf, accessed 1/18/2010.
      282. 	 Treasury, “Administration, Servicers Commit to Faster Relief for Struggling Homeowners through Loan Modifications,” 7/29/2009, www.financialstabil-
             ity.gov/latest/07282009.html, accessed 12/8/2009.
      283. 	 Treasury, “Obama Administration Releases New Data on Making Home Affordable Program, Achieves Key Milestone Weeks Ahead of Schedule,”
             10/8/2009, www.financialstability.gov/latest/tg_10082009.html, accessed 12/8/2009.
      284. 	 Treasury, “The Obama Administration Kicks Off Mortgage Modification Conversion Drive,” 11/30/2009, www.financialstability.gov/latest/
             tg_11302009b.html, accessed 12/8/2009.
      285. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      286. 	 Treasury, “Introduction of Home Affordable Foreclosure Alternatives – Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009, www.hmpadmin.com/
             portal/docs/hamp_servicer/sd0909.pdf, accessed 12/7/2009.
      287. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      288. 	 Treasury, “Introduction of Home Affordable Foreclosure Alternatives – Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009, www.hmpadmin.com/
             portal/docs/hamp_servicer/sd0909.pdf, accessed 12/7/2009.
      289. 	 Treasury, “Introduction of Home Affordable Foreclosure Alternatives – Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009, www.hmpadmin.com/
             portal/docs/hamp_servicer/sd0909.pdf, accessed 12/7/2009.
      290. 	 Treasury, “Introduction of Home Affordable Foreclosure Alternatives – Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009, www.hmpadmin.com/
             portal/docs/hamp_servicer/sd0909.pdf, accessed 12/7/2009.
      291. 	 Treasury, “Introduction of Home Affordable Foreclosure Alternatives – Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009, www.hmpadmin.com/
             portal/docs/hamp_servicer/sd0909.pdf, accessed 12/7/2009.
      292. 	 Treasury, “Making Home Affordable Program On Pace to Offer Help to Millions of Homeowners,” 8/4/2009, www.financialstability.gov/latest/tg252.
             html, accessed 12/8/2009.
      293. 	 Treasury, response to SIGTARP vetting draft, 1/15/2010.
      294. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
      295. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/re-
             leases/tg165.htm, accessed 11/30/2009.
      296. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
             6.9.09tg164.pdf, accessed 11/30/2009.
      297. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
             6.9.09tg164.pdf, accessed 11/30/2009.
      298. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
             6.9.09tg164.pdf, accessed 11/30/2009.
      299. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, www.financialstability.gov/about/spcMaster.html, accessed 11/30/2009.
                                                                                          quarterly report to congress I january 30, 2010                  159


300. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, General Motors, 10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20General%20Motors%20Letter.pdf, 12/1/2009.
301. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, AIG,10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20AIG%20Letter.pdf, accessed 12/1/2009; Office of the Special Master for TARP Executive Compensation letter to General
       Counsel, Chrysler Group, 10/22/2009, www.treas.gov/press/releases/docs/20091022%20Chrysler%20Group%20Letter.pdf, accessed 12/1/2009;
       Office of the Special Master for TARP Executive Compensation letter to General Counsel, General Motors, 10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20General%20Motors%20Letter.pdf, accessed 12/1/2009; Office of the Special Master for TARP Executive Compensation letter
       to General Counsel, Citigroup,10/22/2009, www.treas.gov/press/releases/docs/20091022%20Citigroup%20Letter.pdf, accessed 12/1/2009; Office
       of the Special Master for TARP Executive Compensation letter to General Counsel, Bank of America, 10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20Bank%20of%20America%20Letter.pdf, accessed 12/1/2009; Office of the Special Master for TARP Executive Compensation letter
       to General Counsel, GMAC,10/22/2009, www.treas.gov/press/releases/docs/20091022%20GMAC%20Letter.pdf, accessed 12/1/2009; Office of the
       Special Master for TARP Executive Compensation letter to General Counsel, Chrysler Financial Letter, 10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20Chrysler%20Financial%20Letter.pdf, accessed 12/1/2009.
302. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, General Motors Letter, 10/22/2009, www.treas.gov/press/
       releases/docs/20091022%20General%20Motors%20Letter.pdf, accessed 12/1/2009.
303. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, General Motors Letter, 10/22/2009, www.treas.gov/press/
       releases/docs/20091022%20General%20Motors%20Letter.pdf, accessed 12/1/2009.
304. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, Supplemental Determination Regarding AIG, 12/21/2009,
       http://www.financialstability.gov/docs/20091221%20AIG%20Supplemental%20Determination%20Letter.pdf, accessed 12/30/2009.
305. 	 Treasury, “The Special Master for TARP Executive Compensation Rules on Compensation Structures,” www.financialstability.gov/latest/tg_12112009.
       html, accessed 12/11/2009.
306. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, AIG Letter,10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20AIG%20Letter.pdf, 12/1/2009.
307. 	 Treasury, Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/re-
       leases/tg165.htm, accessed 11/30/2009.
308. 	 Treasury, “The Special Master for TARP Executive Compensation Issues First Rulings,” 10/22/2009, www.financialstability.gov/latest/tg_102220009e.
       html, accessed 11/30/2009.
309. 	 Treasury, “The Special Master for TARP Executive Compensation Issues First Rulings,” 10/22/2009, www.financialstability.gov/latest/tg_102220009e.
       html, accessed 11/30/2009.
310. 	 Office of the Special Master for TARP Executive Compensation letter to General Counsel, Chrysler Group, 10/22/2009, www.treas.gov/press/releases/
       docs/20091022%20Chrysler%20Group%20Letter.pdf, 12/1/2009.
311. 	 Treasury, “The Special Master for TARP Executive Compensation Issues First Rulings,” 10/22/2009, www.financialstability.gov/latest/tg_102220009e.
       html, accessed 11/30/2009.
312. 	 Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and Government Reform,” 10/28/2009, www.financialstability.
       gov/latest/tg_10282009.html, accessed 11/30/2009.
313. 	 Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and Government Reform,” 10/28/2009, www.financialstability.
       gov/latest/tg_10282009.html, accessed 11/30/2009.
314. 	 Treasury, “The Special Master for TARP Executive Compensation Rules on Compensation Structures,” www.financialstability.gov/latest/tg_12112009.
       html, accessed 12/11/2009.
315. 	 Treasury, “The Special Master for TARP Executive Compensation Rules on Compensation Structures,” 12/11/2009, www.financialstability.gov/latest/
       tg_12112009.html, accessed 12/11/2009.
316. 	 Treasury, “The Special Master for TARP Executive Compensation Rules on Compensation Structures,” 12/11/2009, www.financialstability.gov/latest/
       tg_12112009.html, accessed 12/11/2009.
317. 	 HUD, “The Federal Housing Administration (FHA),” 9/6/2006, www.hud.gov/offices/hsg/fhahistory.cfm, accessed 1/4/2010.
318. 	 HUD, “The Federal Housing Administration (FHA),” 9/6/2006, www.hud.gov/offices/hsg/fhahistory.cfm, accessed 12/29/2009.
319. 	 HUD, FHA FY2009 Annual Management Report, www.hud.gov/offices/hsg/fhafy09annualmanagementreport.pdf, accessed 1/11/2010.
320. 	 HUD, Federal Housing Administration: Overview, http://portal.hud.gov/portal/page/portal/HUD/federal_housing_administration, accessed 12/17/2009.
321. 	 FHA Annual Management Report, FY2009, www.hud.gov/offices/hsg/fhafy09annualmanagementreport.pdf, accessed 1/12/2009.
322. 	 HUD, FHA Annual Management Report FY 2008, p. 62, www.nls.gov/offices/hsg/fhafy08annualmanagementreport.pdf, accessed 1/12/2010.
323. 	 HUD, “Actuarial Review of the Federal Housing Administration Mutual Mortgage Insurance Fund (Excluding HECMs) for Fiscal Year 2009,”
       11/6/2009, portal.hud.gov/portal/page/portal/HUD/federal_housing_administration/docs/hecmreview.pdf, accessed 1/6/2010.
324. 	 HUD, “FHA Fiscal Year 2009 Actuarial Review Briefing,” 11/12/2009, portal.hud.gov/portal/page/portal/HUD/federal_housing_administration/docs/
       FHA%20Actuarial%20Review%20Briefing.pdf, accessed 1/4/2010.
325. 	 OMB, Veterans Administration FY 2010 Budget Appendix, www.whitehouse.gov/omb/budget/fy2010/assets/vet.pdf; Veterans Affairs, “Evaluation of VA’s
       Home Loan Guaranty Program Final Report,” July 2004, www1.va.gov/op3/docs/Final_Report_Loan.pdf, accessed 12/17/2009.
326. 	 VA, “Specially Adapted Housing Program,” 12/1/2009, www.homeloans.va.gov/sah.htm, accessed 12/17/2009.
327. 	 VA, Evaluation of VA’s Home Loan Guaranty Program, Final Report, July 2004, http://www.homeloans.va.gov/pdf/final%20report.pdf, accessed
       12/17/2009.
328. 	 USDA, “Rural Development Housing and Facilities Program,” www.rurdev.usda.gov/RHS/sfh/brief_rhguar.htm, accessed 12/1/2009.
329. 	 USDA, “Rural Development Housing Programs,” www.rurdev.usda.gov/rhs/, accessed 1/6/2010.
330. 	 USDA, “Rural Development Housing and Facilities Program,” eligibility.sc.egov.usda.gov/eligibility/welcomeAction.do?pageAction=pageLoad&requestIn
       fo=DirectProgramInfo&NavKey=loan@11, accessed 12/1/2009.
331. 	 USDA, “Rural Development State Offices,” www.rurdev.usda.gov/recd_map.html, accessed 1/4/2010.
332. 	 USDA, response from SIGTARP data call, 1/13/2010.
333. 	 Federation of American Scientists, “CRS Report for Congress: Government-Sponsored Enterprises (GSEs): An Institutional Overview,” 4/3/2007, p. 3,
       www.fas.org/sgp/crs/misc/RS21663.pdf, accessed 12/1/2009.
334. 	 Fannie Mae Charter, FAQ, www.fanniemae.com/about/index.html?p=About+Fannie+Mae, accessed 12/29/2009.
160             special inspector general I troubled asset relief program



      335. 	 FHFA, “The FHLBank System: FHLBank Members,” www.fhfa.gov/Default.aspx?Page=22, accessed 12/30/2009.
      336. 	 FHFA, “Liquidity Management,” www.fhfa.gov/webfiles/2681/17.1%20Liquidity%20Mgmnt%20Narr-1.pdf, accessed 1/4/2010.
      337. 	 FHFA, “Liquidity Management,” www.fhfa.gov/webfiles/2681/17.1%20Liquidity%20Mgmnt%20Narr-1.pdf, accessed 1/4/2010.
      338. 	 Fannie Mae, “Basics of Fannie Mae MBS,” www.fanniemae.com/mbs/mbsbasics/market/structure.jhtml?p=Mortgage-Backed+Securities&s=Basics+of+
             Fannie+Mae+MBS&t=Basics+of+MBS+Market+%26+Pools&q=MBS+Structure, accessed 1/6/2010.
      339. 	 Federal Reserve, “GSE Portfolio Holdings, Systemic Risk, and Affordable Housing,” 3/6/2007, www.federalreserve.gov/newsevents/speech/
             Bernanke20070306a.htm, accessed 1/6/2010.
      340. 	 Federal Reserve Bank of San Francisco, “Recent Developments in Mortgage Finance,” 10/26/2009, www.frbsf.org/publications/economics/letter/2009/
             el2009-33.html, accessed 1/6/2010.
      341. 	 Ginnie Mae, “About Ginnie Mae,” www.ginniemae.gov/about/history.asp?subTitle=About, accessed 12/29/2009.
      342. 	 Freddie Mac, “Our Business,” www.freddiemac.com/corporate/company_profile/our_business/index.html, accessed 12/1/2009.
      343. 	 Freddie Mac, “Our Business,” www.freddiemac.com/corporate/company_profile/our_business/index.html, accessed 12/1/2009.
      344. 	 Freddie Mac, “Appendix to Freddie Mac’s Second Quarter 2008 Financial Results Internal Control over Financial Reporting,” p. 4, www.freddiemac.
             com/investors/er/pdf/2008er-2q08_appendix.pdf, accessed 12/28/2009.
      345. 	 Federal Reserve, “GSE Portfolio Holdings, Systemic Risk, and Affordable Housing,” 3/6/2007, www.federalreserve.gov/newsevents/speech/
             Bernanke20070306a.htm, accessed 12/31/2009.
      346. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” 1/5/2010, financialstability.gov/latest/pr_1052010b.html,
             accessed 1/6/2010.
      347. 	 U.S. Treasury, “Second Amendment to Amended and Restated Senior Preferred Stock Purchase Agreement,” 12/24/2009, http://financialstability.gov/
             docs/HAMP/12242009/Fannie.pdf (see similar agreement for Freddie Mac), accessed 1/6/2010.
      348. 	 Fannie Mae, “Fannie Mae Charter Act,” www.law.cornell.edu/uscode/html/uscode12/usc_sup_01_12_10_13_20_III.html, accessed 1/5/2010.
      349. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” 12/24/2009, www.ustreas.gov/press/releas-
             es/2009122415345924543.htm, accessed 12/30/2009.
      350. 	 Congressional Research Service, “Fannie Mae’s and Freddie Mac’s Financial Problems: Frequently Asked Questions,” 9/12/2008, fpc.state.gov/docu-
             ments/organization/110096.pdf, accessed 12/17/2009.
      351. 	 Congressional Research Service, “Fannie Mae’s and Freddie Mac’s Financial Problems: Frequently Asked Questions,” 9/12/2008, fpc.state.gov/docu-
             ments/organization/110096.pdf, accessed 12/17/2009.
      352. 	 Congressional Research Service, “Fannie Mae’s and Freddie Mac’s Financial Problems: Frequently Asked Questions,” 9/12/2008, fpc.state.gov/docu-
             ments/organization/110096.pdf, accessed 12/17/2009.
      353. 	 Treasury Press Release, “Remarks by Treasury Secretary Henry M. Paulson, Jr. on the Role of the GSEs in Supporting the Housing Recovery before the
             Economic Club of Washington,” 1/7/2009, www.treas.gov/press/releases/hp1345.htm, accessed 1/4/2010.
      354. 	 Treasury Press Release, “Statement by Secretary Henry M. Paulson, Jr. on Treasury and Federal Housing Finance Agency Action to Protect Financial
             Markets and Taxpayers,” 9/7/2008, www.ustreas.gov/press/releases/hp1128.htm, accessed 1/6/2010.
      355. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” 1/5/2010, financialstability.gov/latest/pr_1052010b.html,
             accessed 1/6/2010.
      356. 	 eFannieMae.com, “HARP,” www.efanniemae.com/sf/mha/mharefi/, accessed 1/4/2010.
      357. 	 New York Times, “Foreclosure Frenzy Dismays Aspiring Homeowners,” 12/13/2009, www.nytimes.com/2009/12/13/business/economy/13sfecon.
             html?pagewanted=print, accessed 12/18/2009.
      358. 	 FHFA, “About FHFA,” www.fhfa.gov/Default.aspx?Page=4, accessed 12/1/2009.
      359. 	 FHFA, “Housing Mission and Goals,” www.fhfa.gov/Default.aspx?Page=135, accessed 12/24/2009.
      360. 	 FHFA, Statement of Edward J. DeMarco, Acting Director Federal Housing Finance Agency Before the U.S. Senate Committee on Banking,
             Housing and Urban Affairs, “The Future of the Mortgage Market and the Housing Enterprises,” 10/8/2009, p. 6, www.fhfa.gov/webfiles/15105/
             DeMarcoTestimonySBC100809.pdf, accessed 12/24/2009.
      361. 	 Treasury Press Release, “Statement by Secretary Henry M. Paulson, Jr. on Treasury and Federal Housing Finance Agency Action to Protect Financial
             Markets and Taxpayers,” 9/7/2008, www.ustreas.gov/press/releases/hp1128.htm, accessed 1/6/2010. Treasury Press Release, “Treasury Issues Update on
             Status of Support for Housing Programs,” 12/24/2009, www.treas.gov/press/releases/2009122415345924543.htm, accessed 12/28/2009.
      362. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” December 24, 2009, www.ustreas.gov/press/releas-
             es/2009122415345924543.htm, accessed 1/19/2010.
      363. 	 Treasury Fact Sheet, U.S. Treasury Department Office of Public Affairs, Fact Sheet: “Government Sponsored Enterprise Credit Facility,” 9/7/2008,
             treasury.gov/press/releases/reports/gsecf_factsheet_090708.pdf, accessed 1/6/2010.
      364. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” 1/5/2010, financialstability.gov/latest/pr_1052010b.html,
             accessed 1/6/2010.
      365. 	 OFHEO, “Mortgage Market Note 07-1,” www.fhfa.gov/webfiles/1246/MMNOTE9607.pdf, accessed 1/6/2010.
      366. 	 Freddie Mac, Mortgage Securities, “November 2009 Monthly Volume Summary Is Now Available,” www.freddiemac.com/mbs/, accessed 1/6/2010.
      367. 	 FHFA/OFHEO, Mortgage Market Note 07-1: “Portfolio Caps and Conforming Loan Limits,” 9/6/2007, www.fhfa.gov/webfiles/1246/MMNOTE9607.
             pdf, accessed 1/6/2010.
      368. 	 Ginnie Mae, “Monthly Summary for December 2009,” www.ginniemae.gov/media/ISS_SUMMARY/dec09_RPB.pdf, accessed 12/11/2009.
      369. 	 Ginnie Mae, response to SIGTARP data call, 1/22/2010. In addition, Ginnie Mae’s 2009 Annual Report is in the process of being loaded to www.gin-
             niemae.gov/about/ann_rep.asp?subTitle=About.
      370. 	 FHLBanks, FHLBank System Update and Funding Review August 2009, www.fhlb-of.com/products/fhlbankpresentation905.pdf, accessed 12/23/2009.
      371. 	 Federal Home Loan Banks, Financial Summary, 9/30/2009, www.fhlb-of.com/specialinterest/financialframe2.html, accessed 12/23/2009.
      372. 	 FHFA, Statement of Edward J. DeMarco, Acting Director Federal Housing Finance Agency Before the U.S. Senate Committee on Banking,
             Housing and Urban Affairs, “The Future of the Mortgage Market and the Housing Enterprises,” 10/8/2009, p. 6, www.fhfa.gov/webfiles/15105/
             DeMarcoTestimonySBC100809.pdf, accessed 12/24/2009.
      373. 	 GAO-05-489T, “The Federal Home Loan Banks,” 4/13/2005, www.gao.gov/new.items/d05489t.pdf, accessed 12/24/2009.
                                                                                             quarterly report to congress I january 30, 2010                  161


374. 	 Federal Reserve Board Press Release, “For Immediate Release,” 12/30/2008, www.federalreserve.gov/newsevents/press/monetary/20081230b.htm, ac-
       cessed 1/8/2010.
375. 	 Federal Reserve Board Press Release, 11/25/2008, www.Federalreserve.gov/newsevents/press/monetary/20081125b.htm, accessed 1/6/2010.
376. 	 Federal Reserve Press Release, “For Immediate Release,” 3/18/2009, www.federalreserve.gov/newsevents/press/monetary/20090318a.htm, accessed
       1/6/2010.
377. 	 Federal Reserve, “Report H.4.1 Factors Affecting Federal Reserve Balances,” http://www.federalreserve.gov/releases/h41/20091231/, accessed 1/6/2010.
378. 	 Federal Reserve, response to SIGTARP data call, 1/15/2010.
379. 	 Federal Reserve Speech, “Monetary Policy in the Crisis: Past, Present, and Future,” www.federalreserve.gov/newsevents/speech/kohn20100103a.htm,
       1/3/2010, accessed 1/6/2010.
380. 	 Federal Housing Finance Authority (FHFA), “Mortgage Market Note 09-1,” www.fhfa.gov/webfiles/1240/mmnote091_218091.pdf, accessed on
       12/29/2009.
381. 	 Treasury Press Release, “Treasury Issues Update on Status of Support for Housing Programs,” 12/24/2009, www.ustreas.gov/press/releas-
       es/2009122415345924543.htm, accessed 12/30/2009.
382. 	 IRS, “First-Time Homebuyers Have Several Options to Maximize New Tax Credit,” www.irs.gov/newsroom/article/0,,id=205416,00.html, accessed
       1/6/2010.
383. 	 IRS, IR-2009-108: “First-Time Homebuyer Credit Extended to April 30, 2010; Some Current Homeowners Now Also Qualify,” 11/24/2009, www.irs.
       gov/newsroom/article/0,,id=215791,00.html, accessed 1/6/2010.
384. 	 White House, Economic Issues Website, http://74.125.47.132/search?q=cache:JCBNsO3AwuoJ:www.whitehouse.gov/issues/economy+obama+support
       +house+prices&cd=10&hl=en&ct=clnk&gl=us, accessed 12/30/2009.
385. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
386. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
387. 	 Treasury response to SIGTARP data call, 1/6/2010.
388. 	 Treasury, response to SIGTARP data call, 1/6/2010.
389. 	 Treasury, response to SIGTARP data call, 1/6/2010.
390. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 12/29/2009.
391. 	 Congressional Budget Office Press Release, 9/28/2008, www.cbo.gov, accessed 1/15/2009.
392. 	 Treasury, response to SIGTARP data call, 1/6/2010.
393. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
394. 	 Treasury, response to SIGTARP data call, 1/6/2010.
395. 	 Treasury, response to SIGTARP data call, 1/6/2010.
396. 	 Treasury, response to SIGTARP data call, 1/6/2010.
397. 	 Treasury, response to SIGTARP data call, 1/6/2010.
398. 	 Treasury, response to SIGTARP data call, 1/6/2010.
399. 	 Treasury, response to SIGTARP data call, 1/6/2010.
400. 	 Treasury, response to SIGTARP data call, 1/6/2010.
401. 	 Treasury, response to SIGTARP data call, 1/6/2010.
402. 	 Treasury, response to SIGTARP data call, 1/6/2010.
403. 	 Treasury, response to SIGTARP data call, 1/6/2010.
404. 	 AllianceBerstein, www.alliancebernstein.com/Portal/GenericTXT.aspx?nid=7357, accessed 1/9/2010.
405. 	 Angelo, Gordon & Co., www.angelogordon.com, accessed 1/9/2010.
406. 	 BlackRock, www2.blackrock.com/global/home/AboutUs/index.htm, accessed 1/9/2010.
407. 	 Invesco Ltd., www.invesco.com/about/index.html, accessed 1/9/2010.
408. 	 Marathon Asset Management L.P., www.marathonfund.com/html/general/about.htm?PHPSESSID=942e4d5c0b8dccecc310802bb8e7b763, accessed
       1/9/2010.
409. 	 OakTree Capital Management L.P., www.oaktreecapital.com/about/, accessed 1/9/2010.
410. 	 RLJ Western Asset Management L.P., www.westernasset.com/us/en/ppip/, accessed 1/9/2010.
411. 	 TCW Group Inc, http://www.tcw.com/TCW/application?namespace=portal&origin=Links.jsp&event=bea.portal.framework.internal.
       refresh&pageid=KeyFacts, accessed 1/9/2010.
412. 	 Treasury, briefing on TCW, 1/5/2010.
413. 	 Treasury, briefing on TCW, 1/5/2010.
414. 	 Wellington Management Company LLP, www.wellington.com/Who_We_Are/Overview/, accessed 1/9/2010.
415. 	 Treasury, response to SIGTARP data call, 1/13/2010.
416. 	 Treasury, response to SIGTARP data call, 1/13/2010.
417. 	 Treasury, response to SIGTARP data call, 1/13/2010.
162   special inspector general I troubled asset relief program
                                                                                                               glossary I Appendix A I january 30, 2010                  163




glossary
This appendix provides a glossary of terms that are used throughout the context of this report.

7(a) Program: SBA loan program guaranteeing a percentage of loans for                conservatorship involved FHFA taking control of the companies as autho-
small businesses that cannot otherwise obtain conventional loans at reason-          rized by the Housing and Economic Recovery Act of 2008. The powers of
able terms.                                                                          the board of directors, officers, and shareholders are transferred to FHFA.
                                                                                     In a receivership, shareholders are permanently terminated, whereas in a
504 Community Development Loan Program: SBA program combining                        conservatorship shareholder rights are temporarily assumed by the control-
Government-guaranteed loans with private-sector mortgage loans to provide            ling entity.
loans of up to $10 million for community development.
                                                                                     Contingent Value Rights (“CVRs”): A type of right given to stockholders of
Auction Agent: A firm (such as an investment bank) that buys an issuance of          a company undergoing a reorganization that ensures the stockholders will
securities from one institution and resells the securities to another investor or    receive additional benefit if a specified event occurs.
multiple investors. Also called an “underwriter.”
                                                                                     Credit Default Swap (“CDS”): A contract where the seller receives a series
Bank Holding Company: A company that controls a bank. Typically, a                   of payments from the buyer in return for agreeing to make a payment to the
company controls a bank through the ownership of 25% or more of its                  buyer when a particular credit event outlined in the contract occurs (for
voting securities. The  Federal Reserve defines a bank holding company as            example, if the credit rating on a particular bond or loan is downgraded or
any company that directly or indirectly owns, controls, or has the power to          goes into default). It is commonly referred to as an insurance-like product
vote 25% or more of any class of the voting shares of a bank; controls in any        where the seller is providing the buyer insurance-like protection against the
manner the election of a majority of the directors or trustees of a bank; or is      failure of a bond. The buyer, however, does not need to own the asset covered
found to exercise a controlling influence over the management or policies of         by the contract, which means it can serve essentially as a “bet” against the
a bank.                                                                              underlying bond.

Bankruptcy-Remote Special Purpose Vehicle (“SPV”): An SPV is an                      Credit Underwriting: The process used by a financial institution to deter-
off-balance-sheet legal entity that holds the transferred assets presumptively       mine the risks involved in providing credit to a borrower and to measure
beyond the reach of the entities providing the assets (i.e., legally isolated). An   those risks against standards established by the financial institution’s board
SPV is “bankruptcy remote” if that entity is unlikely to become insolvent as a       of directors.
result of its own activities, is adequately insulated from the consequences of a
related party’s insolvency, and contains certain characteristics which enhance       Credit Unions: Non-profit financial cooperative organizations comprising
the likelihood that it will not become the subject of insolvency proceedings.        individuals with a common affiliation (such as place of employment). These
                                                                                     individuals pool their funds to form the institution’s deposit base and typi-
Banks: Institutions that accept demand deposits or deposits that the                 cally the group owns and controls the institution together. Credit unions also
depositor may withdraw by check or similar means for payment to third                accept savings account deposits and provide loans.
parties or others, and that are engaged in the business of making commercial
loans. Banks also take other types of deposits and make residential, consumer,       Cumulative Preferred Stock: A type of stock that requires a defined divi-
and other types of loans. Generally, commercial banks specialize in providing        dend payment. If the company does not pay the dividend, it still owes the
short-term business credit.                                                          missed dividends to the stock’s owner.

Chapter 7 Bankruptcy: A form of bankruptcy in which the company ceases               CUSIP: Unique identifying number assigned to all registered securities in
all operations and liquidates its assets.                                            the United States and Canada.

Chapter 11 Bankruptcy: A form of bankruptcy in which the company typi-               Deed-in-lieu of Foreclosure: Instead of going through the process of
cally reorganizes itself.                                                            foreclosure, the borrower surrenders the deed to the home voluntarily to the
                                                                                     lender, often as satisfaction of the unpaid mortgage balance.
Charter: The legal authorization to conduct business granted to a financial
institution by the Federal or state government.                                      Deferred Tax Asset: An asset (such as a tax loss) that a company can use to
                                                                                     reduce its future taxes.
Collateralized Debt Obligation (“CDO”): A financial instrument that
entitles the purchaser to some portion of the cash flows from a portfolio of         Dutch Auction: For Treasury’s warrant auctions (which have multiple
assets, which may include bonds, loans, mortgage-backed securities, or other         bidders bidding for different quantities of the asset), the accepted price is set
CDOs.                                                                                at the lowest bid of the group of high bidders, whose collective bids fulfill the
                                                                                     amount offered by Treasury.
Commercial Mortgage-Backed Securities (“CMBS”): A financial instru-
ment that is backed by a commercial real estate mortgage or a group of               Equity Appreciation Instrument: An agreement entered into by the FDIC
commercial real estate mortgages that are packaged together.                         and an acquiring institution as part of the P&A agreement in which the
                                                                                     FDIC receives additional cash payments or stock from the acquiring institu-
Common Stock: Equity ownership that entitles an individual to share in the           tion if its stock price increases after the transaction.
corporate earnings and participate in the voting rights.
                                                                                     Equity Capital Facility: A commitment to invest equity capital in a firm
Conservatorship: In the case of Fannie Mae and  Freddie Mac,                         under certain future conditions.
164              Appendix a I glossary I january 30, 2010




      Exceptional Assistance: In reference to TARP institutions requiring assis-         Legacy Securities: Troubled real estate-related securities (RMBS, CMBS),
      tance beyond the assistance of the widely available program, CPP, are clas-        and other asset-backed securities (“ABS”) lingering on institutions’ balance
      sified as requiring “exceptional assistance.” Companies receiving assistance       sheets because their value could not be determined.
      under SSFI, TIP, AGP, AIFP, and any future Treasury program designated by
      the Treasury Secretary as providing exceptional assistance. Current recipients     Liquidity: The ability to easily convert an asset to cash, without any signifi-
      are AIG, GM, GMAC, Chrysler, and Chrysler Financial.                               cant loss in value or transaction cost.

      Exchange: In reference to the Citigroup exchange agreement, taking one             Loan servicing: Collecting and processing the payments made on a loan
      type of stock (i.e., preferred) and converting it at a specific rate to another    during the life of the loan including billing the borrower; collecting principal,
      type of stock (i.e., common).                                                      interest, and payments into an escrow account; disbursing funds from the
                                                                                         escrow account to pay taxes and insurance premiums; and forwarding funds
      Federal Open Market Committee (“FOMC”): A committee made up of                     to an investor if the loan has been sold in the secondary market.
      the members of the Board of Governors of the Federal Reserve, the president
      of FRBNY, and presidents of four other Federal Reserve Banks, who serve            Loan-to-Value Ratio: In real estate lending, the outstanding principal
      on a rotating basis. The FOMC oversees open market operations, which is            amount of the loan divided by the appraised value of the property.
      the main tool used by the Federal Reserve to influence overall monetary and
      credit conditions in the U.S.                                                      Lockout Period: As it pertains to Treasury’s Citigroup holdings, refers to a
                                                                                         period of time during which Treasury may not try to sell any of its shares in
      FHA-Approved Lender: A business that has been granted approval by                  Citigroup. This reassures potential buyers of Citigroup stock that the market
      HUD to service FHA insured mortgages based on certain qualifying criteria.         will not be further flooded with other shares, which might cause downward
      FHA-approved lenders can be mortgage brokers, banks, thrifts, credit unions,       pressure on Citigroup’s stock price.
      as well as state, local, and federal government entities.
                                                                                         Loss Sharing Agreement: An agreement within a P&A in which the FDIC
      Foreclosure: Legal termination of a mortgage, usually by default.                  agrees to share in both the future losses and recoveries on certain assets
                                                                                         of a failed bank with the assuming institution. In the standard loss sharing
      “Full Faith and Credit” Obligation: An absolute and legally binding                agreement, the FDIC will reimburse the assuming institution for 80% of any
      commitment of the U.S. Government. MBS with this level of security are             losses incurred on the acquired assets. The assuming institution will absorb
      rated AAA. Only Ginnie Mae securities have this level of protection.               the remaining 20%.

      Government-Sponsored Enterprises (“GSEs”): Private corporations                    Mandatorily Convertible Preferred Stock: In certain TARP programs, a
      created by the Government to pursue certain public policy goals designated         type of preferred share that can be converted to common stock under certain
      in their charters. They are chartered by the U.S. Government but their liabili-    parameters at the discretion of the company and must be converted to
      ties are not officially considered to be direct obligations.                       common stock by a certain date.

      Guarantor: An entity that provides a promise to make payments in the event         Market Capitalization: The value of a corporation determined by multi-
      that the issuer is unable. This promise mitigates potentially higher risks for     plying the current market price of one share of the corporation by the
      certain types of investments.                                                      number of total outstanding shares.

      Housing Market Bubble: A bubble is a condition in which market values of           Moral Hazard: A term used in economics and insurance to describe the lack
      assets rise precipitously above their underlying, long-term value.                 of incentive individuals have to guard against a risk when they are protected
                                                                                         against that risk (for example, through an insurance policy). In the context of
      Illiquid Assets: Assets that cannot be quickly converted to cash.                  TARP, it refers to the danger that private-sector executives/investors/lenders
                                                                                         may behave more recklessly believing that the Government has insulated
      Initial Public Offering: When a firm first sells equity shares to the general      them from the risks of their actions.
      public.
                                                                                         Mortgage Market: Institutions and individuals who are involved with mort-
      Insolvent: A condition where a financial institution has liabilities that exceed   gage finance in one way or another: includes mortgage brokers, mortgage
      its assets. By definition, shareholders’ equity in such a situation will be        insurers, loan servicers, mortgage investors, MBS packagers, etc.
      negative.
                                                                                         Mortgage-Backed Securities: A pool of mortgages bundled together by a
      Insurer: An entity that will pay for any losses incurred in case of default.       financial institution and sold as securities—a type of asset-backed security.

      International Securities Identification Number (“ISIN”): Unique identi-            Mortgage-Related assets: Residential or commercial mortgages and any
      fying number assigned to all internationally traded securities.                    securities, obligations, or other instruments that are based on or related to
                                                                                         such mortgages.
      Legacy Assets: Also commonly referred to as troubled or toxic assets, legacy
      assets are real estate-related loans and securities (legacy loans and legacy       Multi-Family: Residential properties with five or more distinct units, such as
      securities) that remain on banks’ balance sheets that have lost value but are      apartments or townhouses.
      difficult to price due to the recent market disruption.
                                                                                         Nationally Recognized Statistical Rating Organization (“NRSRO”): A
      Legacy CMBS: CMBS issued before January 1, 2009.                                   credit rating agency registered with the SEC. Credit rating agencies provide
                                                                                         their opinion on the creditworthiness of companies and the financial obliga-
      Legacy Loans: Loans that are often underperforming real estate-related             tions issued by companies. The ratings distinguish between investment grade
      loans held by a bank that it wishes to sell, but recent market disruptions have    and non-investment grade equity and debt obligations.
      made difficult to price.
                                                                                                            glossary I Appendix A I january 30, 2010                  165




Net Asset Value: The value of all of the assets minus any estimated costs         Purchase and Assumption Transaction (“P&A”): A P&A is a method used
associated with those assets.                                                     by the FDIC to resolve a failing bank. In a P&A, a healthy financial institu-
                                                                                  tion purchases certain assets of a failed bank or thrift and assumes certain
Net Cost of Operations: A measure of financial performance — gross                liabilities, including all insured deposits.
cost of a program or organization less any income from that program or
organization.                                                                     Receiver:	 In bankruptcy, an independent and impartial third party appointed
                                                                                  by the court to assume the responsibility for efficiently recovering the
Net Mortgage Borrowings: For mortgages, “net borrowings” consist of the           maximum amount possible from the disposition of the bankrupt entity’s
sum of new mortgage loans made during a year, minus the principal payoffs         assets in order to satisfy its obligations to creditors. In banking, receivership
of existing mortgages. This is not the same as market share, which captures       typically translates into the bank’s operations and assets being assumed by
only mortgage originations.                                                       the FDIC, which as receiver, may proceed to liquidate the insolvent institu-
                                                                                  tion or transfer some or all of its assets to another institution. Unlike in
Net Present Value: The present value of the estimated future cash inflows         bankruptcy law, the FDIC is not subject to court supervision in administering
minus the present value of the cash outflows.                                     the assets and liabilities of a failed institution. The FDIC is appointed by the
                                                                                  failed bank’s chartering authority.
Network Broker: An intermediary between a buyer and seller of a security.
In the auction of Treasury warrants, there is a set group of brokers that will    Run on the Bank: A situation in which large numbers of depositors suddenly
be allowed to accept and submit bids to Deutsche Bank, the auction agent.         and simultaneously demand to withdraw their deposits from a bank. This
                                                                                  may be caused by a decline in depositor confidence or fear that the bank will
Non-Agency Residential Mortgage-Backed Securities (“RMBS”): A                     be closed by the chartering agency. Banks keep only a small fraction of their
financial instrument backed by a group of residential real estate mortgages       deposits in cash reserves, and thus, large numbers of withdrawals in short
that are not guaranteed by a Government-sponsored enterprise (“GSE”) such         periods of time can cause even a healthy bank to have a severe liquidity crisis
as Fannie Mae or Freddie Mac.                                                     that could cause the bank to be unable to meet its obligations and fail.

Non-cumulative Preferred Stock: Unpaid dividends do not accrue on                 Safe Harbor: The Special Master will automatically approve proposed
shares of stock when a company does not make a dividend payment.                  compensation to employees of TARP recipients receiving exceptional assis-
                                                                                  tance so long as the employee’s total annual compensation is not more than
Non-Recourse Loan: A secured loan whereby the borrower is relieved of the         $500,000, with any additional compensation paid in the form of long-term
obligation to repay the loan upon the surrender of the collateral.                restricted stock.
Permanent Modification: In the design of MHA, a permanent modifica-               Secondary Mortgage Market: The market for buying and selling existing
tion is a five-year mortgage modification, after which the borrower’s interest    mortgages.
rate gradually returns to the rate in effect on the day the modification was
executed, fixed on a 30-year term.                                                Senior Executive Officers (“SEOs”): A “named executive officer” of a TARP
                                                                                  recipient as defined under Federal securities law, which generally includes
Plan of Reorganization: A proposal prepared by a company in Chapter               the principal executive officer (“PEO”), principal financial officer (“PFO”),
11 bankruptcy. The plan, often prepared with the cooperation of creditors,        and the next three most highly compensated executive officers.
details the necessary steps the company must take in order to emerge from
bankruptcy as a viable entity.                                                    Senior Preferred Stock: Shares that give the stockholder priority dividend
                                                                                  and liquidation claims over junior preferred and common stockholders.
Preferred Stock: Equity ownership that usually pays a fixed dividend, gives
the holder a claim on corporate earnings superior to common stock owners,         Senior Subordinated Debenture: A loan or security that is junior to other
and has no voting rights. Preferred stock is senior to common stock, but          loans or securities with regards to the debt holders’ claims on assets or earn-
junior to debt.                                                                   ings. Senior debt holders get paid in full before subordinated debt holders get
                                                                                  paid. There are additional levels of priority among subordinated debt holders.
Primary Mortgage Market: The market for newly originated mortgages.               CPP invests in senior subordinated debt.
Private-Label Mortgages: Loans that are not owned or guaranteed by                Short Sale: A sale of a home, typically for less than mortgage value, by which
Fannie Mae, Freddie Mac, or another Federal agency.                               the borrower sells the home and the lender collects the sales proceeds as
                                                                                  satisfaction of the unpaid mortgage balance, thus avoiding foreclosure (which
Pro Forma: In finance, refers to the presentation of projected financial infor-   is the legal process by which the lender assumes ownership of the home).
mation assuming that certain transactions or developments will happen.
                                                                                  Single-Family Homes: In the financial markets, individual, standalone
Problem List: A list of banks that the FDIC considers to be weak in terms of      homes with up to four units are known as single-family housing, to distin-
safety and soundness.                                                             guish them from multi-family housing (apartments and grouphomes) and
                                                                                  institutional housing (college dorms, prisons, etc.).
Prospectus: Documents which disclose and describe a security offering
to the public and private investors, containing information required under        Special Purpose Vehicle (“SPV”): An off-balance-sheet legal entity that
Federal and state securities laws as applicable.                                  holds the transferred assets presumptively beyond the reach of the entities
                                                                                  providing the assets (i.e., legally isolated).
Public Interest Standard: Regulatory standard that the Special Master is
required to apply in making determinations. Refers to the determination           Structured Loan Sales: Loans acquired by the FDIC from failed financial
of whether TARP recipient compensation plans are aligned with the best            institutions are generally sold in pools through auctions. Typically, sales
interests of the U.S. taxpayer.                                                   contain loans that have similar characteristics and are refined into pools
                                                                                  according to specific criteria.
166                 Appendix a I glossary I january 30, 2010




      Supplemental Executive Retirement Plans: In such plans, employers peri-                                       GAO, “Reporting 1004 – CFO Act Checklist”, http://www.gao.gov/special.pubs/01765G/vol2_cace.pdf,
                                                                                                                    accessed 12/30/2009.
      odically credit employees with an entitlement to post-retirement payments.
                                                                                                                    GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions
      Over time, these credits accumulate and employees may become entitled to                                      Could Improve 7(a) Program Oversight,” 2/12/2009, www.gao.gov, accessed 3/17/2009.
      substantial cash guarantees payable on retirement.                                                            Government Printing Office, “Electronic Code of Federal Regulations,” http://ecfr.gpoaccess.gov/cgi/t/
                                                                                                                    text/text-type=simple;c=ecfr;cc=ecfr;sid=576d446136384f8875fff272d38bf710;region=DIV1;q1=
      Systemically Significant: A financial institution whose failure would impose                                  bankruptcy%20remote;rgn=div7;view=text;idno=20070824;node=20070824%3A1.0.57, accessed
                                                                                                                    12/18/2009
      significant losses on creditors and counterparties, call into question the
                                                                                                                    HUD, “Multi Family Real Estate for Sale,” http://www.hud.gov/offices/hsg/mfh/pd/multifam.cfm,
      financial strength of other similarly situated financial institutions, disrupt                                accessed 12/29/2009.
      financial markets, raise borrowing costs for households and businesses, and                                   HUD, “Sec. 5308.* Guarantee and commitment to guarantee loans for acquisition of property,” http://
      reduce household wealth.                                                                                      www.hud.gov/offices/cpd/communitydevelopment/rulesandregs/laws/sec5308.cfm#sec5308(f),
                                                                                                                    accessed 01/25/2009.
      Thrifts: Organizations that, like banks, accept savings account deposits, but                                 New York Community Bancorp Inc., “8-K Filing”, December 7, 2009, http://www.faqs.org/sec-
      which specialize in providing real estate lending, such as loans for single-                                  filings/091207/NEW-YORK-COMMUNITY-BANCORP-INC_8-K/, accessed 01/07/2010.
                                                                                                                    Prior SIGTARP report: Tutorial on Bankruptcy. IRS, “IRS Form 1099-C: Cancellation of Debt,” www.lsnv.org/
      family homes and other residential properties. Savings banks and savings and                                  Debt_Cancellation_Vignette.doc, accessed 6/9/2009
      loan associations are examples of thrifts.                                                                    Prior SIGTARP report: Tutorial on Bankruptcy: http://www.sigtarp.gov/reports/congress/2009/
                                                                                                                    July2009_Quarterly_Report_to_Congress.pdf
      Trust Preferred Securities: Securities that have both equity and debt char-                                   SEC, “Market Capitalization,” http://www.sec.gov/answers/marketcapitalization.htm, accessed
      acteristics, created by establishing a trust and issuing debt to it.                                          12/11/09.
                                                                                                                    SEC, “NRSRO,” http://www.sec.gov/answers/nrsro.htm, accessed 12/14/2009
      Undercapitalized: A condition in which a financial institution does not                                       SEC, “Securities Exchange Act of 1934, 15 U.S.C. § 78a”, http://www.sec.gov/about/laws/sea34.pdf,
      meet its regulator’s requirements for having sufficient capital to continue to                                accessed 1/28/2009.
      operate under a defined level of adverse conditions.                                                          SEC, “SEC Answers, Initial Public Offerings (IPO),” http://www.sec.gov/answers/ipo.htm, accessed
                                                                                                                    12/11/2009.
                                                                                                                    SEC, “What every investor should know: Corporate Bankruptcy,” 02/03/2009, www.sec.gov/investor/
      Warrant: The right, but not the obligation, to purchase a certain number of                                   pubs/bankrupt.htm accessed 12/11/2009.
      shares of common stock at a fixed price. Because warrants rise in value as                                    Securities and Exchange Commission,”Cusip,” http://www.sec.gov/answers/cusip.htm, accessed
      the company’s share price rises, they permit Treasury (and the taxpayer) to                                   4/6/2009.
      benefit from a firm’s potential recovery.                                                                     St. Louis Federal Reserve, “A Primer on the Mortgage Market and Mortgage Finance,” http://research.
                                                                                                                    stlouisfed.org/publications/review/08/01/McDonald.pdf, accessed 12/11/2009.
      Sources:                                                                                                      St. Louis Federal Reserve, “A Primer on the Mortgage Market and Mortgage Finance,” http://research.
      California State Senate, “Senate Bill 668,” http://info.sen.ca.gov/pub/01-02/                                 stlouisfed.org/publications/review/08/01/McDonald.pdf, accessed 12/11/2009.
      bill/seen/sb_0651-0700/sb_668_bill_20010417_amended_sen.pdf, accessed 1/28/2009.                              Treasury, “Decoder,” http://www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
      Capital One Financial, “Prospectus Supplement,” 12/3/2009, http://www.sec.gov/Archives/edgar/                 Treasury, “Decoder,” http://www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
      data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009.                                                Treasury, “Decoder,” http://www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
      Capital One Financial, “Prospectus Supplement,” 12/3/2009, http://www.sec.gov/Archives/edgar/                 Treasury, “Fact Sheet”, http://www.treasury.gov/press/releases/reports/fhfa_consrv_
      data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009.                                                faq_090708hp1128.pdf, accessed 1/20/2009.
      Commodities and Futures Trading Commission, “CFTC Glossary,” http://www.cftc.gov/educationcenter/             Treasury, “Home Affordable Modification Program Guidelines,” 3/4/2009, http://www.treas.gov/press/
      glossary/glossary_co.html, accessed 7/10/2009.                                                                releases/reports/modification_program_guidelines.pdf, accessed 1/5/2009.
      “CRS Report for Congress, Proposal to Allow Treasury to Buy Mortgage-Related Assets to Address,               Treasury, “Making Home Affordable Update: Foreclosure Alternatives and Home Price Decline Protection
      Financial Instability http://fpc.state.gov/documents/organization/110286.pdf, accessed 9/22/2008.             Incentives,” 5/14/2009, http://www.treas.gov/press/releases/docs/05142009FactSheet-MakingHome-
      FDIC, “Credit Card Securitization Manual,” www.fdic.gov/regulations/examinations/credit_card_securitiza-      sAffordable.pdf, accessed 12/30/2009.
      tion/glossary.html, accessed 4/8/2009.                                                                        Treasury, “Making Home Affordable Update: Foreclosure Alternatives and Home Price Decline Protection
      FDIC, “Loan Sales FAQs”, http://www.fdic.gov/buying/loan/loan/index.html, accessed 12/30/2009.                Incentives,” 5/14/2009, http://www.treas.gov/press/releases/docs/05142009FactSheet-MakingHome-
      FDIC, “Structured Loan Sales”, http://www.fdic.gov/buying/historical/structured/index.html, accessed          sAffordable.pdf, accessed 12/30/2009.
      12/30/2009.                                                                                                   Treasury, “AIG Letter,”10/22/2009, www.treas.gov/press/releases/docs/20091022%20AIG%20Letter.
      FDIC, “2008 Annual Report Highlights,” 8/08/2008, www.fdic.gov/about/strategic/report/2008highlight/          pdf, accessed 12/1/2009.
      Chp1-02.html Accessed 12/17.2009.                                                                             Treasury, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,”
      FDIC, “Historical Statistics on Banking, Introduction,” www2.fdic.gov/hsob/help.asp#DEFINITIONS,              6/10/2009, www.treas.gov/press/releases/tg165.htm, accessed 11/30/2009.
      accessed 12/10/2009.                                                                                          Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International
      FDIC, “Loss-Share Questions and Answers, “http://www.fdic.gov/bank/individual/failed/lossshare/,”             Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/
      accessed 12/09/2009.                                                                                          agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 6/8/2009.
      FDIC, “Resolutions Handbook: Chapter 3: Purchase and Assumption Transactions,” 04/02/2003, www.               Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and Government
      fdic.gov/bank/historical/reshandbook/ch3pas.pdf, accessed 12/09/2009.                                         Reform,” 10/28/2009, www.financialstability.gov/latest/tg_10282009.html, accessed 12/1/2009.
      FDIC, “Resolutions Handbook: Chapter 7 – The FDIC’s Role as Receiver,” 4/2/2003, www.fdic.gov/bank/           Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.
      historical/reshandbook/ch7recvr.pdf Accessed 12/17/2009.                                                      financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 12/1/2009.
      Federal Housing Finance Agency, “Mortgage Markets and the Enterprises 2007,” http://www.fhfa.gov,             Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.
      July 2008, accessed 4/9/2009.                                                                                 financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      Federal Reserve, “The Federal Reserve System: Purposes & Functions,” 11/2005, http://www.federalre-           Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed
      serve.gov/pf/pdf/pf_1.pdf, accessed 1/14/2010.                                                                3/17/2009.
      FFIEC, “National Information Center, All Institutions Defined,” www.ffiec.gov/nicpubweb/Content/HELP/         Treasury, “Written Testimony of Herbert M. Allison, Jr.,” 12/17/2009, www.financialstability.gov/latest/
      Institution%20Type%20Description.htm, accessed 12/16/2009.                                                    st_12172009.html, accessed 12/17/2009.
      FFIEC, “National Information Center, All Institutions Defined,” www.ffiec.gov/nicpubweb/Content/HELP/         Treasury, Federal Reserve, FDIC, “Concentrations in Commercial Real Estate Lending, Sound Risk
      Institution%20Type%20Description.htm, accessed 12/16/2009.                                                    Management Practices,” 12/12/2006, http://www.federalreserve.gov/boarddocs/srletters/2007/
                                                                                                                    SR0701a2.pdf, accessed 1/14/2010.
      Financial Stability.gov, “Decoder,” http://www.financialstability.gov/roadtostability/decoder.htm, accessed
      12/14/2009.                                                                                                   US Department of Housing and Urban Development, “Glossary,” http://www.hud.gov/offices/hsg/sfh/
                                                                                                                    buying/glossary.cfm, accessed 4/8/2009.
      Financial Stability.gov, “Decoder,” http://www.financialstability.gov/roadtostability/decoder.htm, accessed
      12/14/2009.                                                                                                   USDA, “Glossary,” www.rurdev.usda.gov/regs/handbook/hb-1-3565/w6gloss.pdf, 4/8/2009.
      FRB, “The Federal Reserve System, Purposes & Functions, Section 5: Supervision and Regulation,”               White House: “Circular Number A-94 Revised”, http://www.whitehouse.gov/omb/rewrite/circulars/a094/
      www.federalreserve.gov/pf/pdf/pf_5.pdf accessed 12/11/2009.                                                   a094.html, accessed 1/20/2010.
                                                                     Acronyms and abbreviations I Appendix B I january 30, 2010              167




Acronyms and Abbreviations

ABS          asset-backed securities                            Freddie Mac       the Federal Home Loan Mortgage Corporation
AGP          Asset Guarantee Program                            GAO               Government Accountability Office
AIFP         Automotive Industry Financing Program              Ginnie Mae        the Government National Mortgage Association
AIG          American International Group, Inc.                 GM                General Motors Corporation
AIGFP        AIG Financial Products Corp.                       GMAC              GMAC Inc.
ARM          adjustable-rate mortgage                           GSE               Government–sponsored enterprises
ARRA         American Recovery and Reinvestment Act of 2009     GSE-CF            GSE Credit Facility
ASSP         Auto Supplier Support Program                      GSE-DPF           GSE Debt Purchase Facility
AWCP         Auto Warranty Commitment Program                   GSE MBS-PF        GSE Mortgage-Backed Securities Purchase Facility
BHC          bank holding company                               HAFA              Home Affordable Foreclosure Alternatives program
CAP          Capital Assistance Program                         HAMP              Home Affordable Modification Program
CDO          collateralized debt obligation                     HERA              Housing and Economic Recovery Act
CDS          credit default swap                                HFA               Housing Finance Agency
CEO          chief executive officer                            HPDP              Home Price Decline Protection program
CIT          CIT Group Inc.                                     HUD               U.S. Department of Housing and Urban Development
CMBS         commercial mortgage-backed securities              HUD OIG           Office of the Inspector General of the Department of
CP           Commercial Paper                                                     Housing and Urban Development

CPFF         Commercial Paper Funding Facility                  IAA               Inter-Agency Agreement

CPP          Capital Purchase Program                           ICE               U.S. Immigration and Customs Enforcement

CRARA        Credit Rating Agency Reform Act                    IG                Inspector General

CUSIP        Credit Union System Investment Program             IPO               initial public offering

CVR          contingent value rights                            IRS               Internal Revenue Service

DIL          Deed-In-Lieu of Foreclosure                        IRS-CI            Internal Revenue Service Criminal Investigation division

DIP          debtor in possession                               ISIN              International Securities Identification Number

DOJ          Department of Justice                              LIBOR             London Interbank Offered Rate

EESA         Emergency Economic Stabilization Act of 2008       LLC               Limited Liability Company

Fannie Mae   the Federal National Mortgage Association          LTV               loan-to-value

FBI          Federal Bureau of Investigation                    MBS               mortgage-backed securities

FDIC         Federal Deposit Insurance Corporation              MCP               mandatorily convertible preferred shares

FFETF        Financial Fraud Enforcement Task Force             MHA               Making Home Affordable program

FHA          Federal Housing Administration                     MMIFF             Money Market Investor Funding Facility

FHFA         Federal Housing Finance Agency                     MMF               Money Market Mutual Fund

FHFB         Federal Housing Finance Board                      Moody’s           Moody’s Investors Services

FHLB         Federal Home Loan Bank                             MPP               Mortgage Purchase Program

FinCEN       Financial Crimes Enforcement Network               NAIC              National Association of Insurance Commissioners

Fitch        Fitch Ratings                                      NCUA              National Credit Union Administration

FOIA         Freedom of Information Act                         NRSRO             nationally recognized statistical rating organization

FOMC         Federal Open Market Committee                      OCC               Office of the Comptroller of the Currency

FRB          Board of Governors of the Federal Reserve System   OFHEO             Office of Federal Housing Enterprise Oversight

FRBNY        Federal Reserve Bank of New York                   OFS               Office of Financial Stability
168             Appendix B I Acronyms and abbreviations I january 30, 2010




      OLC             Office of Legal Counsel of the Department of Justice      SPV            special purpose vehicle
      OMB             Office of Management and Budget                           SS/DIL         Short Sales/ Deeds-In-Lieu of Foreclosure program
      OTS             Office of Thrift Supervision                              SSFI           Systemically Significant Failing Institutions program
      P&A             purchase and assumption transaction                       TAF            Term Auction Facility
      PPIF            Public-Private Investment Fund                            TALF           Term Asset-Backed Securities Loan Facility
      PPIP            Public-Private Investment Program                         TARP           Troubled Asset Relief Program
      PSPA            Preferred Stock Purchase Agreement                        TARP-IG        TARP Inspector General Council
      QFI             qualifying financial institution                          Council

      RBC             risk-based capital                                        the Final Rule Rule amending Federal Reserve Regulation A

      RMBS            residential mortgage-backed securities                    the Rule       Interim Final Rule on TARP Standards for Compensation
                                                                                               and Corporate Governance
      S&L             savings and loan
                                                                                TIP            Targeted Investment Program
      S&P             Standard & Poor’s
                                                                                Treasury       U.S. Department of the Treasury
      SBA             Small Business Administration
                                                                                UCB            United Commercial Bank
      SCAP            Supervisory Capital Assessment Program
                                                                                UCBH           UCB Holidings Inc.
      SEC             Securities and Exchange Commission
                                                                                UCSB           Unlocking Credit for Small Businesses
      SEO             senior executive officer
                                                                                UGC            United Guaranty Corporation
      SIGTARP         Special Inspector General for the Troubled Asset Relief
                      Program                                                   USDA           U.S. Department of Agriculture

      Special Master Office of the Special Master for TARP Executive            USPIS          U.S. Postal Inspection Service
                     Compensation                                               VA             U.S. Department of Veterans Affairs
      SPA             securities purchase agreement
      SPE             special purpose entity
                                                                                          Reporting Requirements I Appendix C I january 30, 2010             169




Reporting Requirements
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of
the Special Inspector General for the Troubled Asset Relief Program outlined in the Emergency Economic
Stabilization Act of 2008 section 121, as well as a cross-reference to related data presented in this report and prior
reports. Italics style indicates relevant narrative taken verbatim from source documents.

     EESA        EESA Reporting                                                                                                            SIGTARP
 #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
 1   Section     A description of     Treasury posts several documents on its public website that are responsive to this ques-             Section 2:
     121(c)(A)   the categories of    tion, available at http://www.financialstability.gov/latest/reportsanddocs.html. Specifically,       “TARP Overview”
                 troubled assets      tranche reports and reports required under section 105(a) of the Emergency Economic
                 purchased or         Stabilization Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled         Appendix D:
                 otherwise procured   asset purchases. The transaction reports describe these purchases in detail, including               “Transaction
                 by the Secretary.    the type of asset purchased, the identity of the institution selling the asset, and the price        Detail”
                                      Treasury paid for the asset.
                                      Below are program descriptions from Treasury’s Financial Stability.gov website, as of
                                      12/31/2009:
                                      CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                      financial system by providing capital to viable financial institutions of all sizes throughout the
                                      nation. With a strengthened capital base, financial institutions have an increased capacity to
                                      lend to U.S. businesses and consumers and to support the U.S. economy.
                                      SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                      stability and prevent disruptions to financial markets from the failure of institutions that are
                                      critical to the functioning of the nation’s financial system.
                                      AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                      by financial institutions that are critical to the functioning of the nation’s financial system,
                                      which face a risk of losing the critical confidence that is needed for them to continue to lend
                                      to other banks.
                                      TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                      tem by making investments in institutions that are critical to the functioning of the financial
                                      system. This program focuses on the complex relationships and reliance of institutions
                                      within the financial system. Investments made through the TIP seek to avoid significant mar-
                                      ket disruptions resulting from the deterioration of one financial institution that can threaten
                                      other financial institutions and impair broader financial markets and pose a threat to the
                                      overall economy.
                                      TALF: The TALF is designed to increase credit availability and support economic activity by
                                      facilitating renewed issuance of consumer and small business ABS at more normal interest
                                      rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                      non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Trea-
                                      sury’s Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt
                                      in an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                      the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                      between the FRBNY and the U.S. Treasury.
                                      PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                      purchase troubled legacy securities that are central to the problems currently impacting the
                                      U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                      Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                      private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                      invest in securities backed directly by mortgages that span the residential credit spectrum
                                      (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                      UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                      SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                      securities to ensure that community banks and credit unions feel confident in extending new
                                      loans to local businesses.
170           Appendix C I Reporting Requirements I january 30, 2010




          EESA        EESA Reporting                                                                                                            SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                            Report Section
                                              AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                              motive industry, which would pose a systemic risk to financial market stability and have
                                              a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                              provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                              Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                              event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                              automobile industry forged a path for these companies to go through orderly restructurings
                                              and achieve viability.
                                              ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                              confidence they need to continue shipping parts, pay their employees and continue their
                                              operations.
                                              AWCP: The Treasury Department announced an innovative new program to give consumers
                                              who are considering new car purchases the confidence that even in this difficult economic
                                              period, their warrantees will be honored. This program is part of the Administration’s
                                              broader program to stabilize the auto industry and stand behind a restructuring effort that
                                              will result in stronger, more competitive and viable American car companies.
                                              HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                              goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                              communities. This program will bring together lenders, investors, servicers, borrowers,
                                              and the government, so that all stakeholders share in the cost of ensuring that responsible
                                              homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                              million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                              and helping to avoid further downward pressures on overall home prices.
      2   Section     A listing of the        Information on all transactions is available at http://www.financialstability.gov/impact/trans-   Appendix D:
          121(c)(B)   troubled assets         actions.htm. Additional information about these programs and related purchases is available       “Transaction
                      purchased in each       in tranche reports and Section 105(a) reports, which are posted on Treasury’s website at          Detail”
                      such category           http://www.financialstability.gov/latest/reportsanddocs.html.
                      described under
                      [section 121(c)(A)].
      3   Section     An explanation of       The Secretary of the Treasury has not signed any troubled asset determinations since              Section 2: “TARP
          121(c)(C)   the reasons the         Treasury responded to SIGTARP’s previous data call on September 30, 2009.                         Overview”
                      Secretary deemed
                      it necessary to pur-                                                                                                      Appendix C:
                      chase each such                                                                                                           “Reporting
                      troubled asset.                                                                                                           Requirements”
                                                                                                                                                of prior SIGTARP
                                                                                                                                                Quarterly Reports
                                                                                                                                                to Congress
      4   Section     A listing of each       See #2 above                                                                                      See #2
          121(c)(D)   financial institution
                      that such troubled
                      assets were pur-
                      chased from.
      5   Section     A listing of and        Information about TARP asset managers hired since September 30, 2009 is available on              Section 4: “TARP
          121(c)(E)   detailed biographi-     Treasury’s public website at http://www.financialstability.gov/latest/pr_12232009.html.           Operations and
                      cal information on      Treasury also provided a document with biographical information on these asset managers.          Administration”
                      each person or          This document, as well as biographical information on firms hired as PPIF managers, is
                      entity hired to man-    described in Section 4 of this quarterly report.                                                  Appendix C:
                      age such troubled                                                                                                         “Reporting
                      assets.                                                                                                                   Requirements”
                                                                                                                                                of prior SIGTARP
                                                                                                                                                Quarterly Reports
                                                                                                                                                to Congress
                                                                                                                   Reporting Requirements I Appendix C I january 30, 2010                        171



     EESA             EESA Reporting                                                                                                                                  SIGTARP
#    Section          Requirement                  Treasury Response to SIGTARP Data Call                                                                             Report Section
6    Section          A current estimate           This information [estimate of total amount of troubled assets purchased] is contained in                           Table C.1; Section
     121(c)(F)        of the total amount          [Treasury’s] transaction reports, which are posted on Treasury’s website at http://www.                            2: “TARP Over-
                      of troubled assets           financialstability.gov/latest/reportsanddocs.html. The transactions report captures the total                      view”
                      purchased pursu-             obligation under each TARP program.
                      ant to any program                                                                                                                              Appendix D:
                      established under            Treasury received payments in connection with the repayment by financial institutions of                           “Transaction
                      section 101, the             Treasury’s investment through the Capital Purchase Program. As of December 31, 2009,                               Detail”
                      amount of troubled           Treasury received a total of $121.89 billion in CPP repayments. Treasury incurred neither a
                      assets on the                profit nor a loss on the repayment of preferred shares since Treasury both purchased and
                      books of the Trea-           sold the preferred shares at par. As of December 31, 2009, Treasury received a total of
                      sury, the amount             $4.01 billion from institutions repurchasing their warrants.
                      of troubled assets
                      sold, and the profit         Treasury, the Federal Deposit Insurance Corporation, the Federal Reserve Bank of New York
                      and loss incurred            and Citigroup agreed to terminate the loss-sharing agreement with Citigroup that covered
                      on each sale or              a pool of originally $301 billion in assets. No losses were incurred under the program, and
                      disposition of each          Treasury and the FDIC retain $5.2 billion of trust preferred securities of Citigroup, as well as
                      such troubled                warrants, representing a positive return to taxpayers.
                      asset.
                                                   Proceeds to Treasury from the auction of its warrants in Capital One Financial Corporation,
                                                   JPMorgan Chase & Co. and TCF Financial Corporation, were approximately $148.73 million,
                                                   $950.32 million and $9.59 million, respectively, with net receipts to Treasury after under-
                                                   writing fees and selling expenses of approximately $146.50 million, $936.06 million and
                                                   $9.45 million, respectively. Treasury expects to conduct similar auctions in the future.

                                                   Additional information on the repayments of Treasury’s investments under the CPP and pro-
                                                   ceeds from the sale of warrants are available in the attached FSP Budget report and within
                                                   Treasury’s transactions reports and 105(a) Monthly reports at http://www.financialstability.
                                                   gov/latest/reportsanddocs.html.
7    Section          A listing of the             There have been no transactions under the Asset Guarantee Program (AGP). Effective on                              Section 2: “TARP
     121(c)(G)        insurance con-               December 22, 2009, Treasury, the Federal Reserve, the Federal Deposit Insurance Corpo-                             Overview”
                      tracts issued under          ration and Citigroup terminated the agreement under which the U.S. government agreed to
                      section 102.                 share losses on a pool of originally $300 billion of Citigroup assets. This arrangement was                        Section 2: “Asset
                                                   entered into in January of this year under Treasury’s AGP and was originally expected to last                      Guarantee
                                                   for 10 years. The U.S. Government parties did not pay any losses under the agreement,                              Program”
                                                   and will keep $5.2 billion of $7.0 billion in trust preferred securities as well as warrants for
                                                   common shares that were issued by Citigroup as consideration for such guarantee. Addi-
                                                   tional information can be found on Treasury’s public website at: http://www.financialstability.
                                                   gov/latest/pr_12232009b.html.
8    Section          A detailed                   Treasury provides information about TARP purchases, obligations, expenditures, and rev-                            Table C.1;
     121(f)           statement of                 enues on Treasury’s public website at www.financialstability.gov. Treasury posts a transac-                        Section 2:
                      all purchases,               tion report for each purchase of troubled assets two business days after the transaction.                          “TARP Overview”
                      obligations, expen-          Treasury also posts a detailed financial statement as part of its monthly Congressional
                      ditures, and rev-            report under section 105(a) of EESA. The next section 105(a) report will be posted on the                          Section 4: “TARP
                      enues associated             Financial Stability website on January 8, 2010.                                                                    Operations and
                      with any program                                                                                                                                Administration”
                      established by the           The transactions reports and TARP Budget capture detailed information about TARP
                      Secretary of the             purchases, obligations, expenditures, and revenues. The latest transactions reports are                            Appendix D:
                      Treasury under               available on Treasury’s public website at http://www.financialstability.gov/latest/reportsand-                     “Transaction
                      sections 101 and             docs.html. [Treasury provided to SIGTARP its] most recent TARP/Financial Stability Plan                            Detail”
                      102.                         Budget report (as of December 31, 2009).

Note: TARP participation in TALF has changed to $30 billion according to the TARP/Financial Stability Plan Budget Table dated 1/4/2010.

Sources: Treasury, responses to SIGTARP data call, 1/5/2010 and 1/12/2010; Program Descriptions: Treasury, “Programs” webpage, http://www.financialstability.gov/roadtostability/programs.htm,
accessed 1/13/2010; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 6/30/2009; AWCP, “Obama Admin-
istration’s New Warrantee Commitment Program,” no date, http://www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/30/2009; TALF: Federal Reserve, “Term Asset-Backed
Securities Loan Facility (TALF) Frequently Asked Questions,” no date, http://www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 6/30/2009; MHA: “Making Home
Affordable Updated Detailed Description Update,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 10/5/2009.
			
			
			
172              Appendix C I Reporting Requirements I january 30, 2010




 Table C.1

  TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 12/31/2009 ($ billions)
                                                                                      Obligationsa                    Disbursedb                        On Treasury’s Booksc

  Capital Purchase Program (“CPP”)                                                             $204.9                      $204.9                                          $83.0
  Systemically Significant Failing Institutions (“SSFI”)                                           69.8                        45.3                                         45.3
  Home Affordable Modification Program (“HAMP”)                  d
                                                                                                   36.8                          1.3                                          1.3
  Targeted Investment Program (“TIP”)                                                              40.0                        40.0                                           0.0
  Automotive Industry Financing Program (“AIFP”)                                                   84.8                        79.7                                         76.4
  Asset Guarantee Program (“AGP”)                                                                    5.0                          —                                            —
  Term Asset-Backed Securities Loan Facility (“TALF”)                e
                                                                                                   20.0                          0.1                                          0.1
  Legacy Securities Public-Private Investment Program (“PPIP”)                                     30.0                          3.1                                          3.1
  Total                                                                                        $491.4                      $374.4                                       $209.2
 Notes: Numbers affected by rounding.
 a
   For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget”) as of 1/4/2010.
 b
   “Disbursed” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury, according to the TARP Budget. Treasury did not include expended amounts in the TARP Budget and
   suggested that disbursed amounts be reflected in this table instead.
 c
   “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.
 d
   According to Treasury, “TARP funds allocated, obligated and disbursed for the Home Affordable Modification Program (HAMP) include $1.244B to offset costs of program changes for the “Helping Families
   Save Their Homes Act of 2009”, Public Law No: 111-22, Section 202 (b). Also included is $15M for administrative expenditures relating to the Special Inspector General for the Troubled Asset Relief
   Program (SIGTARP).”
 e
   Treasury has told SIGTARP that it will provide up to $30 billion in TARP funds to support TALF. Treasury has indicated that this number may change.

  Sources: Repayments data: Treasury, Transactions Report, 1/4/2010; all other data: Treasury, responses to SIGTARP data calls, 1/5/2010 and 1/21/2010.		
Table D.1


CPP Transaction Detail, As of 12/31/2009                                                     (CONTINUED)
                                                                                               Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                     Amount
                                                                                                                                                                                                                                                       “In the
                                                                                                                                                                                            Current                                                  Money”        In or       Income Paid
                                                                                                  Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                          Investment                    Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date        Institution                           Description                      Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

12/23/08    1st Constitution Bancorp,             Preferred Stock w/          $12,000,000                                                                                                    $6.25              $26.7      $8.56         210,233      ($2.31)       OUT          $536,667
            Cranbury, NJ a                        Warrants
02/13/09    1st Enterprise Bank,                  Preferred Stock w/           $4,400,000
            Los Angeles, CA 2, c                  Exercised Warrants
                                                                                                                                                                                                                                                                                 $181,182
12/11/09    1st Enterprise Bank,                  Preferred Stock              $6,000,000
            Los Angeles, CA 2, 10a, c
11/14/08    1st FS Corporation,                   Preferred Stock w/          $16,369,000                                                                                                    $2.17              $10.9      $8.87         276,815      ($6.70)       OUT          $820,724
            Hendersonville, NC                    Warrants
01/23/09    1st Source Corporation, South         Preferred Stock w/         $111,000,000                                                                                                   $16.09             $388.4     $19.87         837,947      ($3.78)       OUT         $4,501,667
            Bend, IN                              Warrants
03/13/09    1st United Bancorp, Inc., Boca        Preferred Stock w/          $10,000,000     11/18/09          $10,000,000          $0    11/18/09       R                $500,000                                                                                              $370,903
            Raton, FL 2,4                         Exercised Warrants
01/23/09    AB&T Financial Corporation,           Preferred Stock w/           $3,500,000                                                                                                    $2.70               $7.2      $6.55          80,153      ($3.85)       OUT          $141,944
            Gastonia, NC                          Warrants
01/30/09    Adbanc, Inc, Ogallala, NE 2           Preferred Stock w/          $12,720,000                                                                                                                                                                                        $548,815
                                                  Exercised Warrants
01/23/09    Alarion Financial Services, Inc.,     Preferred Stock w/           $6,514,000                                                                                                                                                                                        $287,977
            Ocala, FL 2                           Exercised Warrants
02/06/09    Alaska Pacific Bancshares, Inc.,      Preferred Stock w/           $4,781,000                                                                                                    $4.41               $2.9      $4.08         175,772       $0.33          IN         $185,264
            Juneau, AK                            Warrants
06/26/09    Alliance Bancshares, Inc.,            Preferred Stock w/           $2,986,000                                                                                                                                                                                          $62,824
            Dalton, GA 2                          Exercised Warrants
12/19/08    Alliance Financial Corporation,       Preferred Stock w/          $26,918,000     05/13/09          $26,918,000          $0    06/17/09       R                $900,000         $27.15             $125.6                                                            $538,360
            Syracuse, NY 4                        Warrants
06/26/09    Alliance Financial Services Inc.,     Subordinated Debentures     $12,000,000                                                                                                                                                                                        $388,742
            Saint Paul, MN 8                      w/ Exercised Warrants
04/24/09    Allied First Bancorp, Inc.,           Preferred Stock w/           $3,652,000                                                                                                                                                                                        $111,148
            Oswego, IL 2                          Exercised Warrants
03/27/09    Alpine Banks of Colorado,             Preferred Stock w/          $70,000,000                                                                                                                                                                                       $2,416,166
            Glenwood Springs, CO 2                Exercised Warrants
01/30/09    AMB Financial Corp., Munster,         Preferred Stock w/           $3,674,000                                                                                                                                                                                        $158,539
            IN 2                                  Exercised Warrants
03/06/09    AmeriBank Holding Company,            Preferred Stock w/           $2,492,000                                                                                                                                                                                          $93,963
            Collinsville, OK 2                    Exercised Warrants
01/09/09    American Express Company,             Preferred Stock w/        $3,388,890,000    06/17/09       $3,388,890,000          $0    07/29/09       R          $340,000,000           $40.52         $48,185.1                                                          $74,367,308
            New York, NY 4                        Warrants
05/29/09    American Premier Bancorp,             Preferred Stock w/           $1,800,000                                                                                                                                                                                          $45,235
            Arcadia, CA 2                         Exercised Warrants
01/09/09    American State Bancshares,            Preferred Stock w/           $6,000,000                                                                                                                                                                                        $277,950
            Inc., Great Bend, KS 2                Exercised Warrants
11/21/08                                      a   Preferred Stock w/          $52,000,000                                                                                                    $7.16              $98.7     $11.39         684,669      ($4.23)       OUT         $2,556,667
            Ameris Bancorp, Moultrie, GA
                                                  Warrants
12/19/08    AmeriServ Financial, Inc,             Preferred Stock w/          $21,000,000                                                                                                    $1.67              $35.4      $2.40       1,312,500      ($0.73)       OUT          $950,833
            Johnstown, PA                         Warrants
08/21/09    AmFirst Financial Services, Inc.,     Subordinated Debentures      $5,000,000                                                                                                                                                                                          $97,885
            McCook, NE 8                          w/ Exercised Warrants
01/30/09    Anchor BanCorp Wisconsin Inc.,        Preferred Stock w/         $110,000,000                                                                                                    $0.63              $13.7      $2.23       7,399,103      ($1.60)       OUT
            Madison, WI                           Warrants
01/30/09    Annapolis Bancorp, Inc.,              Preferred Stock w/           $8,152,000                                                                                                    $3.10              $12.0      $4.08         299,706      ($0.98)       OUT          $322,683
            Annapolis, MD                         Warrants
11/21/08    Associated Banc-Corp,                 Preferred Stock w/         $525,000,000                                                                                                   $11.01           $1,407.8     $19.77       3,983,308      ($8.76)       OUT       $25,812,500
            Green Bay, WI                         Warrants
12/29/09    Atlantic Bancshares, Inc.,            Preferred Stock w/           $2,000,000
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 30, 2010




            Bluffton, SC 2, 10                    Exercised Warrants
02/27/09    Avenue Financial Holdings, Inc.,      Preferred Stock w/           $7,400,000                                                                                                                                                                                        $289,032
            Nashville, TN 2                       Exercised Warrants
03/13/09    BancIndependent, Inc.,                Preferred Stock w/          $21,100,000                                                                                                                                                                                        $773,022
            Sheffield, AL 2                       Exercised Warrants
                                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                                173
CPP Transaction Detail, As of 12/31/2009                                             (CONTINUED)                                                                                                                                                                                        174
                                                                                       Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                             Amount
                                                                                                                                                                                                                                               “In the
                                                                                                                                                                                    Current                                                  Money”        In or       Income Paid
                                                                                          Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                      Investment                Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                        Description                  Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

07/10/09   Bancorp Financial, Inc.,           Preferred Stock w/      $13,669,000                                                                                                                                                                                        $250,122
           Oak Brook, IL 2, 10                Exercised Warrants
12/19/08   Bancorp Rhode Island, Inc.,        Preferred Stock w/      $30,000,000     08/05/09          $30,000,000          $0    09/30/09       R               $1,400,000        $25.68             $118.2                                                            $941,667
           Providence, RI 4                   Warrants
02/20/09   BancPlus Corporation,              Preferred Stock w/      $48,000,000                                                                                                                                                                                       $1,925,666
           Ridgeland, MS 2                    Exercised Warrants
04/03/09                                2     Preferred Stock w/       $8,600,000                                                                                                                                                                                        $289,032
           BancStar, Inc., Festus, MO
                                              Exercised Warrants
12/19/08   BancTrust Financial Group, Inc.,   Preferred Stock w/      $50,000,000                                                                                                    $2.87              $50.6     $10.26         730,994      ($7.39)       OUT         $2,263,889
           Mobile, AL                         Warrants
08/14/09   Bank Financial Services, Inc.,     Preferred Stock w/       $1,004,000                                                                                                                                                                                          $13,827
           Eden Prarie, MN 2                  Exercised Warrants
10/28/08   Bank of America Corporation,       Preferred Stock w/   $15,000,000,000    12/09/09      $15,000,000,000          $0                                                                                               73,075,674     ($15.73)       OUT
           Charlotte, NC 4, c                 Warrants
                                                                                                                                                                                    $15.06        $130,273.1      $30.79                                           $1,293,750,000
01/09/09   Bank of America Corporation,       Preferred Stock w/   $10,000,000,000    12/09/09      $10,000,000,000          $0                                                                                               48,717,116     ($15.73)       OUT
           Charlotte, NC 1, 4 ,c              Warrants
01/16/09   Bank of Commerce, Charlotte,       Preferred Stock w/       $3,000,000                                                                                                                                                                                        $135,796
           NC 2                               Exercised Warrants
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I January 30, 2010




11/14/08   Bank of Commerce Holdings,         Preferred Stock w/      $17,000,000                                                                                                    $5.28              $46.0      $6.29         405,405      ($1.02)       OUT          $852,361
           Redding, CA                        Warrants
03/13/09   Bank of George, Las Vegas, NV 2    Preferred Stock w/       $2,672,000                                                                                                                                                                                          $97,916
                                              Exercised Warrants
12/05/08   Bank of Marin Bancorp, Novato,     Preferred Stock w/      $28,000,000     03/31/09          $28,000,000          $0                                                     $32.56             $170.2     $27.23         154,242       $5.33          IN         $451,111
           CA 4                               Warrants
04/17/09   Bank of the Carolinas              Preferred Stock w/      $13,179,000                                                                                                    $4.44              $17.3      $4.16         475,204       $0.28          IN         $380,727
           Corporation, Mocksville, NC        Warrants
12/12/08   Bank of the Ozarks, Inc., Little   Preferred Stock w/      $75,000,000     11/04/09          $75,000,000          $0    11/24/09                       $2,650,000        $29.27             $494.2                                                           $3,354,167
           Rock, AR 4, b                      Warrants
01/30/09   Bankers’ Bank of the West          Preferred Stock w/      $12,639,000                                                                                                                                                                                        $545,324
           Bancorp, Inc., Denver, CO 2        Exercised Warrants
01/23/09   BankFirst Capital Corporation,     Preferred Stock w/      $15,500,000                                                                                                                                                                                        $685,187
           Macon, MS 2                        Exercised Warrants
02/13/09   BankGreenville, Greenville, SC 2   Preferred Stock w/       $1,000,000                                                                                                                                                                                          $41,178
                                              Exercised Warrants
11/21/08   Banner Corporation, Walla          Preferred Stock w/     $124,000,000                                                                                                    $2.68              $56.6     $10.89       1,707,989      ($8.21)       OUT         $6,096,667
           Walla, WA                          Warrants
02/06/09   Banner County Ban Corporation,     Preferred Stock w/         $795,000                                                                                                                                                                                          $33,596
           Harrisburg, NE 2                   Exercised Warrants
01/16/09   Bar Harbor Bankshares, Bar         Preferred Stock w/      $18,751,000                                                                                                   $27.45             $101.3     $26.81         104,910       $0.64          IN         $778,688
           Harbor, ME                         Warrants
11/14/08   BB&T Corp., Winston-Salem,         Preferred Stock w/    $3,133,640,000    06/17/09       $3,133,640,000          $0    07/22/09       R           $67,010,402           $25.37         $17,444.8                                                          $92,703,517
           NC 4                               Warrants
04/03/09   BCB Holding Company, Inc.,         Preferred Stock w/       $1,706,000                                                                                                                                                                                          $57,320
           Theodore, AL 2                     Exercised Warrants
12/23/08   BCSB Bancorp, Inc., Baltimore,     Preferred Stock w/      $10,800,000                                                                                                    $8.95              $27.9      $8.83         183,465       $0.12          IN         $483,000
           MD                                 Warrants
01/30/09   Beach Business Bank, Manhattan     Preferred Stock w/       $6,000,000                                                                                                                                                                                        $177,125
           Beach, CA 2                        Exercised Warrants
06/12/09   Berkshire Bancorp, Inc.,           Preferred Stock w/       $2,892,000                                                                                                                                                                                          $67,001
           Wyomissing, PA 2                   Exercised Warrants
12/19/08   Berkshire Hills Bancorp, Inc.,     Preferred Stock w/      $40,000,000     05/27/09          $40,000,000          $0    06/24/09       R               $1,040,000        $20.68             $288.1                                                            $877,778
           Pittsfield, MA 4                   Warrants
02/13/09   Bern Bancshares, Inc., Bern,       Preferred Stock w/         $985,000                                                                                                                                                                                          $40,611
           KS 2                               Exercised Warrants
04/24/09   Birmingham Bloomfield              Preferred Stock w/       $1,635,000
           Bancshares, Inc, Birmingham,       Exercised Warrants
           MI 2, c
                                                                                                                                                                                                                                                                           $49,765
12/18/09   Birmingham Bloomfield              Preferred Stock          $1,744,000
           Bancshares, Inc, Birmingham,
           MI 2, 10a ,c
                                                                                                                                                                                                                                                              Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                               (CONTINUED)
                                                                                         Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                              Amount
                                                                                                                                                                                                                                                “In the
                                                                                                                                                                                     Current                                                  Money”        In or       Income Paid
                                                                                            Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                      Investment                  Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                        Description                    Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

06/19/09   Biscayne Bancshares, Inc.,         Subordinated Debentures     $6,400,000                                                                                                                                                                                      $211,276
           Coconut Grove, FL 8, 10            w/ Exercised Warrants
03/13/09   Blackhawk Bancorp, Inc.,           Preferred Stock w/         $10,000,000                                                                                                                                                                                      $366,361
           Beloit, WI 2                       Exercised Warrants
05/22/09   Blackridge Financial, Inc.,        Preferred Stock w/          $5,000,000                                                                                                                                                                                      $130,951
           Fargo, ND 2                        Exercised Warrants
03/06/09   Blue Ridge Bancshares, Inc.,       Preferred Stock w/         $12,000,000                                                                                                                                                                                      $452,350
           Independence, MO 2                 Exercised Warrants
03/06/09   Blue River Bancshares, Inc.,       Preferred Stock w/          $5,000,000                                                                                                                                                                                      $188,480
           Shelbyville, IN 2                  Exercised Warrants
12/05/08   Blue Valley Ban Corp, Overland     Preferred Stock w/         $21,750,000                                                                                                 $10.25              $28.4     $29.37         111,083     ($19.12)       OUT          $211,458
           Park, KS                           Warrants
04/17/09   BNB Financial Services             Preferred Stock w/          $7,500,000                                                                                                                                                                                      $236,167
           Corporation, New York, NY 2        Exercised Warrants
12/05/08   BNC Bancorp, Thomasville, NC       Preferred Stock w/         $31,260,000                                                                                                  $7.59              $55.7      $8.63         543,337      ($1.05)       OUT         $1,476,167
                                              Warrants
02/27/09   BNC Financial Group, Inc.,         Preferred Stock w/          $4,797,000                                                                                                                                                                                      $187,372
           New Canaan, CT 2                   Exercised Warrants
01/16/09   BNCCORP, Inc., Bismarck, ND 2      Preferred Stock w/         $20,093,000                                                                                                                                                                                      $909,542
                                              Exercised Warrants
03/06/09   BOH Holdings, Inc., Houston,       Preferred Stock w/         $10,000,000                                                                                                                                                                                      $376,958
           TX 2                               Exercised Warrants
05/15/09   Boscobel Bancorp, Inc,             Subordinated Debentures     $5,586,000                                                                                                                                                                                      $234,312
           Boscobel, WI 8                     w/ Exercised Warrants
11/21/08   Boston Private Financial           Preferred Stock w/        $154,000,000                                                                                                  $5.77             $396.1      $8.00       2,887,500      ($2.23)       OUT         $7,571,667
           Holdings, Inc., Boston, MA         Warrants
12/23/08   Bridge Capital Holdings,           Preferred Stock w/         $23,864,000                                                                                                  $7.25              $50.7      $9.03         396,412      ($1.78)       OUT         $1,067,251
           San Jose, CA                       Warrants
12/19/08   Bridgeview Bancorp, Inc.,          Preferred Stock w/         $38,000,000                                                                                                                                                                                     $1,875,406
           Bridgeview, IL 2                   Exercised Warrants
11/14/08   Broadway Financial Corporation,    Preferred Stock             $9,000,000
           Los Angeles, CA 3a - 11/24/09, c
                                                                                                                                                                                                         $10.4                                                            $451,250
12/04/09   Broadway Financial Corporation,    Preferred Stock             $6,000,000
           Los Angeles, CA 3, 10a, c
05/15/09   Brogan Bankshares, Inc.,           Subordinated Debentures     $2,400,000                                                                                                                                                                                      $100,680
           Kaukauna, WI 8                     w/ Exercised Warrants
07/17/09   Brotherhood Bancshares, Inc.,      Preferred Stock w/         $11,000,000                                                                                                                                                                                      $196,503
           Kansas City, KS 2                  Exercised Warrants
04/24/09   Business Bancshares, Inc.,         Preferred Stock w/         $15,000,000                                                                                                                                                                                      $456,438
           Clayton, MO 2                      Exercised Warrants
03/13/09   Butler Point, Inc., Catlin, IL 2   Preferred Stock w/           $607,000                                                                                                                                                                                         $22,217
                                              Exercised Warrants
01/09/09   C&F Financial Corporation,         Preferred Stock w/         $20,000,000                                                                                                 $19.00              $57.9     $17.91         167,504       $1.09          IN         $850,000
           West Point, VA                     Warrants
12/18/09   Cache Valley Banking Company,      Preferred Stock             $4,640,000
           Logan, UT 2, 10a
                                                                                                                                                                                                                                                                          $232,350
12/23/08   Cache Valley Banking Company,      Preferred Stock w/          $4,767,000
           Logan, UT 2                        Exercised Warrants
01/09/09   Cadence Financial Corporation,     Preferred Stock w/         $44,000,000                                                                                                  $1.75              $20.8      $5.76       1,145,833      ($4.01)       OUT         $1,870,000
           Starkville, MS                     Warrants
02/27/09   California Bank of Commerce,       Preferred Stock w/          $4,000,000                                                                                                                                                                                      $156,233
           Lafayette, CA 2                    Exercised Warrants
01/23/09   California Oaks State Bank,        Preferred Stock w/          $3,300,000                                                                                                                                                                                      $145,879
           Thousand Oaks, CA 2                Exercised Warrants
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I january 30, 2010




01/23/09   Calvert Financial Corporation,     Preferred Stock w/          $1,037,000                                                                                                                                                                                        $45,853
           Ashland, MO 2                      Exercised Warrants
01/23/09   CalWest Bancorp, Rancho Santa      Preferred Stock w/          $4,656,000                                                                                                                                                                                      $205,836
           Margarita, CA 2                    Exercised Warrants
                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                         175
CPP Transaction Detail, As of 12/31/2009                                                  (CONTINUED)                                                                                                                                                                                        176
                                                                                            Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                  Amount
                                                                                                                                                                                                                                                    “In the
                                                                                                                                                                                         Current                                                  Money”        In or       Income Paid
                                                                                               Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                    Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                      Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

12/23/08   Capital Bancorp, Inc., Rockville,   Preferred Stock w/           $4,700,000                                                                                                                                                                                        $229,112
           MD 2                                Exercised Warrants
12/12/08   Capital Bank Corporation,           Preferred Stock w/          $41,279,000                                                                                                    $3.87              $43.9      $8.26         749,619      ($4.39)       OUT         $1,909,154
           Raleigh, NC                         Warrants
04/10/09   Capital Commerce Bancorp,           Preferred Stock w/           $5,100,000                                                                                                                                                                                        $165,998
           Inc., Milwaukee, WI 2               Exercised Warrants
11/14/08   Capital One Financial               Preferred Stock w/        $3,555,199,000    06/17/09       $3,555,199,000          $0    12/03/09       A          $148,731,030           $38.34         $17,238.0                                                         $105,174,638
           Corporation, McLean, VA 4, g        Warrants
12/23/08   Capital Pacific Bancorp,            Preferred Stock w/           $4,000,000                                                                                                                                                                                        $194,989
           Portland, OR 2                      Exercised Warrants
10/23/09   Cardinal Bancorp II, Inc.,          Subordinated Debentures      $6,251,000                                                                                                                                                                                          $32,057
           Washington, MO 8                    w/ Exercised Warrants
01/09/09   Carolina Bank Holdings, Inc.,       Preferred Stock w/          $16,000,000                                                                                                    $3.25              $11.0      $6.71         357,675      ($3.46)       OUT          $680,000
           Greensboro, NC                      Warrants
02/06/09   Carolina Trust Bank, Lincolnton,    Preferred Stock w/           $4,000,000                                                                                                    $5.00               $7.8      $6.90          86,957      ($1.90)       OUT          $155,000
           NC                                  Warrants
02/13/09   Carrollton Bancorp, Baltimore,      Preferred Stock w/           $9,201,000                                                                                                    $4.80              $12.3      $6.72         205,379      ($1.92)       OUT          $347,593
           MD                                  Warrants
                                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I January 30, 2010




01/16/09   Carver Bancorp, Inc, New            Preferred Stock             $18,980,000                                                                                                                                                                                        $788,197
           York, NY 3
11/21/08   Cascade Financial Corporation,      Preferred Stock w/          $38,970,000                                                                                                    $2.21              $26.8      $6.77         863,442      ($4.56)       OUT         $1,428,900
           Everett, WA                         Warrants
12/05/08   Cathay General Bancorp, Los         Preferred Stock w/         $258,000,000                                                                                                    $7.55             $466.8     $20.96       1,846,374     ($13.41)       OUT       $12,183,333
           Angeles, CA                         Warrants
02/27/09   Catskill Hudson Bancorp, Inc,       Preferred Stock w/           $3,000,000
           Rock Hill, NY 2, c                  Exercised Warrants
                                                                                                                                                                                                                                                                              $117,175
12/22/09   Catskill Hudson Bancorp, Inc,       Preferred Stock w/           $3,500,000
           Rock Hill, NY 2, 10a, c             Exercised Warrants
05/29/09   CB Holding Corp., Aledo, IL 2       Preferred Stock w/           $4,114,000                                                                                                                                                                                        $103,400
                                               Exercised Warrants
02/20/09   CBB Bancorp, Cartersville,          Preferred Stock w/           $2,644,000
           GA 2, c                             Exercised Warrants
                                                                                                                                                                                                                                                                              $106,059
12/29/09   CBB Bancorp, Cartersville,          Preferred Stock              $1,753,000
           GA 2, 10a, c
03/27/09   CBS Banc-Corp., Russellville,       Preferred Stock w/          $24,300,000                                                                                                                                                                                        $838,755
           AL 2                                Exercised Warrants
12/23/08   Cecil Bancorp, Inc., Elkton, MD     Preferred Stock w/          $11,560,000                                                                                                    $3.50              $12.9      $6.63         261,538      ($3.13)       OUT          $516,989
                                               Warrants
02/06/09   CedarStone Bank, Lebanon, TN 2      Preferred Stock w/           $3,564,000                                                                                                                                                                                        $150,521
                                               Exercised Warrants
01/09/09   Center Bancorp, Inc., Union, NJ b   Preferred Stock w/          $10,000,000                                                                                                    $8.92             $130.0      $8.65          86,705       $0.27          IN         $425,000
                                               Warrants
12/12/08   Center Financial Corporation,       Preferred Stock w/          $55,000,000                                                                                                    $4.60              $77.3      $9.54         432,390      ($4.94)       OUT         $2,543,750
           Los Angeles, CA j                   Warrants
05/01/09   CenterBank, Milford, OH 2           Preferred Stock w/           $2,250,000                                                                                                                                                                                          $66,106
                                               Exercised Warrants
11/21/08   Centerstate Banks of Florida        Preferred Stock w/          $27,875,000     09/30/09          $27,875,000          $0    10/28/09       R                $212,000         $10.09             $260.0                                                           $1,196,303
           Inc., Davenport, FL 5, 9 ,b         Warrants
01/16/09   Centra Financial Holdings, Inc.,    Preferred Stock w/          $15,000,000     03/31/09          $15,000,000          $0    04/15/09       R                $750,000                                                                                              $172,938
           Morgantown, WV 2, 4, 7              Exercised Warrants
12/05/08   Central Bancorp, Inc.,              Preferred Stock w/          $10,000,000                                                                                                    $8.30              $13.6      $6.39         234,742       $1.91          IN         $472,222
           Somerville, MA b                    Warrants
02/27/09   Central Bancorp, Inc., Garland,     Preferred Stock w/          $22,500,000                                                                                                                                                                                        $878,812
           TX 2                                Exercised Warrants
01/30/09   Central Bancshares, Inc.,           Preferred Stock w/           $5,800,000                                                                                                                                                                                        $250,246
           Houston, TX 2                       Exercised Warrants
02/20/09   Central Community Corporation,      Preferred Stock w/          $22,000,000                                                                                                                                                                                        $882,597
           Temple, TX 2                        Exercised Warrants
                                                                                                                                                                                                                                                                   Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                    (CONTINUED)
                                                                                              Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                      Amount
                                                                                                                                                                                                                                                        “In the
                                                                                                                                                                                             Current                                                  Money”        In or       Income Paid
                                                                                                 Capital            Capital      Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                        Investment                     Investment     Repayment          Repayment         Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                          Description                       Amount           Date             Amount         Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

12/05/08   Central Federal Corporation,         Preferred Stock w/            $7,225,000                                                                                                      $1.50               $6.2      $3.22         336,568      ($1.72)       OUT          $341,181
           Fairlawn, OH                         Warrants
12/23/08   Central Jersey Bancorp,              Preferred Stock w/           $11,300,000                                                                                                      $2.99              $27.5      $6.31         268,621      ($3.32)       OUT          $505,361
           Oakhurst, NJ                         Warrants
01/09/09   Central Pacific Financial Corp.,     Preferred Stock w/          $135,000,000                                                                                                      $1.31              $39.7     $12.77       1,585,748     ($11.46)       OUT         $2,362,500
           Honolulu, HI                         Warrants
01/30/09   Central Valley Community             Preferred Stock w/            $7,000,000                                                                                                      $5.55              $42.7      $6.64          79,067      ($1.09)       OUT          $277,083
           Bancorp, Fresno, CA j                Warrants
01/30/09   Central Virginia Bankshares, Inc.,   Preferred Stock w/           $11,385,000                                                                                                      $3.40               $8.9      $6.48         263,542      ($3.08)       OUT          $450,656
           Powhatan, VA                         Warrants
12/18/09   Centric Financial Corporation,       Preferred Stock w/            $6,056,000
           Harrisburg, PA 2, 10                 Exercised Warrants
02/06/09   Centrix Bank & Trust, Bedford,       Preferred Stock w/            $7,500,000                                                                                                                                                                                          $316,781
           NH 2                                 Exercised Warrants
01/09/09   Centrue Financial Corporation,       Preferred Stock w/           $32,668,000                                                                                                      $2.60              $15.7      $9.64         508,320      ($7.04)       OUT          $571,690
           St. Louis, MO                        Warrants
06/19/09   Century Financial Services           Subordinated Debentures      $10,000,000                                                                                                                                                                                          $340,261
           Corporation, Santa Fe, NM 8          w/ Exercised Warrants
05/29/09   Chambers Bancshares, Inc.,           Subordinated Debentures      $19,817,000                                                                                                                                                                                          $766,674
           Danville, AR 8                       w/ Exercised Warrants
07/31/09   Chicago Shore Corporation,           Preferred Stock w/            $7,000,000                                                                                                                                                                                          $111,271
           Chicago, IL 2                        Exercised Warrants
12/31/08   CIT Group Inc., New York,            Contingent Value Rights    $2,330,000,000                                                                                                                   $11,174.6                                                          $43,687,500
           NY 16, k
                                          11
10/28/08   Citigroup Inc., New York, NY         Common Stock w/           $25,000,000,000                                                                                                     $3.31         $75,679.7      $17.85     210,084,034     ($14.54)       OUT      $932,291,667
                                                Warrants
01/16/09   Citizens & Northern Corporation,     Preferred Stock w/           $26,440,000                                                                                                      $9.54             $112.0     $20.36         194,794     ($10.82)       OUT         $1,097,994
           Wellsboro, PA                        Warrants
12/23/08   Citizens Bancorp, Nevada             Preferred Stock w/           $10,400,000                                                                                                                                                                                          $223,571
           City, CA 2                           Exercised Warrants
05/29/09   Citizens Bancshares Co.,             Preferred Stock w/           $24,990,000                                                                                                                                                                                          $628,033
           Chillicothe, MO 2                    Exercised Warrants
03/06/09   Citizens Bancshares                  Preferred Stock               $7,462,000                                                                                                                                                                                          $258,061
           Corporation, Atlanta, GA 3
03/20/09   Citizens Bank & Trust Company,       Preferred Stock w/            $2,400,000                                                                                                                                                                                            $19,983
           Covington, LA 2                      Exercised Warrants
02/06/09   Citizens Commerce Bancshares,        Preferred Stock w/            $6,300,000                                                                                                                                                                                          $180,258
           Inc., Versailles, KY 2               Exercised Warrants
12/23/08   Citizens Community Bank, South       Preferred Stock w/            $3,000,000                                                                                                                                                                                          $146,242
           Hill, VA 2                           Exercised Warrants
12/19/08   Citizens First Corporation,          Preferred Stock w/            $8,779,000                                                                                                      $5.65              $11.1      $5.18         254,218       $0.47          IN         $397,494
           Bowling Green, KY                    Warrants
12/12/08   Citizens Republic Bancorp, Inc.,     Preferred Stock w/          $300,000,000                                                                                                      $0.69             $272.2      $2.56      17,578,125      ($1.87)       OUT       $13,875,000
           Flint, MI                            Warrants
12/12/08   Citizens South Banking               Preferred Stock w/           $20,500,000                                                                                                      $4.58              $34.5      $7.17         428,870      ($2.59)       OUT          $948,125
           Corporation, Gastonia, NC            Warrants
04/10/09   City National Bancshares             Preferred Stock               $9,439,000                                                                                                                                                                                          $281,859
           Corporation, Newark, NJ 3
11/21/08   City National Corporation,           Preferred Stock w/          $400,000,000     12/30/09         $200,000,000    $200,000,000                                                   $45.60           $2,348.5     $53.16       1,128,668      ($7.56)       OUT       $20,916,667
           Beverly Hills, CA 4                  Warrants
03/27/09   Clover Community Bankshares,         Preferred Stock w/            $3,000,000                                                                                                                                                                                          $103,550
           Inc., Clover, SC 2                   Exercised Warrants
12/05/08   Coastal Banking Company, Inc.,       Preferred Stock w/            $9,950,000                                                                                                      $3.60               $9.2      $7.26         205,579      ($3.66)       OUT          $469,861
           Fernandina Beach, FL                 Warrants
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 30, 2010




08/28/09   CoastalSouth Bancshares, Inc.,       Preferred Stock w/           $16,015,000                                                                                                                                                                                          $180,511
           Hilton Head Island, SC 2, 10         Exercised Warrants
12/19/08   CoBiz Financial Inc., Denver, CO     Preferred Stock w/           $64,450,000                                                                                                      $4.75             $174.3     $10.79         895,968      ($6.04)       OUT         $2,918,153
                                                Warrants
01/09/09   Codorus Valley Bancorp, Inc.,        Preferred Stock w/           $16,500,000                                                                                                      $5.28              $21.4      $9.38         263,859      ($4.10)       OUT          $701,250
           York, PA                             Warrants
                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                 177
CPP Transaction Detail, As of 12/31/2009                                                 (CONTINUED)                                                                                                                                                                                       178
                                                                                           Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                Amount
                                                                                                                                                                                                                                                  “In the
                                                                                                                                                                                       Current                                                  Money”        In or       Income Paid
                                                                                              Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                      Investment                    Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                        Description                      Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

02/13/09   ColoEast Bankshares, Inc.,         Preferred Stock w/          $10,000,000                                                                                                                                                                                       $411,778
           Lamar, CO 2                        Exercised Warrants
03/27/09   Colonial American Bank, West       Preferred Stock w/             $574,000                                                                                                                                                                                         $19,830
           Conshohocken, PA 2                 Exercised Warrants
01/09/09   Colony Bankcorp, Inc.,             Preferred Stock w/          $28,000,000                                                                                                   $4.61              $33.3      $8.40         500,000      ($3.79)       OUT         $1,190,000
           Fitzgerald, GA                     Warrants
11/21/08   Columbia Banking System, Inc.,     Preferred Stock w/          $76,898,000                                                                                                  $16.18             $454.6     $14.49         398,023       $1.69          IN        $3,780,818
           Tacoma, WA b                       Warrants
02/27/09   Columbine Capital Corp., Buena     Preferred Stock w/           $2,260,000                                                                                                                                                                                         $88,272
           Vista, CO 2                        Exercised Warrants
11/14/08   Comerica Inc., Dallas, TX          Preferred Stock w/        $2,250,000,000                                                                                                 $29.57           $4,468.8     $29.40      11,479,592       $0.17          IN     $112,812,500
                                              Warrants
01/09/09   Commerce National Bank,            Preferred Stock w/           $5,000,000     10/07/09           $5,000,000          $0                                                     $5.85              $15.3      $8.60          87,209      ($2.75)       OUT            $36,111
           Newport Beach, CA 4                Warrants
05/22/09   Commonwealth Bancshares,           Subordinated Debentures     $20,400,000                                                                                                                                                                                       $822,505
           Inc., Louisville, KY 8             w/ Exercised Warrants
01/23/09   Commonwealth Business Bank,        Preferred Stock w/           $7,701,000                                                                                                                                                                                         $25,648
           Los Angeles, CA 2                  Exercised Warrants
                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I January 30, 2010




01/16/09   Community 1st Bank, Roseville,     Preferred Stock w/           $2,550,000                                                                                                                                                                                         $69,510
           CA 2                               Exercised Warrants
03/06/09   Community Bancshares of            Preferred Stock w/             $500,000                                                                                                                                                                                         $18,848
           Kansas, Inc., Goff, KS 2           Exercised Warrants
09/11/09   Community Bancshares of            Preferred Stock w/          $52,000,000                                                                                                                                                                                       $503,822
           Mississippi, Inc., Brandon, MS 2   Exercised Warrants
07/24/09   Community Bancshares, Inc.,        Preferred Stock w/           $3,872,000                                                                                                                                                                                         $62,912
           Kingman, AZ 2, 10                  Exercised Warrants
01/16/09   Community Bank of the Bay,         Preferred Stock              $1,747,000                                                                                                                                                                                         $21,838
           Oakland, CA 3
05/29/09   Community Bank Shares of           Preferred Stock w/          $19,468,000                                                                                                   $6.53              $21.3      $7.56         386,270      ($1.03)       OUT          $448,845
           Indiana, Inc., New Albany, IN      Warrants
12/19/08   Community Bankers Trust            Preferred Stock w/          $17,680,000                                                                                                   $3.26              $70.0      $3.40         780,000      ($0.14)       OUT          $800,511
           Corporation, Glen Allen, VA        Warrants
02/27/09   Community Business Bank, West      Preferred Stock w/           $3,976,000                                                                                                                                                                                       $155,309
           Sacramento, CA 2                   Exercised Warrants
12/19/08   Community Financial                Preferred Stock w/          $12,643,000                                                                                                   $4.34              $18.9      $5.40         351,194      ($1.06)       OUT          $572,447
           Corporation, Staunton, VA          Warrants
05/15/09   Community Financial Shares,        Preferred Stock w/           $6,970,000                                                                                                                                                                                       $189,955
           Inc., Glen Ellyn, IL 2             Exercised Warrants
03/20/09   Community First Bancshares         Preferred Stock w/          $20,000,000                                                                                                                                                                                       $711,528
           Inc., Union City, TN 2             Exercised Warrants
04/03/09   Community First Bancshares,        Preferred Stock w/          $12,725,000                                                                                                                                                                                       $427,652
           Inc., Harrison, AR 2               Exercised Warrants
02/27/09   Community First Inc., Columbia,    Preferred Stock w/          $17,806,000                                                                                                                                                                                       $695,453
           TN 2                               Exercised Warrants
02/06/09   Community Holding Company          Preferred Stock w/           $1,050,000                                                                                                                                                                                         $44,176
           of Florida, Inc., Miramar          Exercised Warrants
           Beach, FL 2
12/23/08   Community Investors Bancorp,       Preferred Stock w/           $2,600,000                                                                                                                                                                                       $126,743
           Inc., Bucyrus, OH 2                Exercised Warrants
01/30/09   Community Partners Bancorp,        Preferred Stock w/           $9,000,000                                                                                                   $3.11              $22.3      $4.54         297,116      ($1.43)       OUT          $356,250
           Middletown, NJ a                   Warrants
11/13/09   Community Pride Bank               Subordinated Debentures      $4,400,000
           Corporation, Ham Lake, MN 8, 10    w/ Exercised Warrants
01/09/09   Community Trust Financial          Preferred Stock w/          $24,000,000                                                                                                                                                                                      $1,111,800
           Corporation, Ruston, LA 2          Exercised Warrants
12/19/08   Community West Bancshares,         Preferred Stock w/          $15,600,000                                                                                                   $2.75              $16.3      $4.49         521,158      ($1.74)       OUT          $706,333
           Goleta, CA                         Warrants
01/09/09   Congaree Bancshares, Inc.,         Preferred Stock w/           $3,285,000                                                                                                                                                                                       $152,159
           Cayce, SC 2                        Exercised Warrants
                                                                                                                                                                                                                                                                 Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                        (CONTINUED)
                                                                                                  Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                          Amount
                                                                                                                                                                                                                                                            “In the
                                                                                                                                                                                                 Current                                                  Money”        In or       Income Paid
                                                                                                     Capital            Capital     Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                             Investment                    Investment     Repayment          Repayment        Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                               Description                      Amount           Date             Amount        Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

02/13/09   Corning Savings and Loan                  Preferred Stock w/             $638,000                                                                                                                                                                                            $26,278
           Association, Corning, AR 2                Exercised Warrants

01/30/09   Country Bank Shares, Inc.,                Preferred Stock w/           $7,525,000                                                                                                                                                                                          $324,655
           Milford, NE 2                             Exercised Warrants
06/05/09   Covenant Financial Corporation,           Preferred Stock w/           $5,000,000                                                                                                                                                                                          $121,111
           Clarksdale, MS 2                          Exercised Warrants
02/20/09   Crazy Woman Creek Bancorp,                Preferred Stock w/           $3,100,000                                                                                                                                                                                          $124,366
           Inc., Buffalo, WY 2                       Exercised Warrants
01/09/09   Crescent Financial Corporation,           Preferred Stock w/          $24,900,000                                                                                                      $3.18              $30.6      $4.48         833,705      ($1.30)       OUT         $1,058,250
           Cary, NC                                  Warrants
01/23/09   Crosstown Holding Company,                Preferred Stock w/          $10,650,000                                                                                                                                                                                          $470,826
           Blaine, MN 2                              Exercised Warrants
03/27/09                                     2       Preferred Stock w/           $2,400,000                                                                                                                                                                                            $82,840
           CSRA Bank Corp., Wrens, GA
                                                     Exercised Warrants
12/05/08   CVB Financial Corp, Ontario,              Preferred Stock w/                          08/26/09          $97,500,000    $32,500,000   10/28/09       R
                                                                                $130,000,000                                                                                   $1,307,000         $8.64             $917.8                                                           $4,739,583
           CA 4, 9, c                                Warrants                                    09/02/09          $32,500,000            $0
02/27/09                                         2   Preferred Stock w/          $19,891,000                                                                                                                                                                                          $776,939
           D.L. Evans Bancorp, Burley, ID
                                                     Exercised Warrants
05/15/09   Deerfield Financial Corporation,          Subordinated Debentures      $2,639,000                                                                                                                                                                                          $110,710
           Deerfield, WI 8                           w/ Exercised Warrants
12/04/09   Delmar Bancorp, Delmar, MD 2              Preferred Stock w/           $9,000,000
                                                     Exercised Warrants
02/13/09   DeSoto County Bank, Horn                  Preferred Stock w/           $1,173,000
           Lake, MS 2, c                             Exercised Warrants
                                                                                                                                                                                                                                                                                        $48,325
12/29/09   DeSoto County Bank, Horn Lake,            Preferred Stock              $1,508,000
           MS 2, 10a, c
05/22/09   Diamond Bancorp, Inc.,                    Subordinated Debentures     $20,445,000                                                                                                                                                                                          $824,302
           Washington, MO 8                          w/ Exercised Warrants
01/16/09   Dickinson Financial Corporation           Preferred Stock w/         $146,053,000                                                                                                                                                                                         $2,631,197
           II, Kansas City, MO 2                     Exercised Warrants
03/13/09   Discover Financial Services,              Preferred Stock w/        $1,224,558,000                                                                                                    $14.71           $7,986.4      $8.96      20,500,413       $5.75          IN      $41,158,754
           Riverwoods, IL                            Warrants
01/30/09   DNB Financial Corporation,                Preferred Stock w/          $11,750,000                                                                                                      $6.15              $16.1      $9.46         186,311      ($3.31)       OUT          $465,104
           Downingtown, PA                           Warrants
06/19/09   Duke Financial Group, Inc.,               Subordinated Debentures     $12,000,000                                                                                                                                                                                          $408,316
           Minneapolis, MN 8                         w/ Exercised Warrants
12/05/08   Eagle Bancorp, Inc., Bethesda,            Preferred Stock w/          $38,235,000     12/23/09          $15,000,000    $23,235,000                                                    $10.47             $204.3      $7.44         385,434       $3.03          IN        $1,884,709
           MD 5, b                                   Warrants
12/05/08   East West Bancorp, Pasadena,              Preferred Stock w/         $306,546,000                                                                                                     $15.80           $1,449.4     $15.15       1,517,555       $0.65          IN      $14,475,783
           CA b                                      Warrants
01/09/09   Eastern Virginia Bankshares,              Preferred Stock w/          $24,000,000                                                                                                      $7.10              $42.1      $9.63         373,832      ($2.53)       OUT         $1,020,000
           Inc., Tappahannock, VA                    Warrants
01/16/09   ECB Bancorp, Inc., Engelhard,             Preferred Stock w/          $17,949,000                                                                                                     $11.11              $31.6     $18.57         144,984      ($7.46)       OUT          $745,383
           NC                                        Warrants
12/23/08   Emclaire Financial Corp.,                 Preferred Stock w/           $7,500,000                                                                                                     $13.85              $19.8     $22.45          50,111      ($8.60)       OUT          $335,417
           Emlenton, PA                              Warrants
12/05/08   Encore Bancshares Inc.,                   Preferred Stock w/          $34,000,000                                                                                                      $8.02              $84.2     $14.01         364,026      ($5.99)       OUT         $1,605,556
           Houston, TX                               Warrants
12/19/08   Enterprise Financial Services             Preferred Stock w/          $35,000,000                                                                                                      $7.71              $99.0     $16.20         324,074      ($8.49)       OUT         $1,584,722
           Corp., St. Louis, MO                      Warrants
06/12/09   Enterprise Financial Services             Preferred Stock w/           $4,000,000                                                                                                                                                                                            $92,650
           Group, Inc., Allison Park, PA 2           Exercised Warrants
01/30/09   Equity Bancshares, Inc.,                  Preferred Stock w/           $8,750,000                                                                                                                                                                                          $377,562
           Wichita, KS 2                             Exercised Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I january 30, 2010




12/19/08   Exchange Bank, Santa Rosa,                Preferred Stock w/          $43,000,000                                                                                                                                                                                         $2,122,169
           CA 2                                      Exercised Warrants
05/22/09   F & C Bancorp, Inc., Holden,              Subordinated Debentures      $2,993,000                                                                                                                                                                                          $120,698
           MO 8                                      w/ Exercised Warrants
                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                     179
CPP Transaction Detail, As of 12/31/2009                                                        (CONTINUED)                                                                                                                                                                                       180
                                                                                                  Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                       Amount
                                                                                                                                                                                                                                                         “In the
                                                                                                                                                                                              Current                                                  Money”        In or       Income Paid
                                                                                                     Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                             Investment                    Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                               Description                      Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

01/30/09   F & M Bancshares, Inc.,                   Preferred Stock w/           $4,609,000
           Trezevant, TN 2, c                        Exercised Warrants
                                                                                                                                                                                                                                                                                   $198,827
11/06/09   F & M Bancshares, Inc.,                   Preferred Stock              $3,535,000
           Trezevant, TN 2, 10a, c
02/06/09   F & M Financial Corporation,              Preferred Stock w/          $17,000,000                                                                                                                                                                                       $718,038
           Salisbury, NC 2                           Exercised Warrants
02/13/09   F&M Financial Corporation,                Preferred Stock w/          $17,243,000                                                                                                                                                                                       $710,018
           Clarksville, TN 2                         Exercised Warrants
01/09/09   F.N.B. Corporation, Hermitage,            Preferred Stock w/         $100,000,000     09/09/09         $100,000,000          $0                                                     $6.79             $774.0     $11.52         651,042      ($4.73)       OUT         $3,333,333
           PA 4, b                                   Warrants
03/06/09   Farmers & Merchants                       Preferred Stock w/          $11,000,000                                                                                                                                                                                       $414,655
           Bancshares, Inc., Houston, TX 2           Exercised Warrants
03/20/09   Farmers & Merchants Financial             Preferred Stock w/             $442,000                                                                                                                                                                                         $15,719
           Corporation, Argonia, KS 2                Exercised Warrants
01/23/09   Farmers Bank, Windsor, VA 2               Preferred Stock w/           $8,752,000                                                                                                                                                                                       $386,916
                                                     Exercised Warrants
01/09/09   Farmers Capital Bank                      Preferred Stock w/          $30,000,000                                                                                                  $10.22              $75.3     $20.09         223,992      ($9.87)       OUT         $1,275,000
           Corporation, Frankfort, KY                Warrants
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I January 30, 2010




06/19/09   Farmers Enterprises, Inc., Great          Subordinated Debentures     $12,000,000                                                                                                                                                                                       $408,316
           Bend, KS 8                                w/ Exercised Warrants
03/20/09   Farmers State Bankshares, Inc.,           Preferred Stock w/             $700,000                                                                                                                                                                                         $25,197
           Holton, KS 2, 10                          Exercised Warrants
12/29/09   FBHC Holding Company,                     Subordinated Debentures      $3,035,000
           Boulder, CO 8,10                          w/ Exercised Warrants
06/26/09                                         2   Preferred Stock w/          $21,042,000                                                                                                                                                                                       $156,090
           FC Holdings, Inc., Houston, TX
                                                     Exercised Warrants
12/19/08   FCB Bancorp, Inc., Louisville,            Preferred Stock w/           $9,294,000                                                                                                                                                                                       $458,710
           KY 2                                      Exercised Warrants
12/19/08                                     2       Preferred Stock w/           $7,289,000                                                                                                                                                                                       $359,696
           FFW Corporation, Wabash, IN
                                                     Exercised Warrants
05/29/09   Fidelity Bancorp, Inc,                    Subordinated Debentures      $3,942,000                                                                                                                                                                                       $152,500
           Baton Rouge, LA 8                         w/ Exercised Warrants
12/12/08   Fidelity Bancorp, Inc., Pittsburgh,       Preferred Stock w/           $7,000,000                                                                                                   $5.01              $15.3      $8.65         121,387      ($3.64)       OUT          $323,750
           PA                                        Warrants
11/13/09   Fidelity Federal Bancorp,                 Preferred Stock w/           $6,657,000
           Evansville, IN 2, 10                      Exercised Warrants
12/19/08   Fidelity Financial Corporation,           Preferred Stock w/          $36,282,000                                                                                                                                                                                      $1,790,609
           Wichita, KS 2                             Exercised Warrants
06/26/09   Fidelity Resources Company,               Preferred Stock w/           $3,000,000                                                                                                                                                                                         $63,129
           Plano, TX 2                               Exercised Warrants
12/19/08   Fidelity Southern Corporation,            Preferred Stock w/          $48,200,000                                                                                                   $3.60              $35.8      $3.13       2,312,128       $0.47          IN        $2,182,389
           Atlanta, GA a                             Warrants
12/31/08   Fifth Third Bancorp, Cincinnati,          Preferred Stock w/        $3,408,000,000                                                                                                  $9.75           $7,754.3     $11.72      43,617,747      ($1.97)       OUT      $170,400,000
           OH                                        Warrants
12/23/08   Financial Institutions, Inc.,             Preferred Stock w/          $37,515,000                                                                                                  $11.78             $127.5     $14.88         378,175      ($3.10)       OUT         $1,677,755
           Warsaw, NY                                Warrants
02/13/09   Financial Security Corporation,           Preferred Stock w/           $5,000,000                                                                                                                                                                                       $205,889
           Basin, WY 2                               Exercised Warrants
07/31/09   Financial Services of Winger,             Subordinated Debentures      $3,742,000                                                                                                                                                                                         $88,547
           Inc., Winger, MN 8, 10                    w/ Exercised Warrants
05/22/09   First Advantage Bancshares Inc.,          Preferred Stock w/           $1,177,000                                                                                                                                                                                         $30,832
           Coon Rapids, MN 2                         Exercised Warrants
06/26/09   First Alliance Bancshares, Inc.,          Preferred Stock w/           $3,422,000                                                                                                                                                                                         $72,006
           Cordova, TN 2                             Exercised Warrants
07/24/09   First American Bank Corporation,          Subordinated Debentures     $50,000,000                                                                                                                                                                                      $1,293,475
           Elk Grove Village, IL 8                   w/ Exercised Warrants
03/13/09   First American International              Preferred Stock             $17,000,000                                                                                                                                                                                       $571,389
           Corp., Brooklyn, NY 3
01/09/09   First Bancorp, Troy, NC                   Preferred Stock w/          $65,000,000                                                                                                  $13.97             $233.0     $15.82         616,308      ($1.85)       OUT         $2,762,500
                                                     Warrants
                                                                                                                                                                                                                                                                        Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                  (CONTINUED)
                                                                                            Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                 Amount
                                                                                                                                                                                                                                                   “In the
                                                                                                                                                                                        Current                                                  Money”        In or       Income Paid
                                                                                               Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                         Investment                  Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                           Description                    Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

01/16/09   First BanCorp, San Juan, PR           Preferred Stock w/        $400,000,000                                                                                                  $2.30             $212.9     $10.27       5,842,259      ($7.97)       OUT         $6,611,111
                                                 Warrants
02/20/09   First BancTrust Corporation,          Preferred Stock w/          $7,350,000                                                                                                                                                                                      $294,901
           Paris, IL 2                           Exercised Warrants
02/06/09   First Bank of Charleston, Inc.,       Preferred Stock w/          $3,345,000                                                                                                                                                                                      $141,267
           Charleston, WV 2                      Exercised Warrants
01/16/09   First Bankers Trustshares, Inc.,      Preferred Stock w/         $10,000,000                                                                                                                                                                                      $452,653
           Quincy, IL 2                          Exercised Warrants
12/31/08                                     2   Preferred Stock w/        $295,400,000                                                                                                                                                                                     $6,037,238
           First Banks, Inc., Clayton, MO
                                                 Exercised Warrants
03/06/09   First Busey Corporation,              Preferred Stock w/        $100,000,000                                                                                                  $3.89             $258.1     $13.07         573,833      ($9.18)       OUT         $3,458,333
           Urbana, IL b                          Warrants
04/10/09   First Business Bank, N.A., San        Preferred Stock w/          $2,211,000
           Diego, CA 2, c                        Exercised Warrants
                                                                                                                                                                                                                                                                               $71,989
12/11/09   First Business Bank, N.A., San        Preferred Stock             $2,032,000
           Diego, CA 2, 10a, c
12/19/08   First California Financial Group,     Preferred Stock w/         $25,000,000                                                                                                  $2.74              $31.9      $6.26         599,042      ($3.52)       OUT         $1,131,944
           Inc, Westlake Village, CA             Warrants
04/03/09   First Capital Bancorp, Inc., Glen     Preferred Stock w/         $10,958,000                                                                                                  $4.80              $14.3      $6.55         250,947      ($1.75)       OUT          $337,872
           Ellen, VA                             Warrants
02/13/09   First Choice Bank, Cerritos,          Preferred Stock w/          $2,200,000
           CA 2, c                               Exercised Warrants
                                                                                                                                                                                                                                                                               $90,591
12/22/09   First Choice Bank, Cerritos,          Preferred Stock             $2,836,000
           CA 2, 10a, c
01/23/09   First Citizens Banc Corp,             Preferred Stock w/         $23,184,000                                                                                                  $4.65              $35.8      $7.41         469,312      ($2.76)       OUT          $940,240
           Sandusky, OH                          Warrants
03/20/09   First Colebrook Bancorp, Inc.,        Preferred Stock w/          $4,500,000                                                                                                                                                                                      $160,094
           Colebrook, NH 2                       Exercised Warrants
05/15/09   First Community Bancshares,           Preferred Stock w/         $14,800,000                                                                                                                                                                                      $403,300
           Inc, Overland Park, KS 2              Exercised Warrants
12/23/08   First Community Bank                  Preferred Stock w/         $10,685,000                                                                                                  $2.41              $10.0      $7.02         228,312      ($4.62)       OUT          $477,857
           Corporation of America, Pinellas      Warrants
           Park, FL
11/21/08   First Community Bankshares            Preferred Stock w/         $41,500,000    07/08/09          $41,500,000          $0                                                    $12.05             $212.9     $35.26          88,273     ($23.21)       OUT         $1,308,403
           Inc., Bluefield, VA 5, b              Warrants
11/21/08   First Community Corporation,          Preferred Stock w/         $11,350,000                                                                                                  $6.30              $20.5      $8.69         195,915      ($2.39)       OUT          $558,042
           Lexington, SC                         Warrants
12/11/09   First Community Financial             Preferred Stock w/         $22,000,000
           Partners, Inc., Joliet, IL 2          Exercised Warrants
12/05/08   First Defiance Financial Corp.,       Preferred Stock w/         $37,000,000                                                                                                 $11.29              $91.7     $10.08         550,595       $1.21          IN        $1,747,222
           Defiance, OH                          Warrants
09/11/09   First Eagle Bancshares, Inc.,         Subordinated Debentures     $7,500,000                                                                                                                                                                                      $111,867
           Hanover Park, IL 8                    w/ Exercised Warrants
02/06/09   First Express of Nebraska, Inc.,      Preferred Stock w/          $5,000,000                                                                                                                                                                                      $211,188
           Gering, NE 2                          Exercised Warrants
03/06/09   First Federal Bancshares of           Preferred Stock w/         $16,500,000                                                                                                  $2.29              $11.1      $7.69         321,847      ($5.40)       OUT          $570,625
           Arkansas, Inc., Harrison, AR          Warrants
12/23/08   First Financial Bancorp,              Preferred Stock w/         $80,000,000                                                                                                 $14.56             $748.8     $12.90         465,117       $1.66          IN        $3,577,778
           Cincinnati, OH b                      Warrants
06/12/09   First Financial Bancshares, Inc.,     Subordinated Debentures     $3,756,000                                                                                                                                                                                      $129,543
           Lawrence, KS 8, 10                    w/ Exercised Warrants
12/05/08   First Financial Holdings Inc.,        Preferred Stock w/         $65,000,000                                                                                                 $13.00             $214.8     $20.17         241,696      ($7.17)       OUT         $3,069,444
           Charleston, SC b                      Warrants
01/09/09   First Financial Service               Preferred Stock w/         $20,000,000                                                                                                  $9.06              $42.7     $13.89         215,983      ($4.83)       OUT          $850,000
           Corporation, Elizabethtown, KY        Warrants
                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I january 30, 2010




12/22/09   First Freedom Bancshares, Inc.,       Preferred Stock w/          $8,700,000
           Lebanon, TN 2, 10                     Exercised Warrants
02/27/09   First Gothenburg Bancshares,          Preferred Stock w/          $7,570,000                                                                                                                                                                                      $295,704
           Inc., Gothenburg, NE 2                Exercised Warrants
                                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                                            181
CPP Transaction Detail, As of 12/31/2009                                               (CONTINUED)                                                                                                                                                                                        182
                                                                                         Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                               Amount
                                                                                                                                                                                                                                                 “In the
                                                                                                                                                                                      Current                                                  Money”        In or       Income Paid
                                                                                            Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                      Investment                  Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                        Description                    Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

08/28/09   First Guaranty Bancshares, Inc.,   Preferred Stock w/         $20,699,000                                                                                                                                                                                       $241,192
           Hammond, LA 2                      Exercised Warrants
11/14/08   First Horizon National             Preferred Stock w/        $866,540,000                                                                                                  $13.40           $2,973.8      $9.45      13,748,944       $3.95          IN      $43,447,353
           Corporation, Memphis, TN a         Warrants
08/28/09   First Independence Corporation,    Preferred Stock             $3,223,000                                                                                                                                                                                         $34,468
           Detroit, MI 2, 3
03/13/09   First Intercontinental Bank,       Preferred Stock w/          $6,398,000                                                                                                                                                                                       $234,404
           Doraville, GA 2                    Exercised Warrants
12/12/08   First Litchfield Financial         Preferred Stock w/         $10,000,000                                                                                                  $14.55              $34.3      $7.53         199,203       $7.02          IN         $462,500
           Corporation, Litchfield, CT        Warrants
02/27/09   First M&F Corporation,             Preferred Stock w/         $30,000,000                                                                                                   $2.21              $20.0      $8.77         513,113      ($6.56)       OUT         $1,075,000
           Kosciusko, MS                      Warrants
01/16/09   First Manitowoc Bancorp, Inc.,     Preferred Stock w/         $12,000,000    05/27/09          $12,000,000          $0    05/27/09       R                $600,000                                                                                              $237,983
           Manitowoc, WI 2, 4, 7              Exercised Warrants
02/06/09   First Market Bank, FSB,            Preferred Stock w/         $33,900,000                                                                                                                                                                                      $1,431,851
           Richmond, VA 2                     Exercised Warrants
02/13/09   First Menasha Bancshares, Inc.,    Preferred Stock w/          $4,797,000                                                                                                                                                                                       $197,540
           Neenah, WI 2                       Exercised Warrants
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I January 30, 2010




02/20/09   First Merchants Corporation,       Preferred Stock w/        $116,000,000                                                                                                   $5.94             $127.2     $17.55         991,453     ($11.61)       OUT         $4,269,444
           Muncie, IN                         Warrants
12/05/08   First Midwest Bancorp, Inc.,       Preferred Stock w/        $193,000,000                                                                                                  $10.89             $596.8     $22.18       1,305,230     ($11.29)       OUT         $9,113,889
           Itasca, IL                         Warrants
03/13/09   First National Corporation,        Preferred Stock w/         $13,900,000                                                                                                                                                                                       $509,242
           Strasburg, VA 2                    Exercised Warrants
03/20/09   First NBC Bank Holding             Preferred Stock w/         $17,836,000                                                                                                                                                                                       $634,552
           Company, New Orleans, LA 2         Exercised Warrants
11/21/08   First Niagara Financial Group,     Preferred Stock w/        $184,011,000    05/27/09         $184,011,000          $0    06/24/09       R               $2,700,000        $13.91           $2,617.9                                                           $4,753,618
           Lockport, NY 5-9                   Warrants
03/13/09   First Northern Community           Preferred Stock w/         $17,390,000                                                                                                   $4.85              $43.7      $7.39         352,977      ($2.54)       OUT          $584,497
           Bancorp, Dixon, CA                 Warrants
11/21/08   First PacTrust Bancorp, Inc.,      Preferred Stock w/         $19,300,000                                                                                                   $5.35              $22.7     $10.31         280,795      ($4.96)       OUT          $948,917
           Chula Vista, CA                    Warrants
03/13/09   First Place Financial Corp.,       Preferred Stock w/         $72,927,000                                                                                                   $2.77              $47.0      $2.98       3,670,822      ($0.21)       OUT         $2,451,157
           Warren, OH                         Warrants
02/20/09   First Priority Financial Corp.,    Preferred Stock w/          $4,579,000
           Malvern, PA 2, c                   Exercised Warrants
                                                                                                                                                                                                                                                                           $183,704
12/18/09   First Priority Financial Corp.,    Preferred Stock             $4,596,000
           Malvern, PA 2, 10a, c
03/06/09   First Reliance Bancshares, Inc.,   Preferred Stock w/         $15,349,000                                                                                                                                                                                       $578,566
           Florence, SC 2                     Exercised Warrants
01/30/09   First Resource Bank, Exton,        Preferred Stock w/          $2,600,000
           PA 2, c                            Exercised Warrants
                                                                                                                                                                                                                                                                           $112,180
12/11/09   First Resource Bank, Exton,        Preferred Stock             $2,417,000
           PA 2, 10a, c
01/09/09   First Security Group, Inc.,        Preferred Stock w/         $33,000,000                                                                                                   $2.38              $39.1      $6.01         823,627      ($3.63)       OUT         $1,402,500
           Chattanooga, TN                    Warrants
12/23/08   First Sound Bank, Seattle, WA      Preferred Stock w/          $7,400,000                                                                                                   $0.65               $1.4      $9.73         114,080      ($9.08)       OUT          $330,944
                                              Warrants
07/17/09   First South Bancorp, Inc.,         Subordinated Debentures    $50,000,000                                                                                                                                                                                      $1,375,027
           Lexington, TN 8                    w/ Exercised Warrants
01/30/09   First Southern Bancorp, Inc.,      Preferred Stock w/         $10,900,000                                                                                                                                                                                       $470,289
           Boca Raton, FL 2                   Exercised Warrants
03/06/09   First Southwest Bancorporation,    Preferred Stock w/          $5,500,000                                                                                                                                                                                       $207,327
           Inc., Alamosa, CO 2                Exercised Warrants
02/27/09   First State Bank of Mobeetie,      Preferred Stock w/           $731,000                                                                                                                                                                                          $28,581
           Mobeetie, TX 2                     Exercised Warrants
03/06/09   First Texas BHC, Inc., Fort        Preferred Stock w/         $13,533,000                                                                                                                                                                                       $510,159
           Worth, TX 2                        Exercised Warrants
                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                               (CONTINUED)
                                                                                         Capital Repayment Details                               Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                Amount
                                                                                                                                                                                                                                                  “In the
                                                                                                                                                                                       Current                                                  Money”        In or       Income Paid
                                                                                            Capital            Capital   Remaining           Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                      Investment                  Investment     Repayment          Repayment      Capital     Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                        Description                    Amount           Date             Amount      Amount            Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

06/05/09   First Trust Corporation, New       Subordinated Debentures    $17,969,000                                                                                                                                                                                        $670,012
           Orleans, LA 8                      w/ Exercised Warrants
01/23/09   First ULB Corp., Oakland,          Preferred Stock w/          $4,900,000    04/22/09           $4,900,000           $0    04/22/09       R                $245,000                                                                                                $66,021
           CA 2, 4, 7                         Exercised Warrants
01/30/09   First United Corporation,          Preferred Stock w/         $30,000,000                                                                                                    $6.00              $36.8     $13.79         326,323      ($7.79)       OUT         $1,187,500
           Oakland, MD                        Warrants
06/12/09   First Vernon Bancshares, Inc.,     Preferred Stock w/          $6,000,000                                                                                                                                                                                        $136,871
           Vernon, AL 2, 10                   Exercised Warrants
02/06/09   First Western Financial, Inc.,     Preferred Stock w/          $8,559,000
           Denver, CO 2, c                    Exercised Warrants
                                                                                                                                                                                                                                                                            $361,514
12/11/09   First Western Financial, Inc.,     Preferred Stock            $11,881,000
           Denver, CO 2, 10a, c
01/30/09   Firstbank Corporation, Alma, MI    Preferred Stock w/         $33,000,000                                                                                                    $8.42              $64.9      $8.55         578,947      ($0.13)       OUT         $1,306,250
                                              Warrants
01/09/09   FirstMerit Corporation, Akron,     Preferred Stock w/        $125,000,000    04/22/09         $125,000,000           $0    05/27/09       R               $5,025,000        $20.14           $1,728.9                                                           $1,788,194
           OH 4                               Warrants
01/30/09   Flagstar Bancorp, Inc., Troy, MI   Preferred Stock w/        $266,657,000                                                                                                    $0.60             $281.3      $0.62      64,513,790      ($0.02)       OUT       $10,555,172
                                              Warrants
07/24/09   Florida Bank Group, Inc.,          Preferred Stock w/         $20,471,000                                                                                                                                                                                        $344,011
           Tampa, FL 2                        Exercised Warrants
02/20/09   Florida Business BancGroup,        Preferred Stock w/          $9,495,000                                                                                                                                                                                        $380,938
           Inc., Tampa, FL 2                  Exercised Warrants
12/19/08   Flushing Financial Corporation,    Preferred Stock w/         $70,000,000    10/28/09          $70,000,000           $0    12/30/09       R                $900,000         $11.26             $350.5                                                           $3,004,167
           Lake Success, NY 5, 9, b           Warrants
02/27/09   FNB Bancorp, South San             Preferred Stock w/         $12,000,000                                                                                                                                                                                        $468,700
           Francisco, CA 2                    Exercised Warrants
02/13/09   FNB United Corp., Asheboro, NC     Preferred Stock w/         $51,500,000                                                                                                    $1.30              $14.9      $3.50       2,207,143      ($2.20)       OUT         $1,945,555
                                              Warrants
05/15/09   Foresight Financial Group, Inc.,   Preferred Stock w/         $15,000,000                                                                                                                                                                                        $408,750
           Rockford, IL 2                     Exercised Warrants
05/22/09   Fort Lee Federal Savings Bank,     Preferred Stock w/          $1,300,000                                                                                                                                                                                          $34,047
           Fort Lee, NJ 2                     Exercised Warrants
04/03/09   Fortune Financial Corporation,     Preferred Stock w/          $3,100,000                                                                                                                                                                                        $104,186
           Arnold, MO 2                       Exercised Warrants
12/05/08   FPB Bancorp, Inc., Port St.        Preferred Stock w/          $5,800,000                                                                                                    $1.15               $2.4      $4.75         183,158      ($3.60)       OUT          $273,889
           Lucie, FL                          Warrants
01/23/09   FPB Financial Corp., Hammond,      Preferred Stock w/          $3,240,000    12/16/09           $1,000,000    $2,240,000                                                                                                                                         $147,532
           LA 2, 4                            Exercised Warrants
05/22/09   Franklin Bancorp, Inc.,            Preferred Stock w/          $5,097,000                                                                                                                                                                                        $133,498
           Washington, MO 2                   Exercised Warrants
05/08/09   Freeport Bancshares, Inc.,         Subordinated Debentures     $3,000,000                                                                                                                                                                                        $130,743
           Freeport, IL 8                     w/ Exercised Warrants
06/26/09   Fremont Bancorporation,            Subordinated Debentures    $35,000,000                                                                                                                                                                                       $1,133,830
           Fremont, CA 8                      w/ Exercised Warrants
01/23/09   Fresno First Bank, Fresno, CA 2    Preferred Stock w/          $1,968,000                                                                                                                                                                                          $53,610
                                              Exercised Warrants
04/24/09   Frontier Bancshares, Inc.,         Subordinated Debentures     $3,000,000    11/24/09           $1,600,000    $1,400,000                                                                                                                                         $143,612
           Austin, TX 8                       w/ Exercised Warrants
12/23/08   Fulton Financial Corporation,      Preferred Stock w/        $376,500,000                                                                                                    $8.72           $1,537.0     $10.25       5,509,756      ($1.53)       OUT       $16,837,917
           Lancaster, PA                      Warrants
05/08/09   Gateway Bancshares, Inc.,          Preferred Stock w/          $6,000,000                                                                                                                                                                                        $169,858
           Ringgold, GA 2                     Exercised Warrants
02/06/09   Georgia Commerce Bancshares,       Preferred Stock w/          $8,700,000                                                                                                                                                                                        $367,466
           Inc., Atlanta, GA 2                Exercised Warrants
                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I january 30, 2010




05/01/09   Georgia Primary Bank, Atlanta,     Preferred Stock w/          $4,500,000
           GA 2                               Exercised Warrants
03/06/09   Germantown Capital                 Preferred Stock w/          $4,967,000                                                                                                                                                                                        $187,213
           Corporation, Inc., Germantown,     Exercised Warrants
           TN 2
06/26/09   Gold Canyon Bank,                  Preferred Stock w/          $1,607,000                                                                                                                                                                                          $32,692
           Gold Canyon, AZ 2, 10              Exercised Warrants
                                                                                                                                                                                                                                                                                           183




                                                                                                                                                                                                                                                                 Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                (CONTINUED)                                                                                                                                                                                       184
                                                                                          Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                               Amount
                                                                                                                                                                                                                                                 “In the
                                                                                                                                                                                      Current                                                  Money”        In or       Income Paid
                                                                                             Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                     Investment                    Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                       Description                      Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

01/30/09   Goldwater Bank, N.A.,             Preferred Stock w/           $2,568,000                                                                                                                                                                                       $110,770
           Scottsdale, AZ 2                  Exercised Warrants
04/24/09   Grand Capital Corporation,        Preferred Stock w/           $4,000,000                                                                                                                                                                                       $121,717
           Tulsa, OK 2                       Exercised Warrants
09/25/09   Grand Financial Corporation,      Subordinated Debentures      $2,443,320                                                                                                                                                                                         $28,467
           Hattiesburg, MS 8                 w/ Exercised Warrants
05/29/09   Grand Mountain Bancshares,        Preferred Stock w/           $3,076,000
           Inc., Granby, CO 2                Exercised Warrants
01/09/09   GrandSouth Bancorporation,        Preferred Stock w/           $9,000,000
           Greenville, SC 2, c               Exercised Warrants
                                                                                                                                                                                                                                                                           $416,925
12/11/09   GrandSouth Bancorporation,        Preferred Stock              $6,319,000
           Greenville, SC 2, 10a, c
07/17/09   Great River Holding Company,      Subordinated Debentures      $8,400,000                                                                                                                                                                                       $231,005
           Baxter, MN 8                      w/ Exercised Warrants
12/05/08   Great Southern Bancorp,           Preferred Stock w/          $58,000,000                                                                                                  $21.36             $286.4      $9.57         909,091      $11.79          IN        $2,738,889
           Springfield, MO                   Warrants
12/23/08   Green Bankshares, Inc.,           Preferred Stock w/          $72,278,000                                                                                                   $3.55              $46.8     $17.06         635,504     ($13.51)       OUT         $3,232,433
           Greeneville, TN                   Warrants
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I January 30, 2010




02/27/09   Green Circle Investments, Inc.,   Preferred Stock w/           $2,400,000                                                                                                                                                                                         $93,740
           Clive, IA 2                       Exercised Warrants
02/27/09   Green City Bancshares, Inc.,      Preferred Stock w/             $651,000                                                                                                                                                                                         $25,456
           Green City, MO 2                  Exercised Warrants
01/30/09   Greer Bancshares Incorporated,    Preferred Stock w/           $9,993,000                                                                                                                                                                                       $431,181
           Greer, SC 2                       Exercised Warrants
02/13/09   Gregg Bancshares, Inc., Ozark,    Preferred Stock w/             $825,000                                                                                                                                                                                         $33,955
           MO 2                              Exercised Warrants
02/20/09   Guaranty Bancorp, Inc.,           Preferred Stock w/           $6,920,000                                                                                                                                                                                       $277,617
           Woodsville, NH 2                  Exercised Warrants
09/25/09   Guaranty Capital Corporation,     Subordinated Debentures     $14,000,000                                                                                                                                                                                       $149,716
           Belzoni, MS 3, 8
01/30/09   Guaranty Federal Bancshares,      Preferred Stock w/          $17,000,000                                                                                                   $5.08              $13.4      $5.55         459,459      ($0.47)       OUT          $672,917
           Inc., Springfield, MO             Warrants
09/25/09   GulfSouth Private Bank, Destin,   Subordinated Debentures      $7,500,000                                                                                                                                                                                         $84,518
           FL 8, 10                          w/ Exercised Warrants
06/26/09   Gulfstream Bancshares, Inc.,      Preferred Stock w/           $7,500,000                                                                                                                                                                                       $157,823
           Stuart, FL 2                      Exercised Warrants
02/20/09   Hamilton State Bancshares,        Preferred Stock w/           $7,000,000                                                                                                                                                                                       $280,827
           Hoschton, GA 2                    Exercised Warrants
12/31/08   Hampton Roads Bankshares,         Preferred Stock w/          $80,347,000                                                                                                   $1.73              $37.8      $9.09       1,325,858      ($7.36)       OUT         $2,510,844
           Inc., Norfolk, VA                 Warrants
07/17/09   Harbor Bankshares Corporation,    Preferred Stock              $6,800,000                                                                                                                                                                                       $111,444
           Baltimore, MD 2, 3
06/26/09   Hartford Financial Services       Preferred Stock w/        $3,400,000,000                                                                                                 $23.26           $8,908.8      $9.79      52,093,973      $13.47          IN      $65,638,889
           Group, Inc., Hartford, CT         Warrants
03/13/09   Haviland Bancshares, Inc.,        Preferred Stock w/             $425,000                                                                                                                                                                                         $15,556
           Haviland, KS 2                    Exercised Warrants
12/19/08   Hawthorn Bancshares, Inc.,        Preferred Stock w/          $30,255,000                                                                                                   $9.54              $41.0     $17.78         255,261      ($8.24)       OUT         $1,369,880
           Lee’s Summit, MO a                Warrants
03/06/09   HCSB Financial Corporation,       Preferred Stock w/          $12,895,000                                                                                                  $11.00              $41.7     $21.09          91,714     ($10.09)       OUT          $445,952
           Loris, SC                         Warrants
09/11/09   Heartland Bancshares, Inc.,       Preferred Stock w/           $7,000,000                                                                                                                                                                                         $66,190
           Franklin, IN 2, 10                Exercised Warrants
12/19/08   Heartland Financial USA, Inc.,    Preferred Stock w/          $81,698,000                                                                                                  $14.35             $234.2     $20.10         609,687      ($5.75)       OUT         $3,699,104
           Dubuque, IA                       Warrants
09/25/09   Heritage Bankshares, Inc.,        Preferred Stock w/          $10,103,000                                                                                                                                                                                         $73,947
           Norfolk, VA 2, 10                 Exercised Warrants
11/21/08   Heritage Commerce Corp.,          Preferred Stock w/          $40,000,000                                                                                                   $4.02              $47.5     $12.96         462,963      ($8.94)       OUT         $1,466,667
           San Jose, CA                      Warrants
                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                   (CONTINUED)
                                                                                             Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                   Amount
                                                                                                                                                                                                                                                     “In the
                                                                                                                                                                                          Current                                                  Money”        In or       Income Paid
                                                                                                Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                        Investment                    Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                          Description                      Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

11/21/08   Heritage Financial Corporation,      Preferred Stock w/          $24,000,000                                                                                                   $13.78             $152.4     $13.04         138,037       $0.74          IN        $1,180,000
           Olympia, WA b                        Warrants
03/20/09   Heritage Oaks Bancorp, Paso          Preferred Stock w/          $21,000,000                                                                                                    $5.00              $38.8      $5.15         611,650      ($0.15)       OUT          $685,416
           Robles, CA                           Warrants
11/21/08   HF Financial Corp., Sioux            Preferred Stock w/          $25,000,000     06/03/09          $25,000,000          $0    06/30/09       R                $650,000          $9.72              $63.6                                                            $666,667
           Falls, SD 4                          Warrants
03/06/09   Highlands Independent                Preferred Stock w/           $6,700,000                                                                                                                                                                                        $252,562
           Bancshares, Inc., Sebring, FL 2      Exercised Warrants
05/08/09   Highlands State Bank, Vernon,        Preferred Stock w/           $3,091,000
           NJ 2, c                              Exercised Warrants
                                                                                                                                                                                                                                                                                 $87,526
12/22/09   Highlands State Bank, Vernon,        Preferred Stock              $2,359,000
           NJ 2, 10a, c
01/30/09   Hilltop Community Bancorp, Inc.,     Preferred Stock w/           $4,000,000                                                                                                                                                                                        $172,583
           Summit, NJ 2                         Exercised Warrants
12/23/08   HMN Financial, Inc., Rochester,      Preferred Stock w/          $26,000,000                                                                                                    $4.20              $17.8      $4.68         833,333      ($0.48)       OUT         $1,162,778
           MN                                   Warrants
01/16/09   Home Bancshares, Inc.,               Preferred Stock w/          $50,000,000                                                                                                   $24.07             $618.2     $26.03         144,065      ($1.96)       OUT         $2,076,389
           Conway, AR b                         Warrants
02/20/09   Hometown Bancorp of Alabama,         Preferred Stock w/           $3,250,000                                                                                                                                                                                        $130,417
           Inc., Oneonta, AL 2                  Exercised Warrants
02/13/09   Hometown Bancshares, Inc.,           Preferred Stock w/           $1,900,000                                                                                                                                                                                          $78,238
           Corbin, KY 2                         Exercised Warrants
09/18/09   HomeTown Bankshares                  Preferred Stock w/          $10,000,000                                                                                                                                                                                          $84,496
           Corporation, Roanoke, VA 2, 10       Exercised Warrants
12/12/08   HopFed Bancorp, Hopkinsville,        Preferred Stock w/          $18,400,000                                                                                                    $9.34              $33.6     $11.32         243,816      ($1.99)       OUT          $851,000
           KY                                   Warrants
12/19/08   Horizon Bancorp, Michigan            Preferred Stock w/          $25,000,000                                                                                                   $16.22              $53.1     $17.68         212,104      ($1.46)       OUT         $1,131,944
           City, IN                             Warrants
02/27/09   Howard Bancorp, Inc.,                Preferred Stock w/           $5,983,000                                                                                                                                                                                        $233,676
           Ellicott City, MD 2                  Exercised Warrants
05/01/09   HPK Financial Corporation,           Preferred Stock w/           $4,000,000
           Chicago, IL 2, c                     Exercised Warrants
                                                                                                                                                                                                                                                                               $117,478
11/13/09   HPK Financial Corporation,           Preferred Stock w/           $5,000,000
           Chicago, IL 2, 10a, c                Exercised Warrants
11/14/08   Huntington Bancshares,               Preferred Stock w/        $1,398,071,000                                                                                                   $3.65           $2,609.9      $8.90      23,562,994      ($5.25)       OUT       $70,097,727
           Columbus, OH                         Warrants
02/06/09   Hyperion Bank, Philadelphia, PA 2    Preferred Stock w/           $1,552,000                                                                                                                                                                                          $65,581
                                                Exercised Warrants
09/18/09   IA Bancorp, Inc., Iselin, NJ 2, 10   Preferred Stock w/           $5,976,000                                                                                                                                                                                          $49,861
                                                Exercised Warrants
05/15/09   IBC Bancorp, Inc., Chicago,          Subordinated Debentures      $4,205,000                                                                                                                                                                                        $161,892
           IL 3, 8
12/05/08   Iberiabank Corporation,              Preferred Stock w/          $90,000,000     03/31/09          $90,000,000          $0    05/20/09       R               $1,200,000        $53.81           $1,111.0                                                           $1,450,000
           Lafayette, LA 5, 9                   Warrants
03/27/09   IBT Bancorp, Inc., Irving, TX 2      Preferred Stock w/           $2,295,000                                                                                                                                                                                          $79,230
                                                Exercised Warrants
03/13/09   IBW Financial Corporation,           Preferred Stock              $6,000,000                                                                                                                                                                                        $213,067
           Washington, DC 2, 3a - 11/13/09, I
03/06/09   ICB Financial, Ontario, CA 2         Preferred Stock w/           $6,000,000                                                                                                                                                                                        $226,175
                                                Exercised Warrants
01/16/09                               2        Preferred Stock w/           $6,900,000                                                                                                                                                                                        $124,306
           Idaho Bancorp, Boise, ID
                                                Exercised Warrants
05/22/09   Illinois State Bancorp, Inc.,        Preferred Stock w/           $6,272,000
           Chicago, IL 2, c                     Exercised Warrants
                                                                                                                                                                                                                                                                               $164,283
                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I january 30, 2010




12/29/09   Illinois State Bancorp, Inc.,        Preferred Stock w/           $4,000,000
           Chicago, IL 2, 10a, c                Exercised Warrants
01/09/09   Independence Bank, East              Preferred Stock w/           $1,065,000                                                                                                                                                                                          $49,317
           Greenwich, RI 2                      Exercised Warrants
                                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                                              185
CPP Transaction Detail, As of 12/31/2009                                                   (CONTINUED)                                                                                                                                                                                        186
                                                                                             Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                   Amount
                                                                                                                                                                                                                                                     “In the
                                                                                                                                                                                          Current                                                  Money”        In or       Income Paid
                                                                                                Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                     Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                       Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

01/09/09   Independent Bank Corp.,             Preferred Stock w/           $78,158,000     04/22/09          $78,158,000          $0    05/27/09       R               $2,200,000        $20.86             $436.6                                                           $1,118,094
           Rockland, MA 4                      Warrants
12/12/08   Independent Bank Corporation,       Preferred Stock w/           $72,000,000                                                                                                    $0.72              $17.3      $3.12       3,461,538      ($2.40)       OUT         $2,430,000
           Ionia, MI                           Warrants
04/24/09                                   2   Preferred Stock w/            $1,312,000                                                                                                                                                                                          $39,944
           Indiana Bank Corp., Dana, IN
                                               Exercised Warrants
12/12/08   Indiana Community Bancorp,          Preferred Stock w/           $21,500,000                                                                                                    $7.60              $25.5     $17.09         188,707      ($9.49)       OUT          $994,375
           Columbus, IN                        Warrants
02/27/09   Integra Bank Corporation,           Preferred Stock w/           $83,586,000                                                                                                    $0.74              $15.5      $1.69       7,418,876      ($0.95)       OUT         $1,950,340
           Evansville, IN                      Warrants
12/19/08   Intermountain Community             Preferred Stock w/           $27,000,000                                                                                                    $2.40              $20.1      $6.20         653,226      ($3.80)       OUT         $1,222,500
           Bancorp, Sandpoint, ID              Warrants
12/23/08   International Bancshares            Preferred Stock w/          $216,000,000                                                                                                   $18.91           $1,290.4     $24.43       1,326,238      ($5.52)       OUT         $9,660,000
           Corporation, Laredo, TX             Warrants
12/23/08   Intervest Bancshares                Preferred Stock w/           $25,000,000                                                                                                    $3.28              $27.1      $5.42         691,882      ($2.14)       OUT         $1,118,056
           Corporation, New York, NY           Warrants
05/08/09   Investors Financial Corporation     Subordinated Debentures       $4,000,000                                                                                                                                                                                        $174,325
           of Pettis County, Inc., Sedalia,    w/ Exercised Warrants
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 30, 2010




           MO 8
10/28/08   JPMorgan Chase & Co.,               Preferred Stock w/        $25,000,000,000    06/17/09      $25,000,000,000          $0    12/10/09       A          $950,318,243           $41.67        $171,052.6                                                         $795,138,889
           New York, NY 4, h                   Warrants
01/30/09   Katahdin Bankshares Corp.,          Preferred Stock w/           $10,449,000                                                                                                                                                                                        $450,799
           Houlton, ME 2                       Exercised Warrants
11/14/08   KeyCorp, Cleveland, OH              Preferred Stock w/         $2,500,000,000                                                                                                   $5.55           $4,876.2     $10.64      35,244,361      ($5.09)       OUT      $125,347,222
                                               Warrants
03/20/09   Kirksville Bancorp, Inc.,           Preferred Stock w/              $470,000                                                                                                                                                                                          $16,750
           Kirksville, MO 2                    Exercised Warrants
08/21/09   KS Bancorp, Inc., Smithfield,       Preferred Stock w/            $4,000,000                                                                                                                                                                                          $50,867
           NC 2                                Exercised Warrants
02/20/09   Lafayette Bancorp, Inc., Oxford,    Preferred Stock w/            $1,998,000
           MS 2, c                             Exercised Warrants
                                                                                                                                                                                                                                                                                 $80,162
12/29/09   Lafayette Bancorp, Inc.,            Preferred Stock               $2,453,000
           Oxford, MS 2, 10a, c
02/06/09   Lakeland Bancorp, Inc., Oak         Preferred Stock w/           $59,000,000                                                                                                    $6.39             $152.3      $9.32         949,571      ($2.93)       OUT         $2,286,250
           Ridge, NJ                           Warrants
02/27/09   Lakeland Financial Corporation,     Preferred Stock w/           $56,044,000                                                                                                   $17.25             $273.3     $21.20         198,269      ($3.95)       OUT         $2,008,243
           Warsaw, IN b                        Warrants
12/18/09   Layton Park Financial Group,        Preferred Stock w/            $3,000,000
           Milwaukee, WI 2                     Exercised Warrants
01/09/09                               4       Preferred Stock w/           $13,400,000     10/21/09          $13,400,000          $0                                                     $10.50              $70.2      $9.26         217,063       $1.24          IN         $524,833
           LCNB Corp., Lebanon, OH
                                               Warrants
12/23/08   Leader Bancorp, Inc., Arlington,    Preferred Stock w/            $5,830,000                                                                                                                                                                                        $284,237
           MA 2                                Exercised Warrants
01/30/09   Legacy Bancorp, Inc.,               Preferred Stock               $5,498,000                                                                                                                                                                                        $217,629
           Milwaukee, WI 3
12/04/09   Liberty Bancshares, Inc.,           Preferred Stock w/            $6,500,000
           Fort Worth, TX 2, 10                Exercised Warrants
01/23/09   Liberty Bancshares, Inc.,           Preferred Stock w/           $57,500,000                                                                                                                                                                                       $2,541,820
           Jonesboro, AR 2                     Exercised Warrants
02/13/09   Liberty Bancshares, Inc.,           Preferred Stock w/           $21,900,000                                                                                                                                                                                        $901,793
           Springfield, MO 2                   Exercised Warrants
02/06/09   Liberty Financial Services, Inc.,   Preferred Stock               $5,645,000                                                                                                                                                                                        $218,744
           New Orleans, LA 3
02/20/09   Liberty Shares, Inc., Hinesville,   Preferred Stock w/           $17,280,000                                                                                                                                                                                        $693,240
           GA 2                                Exercised Warrants
07/10/09   Lincoln National Corporation,       Preferred Stock w/          $950,000,000                                                                                                   $24.88           $7,518.4     $10.92      13,049,451      $13.96          IN      $16,493,054
           Radnor, PA                          Warrants
12/12/08   LNB Bancorp Inc., Lorain, OH        Preferred Stock w/           $25,223,000                                                                                                    $4.31              $31.4      $6.74         561,343      ($2.43)       OUT         $1,166,564
                                               Warrants
                                                                                                                                                                                                                                                                    Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                    (CONTINUED)
                                                                                              Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                      Amount
                                                                                                                                                                                                                                                        “In the
                                                                                                                                                                                             Current                                                  Money”        In or       Income Paid
                                                                                                 Capital            Capital     Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                         Investment                    Investment     Repayment          Repayment        Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                           Description                      Amount           Date             Amount        Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

02/06/09   Lone Star Bank, Houston, TX 2         Preferred Stock w/           $3,072,000
                                                 Exercised Warrants
12/12/08   LSB Corporation,                      Preferred Stock w/          $15,000,000     11/18/09          $15,000,000            $0    12/16/09       R                $560,000          $9.71              $43.7                                                            $700,000
           North Andover, MA 4                   Warrants
06/26/09   M&F Bancorp, Inc.,                    Preferred Stock             $11,735,000                                                                                                                                                                                          $226,551
           Durham, NC 2, 3, 10
12/23/08   M&T Bank Corporation,                 Preferred Stock w/         $600,000,000                                                                                                     $66.89           $7,899.1     $73.86       1,218,522      ($6.97)       OUT       $26,833,333
           Buffalo, NY                           Warrants
04/24/09   Mackinac Financial Corporation,       Preferred Stock w/          $11,000,000                                                                                                      $4.64              $15.9      $4.35         379,310       $0.29          IN         $307,083
           Manistique, MI                        Warrants
03/13/09   Madison Financial Corporation,        Preferred Stock w/           $3,370,000                                                                                                                                                                                          $123,494
           Richmond, KY 2                        Exercised Warrants
12/23/08                               2,4       Preferred Stock w/          $13,795,000     11/24/09           $3,455,000    $10,340,000                                                                                                                                         $676,807
           Magna Bank, Memphis, TN
                                                 Exercised Warrants
12/29/09   Mainline Bancorp, Inc.,               Preferred Stock w/           $4,500,000
           Ebensburg, PA 2                       Exercised Warrants
01/16/09   MainSource Financial Group,           Preferred Stock w/          $57,000,000                                                                                                      $4.78              $96.3     $14.95         571,906     ($10.17)       OUT         $2,367,083
           Inc., Greensburg, IN                  Warrants
12/05/08   Manhattan Bancorp, El Segundo,        Preferred Stock w/           $1,700,000     09/16/09           $1,700,000            $0    10/14/09       R                 $63,364          $7.00              $27.9                                                              $66,347
           CA 4                                  Warrants
06/19/09   Manhattan Bancshares, Inc.,           Subordinated Debentures      $2,639,000                                                                                                                                                                                            $89,798
           Manhattan, IL 8                       w/ Exercised Warrants
03/06/09   Marine Bank & Trust Company,          Preferred Stock w/           $3,000,000                                                                                                                                                                                          $113,088
           Vero Beach, FL 2                      Exercised Warrants
02/20/09   Market Bancorporation, Inc.,          Preferred Stock w/           $2,060,000                                                                                                                                                                                            $82,643
           New Market, MN 2                      Exercised Warrants
05/15/09   Market Street Bancshares, Inc.,       Subordinated Debentures     $20,300,000                                                                                                                                                                                          $851,585
           Mt. Vernon, IL 8                      w/ Exercised Warrants
12/19/08   Marquette National Corporation,       Preferred Stock w/          $35,500,000                                                                                                                                                                                         $1,752,024
           Chicago, IL 2                         Exercised Warrants
11/14/08   Marshall & Ilsley Corporation,        Preferred Stock w/        $1,715,000,000                                                                                                     $5.45           $2,859.6     $18.62      13,815,789     ($13.17)       OUT       $85,988,194
           Milwaukee, WI                         Warrants
03/27/09   Maryland Financial Bank,              Preferred Stock w/           $1,700,000                                                                                                                                                                                            $35,516
           Towson, MD 2                          Exercised Warrants
12/05/08                                     b   Preferred Stock w/         $196,000,000                                                                                                     $19.71             $997.1     $29.05         506,024      ($9.34)       OUT         $9,255,556
           MB Financial Inc., Chicago, IL
                                                 Warrants
11/20/09   McLeod Bancshares, Inc.,              Preferred Stock w/           $6,000,000
           Shorewood, MN 2                       Exercised Warrants
02/27/09   Medallion Bank, Salt Lake City,       Preferred Stock w/          $11,800,000
           UT 2, c                               Exercised Warrants
                                                                                                                                                                                                                                                                                  $460,888
12/22/09   Medallion Bank, Salt Lake City,       Preferred Stock w/           $9,698,000
           UT 2, 10a, c                          Exercised Warrants
05/15/09   Mercantile Bank Corporation,          Preferred Stock w/          $21,000,000                                                                                                      $3.08              $26.5      $5.11         616,438      ($2.03)       OUT          $525,000
           Grand Rapids, MI                      Warrants
02/06/09   Mercantile Capital Corp.,             Preferred Stock w/           $3,500,000                                                                                                                                                                                          $147,831
           Boston, MA 2                          Exercised Warrants
06/19/09   Merchants and Manufacturers           Preferred Stock w/           $3,510,000                                                                                                                                                                                            $77,599
           Bank Corporation, Joliet, IL 2        Exercised Warrants

03/06/09   Merchants and Planters                Preferred Stock w/           $1,881,000                                                                                                                                                                                            $70,903
           Bancshares, Inc., Toone, TN 2         Exercised Warrants

02/13/09   Meridian Bank, Devon, PA 2, c         Preferred Stock w/           $6,200,000
                                                 Exercised Warrants                                                                                                                                                                                                               $255,302
12/11/09   Meridian Bank, Devon, PA 2, 10a, c    Preferred Stock              $6,335,000

01/30/09   Metro City Bank, Doraville, GA 2      Preferred Stock w/           $7,700,000                                                                                                                                                                                          $332,223
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 30, 2010




                                                 Exercised Warrants
01/16/09   MetroCorp Bancshares, Inc.,           Preferred Stock w/          $45,000,000                                                                                                      $3.50              $38.2      $8.75         771,429      ($5.25)       OUT         $1,868,750
           Houston, TX                           Warrants
06/26/09   Metropolitan Bank Group, Inc.,        Preferred Stock w/          $71,526,000                                                                                                                                                                                         $1,505,115
           Chicago, IL 2                         Exercised Warrants
                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                 187
CPP Transaction Detail, As of 12/31/2009                                                   (CONTINUED)                                                                                                                                                                                        188
                                                                                             Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                   Amount
                                                                                                                                                                                                                                                     “In the
                                                                                                                                                                                          Current                                                  Money”        In or       Income Paid
                                                                                                Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                     Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                       Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

04/10/09   Metropolitan Capital Bancorp,       Preferred Stock w/            $2,040,000
           Inc., Chicago, IL 2, c              Exercised Warrants
                                                                                                                                                                                                                                                                                 $66,400
11/20/09   Metropolitan Capital Bancorp,       Preferred Stock               $2,348,000
           Inc., Chicago, IL 2, 10a, c
12/19/08   Mid Penn Bancorp, Inc.,             Preferred Stock w/           $10,000,000                                                                                                   $10.29              $35.8     $20.52          73,099     ($10.23)       OUT          $452,778
           Millersburg, PA                     Warrants
01/30/09   Middleburg Financial                Preferred Stock w/           $22,000,000     12/23/09          $22,000,000          $0                                                     $12.10              $83.5     $15.85         104,101      ($3.75)       OUT          $986,944
           Corporation, Middleburg, VA 5, b    Warrants
01/23/09   Midland States Bancorp, Inc.,       Preferred Stock w/           $10,189,000     12/23/09          $10,189,000          $0    12/23/09       R                $509,000                                                                                              $508,989
           Effingham, IL 2, 4                  Exercised Warrants
01/09/09   MidSouth Bancorp, Inc.,             Preferred Stock w/           $20,000,000                                                                                                   $13.90             $129.5     $14.37         104,384      ($0.47)       OUT          $850,000
           Lafayette, LA b                     Warrants
02/27/09   Midtown Bank & Trust Company,       Preferred Stock w/            $5,222,000                                                                                                                                                                                        $203,957
           Atlanta, GA 2                       Exercised Warrants
12/05/08   Midwest Banc Holdings, Inc.,        Preferred Stock w/           $84,784,000                                                                                                    $0.36              $10.1      $2.97       4,282,020      ($2.61)       OUT          $824,289
           Melrose Park, IL                    Warrants
02/13/09   Midwest Regional Bancorp, Inc.,     Preferred Stock w/              $700,000     11/10/09             $700,000          $0    11/10/09       R                 $35,000                                                                                                $28,294
           Festus, MO 2, 4                     Exercised Warrants
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 30, 2010




02/06/09   MidWestOne Financial Group,         Preferred Stock w/           $16,000,000                                                                                                    $8.74              $75.2     $12.08         198,675      ($3.34)       OUT          $620,000
           Inc., Iowa City, IA                 Warrants
02/20/09   Mid-Wisconsin Financial Services,   Preferred Stock w/           $10,000,000                                                                                                                                                                                        $401,181
           Inc., Medford, WI 2                 Exercised Warrants
04/03/09   Millennium Bancorp, Inc.,           Preferred Stock w/            $7,260,000                                                                                                                                                                                        $243,997
           Edwards, CO 2                       Exercised Warrants
01/09/09   Mission Community Bancorp,          Preferred Stock               $5,116,000                                                                                                                                                                                        $217,430
           San Luis Obispo, CA 3
12/23/08   Mission Valley Bancorp, Sun         Preferred Stock               $5,500,000                                                                                                                                                                                        $245,972
           Valley, CA 3
12/19/08   Monadnock Bancorp, Inc.,            Preferred Stock w/            $1,834,000                                                                                                                                                                                          $90,537
           Peterborough, NH 2                  Exercised Warrants
02/06/09   Monarch Community Bancorp,          Preferred Stock w/            $6,785,000                                                                                                    $2.70               $5.5      $3.90         260,962      ($1.20)       OUT          $262,919
           Inc., Coldwater, MI                 Warrants
12/19/08   Monarch Financial Holdings, Inc.,   Preferred Stock w/           $14,700,000     12/23/09          $14,700,000          $0                                                      $6.10              $35.3      $8.33         132,353      ($2.23)       OUT          $743,167
           Chesapeake, VA 5, b                 Warrants
03/13/09   Moneytree Corporation, Lenoir       Preferred Stock w/            $9,516,000                                                                                                                                                                                        $348,641
           City, TN 2                          Exercised Warrants
01/30/09   Monument Bank, Bethesda, MD 2       Preferred Stock w/            $4,734,000                                                                                                                                                                                        $204,273
                                               Exercised Warrants
10/28/08   Morgan Stanley, New York, NY 4      Preferred Stock w/        $10,000,000,000    06/17/09      $10,000,000,000          $0    08/12/09       R          $950,000,000           $29.60         $40,239.2                                                         $318,055,555
                                               Warrants
01/16/09   Morrill Bancshares, Inc.,           Preferred Stock w/           $13,000,000                                                                                                                                                                                        $588,449
           Merriam, KS 2                       Exercised Warrants
01/23/09   Moscow Bancshares, Inc.,            Preferred Stock w/            $6,216,000                                                                                                                                                                                        $274,797
           Moscow, TN 2                        Exercised Warrants
09/25/09   Mountain Valley Bancshares,         Preferred Stock w/            $3,300,000                                                                                                                                                                                          $24,979
           Inc., Cleveland, GA 2               Exercised Warrants
03/27/09   MS Financial, Inc., Kingwood,       Preferred Stock w/            $7,723,000                                                                                                                                                                                        $266,564
           TX 2                                Exercised Warrants
12/23/08   MutualFirst Financial, Inc.,        Preferred Stock w/           $32,382,000                                                                                                    $5.98              $41.8      $7.77         625,135      ($1.79)       OUT         $1,448,195
           Muncie, IN                          Warrants
03/27/09   Naples Bancorp, Inc., Naples,       Preferred Stock w/            $4,000,000                                                                                                                                                                                        $138,067
           FL 2                                Exercised Warrants
11/21/08   Nara Bancorp, Inc., Los Angeles,    Preferred Stock w/           $67,000,000                                                                                                   $11.34             $428.9      $9.64         521,266       $1.70          IN        $3,294,167
           CA b                                Warrants
02/27/09   National Bancshares, Inc.,          Preferred Stock w/           $24,664,000                                                                                                                                                                                        $963,322
           Bettendorf, IA 2                    Exercised Warrants
12/12/08   National Penn Bancshares, Inc.,     Preferred Stock w/          $150,000,000                                                                                                    $5.79             $727.8     $15.30         735,294      ($9.51)       OUT         $6,937,500
           Boyertown, PA b                     Warrants
12/11/09   Nationwide Bankshares, Inc.,        Subordinated Debentures       $2,000,000
           West Point, NE 8                    w/ Exercised Warrants
                                                                                                                                                                                                                                                                    Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                  (CONTINUED)
                                                                                            Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                  Amount
                                                                                                                                                                                                                                                    “In the
                                                                                                                                                                                         Current                                                  Money”        In or       Income Paid
                                                                                               Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                    Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                      Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

06/26/09   NC Bancorp, Inc., Chicago, IL 2     Preferred Stock w/           $6,880,000                                                                                                                                                                                        $144,776
                                               Exercised Warrants
12/19/08   NCAL Bancorp, Los Angeles,          Preferred Stock w/          $10,000,000                                                                                                                                                                                        $493,528
           CA 2                                Exercised Warrants
06/19/09   NEMO Bancshares Inc.,               Subordinated Debentures      $2,330,000                                                                                                                                                                                          $79,309
           Madison, MO 8                       w/ Exercised Warrants
01/16/09   New Hampshire Thrift                Preferred Stock w/          $10,000,000                                                                                                    $9.69              $55.9      $8.14         184,275       $1.55          IN         $415,278
           Bancshares, Inc., Newport, NH       Warrants
01/09/09   New York Private Bank & Trust       Preferred Stock w/         $267,274,000                                                                                                                                                                                     $12,381,491
           Corporation, New York, NY 2         Exercised Warrants
12/12/08   NewBridge Bancorp,                  Preferred Stock w/          $52,372,000                                                                                                    $2.22              $34.8      $3.06       2,567,255      ($0.84)       OUT         $2,422,205
           Greensboro, NC                      Warrants
12/23/08   Nicolet Bankshares, Inc.,           Preferred Stock w/          $14,964,000                                                                                                                                                                                        $729,437
           Green Bay, WI 2                     Exercised Warrants
01/09/09   North Central Bancshares, Inc.,     Preferred Stock w/          $10,200,000                                                                                                   $15.97              $21.5     $15.43          99,157       $0.54          IN         $433,500
           Fort Dodge, IA                      Warrants
12/12/08   Northeast Bancorp, Lewiston,        Preferred Stock w/           $4,227,000                                                                                                    $8.45              $19.6      $9.33          67,958      ($0.88)       OUT          $195,499
           ME                                  Warrants
05/15/09   Northern State Bank,                Preferred Stock w/           $1,341,000
           Closter, NJ 2, c                    Exercised Warrants
                                                                                                                                                                                                                                                                                $36,540
12/18/09   Northern State Bank,                Preferred Stock              $1,230,000
           Closter, NJ 2, 10a, c
02/20/09   Northern States Financial           Preferred Stock w/          $17,211,000                                                                                                    $4.43              $18.0      $4.42         584,084       $0.01          IN         $418,322
           Corporation, Waukegan, IL           Warrants
11/14/08   Northern Trust Corporation,         Preferred Stock w/        $1,576,000,000    06/17/09       $1,576,000,000          $0    08/26/09       R           $87,000,000           $52.40         $12,654.9                                                          $46,623,333
           Chicago, IL 4                       Warrants
01/30/09   Northway Financial, Inc.,           Preferred Stock w/          $10,000,000                                                                                                                                                                                        $431,458
           Berlin, NH 2                        Exercised Warrants
02/13/09   Northwest Bancorporation, Inc.,     Preferred Stock w/          $10,500,000                                                                                                                                                                                        $432,367
           Spokane, WA 2                       Exercised Warrants
02/13/09   Northwest Commercial Bank,          Preferred Stock w/           $1,992,000                                                                                                                                                                                          $82,053
           Lakewood, WA 2                      Exercised Warrants
01/30/09   Oak Ridge Financial Services,       Preferred Stock w/           $7,700,000                                                                                                    $4.25               $7.6      $7.05         163,830      ($2.80)       OUT          $304,792
           Inc., Oak Ridge, NC                 Warrants
12/05/08   Oak Valley Bancorp, Oakdale, CA     Preferred Stock w/          $13,500,000                                                                                                    $4.41              $33.9      $5.78         350,346      ($1.37)       OUT          $637,500
                                               Warrants
01/16/09   OceanFirst Financial Corp., Toms    Preferred Stock w/          $38,263,000     12/30/09          $38,263,000          $0                                                     $11.29             $203.1     $15.07         190,427      ($3.78)       OUT         $1,828,122
           River, NJ 5, b                      Warrants
01/30/09   Ojai Community Bank, Ojai, CA 2     Preferred Stock w/           $2,080,000                                                                                                                                                                                          $89,743
                                               Exercised Warrants
12/05/08   Old Line Bancshares, Inc.,          Preferred Stock w/           $7,000,000     07/15/09           $7,000,000          $0    09/02/09       R                $225,000          $6.59              $25.5                                                            $213,889
           Bowie, MD 4                         Warrants
12/12/08   Old National Bancorp, Evansville,   Preferred Stock w/         $100,000,000     03/31/09         $100,000,000          $0    05/08/09       R               $1,200,000        $12.43           $1,083.6                                                           $1,513,889
           IN 4                                Warrants
01/16/09   Old Second Bancorp, Inc.,           Preferred Stock w/          $73,000,000                                                                                                    $6.89              $95.2     $13.43         815,339      ($6.54)       OUT         $3,031,528
           Aurora, IL                          Warrants
04/17/09   Omega Capital Corp.,                Preferred Stock w/           $2,816,000                                                                                                                                                                                          $50,310
           Lakewood, CO 2                      Exercised Warrants
05/08/09   One Georgia Bank, Atlanta, GA 2     Preferred Stock w/           $5,500,000
                                               Exercised Warrants
06/05/09   OneFinancial Corporation,           Subordinated Debentures     $17,300,000                                                                                                                                                                                        $623,995
           Little Rock, AR 8, 10               w/ Exercised Warrants
12/19/08                                   3   Preferred Stock             $12,063,000                                                                                                                                                                                          $93,823
           OneUnited Bank, Boston, MA
04/24/09   Oregon Bancorp, Inc., Salem,        Preferred Stock w/           $3,216,000                                                                                                                                                                                          $97,870
                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I january 30, 2010




           OR 2                                Exercised Warrants
05/01/09   OSB Financial Services, Inc.,       Subordinated Debentures      $6,100,000                                                                                                                                                                                        $147,848
           Orange, TX 8                        w/ Exercised Warrants
11/21/08   Pacific Capital Bancorp, Santa      Preferred Stock w/         $180,634,000                                                                                                    $0.96              $44.9     $17.92       1,512,003     ($16.96)       OUT         $2,107,397
           Barbara, CA                         Warrants
                                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                                             189
CPP Transaction Detail, As of 12/31/2009                                            (CONTINUED)                                                                                                                                                                                       190
                                                                                      Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                           Amount
                                                                                                                                                                                                                                             “In the
                                                                                                                                                                                  Current                                                  Money”        In or       Income Paid
                                                                                         Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                        Investment             Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                          Description               Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

12/19/08   Pacific City Financial               Preferred Stock w/    $16,200,000                                                                                                                                                                                      $358,065
           Corporation,                         Exercised Warrants
           Los Angeles, CA 2
12/23/08   Pacific Coast Bankers’               Preferred Stock w/    $11,600,000                                                                                                                                                                                      $565,468
           Bancshares, San Francisco, CA 2      Exercised Warrants
01/16/09   Pacific Coast National Bancorp,      Preferred Stock w/     $4,120,000                                                                                                                                                                                        $18,088
           San Clemente, CA 2                   Exercised Warrants
12/23/08   Pacific Commerce Bank, Los           Preferred Stock w/     $4,060,000                                                                                                                                                                                      $165,952
           Angeles, CA 2                        Exercised Warrants
12/12/08   Pacific International Bancorp,       Preferred Stock w/     $6,500,000                                                                                                  $4.00               $8.0      $7.63         127,785      ($3.63)       OUT          $138,125
           Seattle, WA                          Warrants
03/06/09   Park Bancorporation, Inc.,           Preferred Stock w/    $23,200,000                                                                                                                                                                                      $874,543
           Madison, WI 2                        Exercised Warrants
12/23/08   Park National Corporation,           Preferred Stock w/   $100,000,000                                                                                                 $58.88             $840.0     $65.97         227,376      ($7.09)       OUT         $4,472,222
           Newark, OH                           Warrants
01/30/09   Parke Bancorp, Inc., Sewell, NJ      Preferred Stock w/    $16,288,000                                                                                                  $8.49              $34.2      $8.15         299,779       $0.34          IN         $644,733
                                                Warrants
12/23/08   Parkvale Financial Corporation,      Preferred Stock w/    $31,762,000                                                                                                  $6.95              $37.7     $12.66         376,327      ($5.71)       OUT         $1,420,467
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I January 30, 2010




           Monroeville, PA                      Warrants
02/06/09   Pascack Community Bank,              Preferred Stock w/     $3,756,000                                                                                                                                                                                      $158,658
           Westwood, NJ 2                       Exercised Warrants
12/19/08   Patapsco Bancorp, Inc.,              Preferred Stock w/     $6,000,000                                                                                                                                                                                      $296,117
           Dundalk, MD 2                        Exercised Warrants
09/11/09   Pathfinder Bancorp, Inc.,            Preferred Stock w/     $6,771,000                                                                                                  $5.60              $13.9      $6.58         154,354      ($0.98)       OUT            $60,187
           Oswego, NY                           Warrants
03/27/09   Pathway Bancorp, Cairo, NE 2         Preferred Stock w/     $3,727,000                                                                                                                                                                                        $77,852
                                                Exercised Warrants
12/19/08   Patriot Bancshares, Inc.,            Preferred Stock w/    $26,038,000                                                                                                                                                                                     $1,285,056
           Houston, TX 2                        Exercised Warrants
04/17/09   Patterson Bancshares, Inc,           Preferred Stock w/     $3,690,000                                                                                                                                                                                        $15,645
           Patterson, LA 2                      Exercised Warrants
01/09/09   Peapack-Gladstone Financial          Preferred Stock w/    $28,685,000                                                                                                 $12.68             $110.5     $28.63         150,296     ($15.95)       OUT         $1,219,113
           Corporation, Gladstone, NJ a         Warrants
01/30/09   Peninsula Bank Holding Co.,          Preferred Stock w/     $6,000,000                                                                                                  $7.75              $14.4     $11.02          81,670      ($3.27)       OUT
           Palo Alto, CA                        Warrants
04/17/09   Penn Liberty Financial Corp.,        Preferred Stock w/     $9,960,000                                                                                                                                                                                      $313,629
           Wayne, PA 2                          Exercised Warrants
02/13/09                                    2   Preferred Stock w/    $18,000,000                                                                                                                                                                                      $741,200
           Peoples Bancorp, Lynden, WA
                                                Exercised Warrants
01/30/09   Peoples Bancorp Inc., Marietta,      Preferred Stock w/    $39,000,000                                                                                                  $9.68             $101.5     $18.66         313,505      ($8.98)       OUT         $1,543,750
           OH                                   Warrants
12/23/08   Peoples Bancorp of North             Preferred Stock w/    $25,054,000                                                                                                  $4.95              $27.4     $10.52         357,234      ($5.57)       OUT         $1,120,471
           Carolina, Inc., Newton, NC           Warrants
04/24/09   Peoples Bancorporation, Inc.,        Preferred Stock w/    $12,660,000                                                                                                                                                                                      $385,233
           Easley, SC 2                         Exercised Warrants
03/20/09   Peoples Bancshares of TN, Inc,       Preferred Stock w/     $3,900,000                                                                                                                                                                                      $138,748
           Madisonville, TN 2                   Exercised Warrants
03/06/09   PeoplesSouth Bancshares, Inc.,       Preferred Stock w/    $12,325,000                                                                                                                                                                                      $464,586
           Colquitt, GA 2                       Exercised Warrants
09/11/09   PFSB Bancorporation, Inc.,           Preferred Stock w/     $1,500,000                                                                                                                                                                                        $14,469
           Pigeon Falls, WI 2, 10               Exercised Warrants
02/06/09   PGB Holdings, Inc., Chicago, IL 3    Preferred Stock        $3,000,000                                                                                                                                                                                      $116,250

01/23/09   Pierce County Bancorp,               Preferred Stock w/     $6,800,000                                                                                                                                                                                      $207,948
           Tacoma, WA 2                         Exercised Warrants
03/06/09   Pinnacle Bank Holding Company,       Preferred Stock w/     $4,389,000                                                                                                                                                                                      $165,419
           Inc., Orange City, FL 2              Exercised Warrants
12/12/08   Pinnacle Financial Partners, Inc.,   Preferred Stock w/    $95,000,000                                                                                                 $14.22             $468.6     $26.64         267,455     ($12.42)       OUT         $4,393,750
           Nashville, TN b                      Warrants
12/19/08   Plains Capital Corporation,          Preferred Stock w/    $87,631,000                                                                                                                                                                                     $4,324,870
           Dallas, TX 2                         Exercised Warrants
                                                                                                                                                                                                                                                            Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                   (CONTINUED)
                                                                                             Capital Repayment Details                             Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                  Amount
                                                                                                                                                                                                                                                    “In the
                                                                                                                                                                                         Current                                                  Money”        In or       Income Paid
                                                                                                Capital            Capital   Remaining         Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                     Investment     Repayment          Repayment      Capital   Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                       Amount           Date             Amount      Amount          Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

07/17/09   Plato Holdings Inc.,                Subordinated Debentures        $2,500,000                                                                                                                                                                                        $67,937
           Saint Paul, MN 8, 10                w/ Exercised Warrants
01/30/09   Plumas Bancorp, Quincy, CA          Preferred Stock w/            $11,949,000                                                                                                  $3.00              $14.3      $7.54         237,712      ($4.54)       OUT          $472,981
                                               Warrants
12/05/08   Popular, Inc., San Juan, PR 12, f   Trust Preferred Securities   $935,000,000                                                                                                  $2.26           $1,445.4      $6.70      20,932,836      ($4.44)       OUT       $31,296,528
                                               w/ Warrants
11/21/08   Porter Bancorp Inc., Louisville,    Preferred Stock w/            $35,000,000                                                                                                 $15.04             $131.7     $16.68         314,820      ($1.64)       OUT         $1,720,833
           KY a                                Warrants
04/03/09   Prairie Star Bancshares, Inc.,      Preferred Stock w/             $2,800,000                                                                                                                                                                                        $94,103
           Olathe, KS 2                        Exercised Warrants
05/08/09   Premier Bancorp, Inc., Wilmette,    Subordinated Debentures        $6,784,000                                                                                                                                                                                      $271,341
           IL 3, 8
03/20/09   Premier Bank Holding Company,       Preferred Stock w/             $9,500,000                                                                                                                                                                                      $337,975
           Tallahassee, FL 2                   Exercised Warrants
10/02/09   Premier Financial Bancorp, Inc.,    Preferred Stock w/            $22,252,000                                                                                                  $6.70              $53.2      $5.31         628,588       $1.39          IN         $132,894
           Huntington, WV                      Warrants
05/22/09   Premier Financial Corp,             Subordinated Debentures        $6,349,000                                                                                                                                                                                      $255,953
           Dubuque, IA 8                       w/ Exercised Warrants
02/20/09   Premier Service Bank, Riverside,    Preferred Stock w/             $4,000,000
           CA 2                                Exercised Warrants
02/13/09   PremierWest Bancorp, Medford,       Preferred Stock w/            $41,400,000                                                                                                  $1.42              $35.2      $5.70       1,090,385      ($4.28)       OUT         $1,046,500
           OR a                                Warrants
11/20/09   Presidio Bank, San Francisco,       Preferred Stock w/            $10,800,000
           CA 2, 10                            Exercised Warrants
01/23/09   Princeton National Bancorp, Inc.,   Preferred Stock w/            $25,083,000                                                                                                 $10.81              $35.7     $24.27         155,025     ($13.46)       OUT         $1,017,255
           Princeton, IL                       Warrants
02/27/09   Private Bancorporation, Inc.,       Preferred Stock w/             $4,960,000
           Minneapolis, MN 2, c                Exercised Warrants
                                                                                                                                                                                                                                                                              $193,729
12/29/09   Private Bancorporation, Inc.,       Preferred Stock                $3,262,000
           Minneapolis, MN 2, 10a , c
01/30/09   PrivateBancorp, Inc., Chicago,      Preferred Stock w/           $243,815,000                                                                                                  $8.97             $640.5     $28.35         645,013     ($19.38)       OUT         $9,651,010
           IL b                                Warrants
10/02/09   Providence Bank,                    Preferred Stock w/             $4,000,000                                                                                                                                                                                        $25,770
           Rocky Mount, NC 2, 10               Exercised Warrants
11/14/08   Provident Bancshares Corp.,         Preferred Stock w/           $151,500,000                                                                                                                                $9.57       2,374,608                     NA         $7,596,042
           Baltimore, MD d                     Warrants
03/13/09   Provident Community                 Preferred Stock w/             $9,266,000                                                                                                  $2.35               $4.2      $7.77         178,880      ($5.42)       OUT          $311,441
           Bancshares, Inc., Rock Hill, SC     Warrants
02/27/09   PSB Financial Corporation,          Preferred Stock w/             $9,270,000                                                                                                                                                                                      $362,103
           Many, LA 2                          Exercised Warrants
01/16/09   Puget Sound Bank, Bellevue,         Preferred Stock w/             $4,500,000                                                                                                                                                                                      $203,694
           WA 2                                Exercised Warrants
01/16/09   Pulaski Financial Corp,             Preferred Stock w/            $32,538,000                                                                                                  $6.70              $69.9      $6.27         778,421       $0.43          IN        $1,351,231
           Creve Coeur, MO                     Warrants
02/13/09   QCR Holdings, Inc., Moline, IL      Preferred Stock w/            $38,237,000                                                                                                  $8.35              $38.0     $10.99         521,888      ($2.64)       OUT         $1,444,509
                                               Warrants
10/30/09   Randolph Bank & Trust               Preferred Stock w/             $6,229,000
           Company, Asheboro, NC 2             Exercised Warrants
06/19/09   RCB Financial Corporation,          Preferred Stock w/             $8,900,000                                                                                                                                                                                      $190,254
           Rome, GA 2, 10                      Exercised Warrants
01/16/09   Redwood Capital Bancorp,            Preferred Stock w/             $3,800,000                                                                                                                                                                                      $172,008
           Eureka, CA 2                        Exercised Warrants
01/09/09   Redwood Financial Inc.,             Preferred Stock w/             $2,995,000                                                                                                                                                                                      $138,763
           Redwood Falls, MN 2                 Exercised Warrants
03/06/09                                       Preferred Stock w/             $9,982,000                                                                                                                                                                                      $376,274
                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I january 30, 2010




           Regent Bancorp, Inc., Davie, FL 2
                                               Exercised Warrants
02/27/09   Regent Capital Corporation,         Preferred Stock w/             $2,655,000                                                                                                                                                                                      $103,716
           Nowata, OK 2                        Exercised Warrants
                                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                                             191
CPP Transaction Detail, As of 12/31/2009                                                   (CONTINUED)                                                                                                                                                                                        192
                                                                                             Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                   Amount
                                                                                                                                                                                                                                                     “In the
                                                                                                                                                                                          Current                                                  Money”        In or       Income Paid
                                                                                                Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                        Investment                    Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                          Description                      Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

10/23/09   Regents Bancshares, Inc.,            Preferred Stock w/          $12,700,000                                                                                                                                                                                          $40,901
           Vancouver, WA 2, 10                  Exercised Warrants
02/13/09   Regional Bankshares, Inc.,           Preferred Stock w/           $1,500,000                                                                                                                                                                                          $61,767
           Hartsville, SC 2                     Exercised Warrants
11/14/08   Regions Financial Corporation,       Preferred Stock w/        $3,500,000,000                                                                                                   $5.29           $6,284.7     $10.88      48,253,677      ($5.59)       OUT      $175,486,111
           Birmingham, AL                       Warrants
02/13/09   Reliance Bancshares, Inc.,           Preferred Stock w/          $40,000,000                                                                                                                                                                                       $1,647,111
           Frontenac, MO 2                      Exercised Warrants
02/27/09   Ridgestone Financial Services,       Preferred Stock w/          $10,900,000                                                                                                                                                                                        $277,224
           Inc., Brookfield, WI 2               Exercised Warrants
01/09/09   Rising Sun Bancorp, Rising           Preferred Stock w/           $5,983,000                                                                                                                                                                                        $195,637
           Sun, MD 2                            Exercised Warrants
06/12/09   River Valley Bancorporation, Inc.,   Subordinated Debentures     $15,000,000                                                                                                                                                                                        $534,862
           Wausau, WI 8                         w/ Exercised Warrants
05/15/09   Riverside Bancshares, Inc.,          Subordinated Debentures      $1,100,000                                                                                                                                                                                          $46,145
           Little Rock, AR 8                    w/ Exercised Warrants
01/30/09   Rogers Bancshares, Inc.,             Preferred Stock w/          $25,000,000                                                                                                                                                                                        $738,021
           Little Rock, AR 2                    Exercised Warrants
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 30, 2010




02/20/09   Royal Bancshares of                  Preferred Stock w/          $30,407,000                                                                                                    $1.30              $16.8      $4.13       1,104,370      ($2.83)       OUT          $358,971
           Pennsylvania, Inc., Narberth, PA     Warrants
01/16/09   S&T Bancorp, Indiana, PA             Preferred Stock w/         $108,676,000                                                                                                   $17.01             $471.3     $31.53         517,012     ($14.52)       OUT         $4,513,073
                                                Warrants
12/23/08   Saigon National Bank,                Preferred Stock w/           $1,549,000
           Westminster, CA 2                    Exercised Warrants
03/13/09   Salisbury Bancorp, Inc.,             Preferred Stock w/           $8,816,000                                                                                                   $21.75              $36.7     $22.93          57,671      ($1.18)       OUT          $296,316
           Lakeville, CT                        Warrants
12/05/08   Sandy Spring Bancorp, Inc.,          Preferred Stock w/          $83,094,000                                                                                                    $8.89             $146.4     $19.13         651,547     ($10.24)       OUT         $3,923,883
           Olney, MD                            Warrants
02/13/09   Santa Clara Valley Bank, N.A.,       Preferred Stock w/           $2,900,000                                                                                                                                                                                        $119,416
           Santa Paula, CA 2                    Exercised Warrants
12/19/08   Santa Lucia Bancorp,                 Preferred Stock w/           $4,000,000                                                                                                   $11.00              $21.6     $15.75          38,107      ($4.75)       OUT          $181,111
           Atascadero, CA a                     Warrants
03/27/09   SBT Bancorp, Inc., Simsbury,         Preferred Stock w/           $4,000,000                                                                                                                                                                                        $138,067
           CT 2                                 Exercised Warrants
01/16/09   SCBT Financial Corporation,          Preferred Stock w/          $64,779,000     05/20/09          $64,779,000          $0    06/24/09       R               $1,400,000        $27.69             $352.4                                                           $1,115,639
           Columbia, SC 4                       Warrants
12/19/08   Seacoast Banking Corporation         Preferred Stock w/          $50,000,000                                                                                                    $1.63              $95.9      $6.36         589,623      ($4.73)       OUT          $388,889
           of Florida, Stuart, FL b             Warrants
12/23/08   Seacoast Commerce Bank,              Preferred Stock w/           $1,800,000                                                                                                                                                                                          $87,745
           Chula Vista, CA 2                    Exercised Warrants
02/13/09   Security Bancshares of Pulaski       Preferred Stock w/           $2,152,000                                                                                                                                                                                          $88,642
           County, Inc., Waynesville, MO 2      Exercised Warrants
01/09/09   Security Business Bancorp, San       Preferred Stock w/           $5,803,000                                                                                                                                                                                        $268,813
           Diego, CA 2                          Exercised Warrants
01/09/09   Security California Bancorp,         Preferred Stock w/           $6,815,000                                                                                                                                                                                        $315,725
           Riverside, CA 2                      Exercised Warrants
06/26/09   Security Capital Corporation,        Preferred Stock w/          $17,388,000                                                                                                                                                                                        $353,824
           Batesville, MS 2, 10                 Exercised Warrants
12/19/08   Security Federal Corporation,        Preferred Stock w/          $18,000,000                                                                                                   $10.00              $24.6     $19.57         137,966      ($9.57)       OUT          $815,000
           Aiken, SC                            Warrants
02/20/09   Security State Bancshares, Inc.,     Preferred Stock w/          $12,500,000                                                                                                                                                                                        $501,475
           Charleston, MO 2                     Exercised Warrants
05/01/09   Security State Bank Holding-         Subordinated Debentures     $10,750,000                                                                                                                                                                                        $486,075
           Company, Jamestown, ND 8             w/ Exercised Warrants
11/21/08   Severn Bancorp, Inc., Annapolis,     Preferred Stock w/          $23,393,000                                                                                                    $2.52              $25.4      $6.30         556,976      ($3.78)       OUT         $1,150,156
           MD                                   Warrants
01/09/09   Shore Bancshares, Inc., Easton,      Preferred Stock w/          $25,000,000     04/15/09          $25,000,000          $0                                                     $14.50             $122.1     $21.68         172,970      ($7.18)       OUT          $333,333
           MD 4                                 Warrants
06/26/09   Signature Bancshares, Inc.,          Subordinated Debentures      $1,700,000                                                                                                                                                                                          $55,072
           Dallas, TX 8                         w/ Exercised Warrants
                                                                                                                                                                                                                                                                    Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                  (CONTINUED)
                                                                                            Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                    Amount
                                                                                                                                                                                                                                                      “In the
                                                                                                                                                                                           Current                                                  Money”        In or       Income Paid
                                                                                               Capital            Capital     Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                    Investment     Repayment          Repayment        Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                      Amount           Date             Amount        Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

12/12/08   Signature Bank, New York, NY 4      Preferred Stock w/         $120,000,000     03/31/09         $120,000,000            $0                                                     $31.90           $1,294.9     $30.21         595,829       $1.69          IN        $1,816,667
                                               Warrants
01/16/09   Somerset Hills Bancorp,             Preferred Stock w/           $7,414,000     05/20/09           $7,414,000            $0    06/24/09       R                $275,000          $7.75              $40.1                                                            $127,686
           Bernardsville, NJ 4                 Warrants
02/20/09   Sonoma Valley Bancorp,              Preferred Stock w/           $8,653,000                                                                                                                                                                                          $347,164
           Sonoma, CA 2                        Exercised Warrants
01/09/09   Sound Banking Company,              Preferred Stock w/           $3,070,000                                                                                                                                                                                          $142,256
           Morehead City, NC 2                 Exercised Warrants
12/05/08   South Financial Group, Inc.,        Preferred Stock w/         $347,000,000                                                                                                      $0.64             $138.9      $5.15      10,106,796      ($4.51)       OUT       $16,386,111
           Greenville, SC                      Warrants
07/17/09   SouthCrest Financial Group, Inc.,   Preferred Stock w/          $12,900,000                                                                                                                                                                                          $230,444
           Fayetteville, GA 2                  Exercised Warrants
01/16/09   Southern Bancorp, Inc.,             Preferred Stock             $11,000,000                                                                                                                                                                                          $456,806
           Arkadelphia, AR 3
12/05/08   Southern Community Financial        Preferred Stock w/          $42,750,000                                                                                                      $2.27              $38.1      $3.95       1,623,418      ($1.68)       OUT         $2,018,750
           Corp., Winston-Salem, NC            Warrants
02/27/09   Southern First Bancshares, Inc.,    Preferred Stock w/          $17,299,000                                                                                                      $6.60              $20.3      $7.85         330,554      ($1.25)       OUT          $619,881
           Greenville, SC                      Warrants
05/15/09   Southern Heritage Bancshares,       Preferred Stock w/           $4,862,000                                                                                                                                                                                          $132,485
           Inc., Cleveland, TN 2               Exercised Warrants
01/23/09   Southern Illinois Bancorp, Inc.,    Preferred Stock w/           $5,000,000                                                                                                                                                                                          $221,028
           Carmi, IL 2                         Exercised Warrants
12/05/08   Southern Missouri Bancorp, Inc.,    Preferred Stock w/           $9,550,000                                                                                                     $11.75              $24.5     $12.53         114,326      ($0.78)       OUT          $450,972
           Poplar Bluff, MO                    Warrants
06/12/09   SouthFirst Bancshares, Inc.,        Preferred Stock w/           $2,760,000                                                                                                                                                                                            $63,928
           Sylacauga, AL 2                     Exercised Warrants
12/05/08   Southwest Bancorp, Inc.,            Preferred Stock w/          $70,000,000                                                                                                      $6.94             $102.4     $14.92         703,753      ($7.98)       OUT         $3,305,556
           Stillwater, OK                      Warrants
03/13/09   Sovereign Bancshares, Inc.,         Preferred Stock w/          $18,215,000                                                                                                                                                                                          $667,342
           Dallas, TX 2                        Exercised Warrants
03/27/09   Spirit BankCorp, Inc., Bristow,     Preferred Stock w/          $30,000,000                                                                                                                                                                                         $1,035,500
           OK 2                                Exercised Warrants
03/13/09   St. Johns Bancshares, Inc., St.     Preferred Stock w/           $3,000,000                                                                                                                                                                                          $109,908
           Louis, MO 2                         Exercised Warrants
04/24/09   Standard Bancshares, Inc.,          Preferred Stock w/          $60,000,000                                                                                                                                                                                         $1,825,750
           Hickory Hills, IL 2                 Exercised Warrants
12/05/08   State Bancorp, Inc., Jericho, NY    Preferred Stock w/          $36,842,000                                                                                                      $7.11             $104.1     $11.87         465,569      ($4.76)       OUT         $1,739,761
                                               Warrants
01/16/09   State Bankshares, Inc., Fargo,      Preferred Stock w/          $50,000,000     08/12/09          $12,500,000    $37,500,000                                                                                                                                        $2,101,806
           ND 2, 4                             Exercised Warrants
02/13/09   State Capital Corporation,          Preferred Stock w/          $15,000,000                                                                                                                                                                                          $617,667
           Greenwood, MS 2                     Exercised Warrants
10/28/08   State Street Corporation,           Preferred Stock w/        $2,000,000,000    06/17/09       $2,000,000,000            $0    07/08/09       R           $60,000,000           $43.54         $21,537.7                                                          $63,611,111
           Boston, MA 5, 9                     Warrants
06/26/09   Stearns Financial Services, Inc.,   Subordinated Debentures     $24,900,000                                                                                                                                                                                          $806,628
           St. Cloud, MN 8                     w/ Exercised Warrants
09/25/09   Steele Street Bank Corporation,     Subordinated Debentures     $11,019,000                                                                                                                                                                                          $124,186
           Denver, CO 8, 10                    w/ Exercised Warrants
12/19/08   StellarOne Corporation,             Preferred Stock w/          $30,000,000                                                                                                      $9.96             $226.4     $14.87         302,623      ($4.91)       OUT         $1,358,333
           Charlottesville, VA                 Warrants
12/23/08   Sterling Bancorp, New York, NY      Preferred Stock w/          $42,000,000                                                                                                      $7.14             $129.3     $12.19         516,817      ($5.05)       OUT         $1,878,333
                                               Warrants
12/12/08   Sterling Bancshares, Inc.,          Preferred Stock w/         $125,198,000     05/05/09         $125,198,000            $0                                                      $5.13             $419.4      $7.18       2,615,557      ($2.05)       OUT         $2,486,571
           Houston, TX 4                       Warrants
                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 30, 2010




12/05/08   Sterling Financial Corporation,     Preferred Stock w/         $303,000,000                                                                                                      $0.62              $32.4      $7.06       6,437,677      ($6.44)       OUT         $6,733,333
           Spokane, WA                         Warrants
01/30/09   Stewardship Financial               Preferred Stock w/          $10,000,000                                                                                                      $8.42              $46.8     $11.24         133,475      ($2.82)       OUT          $395,833
           Corporation, Midland Park, NJ a     Warrants
                                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                                               193
CPP Transaction Detail, As of 12/31/2009                                                      (CONTINUED)                                                                                                                                                                                        194
                                                                                                Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                      Amount
                                                                                                                                                                                                                                                        “In the
                                                                                                                                                                                             Current                                                  Money”        In or       Income Paid
                                                                                                   Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                        Investment                       Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                          Description                         Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

02/06/09   Stockmens Financial                  Preferred Stock w/             $15,568,000                                                                                                                                                                                        $657,526
           Corporation, Rapid City, SD 2        Exercised Warrants
01/23/09   Stonebridge Financial Corp.,         Preferred Stock w/             $10,973,000                                                                                                                                                                                        $485,094
           West Chester, PA 2                   Exercised Warrants
06/19/09   Suburban Illinois Bancorp, Inc.,     Subordinated Debentures        $15,000,000                                                                                                                                                                                        $510,395
           Elmhurst, IL 8                       w/ Exercised Warrants
12/19/08   Summit State Bank, Santa             Preferred Stock w/              $8,500,000                                                                                                    $5.49              $26.1      $5.33         239,212       $0.16          IN         $384,861
           Rosa, CA                             Warrants
01/09/09   Sun Bancorp, Inc., Vineland, NJ 4    Preferred Stock w/             $89,310,000     04/08/09          $89,310,000          $0    05/27/09       R               $2,100,000         $3.75              $87.0                                                           $1,103,971
                                                Warrants
11/14/08   SunTrust Banks, Inc., Atlanta,       Preferred Stock w/           $3,500,000,000                                                                                                                                $44.15      11,891,280     ($23.86)       OUT
           GA c                                 Warrants
                                                                                                                                                                                             $20.29         $10,127.8                                                         $254,756,944
12/31/08   SunTrust Banks, Inc., Atlanta,       Preferred Stock w/           $1,350,000,000                                                                                                                                $33.70       6,008,902     ($13.41)       OUT
           GA c                                 Warrants
12/05/08   Superior Bancorp Inc.,               Trust Preferred Securities     $69,000,000                                                                                                    $3.29              $38.2      $5.24       1,975,688      ($2.09)       OUT         $3,507,500
           Birmingham, AL 17                    w/ Warrants
01/09/09   Surrey Bancorp, Mount Airy,          Preferred Stock w/              $2,000,000                                                                                                                                                                                          $92,650
           NC 2                                 Exercised Warrants
                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I January 30, 2010




12/12/08   Susquehanna Bancshares, Inc,         Preferred Stock w/            $300,000,000                                                                                                    $5.89             $508.9     $14.86       3,028,264      ($8.97)       OUT       $13,875,000
           Lititz, PA                           Warrants
04/10/09   SV Financial, Inc., Sterling, IL 2   Preferred Stock w/              $4,000,000                                                                                                                                                                                        $130,194
                                                Exercised Warrants
12/12/08   SVB Financial Group,                 Preferred Stock w/            $235,000,000     12/23/09         $235,000,000          $0                                                     $41.66           $1,708.4     $49.78         354,058      ($8.12)       OUT       $12,109,028
           Santa Clara, CA 5,b                  Warrants
05/08/09   Sword Financial Corporation,         Subordinated Debentures        $13,644,000                                                                                                                                                                                        $594,610
           Horicon, WI 8                        w/ Exercised Warrants
12/19/08   Synovus Financial Corp.,             Preferred Stock w/            $967,870,000                                                                                                    $2.05             $984.8      $9.36      15,510,737      ($7.31)       OUT       $43,823,003
           Columbus, GA                         Warrants
01/16/09                                 2      Preferred Stock w/              $8,000,000                                                                                                                                                                                        $253,122
           Syringa Bancorp, Boise, ID
                                                Exercised Warrants
11/21/08   Taylor Capital Group, Rosemont,      Preferred Stock w/            $104,823,000                                                                                                   $11.39             $126.2     $10.75       1,462,647       $0.64          IN        $5,153,798
           IL                                   Warrants
08/28/09   TCB Corporation, Greenwood,          Subordinated Debentures         $9,720,000                                                                                                                                                                                        $168,702
           SC 8, 10                             w/ Exercised Warrants
01/16/09   TCB Holding Company, Texas           Preferred Stock w/             $11,730,000                                                                                                                                                                                        $531,000
           Community Bank,                      Exercised Warrants
           The Woodlands, TX 2
11/14/08   TCF Financial Corporation,           Preferred Stock w/            $361,172,000     04/22/09         $361,172,000          $0    12/15/09       A               $9,599,964        $13.62           $1,757.1                                                           $7,925,719
           Wayzata, MN 4, i                     Warrants
12/23/08   TCNB Financial Corp., Dayton,        Preferred Stock w/              $2,000,000                                                                                                                                                                                          $97,494
           OH 2                                 Exercised Warrants
12/19/08   Tennessee Commerce Bancorp,          Preferred Stock w/             $30,000,000                                                                                                    $4.37              $20.7      $9.75         461,538      ($5.38)       OUT         $1,358,333
           Inc., Franklin, TN                   Warrants
12/23/08   Tennessee Valley Financial           Preferred Stock w/              $3,000,000                                                                                                                                                                                        $146,242
           Holdings, Inc., Oak Ridge, TN 2      Exercised Warrants
01/16/09   Texas Capital Bancshares, Inc.,      Preferred Stock w/             $75,000,000     05/13/09          $75,000,000          $0                                                     $13.96             $499.8     $14.84         758,086      ($0.88)       OUT         $1,218,750
           Dallas, TX 4                         Warrants
01/09/09   Texas National Bancorporation,       Preferred Stock w/              $3,981,000                                                                                                                                                                                        $184,417
           Jacksonville, TX 2                   Exercised Warrants
08/07/09   The ANB Corporation, Terrell,        Preferred Stock w/             $20,000,000                                                                                                                                                                                        $296,722
           TX 2                                 Exercised Warrants
12/12/08   The Bancorp, Inc., Wilmington,       Preferred Stock w/             $45,220,000                                                                                                    $6.86             $179.6      $3.46         980,203       $3.40          IN        $2,091,425
           DE b                                 Warrants
02/06/09   The Bank of Currituck, Moyock,       Preferred Stock w/              $4,021,000                                                                                                                                                                                        $169,834
           NC 2                                 Exercised Warrants
02/13/09   The Bank of Kentucky Financial       Preferred Stock w/             $34,000,000                                                                                                   $18.78             $105.5     $18.56         274,784       $0.22          IN        $1,284,444
           Corporation, Crestview Hills, KY     Warrants
10/28/08   The Bank of New York Mellon          Preferred Stock w/           $3,000,000,000    06/17/09       $3,000,000,000          $0    08/05/09       R          $136,000,000           $27.97         $33,682.7                                                          $95,416,667
           Corporation, New York, NY 4          Warrants
                                                                                                                                                                                                                                                                       Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                                     (CONTINUED)
                                                                                               Capital Repayment Details                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                     Amount
                                                                                                                                                                                                                                                       “In the
                                                                                                                                                                                            Current                                                  Money”        In or       Income Paid
                                                                                                  Capital            Capital   Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                         Investment                     Investment     Repayment          Repayment      Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                           Description                       Amount           Date             Amount      Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

01/16/09   The Baraboo Bancorporation,           Preferred Stock w/           $20,749,000                                                                                                                                                                                        $939,177
           Baraboo, WI 2                         Exercised Warrants
12/19/08   The Connecticut Bank and Trust        Preferred Stock w/            $5,448,000                                                                                                    $4.35              $15.5      $4.65         175,742      ($0.30)       OUT            $68,100
           Company, Hartford, CT                 Warrants

12/19/08   The Elmira Savings Bank, FSB,         Preferred Stock w/            $9,090,000                                                                                                   $16.75              $32.0     $11.70         116,538       $5.05          IN         $411,575
           Elmira, NY                            Warrants
01/09/09   The First Bancorp, Inc.,              Preferred Stock w/           $25,000,000                                                                                                   $15.42             $150.2     $16.60         225,904      ($1.18)       OUT         $1,062,500
           Damariscotta, ME                      Warrants
02/06/09   The First Bancshares, Inc.,           Preferred Stock w/             $5,000,000                                                                                                   $7.02              $21.2     $13.71          54,705      ($6.69)       OUT          $193,750
           Hattiesburg, MS                       Warrants
02/06/09   The Freeport State Bank,              Preferred Stock w/              $301,000                                                                                                                                                                                           $8,610
           Harper, KS 2                          Exercised Warrants
10/28/08   The Goldman Sachs Group, Inc.,        Preferred Stock w/        $10,000,000,000    06/17/09      $10,000,000,000          $0    07/22/09       R        $1,100,000,000          $168.84         $86,869.9                                                         $318,055,555
           New York, NY 4                        Warrants
05/22/09   The Landrum Company,                  Preferred Stock w/           $15,000,000                                                                                                                                                                                        $392,854
           Columbia, MO 2                        Exercised Warrants
12/23/08   The Little Bank, Incorporated,        Preferred Stock w/            $7,500,000                                                                                                                                                                                        $365,605
           Kinston, NC 2                         Exercised Warrants
12/31/08   The PNC Financial Services            Preferred Stock w/         $7,579,200,000                                                                                                  $52.79         $24,351.5      $67.33      16,885,192     ($14.54)       OUT      $331,590,000
           Group Inc., Pittsburgh, PA            Warrants
02/20/09   The Private Bank of California,       Preferred Stock w/            $5,450,000                                                                                                                                                                                        $218,677
           Los Angeles, CA 2                     Exercised Warrants
01/09/09   The Queensborough Company,            Preferred Stock w/           $12,000,000                                                                                                                                                                                        $555,900
           Louisville, GA 2                      Exercised Warrants
09/04/09   The State Bank of Bartley,            Subordinated Debentures       $1,697,000                                                                                                                                                                                          $27,159
           Bartley, NE 8, 10                     w/ Exercised Warrants
12/11/09   The Victory Bancorp, Inc.,            Preferred Stock w/            $1,505,000
           Limerick, PA 2, 10a, c                Exercised Warrants
02/27/09   The Victory Bancorp, Inc. (T          Preferred Stock w/              $541,000                                                                                                                                                                                          $21,128
           he Victory Bank),                     Exercised Warrants
           Limerick, PA 2, 13 - 12/4/09, c
01/23/09   Three Shores Bancorporation,          Preferred Stock w/            $5,677,000                                                                                                                                                                                        $250,966
           Inc. (Seaside National Bank &         Exercised Warrants
           Trust), Orlando, FL 2, 13 - 12/4/09
12/05/08   TIB Financial Corp, Naples, FL a      Preferred Stock w/           $37,000,000                                                                                                    $0.64               $9.6      $5.02       1,106,389      ($4.37)       OUT         $1,284,722
                                                 Warrants
12/19/08   Tidelands Bancshares, Inc,            Preferred Stock w/           $14,448,000                                                                                                    $3.70              $15.8      $3.79         571,821      ($0.09)       OUT          $654,173
           Mt. Pleasant, SC                      Warrants
04/17/09   Tifton Banking Company,               Preferred Stock w/            $3,800,000                                                                                                                                                                                        $119,658
           Tifton, GA 2                          Exercised Warrants
12/23/08   Timberland Bancorp, Inc.,             Preferred Stock w/           $16,641,000                                                                                                    $4.44              $31.3      $6.73         370,899      ($2.29)       OUT          $744,223
           Hoquiam, WA                           Warrants
04/03/09   Titonka Bancshares, Inc,              Preferred Stock w/            $2,117,000                                                                                                                                                                                          $71,157
           Titonka, IA 2                         Exercised Warrants
02/06/09   Todd Bancshares, Inc.,                Preferred Stock w/            $4,000,000                                                                                                                                                                                        $168,950
           Hopkinsville, KY 2                    Exercised Warrants
12/12/08   TowneBank, Portsmouth, VA             Preferred Stock w/           $76,458,000                                                                                                   $11.68             $274.2     $21.31         538,184      ($9.63)       OUT         $3,536,182
                                                 Warrants
01/16/09   Treaty Oak Bancorp, Inc.,             Preferred Stock w/            $3,268,000                                                                                                                                                                                        $147,898
           Austin, TX 2                          Exercised Warrants
03/27/09   Triad Bancorp, Inc., Frontenac,       Preferred Stock w/            $3,700,000                                                                                                                                                                                        $127,712
           MO 2                                  Exercised Warrants
12/19/08   Tri-County Financial Corporation,     Preferred Stock w/           $15,540,000                                                                                                                                                                                        $766,943
           Waldorf, MD 2                         Exercised Warrants
03/27/09   Trinity Capital Corporation, Los      Preferred Stock w/           $35,539,000                                                                                                                                                                                       $1,226,691
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 30, 2010




           Alamos, NM 2                          Exercised Warrants
04/03/09   Tri-State Bank of Memphis,            Preferred Stock               $2,795,000                                                                                                                                                                                          $86,179
           Memphis, TN 2, 3
02/27/09   TriState Capital Holdings, Inc.,      Preferred Stock w/           $23,000,000                                                                                                                                                                                        $584,967
           Pittsburgh, PA 2                      Exercised Warrants
                                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                                195
CPP Transaction Detail, As of 12/31/2009                                                  (CONTINUED)                                                                                                                                                                                           196
                                                                                            Capital Repayment Details                                 Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                     Amount
                                                                                                                                                                                                                                                       “In the
                                                                                                                                                                                            Current                                                  Money”        In or       Income Paid
                                                                                               Capital            Capital      Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                    Investment     Repayment          Repayment         Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                      Amount           Date             Amount         Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

04/03/09   TriSummit Bank, Kingsport,          Preferred Stock w/           $2,765,000
           TN 2, c                             Exercised Warrants
                                                                                                                                                                                                                                                                                   $92,913
12/22/09   TriSummit Bank, Kingsport,          Preferred Stock              $4,237,000
           TN 2, 10a, c
11/21/08   Trustmark Corporation,              Preferred Stock w/         $215,000,000     12/09/09         $215,000,000             $0    12/30/09       R           $10,000,000           $22.54           $1,416.5                                                         $11,287,500
           Jackson, MS 4                       Warrants
05/29/09   Two Rivers Financial Group,         Preferred Stock w/          $12,000,000                                                                                                                                                                                           $301,567
           Burlington, IA 2                    Exercised Warrants
11/14/08   U.S. Bancorp, Minneapolis, MN 4     Preferred Stock w/        $6,599,000,000    06/17/09       $6,599,000,000             $0    07/15/09       R          $139,000,000           $22.51         $43,048.7                                                         $195,220,417
                                               Warrants
08/07/09   U.S. Century Bank, Miami, FL 2      Preferred Stock w/          $50,236,000                                                                                                                                                                                           $745,312
                                               Exercised Warrants
01/30/09   UBT Bancshares, Inc.,               Preferred Stock w/           $8,950,000                                                                                                                                                                                           $386,334
           Marysville, KS 2                    Exercised Warrants
11/14/08   UCBH Holdings, Inc.,                Preferred Stock w/         $298,737,000                                                                                                       $0.03               $4.0      $5.71       7,847,732      ($5.68)       OUT         $7,509,920
           San Francisco, CA 14                Warrants
11/14/08   Umpqua Holdings Corp.,              Preferred Stock w/         $214,181,000                                                                                                      $13.41           $1,163.7     $14.46       1,110,898      ($1.05)       OUT       $10,738,797
           Portland, OR b                      Warrants
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I January 30, 2010




05/01/09   Union Bank & Trust Company,         Preferred Stock w/           $3,194,000
           Oxford, NC 2, c                     Exercised Warrants
                                                                                                                                                                                                                                                                                   $93,821
12/18/09   Union Bank & Trust Company,         Preferred Stock              $2,997,000
           Oxford, NC 2, 10a, c
12/19/08   Union Bankshares Corporation,       Preferred Stock w/          $59,000,000     11/18/09          $59,000,000             $0    12/23/09       R                $450,000         $12.39             $227.2
                                                                                                                                                                                                                                                                                $2,695,972
           Bowling Green, VA 5, 9, b           Warrants
12/29/09   Union Financial Corporation,        Preferred Stock w/           $2,179,000
           Albuquerque, NM 2, 10               Exercised Warrants
02/20/09   United American Bank,               Preferred Stock w/           $8,700,000
           San Mateo, CA 2                     Exercised Warrants
01/16/09   United Bancorp, Inc., Tecumseh,     Preferred Stock w/          $20,600,000                                                                                                       $5.25              $26.6      $9.92         311,492      ($4.67)       OUT          $855,472
           MI                                  Warrants
12/23/08   United Bancorporation of            Preferred Stock w/          $10,300,000                                                                                                       $5.00              $11.4     $14.85         104,040      ($9.85)       OUT          $460,639
           Alabama, Inc., Atmore, AL           Warrants
05/22/09   United Bank Corporation,            Subordinated Debentures     $14,400,000                                                                                                                                                                                           $580,591
           Barnesville, GA 8                   w/ Exercised Warrants
12/05/08   United Community Banks, Inc.,       Preferred Stock w/         $180,000,000                                                                                                       $3.39             $318.5     $12.28       1,099,542      ($8.89)       OUT         $8,500,000
           Blairsville, GA b                   Warrants
01/16/09   United Financial Banking            Preferred Stock w/           $5,658,000                                                                                                                                                                                           $256,119
           Companies, Inc., Vienna, VA 2       Exercised Warrants
12/05/08   Unity Bancorp, Inc., Clinton, NJ    Preferred Stock w/          $20,649,000                                                                                                       $4.02              $28.6      $4.05         764,778      ($0.03)       OUT          $975,092
                                               Warrants
05/22/09   Universal Bancorp, Bloomfield,      Preferred Stock w/           $9,900,000                                                                                                                                                                                           $259,284
           IN 2                                Exercised Warrants
06/19/09   University Financial Corp, Inc.,    Subordinated Debentures     $11,926,000                                                                                                                                                                                           $372,422
           St. Paul, MN 3, 8
02/06/09   US Metro Bank, Garden Grove,        Preferred Stock w/           $2,861,000                                                                                                                                                                                           $120,838
           CA 2                                Exercised Warrants
12/23/08   Uwharrie Capital Corp,              Preferred Stock w/          $10,000,000                                                                                                                                                                                           $487,472
           Albemarle, NC 2                     Exercised Warrants
01/30/09   Valley Commerce Bancorp,            Preferred Stock w/           $7,700,000                                                                                                                                                                                           $332,223
           Visalia, CA 2                       Exercised Warrants
01/09/09   Valley Community Bank,              Preferred Stock w/           $5,500,000                                                                                                                                                                                           $254,788
           Pleasanton, CA 2                    Exercised Warrants
12/12/08   Valley Financial Corporation,       Preferred Stock w/          $16,019,000                                                                                                       $3.50              $16.4      $6.97         344,742      ($3.47)       OUT          $740,879
           Roanoke, VA                         Warrants
12/18/09   Valley Financial Group, Ltd., 1st   Preferred Stock w/           $1,300,000
           State Bank, Saginaw, MI 2           Exercised Warrants
                                                                                           06/03/09          $75,000,000    $225,000,000
           Valley National Bancorp,            Preferred Stock w/
11/14/08                                                                  $300,000,000     09/23/09         $125,000,000    $100,000,000                                                    $14.13           $2,161.6      $18.7    $2,411,944.0      ($4.53)       OUT       $12,979,167
           Wayne, NJ 4, a, c                   Warrants
                                                                                           12/23/09         $100,000,000             $0
                                                                                                                                                                                                                                                                      Continued on next page.
CPP Transaction Detail, As of 12/31/2009                                              (CONTINUED)
                                                                                        Capital Repayment Details                                Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                Amount
                                                                                                                                                                                                                                                  “In the
                                                                                                                                                                                       Current                                                  Money”        In or       Income Paid
                                                                                           Capital            Capital     Remaining          Final                         Final         Stock            Market     Current         Current     or “Out     Out of        to Treasury
Purchase                                       Investment                Investment     Repayment          Repayment        Capital    Disposition                   Disposition   Price (as of    Capitalization     Strike     Outstanding       of the       the      (Dividends or
Date       Institution                         Description                  Amount           Date             Amount        Amount           Date    Note             Proceeds     12/31/09)         (in millions)    Pricea      Warrantsa     Money”e     Moneye            Interest)

05/01/09   Village Bank and Trust Financial    Preferred Stock w/      $14,738,000                                                                                                      $2.33               $9.9      $4.43         499,029      ($2.10)       OUT          $397,107
           Corp, Midlothian, VA                Warrants

12/12/08   Virginia Commerce Bancorp,          Preferred Stock w/      $71,000,000                                                                                                      $3.75             $100.1      $3.95       2,696,203      ($0.20)       OUT         $3,283,750
           Arlington, VA                       Warrants
06/12/09   Virginia Company Bank, Newport      Preferred Stock w/       $4,700,000                                                                                                                                                                                          $105,345
           News, VA 2, 10                      Exercised Warrants
04/24/09   Vision Bank - Texas, Richardson,    Preferred Stock w/       $1,500,000                                                                                                                                                                                            $45,644
           TX 2                                Exercised Warrants
12/19/08   VIST Financial Corp.,               Preferred Stock w/      $25,000,000                                                                                                      $5.25              $30.4     $10.30         364,078      ($5.05)       OUT         $1,131,944
           Wyomissing, PA                      Warrants
01/30/09   W.T.B. Financial Corporation,       Preferred Stock w/     $110,000,000                                                                                                                                                                                         $4,746,041
           Spokane, WA 2                       Exercised Warrants
12/11/09   Wachusett Financial Services,       Preferred Stock w/      $12,000,000
           Inc., Clinton, MA 2, 10             Exercised Warrants
12/19/08   Wainwright Bank & Trust             Preferred Stock w/      $22,000,000     11/24/09          $22,000,000            $0    12/16/09       R                $568,700          $7.30              $53.2                                                           $1,023,611
           Company, Boston, MA 4               Warrants
01/16/09   Washington Banking Company,         Preferred Stock w/      $26,380,000                                                                                                     $11.94             $173.7      $8.04         246,082       $3.90          IN        $1,095,503
           Oak Harbor, WA b                    Warrants
11/14/08   Washington Federal, Inc.,           Preferred Stock w/     $200,000,000     05/27/09         $200,000,000            $0                                                     $19.34           $2,173.4     $17.57       1,707,456       $1.77          IN        $5,361,111
           Seattle, WA 4                       Warrants
10/30/09   WashingtonFirst Bankshares,         Preferred Stock          $6,842,000
           Inc., Reston, VA 2, 10a, c
01/30/09   WashingtonFirst Bankshares, Inc.    Preferred Stock w/       $6,633,000                                                                                                                                                                                          $286,211
           (WashingtonFirst Bank), Reston,     Exercised Warrants
           VA 2, 13 - 10/30/09, c
06/26/09   Waukesha Bankshares, Inc.,          Preferred Stock w/       $5,625,000                                                                                                                                                                                          $114,466
           Waukesha, WI 2, 10                  Exercised Warrants
11/21/08   Webster Financial Corporation,      Preferred Stock w/     $400,000,000                                                                                                     $11.87             $844.8     $18.28       3,282,276      ($6.41)       OUT       $19,666,667
           Waterbury, CT                       Warrants
10/28/08   Wells Fargo & Company, San          Preferred Stock w/   $25,000,000,000    12/23/09      $25,000,000,000            $0                                                     $26.99        $137,995.3      $34.01     110,261,688      ($7.02)       OUT    $1,440,972,222
           Francisco, CA 4                     Warrants
12/05/08   WesBanco, Inc., Wheeling, WV 4      Preferred Stock w/      $75,000,000     09/09/09          $75,000,000            $0    12/23/09       R                $950,000         $12.34             $327.8                                                           $2,854,167
                                               Warrants
12/31/08   West Bancorporation, Inc., West     Preferred Stock w/      $36,000,000                                                                                                      $4.93              $85.8     $11.39         474,100      ($6.46)       OUT         $1,575,000
           Des Moines, IA                      Warrants
02/13/09   Westamerica Bancorporation,         Preferred Stock w/                      09/02/09          $41,863,000    $41,863,000
                                                                       $83,726,000                                                                                                     $55.37           $1,617.2     $50.92         246,640     $4.45            IN        $2,755,981
           San Rafael, CA 4, c                 Warrants                                11/18/09          $41,863,000            $0
11/21/08   Western Alliance Bancorporation,    Preferred Stock w/     $140,000,000                                                                                                      $3.78             $274.0     $13.34         787,107      ($9.56)       OUT         $6,883,333
           Las Vegas, NV b                     Warrants
12/23/08   Western Community Bancshares,       Preferred Stock w/       $7,290,000                                                                                                                                                                                          $355,408
           Inc., Palm Desert, CA 2             Exercised Warrants
12/23/08   Western Illinois Bancshares Inc.,   Preferred Stock w/       $6,855,000
           Monmouth, IL 2, c                   Exercised Warrants
                                                                                                                                                                                                                                                                            $334,183
12/29/09   Western Illinois Bancshares Inc.,   Preferred Stock          $4,567,000
           Monmouth, IL 2, 10a, c
05/15/09   Western Reserve Bancorp, Inc,       Preferred Stock w/       $4,700,000                                                                                                                                                                                          $128,075
           Medina, OH 2                        Exercised Warrants
02/20/09   White River Bancshares              Preferred Stock w/      $16,800,000                                                                                                                                                                                          $673,983
           Company, Fayetteville, AR 2         Exercised Warrants
12/19/08   Whitney Holding Corporation,        Preferred Stock w/     $300,000,000                                                                                                      $9.11             $878.6     $17.10       2,631,579      ($7.99)       OUT       $13,583,333
           New Orleans, LA                     Warrants
12/12/08   Wilmington Trust Corporation,       Preferred Stock w/     $330,000,000                                                                                                     $12.34             $856.3     $26.66       1,856,714     ($14.32)       OUT       $15,262,500
           Wilmington, DE                      Warrants
12/12/08   Wilshire Bancorp, Inc., Los         Preferred Stock w/      $62,158,000                                                                                                      $8.19             $240.9      $9.82         949,460      ($1.63)       OUT         $2,874,808
                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I january 30, 2010




           Angeles, CA                         Warrants
12/19/08   Wintrust Financial Corporation,     Preferred Stock w/     $250,000,000                                                                                                     $30.79             $744.0     $22.82       1,643,295       $7.97          IN      $11,319,444
           Lake Forest, IL                     Warrants
05/15/09   Worthington Financial Holdings,     Preferred Stock w/       $2,720,000                                                                                                                                                                                            $74,120
           Inc., Huntsville, AL 2              Exercised Warrants
                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                           197
CPP Transaction Detail, As of 12/31/2009                                                              (CONTINUED)                                                                                                                                                                                                                      198
                                                                                                          Capital Repayment Details                                              Final Disposition                                Warrant and Market Data for Publicly Traded Companies
                                                                                                                                                                                                                                                                                       Amount
                                                                                                                                                                                                                                                                                         “In the
                                                                                                                                                                                                                       Current                                                         Money”          In or          Income Paid
                                                                                                             Capital               Capital           Remaining             Final                           Final         Stock            Market       Current           Current        or “Out       Out of           to Treasury
Purchase                                           Investment                            Investment       Repayment             Repayment              Capital       Disposition                     Disposition   Price (as of    Capitalization       Strike       Outstanding          of the         the         (Dividends or
Date          Institution                          Description                              Amount             Date                Amount              Amount              Date     Note              Proceeds     12/31/09)         (in millions)      Pricea        Warrantsa        Money”e       Moneye               Interest)

01/23/09      WSFS Financial Corporation,          Preferred Stock w/                  $52,625,000                                                                                                                      $25.63            $181.4       $45.08            175,105       ($19.45)          OUT          $2,134,237
              Wilmington, DE                       Warrants
01/16/09      Yadkin Valley Financial              Preferred Stock w/                  $36,000,000                                                                                                                                                     $13.99            385,990       ($10.33)          OUT
              Corporation, Elkin, NC c             Warrants
                                                                                                                                                                                                                         $3.66              $59.0                                                                     $1,700,227
07/24/09      Yadkin Valley Financial              Preferred Stock w/                  $13,312,000                                                                                                                                                       $7.30           273,534         ($3.64)         OUT
              Corporation, Elkin, NC c             Warrants
04/24/09      York Traditions Bank, York, PA 2     Preferred Stock w/                   $4,871,000                                                                                                                                                                                                                      $148,243
                                                   Exercised Warrants
11/14/08      Zions Bancorporation, Salt Lake      Preferred Stock w/              $1,400,000,000                                                                                                                       $12.83          $1,790.4       $36.27          5,789,909       ($23.44)          OUT         $70,194,444
              City, UT                             Warrants
              	                              Total Purchase Amount 	          $204,894,726,320          Total Capital    $121,885,197,000                          Total Warrant         $4,028,274,703
                                                                                                        Repayment Amount                                           Disposition Proceeeds

                            Total Treasury CPP Investment Amount 	              $83,009,529,320

Notes: Numbers affected by rounding. Data as of 12/31/09. Numeric notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 12/31/2009.
1
  This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009,
    and this transaction under the CPP was funded on 1/9/2009.
2
   Privately held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
   To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
                                                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I January 30, 2010




3a
    Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
   Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
   Redemption pursuant to a qualified equity offering.
6
   This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
   The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
   Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
   In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
     This institution participated in the expansion of CPP for small banks.
10a
      This institution received an additional investment through the expansion of CPP for small banks.
11
     Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP
    Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On 9/11/2009, Series M automatically
    converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
     On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
     This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
     As of the date of this report, this institution is in bankruptcy proceedings.
15
     For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
     On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights.
17
     On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
a
   According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike
    price presented reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants.
b
   According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
   Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
   According to Treasury, Provident’s “warrant detail will change” following the M&T/Provident merger.
e
   When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.” Stock price is presented as of 12/31/2009.
f
  Income reported under Popular excludes $13 million fee income proceed that was paid to Treasury on 8/24/2009.
g
   Income reported under Capital One Financial Corp excludes a $100,000 fee income from public auction of warrants.
h
   Income reported under JPMorgan excludes a $100,000 fee income from public auction of warrants.
i
  Income reported under TCF Financial excludes a $100,000 fee income from public auction of warrants.
j
  According to Treasury, these institutions are “Pending Qualified Equity Offerings Approval.”
k
   CIT’s warrant shares were extinguished following its bankruptcy.
l
  According to Treasury, IBW’s warrants were “changed to CDFI status so original warrant preferred extinguished.”

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2010.
Table D.2

SSFI (AIG Investment Program) Transaction Detail, as of 12/31/2009
                                    Seller                                               Purchase Details                                                         Exchange Details                                                              Warrants and Market Data
                                                                                                                                                                                                                                                                                                        Income
                                                                                                                                                                                                                                   Market                                                                Paid to
                                                            Transaction    Investment                               Pricing                     Transaction Investment                             Pricing         Stock    Capitalization               Outstanding                                  Treasury
Note Date            Institution City           State       Type           Description            Investment Amount Mechanism Date              Type        Description          Investment Amount Mechanism       Price      (in millions) Strike Price   Warrants        Amount In Out     In/Out   (Interest)
1       11/25/2008 AIG              New York NY             Purchase       Preferred Stock w/      $40,000,000,000 Par            4/17/2009 Exchange          Preferred Stock     $40,000,000,000 Par             $29.98        $4,035.5          $50    2,689,938                $(20.02)     OUT           $0
                                                                           Warrants                                                                           w/ Warrants
3       4/17/2009    AIG            New York NY             Purchase       Preferred Stock w/      $29,835,000,000 Par2                                                                                           $29.98        $4,035.5    $0.00002              150              $29.98        IN          $0
                                                                           Warrants
                                                                           TOTAL                  $69,835,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional
  obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
  The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
  This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2010.


Table D.3

TIP Transaction Detail, as of 12/31/2009
                                                                                                                                                                                      Treasury Investment
                                                                                                                                                                                     Remaining After Capital                                           Market and
                                     Seller                                                                                                          Capital Repayment Details            Repayment                                                   Warrants Data
                                                                                                                                                                                    Remaining       Remaining                    Market                                                      Income Paid
                                                                     Transaction   Investment               Investment         Pricing          Capital Repayment      Repayment      Capital         Capital       Stock Capitalization      Strike Outstanding        Amount               to Treasury
Note Date            Institution             City           State    Type          Description              Amount             Mechanism                   Amount           Date2     Amount       Description      Price   (in millions)      Price Warrants           In Out      In/Out   (Dividend)

1       12/31/2008 Citigroup Inc.             New York NY            Purchase      Trust Preferred           $20,000,000,000 Par                     $20,000,000,000 12/23/2009            $0        Warrants       $3.31     $75,679.7      $10.61 188,501,414         $(7.30)     OUT      $1,568,888,889
                                                                                   Securities w/ Warrants
        1/16/2009 Bank of America             Charlotte NC           Purchase      Preferred Stock w/        $20,000,000,000 Par                     $20,000,000,000   12/9/2009           $0        Warrants     $15.06     $130,273.1      $13.30 150,375,940         $1.76       IN       $1,435,555,556
                  Corporation                                                      Warrants
                                                                                   Total Investment         $40,000,000,000 Total               $40,000,000,000
                                                                                                                            Capital
                                                                                                                            Repayment
                                                            Total Treasury TIP Investment Amount            $0

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
  Perpet Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2010.




Table D.4

 AGP Transaction Detail, as of 12/31/2009
                                       Initial Investmentb                                       Premium                                                                                                                                                       Market and Warrants Data

                                                                                                                                                                                                                 Remaining Remaining                  Market                                               Income Paid
                                   Transaction Investment Guarantee                                                                                                                                              Premium     Premium          Stock   Capitalization Strike       Outstanding Amount In/   to Treasury
Notes Date       Institution       Type        Description Limit                    Description Amount              Date   Type         Description            Amount Date        Type          Amount           Description Amount           Price   (in millions)  Price        Shares      In Outa Outa (Dividend)
1, 2,    1/16/   Citigroup Inc., Guarantee          Master          $5,000,000,000 Preferred       $4,034,000,000 6/9/     Exchange     Trust          $4,034,000,000 12/23/ Partial      $(1,800,000,000) Trust             $2,234,000,000 $3.31     $75,679.7         $10.61 66,531,728 $(7.30) Out         $276,686,667
3        2009    New York, NY                       Agreement                      Stock w/                       2009     preferred    Preferred                     2009   cancellation                  Preferred
                                                                                   Warrants                                stock for    Securities                           for early                     Securities
                                                                                                                           trust        w/                                   termination                   w/
                                                                                                                           preferred    Warrants                             of guarantee                  Warrants
                                                                                                                           securities
3        12/23/ Citigroup Inc., Termination Termination ($5,000,000,000)                           $0
         2009   New York, NY                Agreement
                                                    Total           $0

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes taken verbatim from 1/4/2010 Transactions Report.
1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual
   Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
   Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary
   Liquidity Guarantee Program.
a
                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 30, 2010




  When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.
 
Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2010.
                                                                                                                                                                                                                                                                                                                               199
Table D.5                                                                                                                                                                                   200
TALF Transaction Detail, As of 12/31/2009
                                              Seller
                                                                                                                                                 Pricing
Note        Date        Institution               City         State      Transaction Type Investment Description              Investment Amount Mechanism
1           3/3/2009 TALF LLC                     Wilmington DE           Purchase               Debt Obligation w/             $20,000,000,000 N/A
                                                                                                 Additional Note

Note: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000
  represents the maximum loan amount. The loan will be incrementally funded.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010.




Table D.6

PPIP Transaction Detail, as of 12/31/2009
                                                  Seller
                                                                                     Transaction                                                                 Pricing     Income Paid
Note Date             Institution                           City          State      Type             Investment Description                   Investment Amount Mechanism   to Treasury
1      9/30/2009      UST/TCW Senior Mortgage               Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                      Securities Fund, L.P.
                                                                                                                                                                               $144,521
2      9/30/2009      UST/TCW Senior Mortgage               Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                      Securities Fund, L.P.
1      9/30/2009      Invesco Legacy Securities Master      Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                      Fund, L.P.
                                                                                                                                                                               $239,171
2      9/30/2009      Invesco Legacy Securities Master      Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                                                                                                                                                                                            Appendix D I Transaction Detail I January 30, 2010




                      Fund, L.P.
1      10/1/2009      Wellington Management Legacy          Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                      Securities PPIF Master Fund, L.P.
                                                                                                                                                                               $131,549
2      10/1/2009      Wellington Management Legacy          Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                      Securities PPIF Master Fund, L.P.
1      10/2/2009      AllianceBernstein Legacy Securities Wilmington DE              Purchase         Membership Interest                        $1,111,111,111 Par
                      Master Fund, L.P.
                                                                                                                                                                               $246,047
2      10/2/2009      AllianceBernstein Legacy Securities Wilmington DE              Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                      Master Fund, L.P.
1      10/2/2009      BlackRock PPIF, L.P.                  Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                                                                                                                                                                               $842,461
2      10/2/2009      BlackRock PPIF, L.P.                  Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
1      10/30/2009 AG GECC PPIF Master Fund, L.P.                                              
                                                      Wilmington DE                   Purchase        Membership Interest                        $1,111,111,111 Par
                                                                                                                                                                               $126,154
2      10/30/2009 AG GECC PPIF Master Fund, L.P.                                              
                                                      Wilmington DE                   Purchase        Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
1      11/4/2009      RLJ Western Asset Public/Private      Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                      Master Fund, L.P.
2      11/4/2009      RLJ Western Asset Public/Private      Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                      Master Fund, L.P.
1      11/25/2009 Marathon Legacy Securities                Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
                  Public-Private Investment
                  Partnership, L.P.
2      11/25/2009 Marathon Legacy Securities                Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                  Public-Private Investment
                  Partnership, L.P.
1      12/18/2009 Oaktree PPIP Fund, L.P.                   Wilmington DE            Purchase         Membership Interest                        $1,111,111,111 Par
2      12/18/2009 Oaktree PPIP Fund, L.P.                   Wilmington DE            Purchase         Debt Obligation w/ Contingent Proceeds     $2,222,222,222 Par
                                                                                                      Total                                    $30,000,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital
obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum
equity obligations.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010.
Table D.7


AIFP Transaction detail, as of 12/31/2009                                                   (Continued)
                                                                                                                                                                    Treasury Investment
                                      Initial Investment                                          Exchange/Transfer/Other Details                             After Exchange/Transfer/Other                                    Payment or Disposition1
                                                                                                                                                                                                                                                                    Remaining    Income Paid
                                                                                                                                                                                                                                                  Remaining        Investment     to Treasury
                        Transaction                                                                                                                                                                                                 Amount/      Investment          Amount/        (Interest/
 Institution   Date     Type            Seller         Description               Amount    Note   Date     Type                     Amount Note Obligor         Notes   Description   Amount/Equity %      Date     Type            Proceeds     Description         Equity %     Dividends)a

               12/29/   Purchase        GMAC           Preferred Stock    $5,000,000,000          12/30/   Exchange for     $5,000,000,000        GMAC          21,     Convertible    $5,250,000,000
               2008                                    w/ Exercised                               2009     convertible                                          22      Preferred
                                                       Warrants                                            preferred                                                    Stock
                                                                                                           stock
               5/21/    Purchase        GMAC           Convertible        $7,500,000,000    22 12/30/      Partial          $3,000,000,000        GMAC          21,     Convertible    $4,875,000,000
               2009                                    Preferred Stock                         2009        exchange                                             22      Preferred
                                                       w/ Exercised                                        for common                                                   Stock
                                                       Warrants                                            stock
                                                                                                                                                  GMAC                  Common
                                                                                                                                                                        Stock
 GMAC,                                                                                                                                                                                         56.3%
 Detroit, MI                                                                                                                                      GMAC          3       Common                                                                                                  $854,829,861
                                                                                                                                                                        Stock
               12/30/   Purchase        GMAC           Trust Preferred    $2,540,000,000
               2009                                    Securities
                                                       w/ Exercised
                                                       Warrants
               12/30/   Purchase        GMAC           Convertible        $1,250,000,000    22
               2009                                    Preferred Stock
                                                       w/ Exercised
                                                       Warrants
               12/29/   Purchase        General        Debt Obligation     $884,024,131      2 5/29/       Exchange          $884,024,131     3
               2008                     Motors                                                 2009        for equity
                                        Corporation                                                        interest in
                                                                                                           GMAC
               12/31/   Purchase        General        Debt Obligation   $13,400,000,000          7/10/    Exchange        $13,400,000,000    7
               2008                     Motors         w/ Additional                              2009     for preferred
                                        Corporation    Note                                                and common
                                                                                                           stock in New
                                                                                                           GM
               4/22/    Purchase        General        Debt Obligation    $2,000,000,000     4 7/10/       Exchange         $2,000,000,000    7 General         10,     Preferred      $2,100,000,000
               2009                     Motors         w/ Additional                           2009        for preferred                        Motors          11      Stock
                                        Corporation    Note                                                and common                           Company
                                                                                                           stock in New
                                                                                                           GM
               5/20/    Purchase        General        Debt Obligation    $4,000,000,000     5 7/10/       Exchange         $4,000,000,000    7 General         10,     Common                 60.8%
               2009                     Motors         w/ Additional                           2009        for preferred                        Motors          11      Stock
                                        Corporation    Note                                                and common                           Company
 General                                                                                                   stock in New
 Motors,b, d                                                                                               GM                                                                                                                                                                   $361,618,975
 Detroit, MI
               5/27/    Purchase        General        Debt Obligation     $360,624,198      6 7/10/       Exchange          $360,624,198     7 General         11,     Debt           $7,072,488,605 7/10/       Partial     $360,624,198     Debt            $6,711,864,407
               2009                     Motors         w/ Additional                           2009        for preferred                        Motors          12      Obligation                    2009        repayment                    Obligation
                                        Corporation    Note                                                and common                           Holdings
                                                                                                           stock in New                         LLC                                                     12/18/     Partial    $1,000,000,000   Debt            $5,711,864,407
                                                                                                           GM                                                                                           2009      repayment                    Obligation


               6/3/     Purchase        General        Debt Obligation   $30,100,000,000     8 7/10/       Exchange        $22,041,706,310    9
               2009                     Motors         w/ Additional                           2009        for preferred
                                        Corporation    Note                                                and common
                                                                                                           stock in New
                                                                                                           GM
                                                                                                  7/10/    Transfer of      $7,072,488,605    9
                                                                                                  2009     debt to New
                                                                                                           GM
                                                                                                  7/10/    Debt left at      $985,805,085     9 Motors                  Debt            $985,805,085
                                                                                                  2009     Old GM                               Liquidation             Obligation
                                                                                                                                                Company
                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 30, 2010
                                                                                                                                                                                                                                                                                                 201
                                                                                                                                                                                                                                                                                              202
AIFP Transaction detail, as of 12/31/2009                                                 (Continued)
                                                                                                                                                                 Treasury Investment
                                    Initial Investment                                          Exchange/Transfer/Other Details                            After Exchange/Transfer/Other                                    Payment or Disposition1
                                                                                                                                                                                                                                                                  Remaining   Income Paid
                                                                                                                                                                                                                                               Remaining         Investment    to Treasury
                      Transaction                                                                                                                                                                                                Amount/      Investment           Amount/       (Interest/
Institution   Date    Type            Seller         Description               Amount    Note   Date    Type                      Amount Note Obligor        Notes   Description   Amount/Equity %      Date     Type            Proceeds     Description          Equity %    Dividends)a
              1/16/   Purchase        Chrysler       Debt Obligation    $1,500,000,000    13                                                                                                         3/17/     Partial     $3,499,055       Debt            $1,496,500,945
              2009                    FinCo          w/ Additional                                                                                                                                   2009      repayment                    Obligation
                                                     Note                                                                                                                                                                                   w/ Additional
                                                                                                                                                                                                                                            Note
                                                                                                                                                                                                     4/17/     Partial     $31,810,122      Debt            $1,464,690,823
                                                                                                                                                                                                     2009      repayment                    Obligation
                                                                                                                                                                                                                                            w/ Additional
                                                                                                                                                                                                                                            Note

Chrysler                                                                                                                                                                                             5/18/     Partial     $51,136,084      Debt            $1,413,554,739
FinCo,                                                                                                                                                                                               2009      repayment                    Obligation
                                                                                                                                                                                                                                            w/ Additional                      $7,405,894
Farmington
Hills, MI                                                                                                                                                                                                                                   Note
                                                                                                                                                                                                     6/17/     Partial     $44,357,710      Debt            $1,369,197,029
                                                                                                                                                                                                     2009      repayment                    Obligation
                                                                                                                                                                                                                                            w/ Additional
                                                                                                                                                                                                                                            Note
                                                                                                                                                                                                     7/14/     Repayment   $1,369,197,029   Additional      $0
                                                                                                                                                                                                     2009                                   Note
                                                                                                                                                                                                     7/14/     Repayment   $15,000,000       None           -
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 30, 2010




                                                                                                                                                                                                     2009
              1/2/    Purchase        Chrysler       Debt Obligation    $4,000,000,000          6/10/   Transfer of      $500,000,000      19 Chrysler       20      Debt           $3,500,000,000
              2009                    Holding        w/ Additional                              2009    debt to New                           Holding                Obligation
                                                     Note                                               Chrysler
              4/29/   Purchase        Chrysler       Debt Obligation                $-    14
              2009                    Holding        w/ Additional
                                                     Note
              4/29/   Purchase        Chrysler       Debt Obligation      $280,130,642    15                                                                                                         7/10/     Repayment   $280,130,642     Additional      $0
              2009                    Holding        w/ Additional                                                                                                                                   2009                                   Note
                                                     Note
Chrylser,c
              5/1/    Purchase        Chrysler       Debt Obligation    $1,888,153,580    16
Auburn                                                                                                                                                                                                                                                                        $55,237,713
              2009                    LLC            w/ Additional
Hills, MI
                                                     Note
              5/20/   Purchase        Chrysler       Debt Obligation                $-    17
              2009                    LLC            w/ Additional
                                                     Note
              5/27/   Purchase        Chrysler       Debt Obligation    $6,642,000,000    18 6/10/      Issuance of                   $-       Chrysler      19      Debt           $7,142,000,000
              2009                    Group LLC      w/ Additional                           2009       equity in New                          Group LLC             obligation
                                                     Note, Equity                                       Chrysler
                                                                                                                                               Chrysler              Common                  9.9%
                                                                                                                                               Group LLC             equity
                                      Total Initial Investment         $81,344,932,551                                                                                                                   Total Payments $3,155,754,840
                                      Amount
                                                                                                                                                                                       Total Treasury Investment Amount $78,189,177,711

                                                                                                                                                                                                                                                                    Continued on next page.
AIFP Transaction detail, as of 12/31/2009                                                             (Continued)
                                                                                                                                                                                Treasury Investment
                                          Initial Investment                                                Exchange/Transfer/Other Details                               After Exchange/Transfer/Other                                           Payment or Disposition1
                                                                                                                                                                                                                                                                                           Remaining      Income Paid
                                                                                                                                                                                                                                                                       Remaining          Investment       to Treasury
                            Transaction                                                                                                                                                                                                                  Amount/      Investment            Amount/          (Interest/
 Institution     Date       Type                Seller        Description                  Amount    Note   Date    Type                      Amount Note Obligor           Notes    Description    Amount/Equity %         Date      Type               Proceeds     Description           Equity %       Dividends)a



    Notes: Numbers affected by rounding. Data as of 12/31/2009. Definitions and numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report. See www.financialstability.gov to see Transactions Report including colored lines referred to by Treasury.
    As used in this table and its footnotes:
    “GMAC” refers to GMAC Inc., formerly known as GMAC LLC.
    “Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
    “New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
    “Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
    “Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
    “Old Chrysler” refers to Chrysler LLC.
    “New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
    1
      Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
    2
      Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
    3
      Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
      transactions marked by orange line in the table above and footnote 22.)
    4
      This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
    5
      This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
    6
      This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by [sic]. On 7/10/2009, the principal amount was included in the $7.07 billion of
      debt assumed by the New GM, as explained in footnote 10.
    7
      On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
    8
      Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds
      had been disbursed by Treasury.
    9
      On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under
      the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
    10
      In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
    11
      Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General
      Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
    12
      Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
    13
      The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
    14
      This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
    15
      The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
    16
      This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”).
      As of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
    17
      This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP
      Loan had terminated.
    18
      This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up
      to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New
      Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
    19
      Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
    20
      Under the terms of an agreement dated 7/23/2009, Treasury agreed to hold the outstanding loans of Chrysler Holding in forbearance, and Chrysler Holding agreed to pay the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo in the event it receives proceeds from Chrysler FinCo.
    21
      Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
    22
      Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
    a
      For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
    b
      According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
    c
      This table includes AWCP transactions.

    Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010



Table D.8


ASSP Transaction Detail, as of 12/31/2009
                                Seller                                                                                                              Adjustment Details                                     Repayment4
                                                               Transaction   Investment                 Investment Pricing  Adjustment                                 Adjusted Investment                                                Income Paid
Note     Date     Institution            City            State Type          Description                   Amount Mechanism Date3              Adjustment Amount                   Amount          Date          Type          Amount      to Treasury
1        4/9/     GM Supplier            Wilmington      DE      Purchase    Debt Obligation w/     $3,500,000,000 N/A          7/8/2009         ($1,000,000,000)          $2,500,000,000       11/20/         Partial $140,000,000        $7,324,795
         2009     Receivables LLC                                            Additional Note                                                                                                      2009     repayment
2        4/9/     Chrysler               Wilmington      DE      Purchase    Debt Obligation w/     $1,500,000,000 N/A          7/8/2009           ($500,000,000)          $1,000,000,000                                                  $3,988,232
         2009     Receivables                                                Additional Note
                  SPV LLC
                                                                             Total                $5,000,000,000                                    Adjusted Total        $3,500,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount.
  The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier [sic].
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will
  be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on [sic].
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
                                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I january 30, 2010




4
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010.
                                                                                                                                                                                                                                                                                                                          203
                                                                                                                                                                                                                                                                                 204
Table D.9


HAMP Transaction Detail, as of 12/31/2009                                                (continued)
                          Servicer                                                                                                                                                      Adjustment Details

                                                                                               Cap of Incentive Payments on Behalf                                                                                                                                    Market
                                                 Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment    Cap Adjustment                                                                             Capitalization
Date        Institution                          Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date           Amount       Adjusted Cap    Reason for Adjustment                                    (in millions)

                                                                                                                                                    6/12/2009        $284,590,000      $660,590,000     Updated portfolio data from servicer

                                                                                                                                                    9/30/2009        $121,910,000      $782,500,000     Updated portfolio data from servicer & HPDP
            Select Portfolio Servicing,                        Financial Instrument for Home
4/13/2009                                        Purchase                                                            $376,000,000    N/A                                                                initial cap
            Salt Lake City, UT                                 Loan Modifications
                                                                                                                                                    12/30/2009       $131,340,000      $913,840,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/12/2009       $(991,580,000)    $1,079,420,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $1,010,180,000    $2,089,600,000    Updated portfolio data from servicer & HPDP
            CitiMortgage, Inc.,                                Financial Instrument for Home
4/13/2009                                        Purchase                                                          $2,071,000,000    N/A                                                                initial cap
            O’Fallon, MO                                       Loan Modifications
                                                                                                                                                    12/30/2009      $(105,410,000)    $1,984,190,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/17/2009       $(462,990,000)    $2,410,010,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009          $65,070,000    $2,475,080,000    Updated portfolio data from servicer & HPDP
            Wells Fargo Bank, NA, Des                          Financial Instrument for Home
4/13/2009                                        Purchase                                                          $2,873,000,000    N/A                                                                initial cap                                              $137,995.3
            Moines, IA                                         Loan Modifications
                                                                                                                                                    12/30/2009      $1,213,310,000    $3,688,390,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I January 30, 2010




                                                                                                                                                    6/12/2009        $384,650,000     $1,017,650,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $2,537,240,000    $3,554,890,000    Updated portfolio data from servicer & HPDP
            GMAC Mortgage, Inc., Ft.                           Financial Instrument for Home
4/13/2009                                        Purchase                                                            $633,000,000    N/A                                                                initial cap
            Washington, PA                                     Loan Modifications
                                                                                                                                                    12/30/2009     $(1,679,520,000)   $1,875,370,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/17/2009        $225,040,000      $632,040,000     Updated portfolio data from servicer

                                                                                                                                                    9/30/2009        $254,380,000      $886,420,000     Updated portfolio data from servicer & HPDP
            Saxon Mortgage Services, Inc.,                     Financial Instrument for Home
4/13/2009                                        Purchase                                                            $407,000,000    N/A                                                                initial cap
            Irving, TX                                         Loan Modifications
                                                                                                                                                    12/30/2009       $355,710,000     $1,242,130,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

4/13/2009   Chase Home Finance, LLC,             Purchase      Financial Instrument for Home                       $3,552,000,000    N/A            7/31/2009      $(3,552,000,000)                $-   Termination of SPA
            Iselin, NJ                                         Loan Modifications

                                                                                                                                                    6/12/2009       $(105,620,000)     $553,380,000     Updated portfolio data from servicer

                                                                                                                                                    9/30/2009        $102,580,000      $655,960,000     Updated portfolio data from servicer & HPDP
            Ocwen Financial Corporation, Inc.,                 Financial Instrument for Home
4/16/2009                                        Purchase                                                            $659,000,000    N/A                                                                initial cap                                                   $955.4
            West Palm Beach, FL                                Loan Modifications
                                                                                                                                                    12/30/2009       $277,640,000      $933,600,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/12/2009           $5,540,000     $804,440,000     Updated portfolio data from servicer

                                                                                                                                                    9/30/2009        $162,680,000      $967,120,000     Updated portfolio data from servicer & HPDP
            Bank of America, N.A., Simi                        Financial Instrument for Home
4/17/2009                                        Purchase                                                            $798,900,000    N/A                                                                initial cap                                              $130,273.1
            Valley, CA                                         Loan Modifications
                                                                                                                                                    12/30/2009       $665,510,000     $1,632,630,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/12/2009       $3,318,840,000    $5,182,840,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $(717,420,000)    $4,465,420,000    Updated portfolio data from servicer & HPDP
            Countrywide Home Loans                             Financial Instrument for Home
4/17/2009                                        Purchase                                                          $1,864,000,000    N/A                                                                initial cap
            Servicing LP, Simi Valley, CA                      Loan Modifications
                                                                                                                                                    12/30/2009      $2,290,780,000    $6,756,200,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                    6/12/2009        $128,300,000      $447,300,000     Updated portfolio data from servicer

                                                                                                                                                    9/30/2009          $46,730,000     $494,030,000     Updated portfolio data from servicer & HPDP
            Home Loan Services, Inc.,                          Financial Instrument for Home
4/20/2009                                        Purchase                                                            $319,000,000    N/A                                                                initial cap
            Pittsburgh, PA                                     Loan Modifications
                                                                                                                                                    12/30/2009       $145,820,000      $639,850,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                        DIL initial cap

                                                                                                                                                                                                                                                      Continued on next page.
HAMP Transaction Detail, as of 12/31/2009                                                (continued)
                          Servicer                                                                                                                                                  Adjustment Details

                                                                                               Cap of Incentive Payments on Behalf                                                                                                                                Market
                                                 Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment   Cap Adjustment                                                                          Capitalization
Date        Institution                          Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date          Amount    Adjusted Cap    Reason for Adjustment                                    (in millions)

                                                                                                                                                    6/12/2009        $87,130,000    $453,130,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009      $(249,670,000)   $203,460,000    Updated portfolio data from servicer & HPDP
            Wilshire Credit Corporation,                       Financial Instrument for Home
4/20/2009                                        Purchase                                                            $366,000,000    N/A                                                            initial cap
            Beaverton, OR                                      Loan Modifications
                                                                                                                                                    12/30/2009      $119,700,000    $323,160,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    6/17/2009       $(64,990,000)    $91,010,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $130,780,000    $221,790,000    Updated portfolio data from servicer & HPDP
            Green Tree Servicing LLC Saint                     Financial Instrument for Home
4/24/2009                                        Purchase                                                            $156,000,000    N/A                                                            initial cap
            Paul, MN                                           Loan Modifications
                                                                                                                                                    12/30/2009     $(116,750,000)   $105,040,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    6/17/2009       $(63,980,000)   $131,020,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009        $90,990,000    $222,010,000    Updated portfolio data from servicer & HPDP
            Carrington Mortgage Services,                      Financial Instrument for Home
4/27/2009                                        Purchase                                                            $195,000,000    N/A                                                            initial cap
            LLC, Santa Ana, CA                                 Loan Modifications
                                                                                                                                                    12/30/2009       $57,980,000    $279,990,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    6/17/2009      $(338,450,000)   $459,550,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $(11,860,000)   $447,690,000    Updated portfolio data from servicer & HPDP
            Aurora Loan Services, LLC,                         Financial Instrument for Home
5/1/2009                                         Purchase                                                            $798,000,000    N/A                                                            initial cap
            Littleton, CO                                      Loan Modifications
                                                                                                                                                    12/30/2009       $21,330,000    $469,020,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    6/12/2009        $16,140,000    $117,140,000    Updated portfolio data from servicer

                                                                                                                                                    9/30/2009       $134,560,000    $251,700,000    Updated portfolio data from servicer & HPDP
            Nationstar Mortgage LLC,                           Financial Instrument for Home
5/28/2009                                        Purchase                                                            $101,000,000    N/A                                                            initial cap
            Lewisville, TX                                     Loan Modifications
                                                                                                                                                    12/30/2009       $80,250,000    $331,950,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    9/30/2009        $(1,860,000)    $17,540,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Residential Credit Solutions, Fort                 Financial Instrument for Home
6/12/2009                                        Purchase                                                             $19,400,000    N/A
            Worth, TX                                          Loan Modifications
                                                                                                                                                    12/30/2009       $27,920,000     $45,460,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    9/30/2009        $13,070,000     $29,590,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
                                                               Financial Instrument for Home
6/17/2009   CCO Mortgage, Glen Allen, VA         Purchase                                                             $16,520,000    N/A
                                                               Loan Modifications
                                                                                                                                                    12/30/2009      $145,510,000    $175,100,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    9/30/2009       $(11,300,000)    $45,700,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            RG Mortgage Corporation, San                       Financial Instrument for Home
6/17/2009                                        Purchase                                                             $57,000,000    N/A
            Juan, PR                                           Loan Modifications
                                                                                                                                                    12/30/2009      $(42,210,000)     $3,490,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

6/19/2009   First Federal Savings and Loan,      Purchase      Financial Instrument for Home                             $770,000    N/A            12/30/2009        $2,020,000      $2,790,000    Updated portfolio data from servicer & SS/
            Port Angeles, WA                                   Loan Modifications                                                                                                                   DIL initial cap

                                                                                                                                                    9/30/2009           $330,000       $870,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Wescom Central Credit Union,                       Financial Instrument for Home
6/19/2009                                        Purchase                                                                $540,000    N/A
            Anaheim, CA                                        Loan Modifications
                                                                                                                                                    12/30/2009       $16,490,000     $17,360,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    9/30/2009           $(10,000)        $20,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Citizens First Wholesale Mortgage                  Financial Instrument for Home
6/26/2009                                        Purchase                                                                 $30,000    N/A
            Company, The Villages, FL                          Loan Modifications
                                                                                                                                                    12/30/2009          $590,000       $610,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I january 30, 2010




6/26/2009   Technology Credit Union, San         Purchase      Financial Instrument for Home                              $70,000    N/A            12/30/2009        $2,180,000      $2,250,000    Updated portfolio data from servicer & SS/
            Jose, CA                                           Loan Modifications                                                                                                                   DIL initial cap

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                             205
HAMP Transaction Detail, as of 12/31/2009                                               (continued)                                                                                                                                                                           206
                          Servicer                                                                                                                                                   Adjustment Details

                                                                                              Cap of Incentive Payments on Behalf                                                                                                                                  Market
                                                Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment   Cap Adjustment                                                                            Capitalization
Date        Institution                         Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date          Amount      Adjusted Cap    Reason for Adjustment                                    (in millions)

                                                                                                                                                   9/30/2009       $315,170,000     $610,150,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            National City Bank, Miamisburg,                   Financial Instrument for Home
6/26/2009                                       Purchase                                                            $294,980,000    N/A
            OH                                                Loan Modifications
                                                                                                                                                   12/30/2009       $90,280,000     $700,430,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009       $723,880,000    $1,357,890,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            Wachovia Mortgage, FSB, Des                       Financial Instrument for Home
7/1/2009                                        Purchase                                                            $634,010,000    N/A
            Moines, IA                                        Loan Modifications
                                                                                                                                                   12/30/2009      $692,640,000    $2,050,530,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009        $23,850,000      $68,110,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            Bayview Loan Servicing, LLC,                      Financial Instrument for Home
7/1/2009                                        Purchase                                                             $44,260,000    N/A
            Coral Gables, FL                                  Loan Modifications
                                                                                                                                                   12/30/2009       $43,590,000     $111,700,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009           $150,000         $250,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
                                                              Financial Instrument for Home
7/10/2009   Lake National Bank, Mentor, OH      Purchase                                                                $100,000    N/A
                                                              Loan Modifications
                                                                                                                                                   12/30/2009          $130,000         $380,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009           $(10,000)        $860,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I January 30, 2010




                                                                                                                                                                                                     initial cap
            IBM Southeast Employees’ Federal                  Financial Instrument for Home
7/10/2009                                       Purchase                                                                $870,000    N/A
            Credit Union, Delray Beach, FL                    Loan Modifications
                                                                                                                                                   12/30/2009          $250,000        $1,110,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009        $18,530,000      $42,010,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
                                                              Financial Instrument for Home
7/17/2009   MorEquity, Inc., Evansville, IN     Purchase                                                             $23,480,000    N/A
                                                              Loan Modifications
                                                                                                                                                   12/30/2009       $24,510,000      $66,520,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009       $(36,240,000)     $18,230,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            PNC Bank, National Association,                   Financial Instrument for Home
7/17/2009                                       Purchase                                                             $54,470,000    N/A                                                                                                                        $24,351.5
            Pittsburgh, PA                                    Loan Modifications
                                                                                                                                                   12/30/2009       $19,280,000      $37,510,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009           $(90,000)          $80,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            Farmers State Bank, West                          Financial Instrument for Home
7/17/2009                                       Purchase                                                                $170,000    N/A
            Salem, OH                                         Loan Modifications
                                                                                                                                                   12/30/2009           $50,000         $130,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009           $890,000        $2,300,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
                                                              Financial Instrument for Home
7/17/2009   ShoreBank, Chicago, IL              Purchase                                                              $1,410,000    N/A
                                                              Loan Modifications
                                                                                                                                                   12/30/2009        $1,260,000        $3,560,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009       $(53,670,000)   $1,218,820,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            American Home Mortgage                            Financial Instrument for Home
7/22/2009                                       Purchase                                                          $1,272,490,000    N/A
            Servicing, Inc, Coppeli, TX                       Loan Modifications
                                                                                                                                                   12/30/2009      $250,450,000    $1,469,270,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009         $1,780,000        $5,990,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            Mortgage Center, LLC, Southfield,                 Financial Instrument for Home
7/22/2009                                       Purchase                                                              $4,210,000    N/A
            MI                                                Loan Modifications
                                                                                                                                                   12/30/2009        $2,840,000        $8,830,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                   9/30/2009          $(490,000)        $370,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                     initial cap
            Mission Federal Credit Union, San                 Financial Instrument for Home
7/22/2009                                       Purchase                                                                $860,000    N/A
            Diego, CA                                         Loan Modifications
                                                                                                                                                   12/30/2009        $6,750,000        $7,120,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                     DIL initial cap

                                                                                                                                                                                                                                                   Continued on next page.
HAMP Transaction Detail, as of 12/31/2009                                              (continued)
                          Servicer                                                                                                                                                  Adjustment Details

                                                                                             Cap of Incentive Payments on Behalf                                                                                                                                  Market
                                               Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment   Cap Adjustment                                                                            Capitalization
Date        Institution                        Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date          Amount      Adjusted Cap    Reason for Adjustment                                    (in millions)

                                                                                                                                                  9/30/2009        $(1,530,000)       $4,930,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
                                                             Financial Instrument for Home
7/29/2009   First Bank, St. Louis, MO          Purchase                                                              $6,460,000    N/A
                                                             Loan Modifications
                                                                                                                                                  12/30/2009          $680,000        $5,610,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009           $(60,000)       $1,030,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Purdue Employees Federal Credit                  Financial Instrument for Home
7/29/2009                                      Purchase                                                              $1,090,000    N/A
            Union, West Lafayette, IN                        Loan Modifications
                                                                                                                                                  12/30/2009        $1,260,000        $2,290,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009       $(37,700,000)     $47,320,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Wachovia Bank, N.A., Charlotte,                  Financial Instrument for Home
7/29/2009                                      Purchase                                                             $85,020,000    N/A
            NC                                               Loan Modifications
                                                                                                                                                  12/30/2009       $26,160,000      $73,480,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009       $(14,850,000)   $2,684,870,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            J.P.Morgan Chase Bank, NA,                       Financial Instrument for Home
7/31/2009                                      Purchase                                                          $2,699,720,000    N/A                                                                                                                       $171,052.6
            Lewisville, TX                                   Loan Modifications
                                                                                                                                                  12/30/2009     $1,178,180,000   $3,863,050,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009           $(10,000)    $707,370,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            EMC Mortgage Corporation,                        Financial Instrument for Home
7/31/2009                                      Purchase                                                            $707,380,000    N/A
            Lewisville, TX                                   Loan Modifications
                                                                                                                                                  12/30/2009      $502,430,000    $1,209,800,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009           $180,000         $600,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
                                                             Financial Instrument for Home
8/5/2009    Lake City Bank, Warsaw, IN         Purchase                                                                $420,000    N/A
                                                             Loan Modifications
                                                                                                                                                  12/30/2009         $(350,000)        $250,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009           $290,000         $430,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Oakland Municipal Credit Union,                  Financial Instrument for Home
8/5/2009                                       Purchase                                                                $140,000    N/A
            Oakland, CA                                      Loan Modifications
                                                                                                                                                  12/30/2009          $210,000         $640,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009      $(121,190,000)    $552,810,000     Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            HomEq Servicing, North                           Financial Instrument for Home
8/5/2009                                       Purchase                                                            $674,000,000    N/A
            Highlands, CA                                    Loan Modifications
                                                                                                                                                  12/30/2009      $(36,290,000)    $516,520,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009       $313,050,000    $1,087,950,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            Litton Loan Servicing LP,                        Financial Instrument for Home
8/12/2009                                      Purchase                                                            $774,900,000    N/A
            Houston, TX                                      Loan Modifications
                                                                                                                                                  12/30/2009      $275,370,000    $1,363,320,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009        $(1,200,000)       $5,010,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
            PennyMac Loan Services, LLC,                     Financial Instrument for Home
8/12/2009                                      Purchase                                                              $6,210,000    N/A
            Calasbasa, CA                                    Loan Modifications
                                                                                                                                                  12/30/2009       $30,800,000      $35,810,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  9/30/2009       $(25,510,000)       $4,220,000    Updated portfolio data from servicer & HPDP
                                                                                                                                                                                                    initial cap
                                                             Financial Instrument for Home
8/12/2009   Servis One, Inc., Titusville, PA   Purchase                                                             $29,730,000    N/A
                                                             Loan Modifications
                                                                                                                                                  12/30/2009          $520,000        $4,740,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  10/2/2009       $145,800,000     $814,240,000     HPDP initial cap
                                                             Financial Instrument for Home
8/28/2009   OneWest Bank, Pasadena, CA         Purchase                                                            $668,440,000    N/A
                                                             Loan Modifications                                                                   12/30/2009     $1,355,930,000   $2,170,170,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                  10/2/2009            $70,000         $370,000     HPDP initial cap
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I january 30, 2010




            Stanford Federal Credit Union,                   Financial Instrument for Home
8/28/2009                                      Purchase                                                                $300,000    N/A
            Palo Alto, CA                                    Loan Modifications                                                                   12/30/2009        $2,680,000        $3,050,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                             207
HAMP Transaction Detail, as of 12/31/2009                                                (continued)                                                                                                                                                                        208
                          Servicer                                                                                                                                                  Adjustment Details

                                                                                               Cap of Incentive Payments on Behalf                                                                                                                               Market
                                                 Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment   Cap Adjustment                                                                         Capitalization
Date        Institution                          Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date          Amount    Adjusted Cap    Reason for Adjustment                                   (in millions)

                                                                                                                                                    10/2/2009           $130,000       $700,000     HPDP initial cap
            RoundPoint Mortgage Servicing                      Financial Instrument for Home
8/28/2009                                        Purchase                                                                $570,000    N/A
            Corporation, Charlotte, NC                         Loan Modifications
                                                                                                                                                    12/30/2009         $(310,000)      $390,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009           $130,000       $690,000     HPDP initial cap
                                                               Financial Instrument for Home
9/2/2009    Horicon Bank, Horicon, WI            Purchase                                                                $560,000    N/A
                                                               Loan Modifications                                                                   12/30/2009        $1,040,000      $1,730,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009         $1,310,000      $7,310,000    HPDP initial cap
                                                               Financial Instrument for Home
9/2/2009    Vantium Capital, Inc., Plano, TX     Purchase                                                              $6,000,000    N/A
                                                               Loan Modifications                                                                   12/30/2009       $(3,390,000)     $3,920,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009           $280,000      $1,530,000    HPDP initial cap
            Central Florida Educators Federal                  Financial Instrument for Home
9/9/2009                                         Purchase                                                              $1,250,000    N/A
            Credit Union, Lake Mary, FL                        Loan Modifications                                                                   12/30/2009         $(750,000)      $780,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009        $24,920,000    $139,140,000    HPDP initial cap
            U.S. Bank National Association,                    Financial Instrument for Home
9/9/2009                                         Purchase                                                            $114,220,000    N/A
            Owensboro, KY                                      Loan Modifications                                                                   12/30/2009       $49,410,000    $188,550,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I January 30, 2010




                                                                                                                                                    10/2/2009           $950,000      $5,300,000    HPDP initial cap
            CUC Mortgage Corporation,                          Financial Instrument for Home
9/9/2009                                         Purchase                                                              $4,350,000    N/A
            Albany, NY                                         Loan Modifications                                                                   12/30/2009        $5,700,000     $11,000,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009           $460,000      $2,530,000    HPDP initial cap
            ORNL Federal Credit Union, Oak                     Financial Instrument for Home
9/11/2009                                        Purchase                                                              $2,070,000    N/A
            Ridge, TN                                          Loan Modifications                                                                   12/30/2009        $2,730,000      $5,260,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $60,000       $310,000     HPDP initial cap
            Allstate Mortgage Loans &                          Financial Instrument for Home
9/11/2009                                        Purchase                                                                $250,000    N/A
            Investments, Inc., Ocala, FL                       Loan Modifications                                                                   12/30/2009          $(80,000)      $230,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $70,000       $350,000     HPDP initial cap
            Metropolitan National Bank, Little                 Financial Instrument for Home
9/11/2009                                        Purchase                                                                $280,000    N/A
            Rock, AR                                           Loan Modifications                                                                   12/30/2009          $620,000       $970,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009         $6,010,000     $33,520,000    HPDP initial cap
            Franklin Credit Management                         Financial Instrument for Home
9/11/2009                                        Purchase                                                             $27,510,000    N/A
            Corporation                                        Loan Modifications                                                                   12/30/2009      $(19,750,000)    $13,770,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $90,000       $500,000     HPDP initial cap
            Bay Federal Credit Union,                          Financial Instrument for Home
9/16/2009                                        Purchase                                                                $410,000    N/A
            Capitola, CA                                       Loan Modifications                                                                   12/30/2009        $1,460,000      $1,960,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009           $960,000      $5,350,000    HPDP initial cap
                                                               Financial Instrument for Home
9/23/2009   AMS Servicing, LLC, Buffalo, NY      Purchase                                                              $4,390,000    N/A
                                                               Loan Modifications                                                                   12/30/2009       $(3,090,000)     $2,260,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $90,000       $480,000     HPDP initial cap
            Schools Financial Credit Union,                    Financial Instrument for Home
9/23/2009                                        Purchase                                                                $390,000    N/A
            Sacramento, CA                                     Loan Modifications                                                                   12/30/2009          $940,000      $1,420,000    Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $60,000       $290,000     HPDP initial cap
            Glass City Federal Credit Union,                   Financial Instrument for Home
9/23/2009                                        Purchase                                                                $230,000    N/A
            Maumee, OH                                         Loan Modifications                                                                   12/30/2009          $(10,000)      $280,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                    10/2/2009            $10,000         $40,000    HPDP initial cap
            Central Jersey Federal Credit                      Financial Instrument for Home
9/23/2009                                        Purchase                                                                 $30,000    N/A
            Union, Woodbridge, NJ                              Loan Modifications                                                                   12/30/2009          $120,000       $160,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                    DIL initial cap

                                                                                                                                                                                                                                                 Continued on next page.
HAMP Transaction Detail, as of 12/31/2009                                                  (continued)
                           Servicer                                                                                                                                                   Adjustment Details

                                                                                                 Cap of Incentive Payments on Behalf                                                                                                                               Market
                                                   Transaction                                   of Borrowers and to Servicers &            Pricing     Adjustment   Cap Adjustment                                                                         Capitalization
Date         Institution                           Type          Investment Description          Lenders/Investors (Cap) 1               Mechanism            Date          Amount    Adjusted Cap    Reason for Adjustment                                   (in millions)

                                                                                                                                                      10/2/2009            $60,000       $300,000     HPDP initial cap
                                                                 Financial Instrument for Home
9/23/2009    Yadkin Valley Bank, Elkin, NC         Purchase                                                                $240,000    N/A                                                                                                                          $59.0
                                                                 Loan Modifications                                                                   12/30/2009          $350,000       $650,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                      DIL initial cap

                                                                                                                                                      10/2/2009           $100,000       $540,000     HPDP initial cap
                                                                 Financial Instrument for Home
9/25/2009    SEFCU, Albany, NY                     Purchase                                                                $440,000    N/A
                                                                 Loan Modifications                                                                   12/30/2009           $20,000       $560,000     Updated portfolio data from servicer & SS/
                                                                                                                                                                                                      DIL initial cap

10/14/2009   Great Lakes Credit Union, North       Purchase      Financial Instrument for Home                             $570,000    N/A            12/30/2009        $1,030,000      $1,600,000    Updated portfolio data from servicer & SS/
             Chicago, IL                                         Loan Modifications                                                                                                                   DIL initial cap

10/14/2009   Mortgage Clearing Corporation,        Purchase      Financial Instrument for Home                           $4,860,000    N/A            12/30/2009       $(2,900,000)     $1,960,000    Updated portfolio data from servicer & SS/
             Tulsa, OK                                           Loan Modifications                                                                                                                   DIL initial cap

10/21/2009   United Bank Mortgage                  Purchase      Financial Instrument for Home                             $410,000    N/A
             Corporation, Grand Rapids, MI                       Loan Modifications

10/23/2009   Bank United, Miami Lakes, FL          Purchase      Financial Instrument for Home                          $93,660,000    N/A
                                                                 Loan Modifications

10/23/2009   IC Federal Credit Union, Fitchburg,   Purchase      Financial Instrument for Home                             $760,000    N/A
             MA                                                  Loan Modifications

10/28/2009   Harleysville National Bank & Trust    Purchase      Financial Instrument for Home                           $1,070,000    N/A
             Company, Harleysville, PA                           Loan Modifications

10/28/2009   Members Mortgage Company, Inc,        Purchase      Financial Instrument for Home                             $510,000    N/A
             Woburn, MA                                          Loan Modifications

10/30/2009   DuPage Credit Union, Naperville, IL   Purchase      Financial Instrument for Home                              $70,000    N/A
                                                                 Loan Modifications

11/6/2009    Los Alamos National Bank, Los         Purchase      Financial Instrument for Home                             $700,000    N/A
             Alamos, NM                                          Loan Modifications

11/18/2009   Quantum Servicing Corporation,        Purchase      Financial Instrument for Home                          $18,960,000    N/A
             Tampa, FL                                           Loan Modifications

11/18/2009   Hillsdale County National Bank,       Purchase      Financial Instrument for Home                           $1,670,000    N/A
             Hillsdale, MI                                       Loan Modifications

11/18/2009   QLending, Inc., Coral Gables, FL      Purchase      Financial Instrument for Home                              $20,000    N/A
                                                                 Loan Modifications

11/25/2009   Marix Servicing, LLC, Pheonix, AZ     Purchase      Financial Instrument for Home                          $20,360,000    N/A
                                                                 Loan Modifications

11/25/2009   Home Financing Center, Inc, Coral     Purchase      Financial Instrument for Home                             $230,000    N/A
             Gables, FL                                          Loan Modifications

11/25/2009   First Keystone Bank, Media, PA        Purchase      Financial Instrument for Home                           $1,280,000    N/A
                                                                 Loan Modifications

12/4/2009    Community Bank & Trust                Purchase      Financial Instrument for Home                             $380,000    N/A
             Company, Clarks Summit, PA                          Loan Modifications

12/4/2009    Idaho Housing and Finance             Purchase      Financial Instrument for Home                           $9,430,000    N/A
             Association, Boise, ID                              Loan Modifications

12/9/2009    Spirit of Alaska Federal Credit       Purchase      Financial Instrument for Home                             $360,000    N/A
             Union, Fairbanks, AK                                Loan Modifications

12/9/2009    American Eagle Federal Credit         Purchase      Financial Instrument for Home                           $1,590,000    N/A
             Union, East Hartford, CT                            Loan Modifications

12/9/2009    Silver State Schools Credit Union,    Purchase      Financial Instrument for Home                           $1,880,000    N/A
             Las Vegas, NV                                       Loan Modifications

12/9/2009    Fidelity Homestead Savings Bank,      Purchase      Financial Instrument for Home                           $2,940,000    N/A
             New Orleans, LA                                     Loan Modifications
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I january 30, 2010




12/9/2009    Bay Gulf Credit Union, Tampa, FL      Purchase      Financial Instrument for Home                             $230,000    N/A
                                                                 Loan Modifications

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                              209
HAMP Transaction Detail, as of 12/31/2009                                                           (continued)                                                                                                                                                                                                    210
                               Servicer                                                                                                                                                                                 Adjustment Details

                                                                                                             Cap of Incentive Payments on Behalf                                                                                                                                                        Market
                                                       Transaction                                           of Borrowers and to Servicers &                  Pricing        Adjustment         Cap Adjustment                                                                                   Capitalization
Date             Institution                           Type              Investment Description              Lenders/Investors (Cap) 1                     Mechanism               Date                Amount           Adjusted Cap      Reason for Adjustment                                    (in millions)

12/9/2009        The Golden 1 Credit Union,            Purchase          Financial Instrument for Home                                  $6,160,000      N/A
                 Sacramento, CA                                          Loan Modifications

12/9/2009        Sterling Savings Bank,                Purchase          Financial Instrument for Home                                  $2,250,000      N/A
                 Spokane, WA                                             Loan Modifications

12/11/2009       HomeStar Bank & Financial             Purchase          Financial Instrument for Home                                    $310,000      N/A
                 Services, Manteno, IL                                   Loan Modifications

12/11/2009       Glenview State Bank, Glenview, IL     Purchase          Financial Instrument for Home                                    $370,000      N/A
                                                                         Loan Modifications

12/11/2009       Verity Credit Union, Seattle, WA      Purchase          Financial Instrument for Home                                    $600,000      N/A
                                                                         Loan Modifications

12/11/2009       Hartford Savings Bank,                Purchase          Financial Instrument for Home                                    $630,000      N/A
                 Hartford, WI                                            Loan Modifications

12/11/2009       The Bryn Mawr Trust Co., Bryn         Purchase          Financial Instrument for Home                                    $150,000      N/A
                 Mawr, PA                                                Loan Modifications

12/16/2009       Citizens 1st National Bank, Spring    Purchase          Financial Instrument for Home                                    $620,000      N/A
                 Valley, IL                                              Loan Modifications

12/16/2009       Golden Plains Credit Union, Garden    Purchase          Financial Instrument for Home                                    $170,000      N/A
                                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I January 30, 2010




                 City, KS                                                Loan Modifications

12/16/2009       First Federal Savings and Loan        Purchase          Financial Instrument for Home                                  $3,460,000      N/A
                 Association of Lakewood,                                Loan Modifications
                 Lakewood, OH

12/16/2009       Sound Community Bank, Seattle,        Purchase          Financial Instrument for Home                                    $440,000      N/A
                 WA                                                      Loan Modifications

12/16/2009       Horizon Bank, NA, Michigan            Purchase          Financial Instrument for Home                                    $700,000      N/A
                 City, IN                                                Loan Modifications

12/16/2009       Park View Federal Savings Bank,       Purchase          Financial Instrument for Home                                    $760,000      N/A
                 Solon, OH                                               Loan Modifications

12/23/2009       Iberiabank, Sarasota, FL              Purchase          Financial Instrument for Home                                  $4,230,000      N/A
                                                                         Loan Modifications

12/23/2009       Grafton Suburban Credit Union,        Purchase          Financial Instrument for Home                                    $340,000      N/A
                 North Grafton, MA                                       Loan Modifications

12/23/2009       Eaton National Bank & Trust           Purchase          Financial Instrument for Home                                     $60,000      N/A
                 Company, Eaton, OH                                      Loan Modifications

12/23/2009       Tempe Schools Credit Union,           Purchase          Financial Instrument for Home                                    $110,000      N/A
                 Tempe, AZ                                               Loan Modifications

                                                                         Total Initial Cap                                       $23,594,840,000        Total Cap          $11,948,720,000
                                                                                                                                                        Adjustments

                                                                                                                                          Total Cap                        $35,543,560,000

Notes: Numbers affected by rounding. Data as of 12/31/2009. Numbered notes were taken verbatim from Treasury’s 1/4/2010 Transactions Report.
1
  The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
  program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
  On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.

Sources: Treasury, Transactions Report, 1/4/2010; Treasury, response to SIGTARP data call, 1/12/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2010.
                                                                        public announcement of audits I Appendix E I january 30, 2010    211




PUBLIC ANNOUNCEMENTS OF                                             •	 Effect of TARP on Treasury’s Debt Management. Likely May
AUDITS                                                                 issuance.
This appendix provides an announcement of new and ongo-             •	 Effectiveness of HAMP and oversight of servicers. Likely
ing public audits by the agencies listed below. See Appendix           June issuance.
F: “Key Oversight Reports and Testimonies” for a listing of         •	 Review of SCAP. Likely August issuance.
published reports. Italics style indicates narrative taken as
verbatim from the agencies’ responses to SIGTARP’s data             FDIC OIG4
call.                                                               Ongoing Evaluation
•	 U.S. Department of the Treasury Office of the Inspector          •	 Evaluation of the FDIC’s Loss Share Agreements and Public
    General (“Treasury OIG”)                                           Private Partnerships. One of the objectives of this evaluation
•	 Federal Reserve Board Office of Inspector General                   is to assess the FDIC’s monitoring of the U.S. Federal Parties’
    (“Federal Reserve OIG”)                                            open bank loss share agreement with Citigroup.
•	 Government Accountability Office (“GAO”)
•	 Federal Deposit Insurance Corporation Office of the
    Inspector General (“FDIC OIG”)

Treasury OIG1
 Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 Review of the Federal Reserve’s Lending Facilities and
   Special Programs (report is being drafted)

GAO3
Ongoing Audits
•	 TALF: evaluate oversight systems, monitor activities, and
   evaluate indicators of success. Likely late January/Early
   February issuance. Similar review of PPIP for later in year.
•	 Oversight of GM and Chrysler Pension plans. Probable late
   February/Early March issuance.
•	 CPP Approval and Return Process: Review Treasury’s 	
   process as well as regulators’ processes for approval, as well
   as Treasury and regulators’ application of criteria for 	
   repayment.  Probable spring issuance.                            Endnotes
•	 Partnering with SIGTARP on oversight of government man-          	 Treasury OIG, response to SIGTARP data call, 1/4/2010.
                                                                    1


   agement of formerly private sector entities.	                    	 Federal Reserve OIG, response to SIGTARP data call, 1/5/2010.
                                                                    2


   	                                                                	 GAO, response to SIGTARP data call, 1/5/2010.
                                                                    3


                                                                    	 FDIC OIG, response to SIGTARP data call, 1/5/2010.
                                                                    4
212            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I january 30, 2010




      KEY OVERSIGHT REPORTS AND TESTIMONIES
      This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
      quarterly reports for lists of prior oversight reports and testimonies.			


      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      ROLES AND MISSION
      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
      promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
      advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
      institutions.
      OVERSIGHT REPORTS
      Treasury, Transactions Report, 10/5/2009 ­– 12/31/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 1/8/2010. (released weekly)
      Treasury, Section 105(a) Report, 10/9/2009 –­ 12/10/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 1/8/2010.
      Treasury, “Summary Response to GAO Report, October 2009,” 10/8/2009, www.financialstability.gov/docs/SummaryResponseGAO10-8-2009.pdf,
      accessed 1/8/2010.
      Treasury, “TARP Warrants Valuation Methods by Robert A. Jarrow,” 10/22/2009, www.financialstability.gov/docs/Jarrow%20TARP%20Warrants%20
      Valuation%20Method.pdf, accessed 1/8/2010.
      Treasury, “Summary Response to GAO Report, October 2009,”12/7/2009, www.financialstability.gov/docs/Summary%20Response%20to%20GAO%20
      Anniversary%20Report%20(3).pdf, accessed 1/8/2010.
      Treasury, “Audit Report SAFETY AND SOUNDNESS: City National Corporation Capital Purchase Program Case Study,” 8/27/2009, www.ustreas.gov/
      inspector-general/audit-reports/2009/oig09044.pdf, accessed 1/8/2010.
      RECORDED TESTIMONY
      Treasury, “Assistant Secretary Allison Written Testimony for Congressional Oversight Panel,” 10/22/2009, www.financialstability.gov/latest/
      tg_10222009.html, accessed 1/8/2010.
      Treasury, “Special Master Feinberg Testimony Before the House Committee on Oversight and Government Reform,” 10/28/2009, www.financialstability.
      gov/latest/tg_10282009.html, accessed 1/8/2010.
      Treasury, “Secretary Timothy F. Geithner Written Testimony House Financial Services Committee,” 10/29/2009, www.financialstability.gov/latest/
      tg_102909.html, accessed 1/8/2010.
      Treasury, “Treasury Secretary Timothy F. Geithner Written Testimony Before the Joint Economic Committee,” 11/19/2009, www.financialstability.gov/
      latest/tg_11192009.html, accessed 1/8/2010.
      Treasury, “Assistant Secretary Herbert Allison Written Testimony, The Private Sector and Government Response to the Mortgage Foreclosure Crisis,”
      12/8/2009, www.financialstability.gov/latest/st_12082009.html, accessed 1/8/2010.
      Treasury, “Secretary of Treasury Timothy F. Geithner Written Testimony Before the Congressional Oversight Panel,” 12/10/2009, www.financialstability.
      gov/latest/st_12102009, accessed 1/8/2010.
      Treasury, “Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and Government Reform
      Committee,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 1/8/2010.
                                                                          KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I january 30, 2010             213




FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
ROLES AND MISSION
FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
• policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
  classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
• the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers
  In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
  suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
OVERSIGHT REPORTS
FSOB, “The Special Master for TARP Executive Compensation Issues First Rulings,” 10/22/2009, www.financialstability.gov/latest/tg_102220009e.
html, accessed 1/8/2010.
FSOB, “The Special Master for TARP Executive Compensation Rules on Compensation Structures for Certain Executive Officers and Most Highly
Compensated Employees 26 - 100,” 12/11/2009, www.financialstability.gov/latest/tg_12112009.html, accessed 1/8/2010.
RECORDED TESTIMONY
None
SECURITIES AND EXCHANGE COMMISSION (SEC)
ROLES AND MISSION
SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
actions to address the extraordinary caused by the current credit crisis:
• aggressively combating fraud and market manipulation through enforcement actions
• taking swift action to stabilize financial markets
• enhancing transparency in financial disclosure
OVERSIGHT REPORTS
SEC, “Semiannual Report to Congress, April 1, 2009 - September 30, 2009,” www.sec-oig.gov/Reports/Semiannual/2009/semifall09.pdf, accessed
1/8/2010.
SEC, “Putting Investors First, 2009 Performance and Accountability Report,” 11/16/2009, www.sec.gov/about/secpar/secpar2009.pdf#2009review,
accessed 1/8/2010.
RECORDED TESTIMONY
SEC, “Testimony Concerning the Over-the-Counter Derivatives Markets Act of 2009,” Henry T. C. Hu, Director of the Division of Risk, Strategy, and
Financial Innovation, Before the House Committee on Financial Services, 10/7/2009, www.sec.gov/news/testimony/2009/ts100709hh.htm, accessed
1/8/2010.
SEC, “Testimony Concerning the Discussion Draft of The Financial Stability Improvement Act of 2009,” Commissioner Elisse B. Walter, Before the
Committee on Agriculture, United States House of Representatives, 11/17/2009, www.sec.gov/news/testimony/2009/ts111709ebw.htm, accessed
1/8/2010.
SEC, “Testimony Concerning Mortgage Fraud, Securities Fraud, and the Financial Meltdown: Prosecuting Those Responsible,” Robert Khuzami, Director,
Division of Enforcement, Before the United States Senate Committee on the Judiciary, 12/9/2009, www.sec.gov/news/testimony/2009/ts120909rk.
htm, accessed 1/8/2010.
SEC, “Testimony Concerning Events Surrounding Bank of America’s Acquisition of Merrill Lynch,” Robert Khuzami, Director, Division of Enforcement,
Before the House Oversight and Government Reform Committee and Domestic Policy Subcommittee, 12/11/2009, www.sec.gov/news/
testimony/2009/ts121109rk.htm, accessed 1/8/2010.
214            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I january 30, 2010




      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION
      GAO is tasked with performing ongoing oversight of TARP’s performance, including:
      • evaluating the characteristics of asset purchases and the disposition of assets acquired
      • assessing TARP’s efficiency in using the funds
      • evaluating compliance with applicable laws and regulations
      • assessing the efficiency of contracting procedures
      • auditing TARP’s annual financial statements and internal controls
      • submitting reports to Congress at least every 60 days
      OVERSIGHT REPORTS
      GAO, “Troubled Asset Relief Program, One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,”
      10/8/2009, www.gao.gov/new.items/d116.pdf, accessed 1/8/2010.
      GAO, “Troubled Asset Relief Program, Continued Stewardship Needed as Treasury Develops Strategies for Monitoring and Divesting Financial Interests in
      Chrysler and GM,” 11/2/2009, www.gao.gov/new.items/d1151.pdf, accessed 1/8/2010.
      GAO, “Financial Audit, Bureau of the Public Debt’s Fiscal Years 2009 and 2008 Schedules of Federal Debt,” 11/10/2009, www.gao.gov/new.items/
      d1088.pdf, accessed 1/8/2010.
      GAO, “Financial Audit, Office of Financial Stability (Troubled Asset Relief Program) Fiscal Year 2009 Financial Statements,” 12/9/2009, www.gao.gov/
      new.items/d1031.pdf, accessed 1/8/2010.
      GAO, “Troubled Asset Relief Program: The U.S. Government Role as Shareholder in AIG, Citigroup, Chrysler, and General Motors and Preliminary Views
      on its Investment Management Activities,” 12/16/2009, www.gao.gov/new.items/d10325t.pdf, accessed 1/8/2010.
      RECORDED TESTIMONY
      GAO, “Troubled Asset Relief Program, The U.S. Government Role as Shareholder in AIG, Citigroup, Chrysler, and General Motors and Preliminary Views
      on its Investment Management Activities,” Orice Williams Brown, Director, Financial Market & Community Investment and Nicole Clowers, Acting Director,
      Physical Infrastructure, Testimony Before the Subcommittee on Domestic Policy, Committee on Oversight and Government Reform, House of Representa-
      tives, 12/16/2009, www.gao.gov/new.items/d10325t.pdf, accessed 1/8/2010.
      GAO, “Fannie Mae and Freddie Mac, Analysis of Options for Revising the Housing Enterprises’ Long-term Structures,” William B. Shear, Director, Financial
      Markets and Community Investment, Testimony Before the Committee on Banking, Housing, and Urban Affairs, U.S. Senate, 10/8/2009,
      www.gao.gov/new.items/d1144t.pdf, accessed 1/8/2010.
      GAO, “First-Time Homebuyers Tax Credit, Taxpayers’ Use of the Credit and Implementation and Compliance Challenges,” James R. White, Director, Testi-
      mony Before the Subcommittee on Oversight, Committee on Ways and Means, House of Representatives, 10/22/2009,
      www.gao.gov/new.items/d1166t.pdf, accessed 1/8/2010.
                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I january 30, 2010          215




  Congressional oversight panel (cop)
  ROLES AND MISSION
  COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
  is required to produce the following reports to Congress:
  • regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
    markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximiza-
    tion of benefits for taxpayers
  • a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effec-
    tiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improve-
    ment regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the
    regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
  OVERSIGHT REPORTS
  COP, “An Assessment of Foreclosure Mitigation Efforts After Six Months,” 10/9/2009, http://cop.senate.gov/reports/library/report-100909-cop.
  cfm, accessed on 1/8/2010.
  COP, “Guarantees and Contingent Payments in TARP and Related Programs,” 11/6/2009, http://cop.senate.gov/reports/library/report-110609-cop.
  cfm, accessed on 1/8/2010.
  COP, “Taking Stock: What Has the Troubled Asset Relief Program Achieved?,” 12/9/2009, http://cop.senate.gov/reports/library/report-120909-
  cop.cfm, accessed on 1/8/2010.
  RECORDED TESTIMONY
  COP, “COP Hearing with Assistant Treasury Secretary Herb Allison,” 10/22/2009, http://cop.senate.gov/hearings/library/hearing-102209-allison.
  cfm, accessed 1/8/2010.
  COP, “Taking Stock: Independent Views on TARP’s Effectiveness,” 11/19/2009, http://cop.senate.gov/hearings/library/hearing-111909-
  economists.cfm, accessed 1/8/2010.
  COP, “COP Hearing with Treasury Secretary Timothy Geithner,” 12/10/2009, http://cop.senate.gov/hearings/library/hearing-1201009-geithner.cfm,
  accessed 1/8/2010.
  OFFICE OF MANAGEMENT AND BUDGET (OMB)
  ROLES AND MISSION
  OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Ex-
  ecutive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and
  procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony,
  and proposed legislation are consistent with the President’s Budget and with Administration policies.

  In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
  these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
  to reduce any unnecessary burdens on the public.
  OVERSIGHT REPORTS
  None
  RECORDED TESTIMONY
  None
CONGRESSIONAL BUDGET OFFICE (CBO)
ROLES AND MISSION
CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
of programs covered by the federal budget, and the information and estimates required for the Congressional budget process.

CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None
216            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I january 30, 2010




      FEDERAL RESERVE BOARD (Federal Reserve)
      ROLES AND MISSION
      Federal Reserve’s duties fall into four general areas:
      • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
        prices, and moderate long-term interest rates
      • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
        credit rights of consumers
      • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
      • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
        the nation’s payments system
      OVERSIGHT REPORTS
      Federal Reserve Office of Inspector General, “Semiannual Report to Congress, April 1 - September 30, 2009,” 10/29/2009, www.federalreserve.gov/
      oig/files/SAR_April_1_2009_September_30_2009.pdf, accessed 1/8/2010.
      RECORDED TESTIMONY
      Federal Reserve, “State of the Banking Industry,” Governor Daniel K. Tarullo, Before the Subcommittee on Financial Institutions, Committee on Banking,
      Housing, and Urban Affairs, U.S. Senate, 10/14/2009, http://federalreserve.gov/newsevents/testimony/tarullo2009114a.htm, accessed 1/8/2010.
      Federal Reserve, “Residential and Commercial Real Estate,” Jon D. Greenlee, Associate Director, Division of Banking Supervision and Regulation, Before
      the Subcommittee on Domestic Policy, Committee on Oversight and Government Reform, U.S. House of Representatives, Atlanta, Georgia, 11/2/2009,
      http://federalreserve.gov/newsevents/testimony/greenlee20091102a.htm, accessed 1/8/2010.
      Federal Reserve, “Small Business Lending,” Jon D. Greenlee, Associate Director, Division of Banking Supervision and Regulation, Before the
      Subcommittee on Oversight and Investigations, Committee on Financial Services, U.S. House of Representatives, Southfield, Michigan, 11/30/2009,
      http://federalreserve.gov/newsevents/testimony/greenlee20091130a.htm, accessed 1/8/2010.
      FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
      ROLES AND MISSION
      FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring depos-
      its, examining and supervising financial institutions, and managing receiverships.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      FDIC, “Examining the State of the Banking Industry,” Statement of Sheila C. Bair, Chairman, Federal Deposit Insurance Corporation, Before the
      Subcommittee on Financial Institutions, Committee on Banking, Housing and Urban Affairs, U.S. Senate, 10/14/2009, www.fdic.gov/news/news/
      speeches/archives/2009/spoct1409.html, accessed 1/8/2010.
      FDIC, Statement on “Too Big to Fail: The Role of Bankruptcy and Antitrust Law in Financial Regulation Reform,” Statement of Michael Krimminger, Special
      Advisor for Policy, Federal Deposit Insurance Corporation, Before the Committee on the Judiciary; Subcommittee on Commercial and Administrative Law;
      U.S. House of Representatives, 10/22/2009, www.fdic.gov/news/news/speeches/archives/2009/spoct2209.html, accessed 1/8/2010.
      FDIC, “The Private Sector and Government Response to the Mortgage Foreclosure Crisis,” Statement of Michael H. Krimminger, Special Advisor for
      Policy, Office of the Chairman; Federal Deposit Insurance Corporation, Before the Committee of Financial Services, U.S. House of Representatives,
      12/8/2009, www.fdic.gov/news/news/speeches/archives/2009/spdec0809.html, accessed 1/8/2010.
      FDIC, “Bank of America Acquisition of Merrill Lynch,” Statement of Sheila C. Bair, Chairman, Federal Deposit Insurance Corporation, Before the
      Committee on Oversight and Government Reform and the Subcommittee on Domestic Policy; House of Representatives, 12/11/2009, www.fdic.gov/
      news/news/speeches/archives/2009/spdec1109.html, accessed 1/8/2010.
        FEDERAL DEPOSIT INSURANCE CORPORATION office of the inspector general (FDIC OIG)
        ROLES AND MISSION
        The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
        waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
        OVERSIGHT REPORTS
        None
        RECORDED TESTIMONY
        None
                                                                                         KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I january 30, 2010                            217




 SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
 ROLES AND MISSION
 Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations
 of the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”). SIGTARP’s goal is to promote economic stability by
 assiduously protecting the interests of those who fund the TARP programs ­— i.e., the American taxpayers. This is achieved by facilitating transparency
 in TARP programs, providing effective oversight in coordination with other relevant oversight bodies, and through robust criminal and civil enforcement
 against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
 OVERSIGHT REPORTS
 SIGTARP, “Emergency Capital Injections Provided to Support the Viability of Bank of America, Other Major Banks, and the U.S. Financial System,”
 10/5/2009, www.sigtarp.gov/reports/audit/2009/Emergency_Capital_Injections_Provided_to_Support_the_Viability_of_Bank_of_America..._100509.
 pdf, accessed 1/8/2010.
 SIGTARP, “Extent of Federal Agencies’ Oversight of AIG Compensation Varied, and Important Challenges Remain,” 10/14/2009, www.sigtarp.gov/
 reports/audit/2009/Extent_of_Federal_Agencies’_Oversight_of_AIG_Compensation_Varied_and_Important_Challenges_Remain_10_14_09.pdf,
 accessed 1/8/2010.
 SIGTARP, “Quarterly Report to Congress Additional Appendices F&G,” 10/21/2009, www.sigtarp.gov/reports/congress/2009/October2009_Quarterly_
 Report_to_Congress_Appendices.pdf, accessed 1/8/2010.
 SIGTARP, “Quarterly Report to Congress,” 10/21/2009, www.sigtarp.gov/reports/congress/2009/October2009_Quarterly_Report_to_Congress.pdf,
 accessed 1/8/2010.
 SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_
 Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/8/2010.
 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_Insight_on_
 Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 1/8/2010.
 RECORDED TESTIMONY
 SIGTARP, “AIG Bonuses: Report of the Special Inspector General,” 10/14/2009, www.oversight.house.gov/index.php?option=com_content&task=view&i
 d=4618&itemid=2, accessed 1/8/2010.

Note: Italics style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treas.gov, accessed 1/8/2010; FSOB, www.treas.gov, accessed 1/8/2010; SEC, www.sec.gov, accessed 1/8/2010; GAO, www.gao.gov, accessed 1/8/2010; COP, www.cop.
senate.gov, accessed 1/8/2010; OMB, www.whitehouse.gov, accessed 1/8/2010; CBO, www.cbo.gov, accessed 1/8/2010; Federal Reserve Board, www.federalreserve.gov, accessed 1/8/2010; FDIC,
www.fdic.gov, accessed 1/8/2010; FDIC OIG, www.fdicoig.gov, accessed 1/8/2010.	
		
		
		
		
218           Appendix G I correspondence I january 30, 2010




      correspondence
      This appendix provides a copy of the following correspondence:

      Correspondence
      Date            From                To                   Regarding
      11/5/2009       SIGTARP             Treasury             Constitutionality of Special Master
      1/28/2010       Treasury            SIGTARP              Response to SIGTARP Quarterly Report
correspondence I Appendix G I january 30, 2010   219
220   Appendix G I correspondence I january 30, 2010
                                                                                                                                                    organizational chart I Appendix H I january 30, 2010                     221




organizational chart

                                                                                            Special Inspector General
                                                                                                  Neil Barofsky


                                                                                                  Deputy Special
                                                                                                Inspector General
                                                                                                 Kevin Puvalowski

                                                          Chief of Staff                                                                       Chief Counsel
                                                         Christy Romero                                                                        Bryan Saddler




                                                           Deputy Chief                                            Communications                                     Director of
                                                             of Staff                                                 Director                                    Congressional Affairs
                                                            Cathy Alix                                                Kristine Belisle                                 Lori Hayman




                         Deputy SIG–                                                               Deputy SIG–                                                              Deputy SIG–
                        Investigations                                                                Audit                                                                 Operations
                       Chris Sharpley                                                               Kurt Hyde                                                             Dr. Eileen Ennis




 Chief Investigative     Special Agent
                                                Desk Officer -- SSA        Associate Director    Associate Director       Associate Director         Principal ADSIG         ADSIG -- HR     ADSIG -- CIO   ADSIG -- CFO
      Counsel              in Charge
                                                      Paul Conlon            Mike Kennedy            Mark Little              Jim Shafer              Lynn Perkoski        Deborah Mason     AJ Germek      Deborah Mathis
  Richard Rosenfeld       Scott Rebein

                                                 Hotline Supervisor
  Attorney Advisors       Investigators                                         Auditors              Auditors                  Auditors
                                                  Minh-Tu Nguyen


                                                       Analysts




Note: SIGTARP organizational chart as of 1/25/2010.
                        SIGTARP: Quarterly Report to Congress | January 30, 2010
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-10-01
                         Q1
                        2010
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               January 30, 2010
www.SIGTARP.gov
